<html>
<title> - ALLEGATIONS OF SEXUAL ASSAULT AT THE U.S. AIR FORCE ACADEMY</title>
<body><pre>[Senate Hearing 108-652]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 108-652
 
      ALLEGATIONS OF SEXUAL ASSAULT AT THE U.S. AIR FORCE ACADEMY

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               ----------                              

                    MARCH 31; SEPTEMBER 24, 30, 2003

                               ----------                              

         Printed for the use of the Committee on Armed Services


      ALLEGATIONS OF SEXUAL ASSAULT AT THE U.S. AIR FORCE ACADEMY


                                                        S. Hrg. 108-652

      ALLEGATIONS OF SEXUAL ASSAULT AT THE U.S. AIR FORCE ACADEMY

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                    MARCH 31; SEPTEMBER 24, 30, 2003

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
89-536 PDF                 WASHINGTON DC:  2004
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

The U.S. Air Force Investigation into Allegations of Sexual Assault at 
                       the U.S. Air Force Academy

                             march 31, 2003

                                                                   Page

Roche, Hon. James G., Secretary of the Air Force; Accompanied by 
  Hon. Mary Walker, General Counsel, United States Air Force.....    12
Jumper, Gen. John P., Chief of Staff, United States Air Force....    16

  Report of the Panel to Review Sexual Misconduct Allegations at the 
                    United States Air Force Academy

                           september 24, 2003

Fowler, Hon. Tillie K., Chairman, The Panel to Review Sexual 
  Misconduct Allegations at the United States Air Force Academy; 
  Accompanied by Panel Members: Lt. Gen. Josiah Bunting III, USA 
  [Ret.], Anita M. Carpenter; Laura L. Miller, Ph.D.; Maj. Gen. 
  Michael J. Nardotti, Jr., USA [Ret.]; Col. John W. Ripley, USMC 
  [Ret.]; and Sally L. Satel, M.D................................    65

Investigations into Allegations of Sexual Assault at the United States 
                           Air Force Academy

                           september 30, 2003

Roche, Hon. James G., Secretary of the Air Force.................   265
Jumper, Gen. John P., USAF, Chief of Staff, United States Air 
  Force..........................................................   274
Walker, Hon. Mary L., General Counsel, Department of the Air 
  Force..........................................................   276

                                 (iii)


THE U.S. AIR FORCE INVESTIGATION INTO ALLEGATIONS OF SEXUAL ASSAULT AT 
         THE U.S. AIR FORCE ACADEMY AND RELATED RECOMMENDATIONS

                              ----------                              


                         MONDAY, MARCH 31, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 4:05 p.m., in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Allard, 
Collins, Chambliss, Levin, Reed, Dayton, Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Cindy Pearson, assistant chief clerk and security 
manager.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Gregory T. Kiley, professional staff 
member; Patricia L. Lewis, professional staff member; Scott W. 
Stucky, general counsel; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Gerald J. Leeling, minority counsel; 
and Peter K. Levine, minority counsel.
    Staff assistants present: Michael N. Berger; Jennifer Key; 
and Nicholas W. West.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; Douglas Flanders and Jayson Roehl, 
assistants to Senator Allard; James P. Dohoney, Jr., assistant 
to Senator Collins; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Elizabeth King, assistant to Senator Reed; William 
Todd Houchins, assistant to Senator Dayton; Andrew Shapiro, 
assistant to Senator Clinton; and Andy York, assistant to 
Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good afternoon, gentlemen. We welcome our 
witnesses today.
    Given the importance of this hearing, the Chair offers to 
all Senators present an opportunity to make an opening 
statement. I will proceed with mine to be followed by Senator 
Levin, and then other colleagues.
    We meet today to receive testimony on the U.S. Air Force 
investigation into allegations of sexual assault at the Air 
Force Academy and related recommendations, which I understand 
the Secretary and the Chief of Staff are prepared to share with 
the committee in open session today.
    I want to start by recognizing the contribution by our 
colleague, Senator Allard. He has done noble effort in this 
case, bringing to the attention of the Senate and, indeed, the 
Department of Defense, the serious and disturbing allegations 
at the United States Air Force Academy. Since January of this 
year, Senator Allard and his staff have provided an open line 
of communication for young women, present and former cadets at 
the Academy, and their families, to bring information forward 
on this incident, series of incidents. He has also ensured that 
the investigative efforts underway, both Air Force and 
Department of Defense Inspector General (DODIG), will be fully 
responsive to these concerns.
    Throughout the proceedings, I have joined with Senator 
Allard in sending a number of letters to the Department of 
Defense and in meeting with Pentagon officials, indeed the 
Secretary and the Chief of Staff on a number of occasions.
    So I compliment you, Senator, for your work in this matter 
thus far and your continued interest.
    On being informed by Senator Allard some 8 weeks ago of the 
allegations of sexual assault at the Air Force Academy, 
Secretary Roche then assembled a team of investigators, led by 
the Air Force General Counsel, to review the Air Force 
Academy's command climate and pertinent policies and procedures 
regarding the handling of sexual assault cases. The Air Force 
IG and also the DODIG were asked to review individual cases and 
conduct interviews and fact finding.
    I believe that Secretary Roche and General Jumper reacted 
very quickly to the expressions of congressional concern they 
received and they have made, and are making determined efforts 
to obtain all relevant information and to provide this 
committee and Congress as a whole with their current 
recommendations as to how to prevent a reoccurrence of these 
allegations in the future.
    We were, as a committee, promised a complete report on the 
Air Force General Counsel's investigation by today, 31 March. 
We are now informed it will be forthcoming shortly.
    In early February, I contacted Charlie Abell, the Deputy 
Under Secretary of Defense for Personnel and Readiness, and 
asked that he monitor the progress of the Air Force 
investigation and ensure the U.S. Military Academy and U.S. 
Naval Academy policies and historical data were also evaluated; 
in other words, all three academies. That is predicated on my 
own experience when in the Department of Defense. If we had a 
problem at one academy, we shared it with the Secretaries of 
the other military departments and the Chiefs of Staff. Then 
that way we worked to ensure that there was no spreading of the 
problem elsewhere, the sharing of the benefit, if there are any 
to be derived, from these incidents to preclude it in the 
future at all three academies.
    Additionally, Senator Allard and I, along with Senator 
Collins, in her capacity as Chair of the Governmental Affairs 
Committee, contacted Joseph Schmitz, the Department of Defense 
Inspector General, requesting that he participate in the 
investigation and ensure an independent review of the Air Force 
efforts.
    I have been pleased, Secretary Roche, with your response to 
these initiatives, and your cooperation with OSD and the DODIG 
in ensuring a complete and thorough investigation.
    Based on the facts received to date by the members of this 
committee, there appears to be an attitude towards women cadets 
by successive commanders at the Air Force Academy, which 
attitude fails to recognize fairly and properly allegations and 
concerns which in good faith were repeatedly brought to the 
attention of the various officers in charge by female cadets.
    Some facts give rise to the conclusion that a climate 
existed that was actually hostile to female cadets. Some facts 
provide a basis to support a conclusion that the promise of a 
safe and secure living and working environment for female 
cadets and, in some instances, female visitors to the Academy, 
was undermined.
    The seriousness of this case is a direct result of how long 
this climate of inaction has persisted. Following the abuses of 
the Navy Tailhook Association Symposium in 1991, following the 
sexual abuse of female recruits at the Army's base at Aberdeen 
in 1996, following determined efforts by DOD and all Services 
to correct these problems, there is a legitimate question as to 
why the leadership of the Air Force Academy allowed these 
situations to persist, given that background.
    Approximately 8 years ago, in 1995, Department of the Air 
Force leadership did recognize the potential for problems with 
regard to sexual harassment and sent the following message to 
all Air Force commands--this was by the Secretary--``Any 
conduct, in any unit, which creates a disadvantage based on 
race, ethnicity, or gender will not be tolerated. Malicious or 
inappropriate behavior as well as different training standards 
cannot be permitted. Any indications that such behavior is 
occurring within a unit will prompt an immediate investigation. 
Those responsible for such action as well as commanders who 
fail to correct these problems will be held accountable.''
    The question before this committee, the question before the 
American public, is why this message was not heeded by 
subsequent leaders at the Air Force Academy? Every Member of 
Congress, all 535, are proud to work diligently in encouraging 
young women to seek nominations to the Air Force Academy. The 
concerns in Congress are not just before the oversight 
committees, such as this one, but in the minds and the hearts 
of every single member of the United States Congress.
    While we await the outcome of investigations into these 
allegations of alleged criminal behavior, we also await the 
Department of the Air Force actions with respect to 
accountability for those who have failed in command and allowed 
an environment in which such behavior was tolerated.
    I repeat the last sentence of the 1995 message from the 
former Secretary of the Air Force and former Chief of Staff of 
the Air Force in their message, ``Those responsible for such 
action as well as commanders who fail to correct these problems 
will be held accountable.''
    I draw the attention of our witnesses, Secretary Roche, the 
Chief, to the quote in your press release of just a few days 
ago, March 26, and I quote it, ``As the problems regarding 
sexual assault allegations predate the current leadership, we 
do not hold Generals Dallager or Gilbert responsible.''
    I pose two questions: Is this quote consistent with the Air 
Force message of 1995? How could Department of the Air Force 
leadership have reached this conclusion here on March 26th 
prior to the completion of any of the three ongoing 
investigations?
    In a press conference last week, Secretary Roche, you 
likened your actions in removing four senior officers at the 
Academy to a corporation merely bringing in its own leadership 
team. With all due respect, sir, the Air Force is not a 
corporation, and what is at issue here are time-honored 
principles of military leadership and accountability, and 
whether or not they were applied.
    These principles demand a deliberate, critical examination, 
and an appropriate measure of accountability, when a command 
fails in some key aspect of its mission, particularly when 
personnel charged to a commander's care have been harmed. This 
committee and the men and women of the Air Force expect these 
principles to be applied in this case, and for commanders to be 
held accountable for any failures of command.
    Reserving judgment in these matters until the Air Force IG 
and DODIG complete their investigations would have been, in my 
own experience, the more prudent and appropriate course of 
action for the leadership of this department.
    With respect to the response of this committee, more fact 
finding and analysis is necessary in order to determine whether 
the actions taken, or not taken by the Superintendent, 
Commandant, and their subordinates, were in keeping with the 
high, time-honored standards of command.
    In the meantime, our focus today and in the future must 
properly be on changing the culture at the Air Force Academy so 
that the young women currently in the Cadet Wing, and those 
entering the Academy this summer, can be assured that all 
cadets, men and women, will have a safe environment in which to 
pursue their hopes and dreams of becoming Air Force officers.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. First, let me thank 
and commend you and Senator Allard for your continued 
leadership and your strong involvement in the critical issue 
that is before us today.
    Sexual misconduct at the Air Force Academy is tragically 
not a new issue, as our Chairman has pointed out. Following a 
series of reported rapes in 1993, Lieutenant General Brad 
Hosmer, who was then the Superintendent, said, ``We have a 
problem at the Air Force Academy. This problem has existed for 
some time.''
    His comments are very similar to Secretary Roche's public 
comments about the allegations now under investigation. General 
Hosmer attempted to deal with the problem by instituting 
programs to educate cadets on the conduct expected of military 
officers and by changing reporting requirements to encourage 
cadets to report sexual assaults. Despite these measures, the 
Academy received 13 more reports of sexual assault during the 
next 8 months.
    The General Accounting Office issued reports in January 
1994 and March 1995 on sexual harassment at the three Service 
academies. While, of course, sexual harassment includes a lot 
more than sexual assault and rape, the GAO findings are still 
relevant in our consideration of how the Air Force Academy 
deals with allegations of sexual misconduct.
    In the 1994 report, the GAO found ``between half and three 
quarters of Academy women experienced various forms of 
harassment at least twice a month.''
    In the 1995 report, the GAO reported that ``the majority of 
Academy women reported experiencing at least one form of sexual 
harassment on a recurring basis in the academic year 1993 to 
1994.''
    Data contained in the 1994 report shows that between 1988 
and 1993, cadets at the Air Force Academy reported 41 incidents 
of sexual misconduct. During the same timeframe, midshipmen at 
the Naval Academy reported 26 incidents, and cadets at the 
Military Academy reported 40 incidents. Now, a decade after 
General Hosmer acknowledged a sexual misconduct problem at the 
Air Force Academy, we learn that there were at least 54 reports 
of sexual assault or rape at the Air Force Academy during the 
last 10 years. We have also learned that during the last 5 
years, the United States Military Academies received 5 reports 
of rape and 13 reports of other sexual assault; and during the 
last 3 years, the Naval Academy has received 12 reports of 
sexual assault and/or rape.
    It is incredible that the pattern persists of victims of 
assaults being discouraged from reporting the incidents, that 
their complaints were not fully investigated, they were 
ostracized by other cadets, and that they, the victims, were 
punished by the Academy for infractions brought to light only 
because they reported that they had been assaulted.
    I join in the Chairman's questions about a commander's 
accountability. I think these are extremely significant 
questions and go to the heart of the matter.
    I will have a number of questions that I will raise with 
the witnesses regarding that issue of commanders' 
accountability.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I think it is 
pretty obvious that your statement and that of Senator Levin 
are very important here, because people are held accountable in 
the military and other aspects of life. When they are not held 
accountable, then obviously those who are supposed to be 
holding them accountable are not doing their job.
    Secretary Roche gave a press conference recently that had 
some of the most incredible evasions of responsibility that I 
have seen in more than 40 years of being involved in the 
military and in oversight of the military as a member of this 
committee:

          Mickey Anderson with the L.A. Times: ``Have you in 
        any way reprimanded or disciplined at all the leaders 
        who were not honorable? What do you say to the critics 
        who say you are going too easy on these people? You 
        just said a second ago that these people may have been 
        responsible.''
          Secretary Roche: ``The current group cannot be 
        responsible for everything that occurred in a 10-year 
        period and certainly over a period longer than 10 
        years. To hold someone accountable means that there are 
        two sides to a story, and they have a side as well. We 
        have looked at it. We know that under the 
        circumstances, they might not have been more--they 
        might have been more clairvoyant. They may have been 
        sharper. There may have been a survey they should have 
        acted on. But to hold them accountable per se with what 
        we now know, no.''
          Question: ``And you are continuing to leave some of 
        these people in leadership capacities, their new jobs 
        involve leadership, so I presume you trust them.''
          Secretary Roche: ``First of all, there is no reason 
        not to trust them. One is retiring. One is coming to be 
        a special assistant here. I am not sure of where the 
        other two--but one of the four nobody has accused of 
        anything. As a matter of fact, he is well liked. But, 
        you are trying to get back to a couple of people saying 
        they are the whole problem. They are not the problem. 
        Let us remember cadets commit assaults against 
        cadets.''

    One of the more remarkable statements I have ever heard, 
Mr. Chairman, in my more than 40 years of involvement with the 
military. It is abundantly clear that the Secretary of the Air 
Force has been--he has proved himself totally incapable of 
handling this issue.
    In 1993, Mr. Chairman, there was a problem at the Naval 
Academy. We appointed an outside committee. That was appointed 
with nine outside civilians that were appointed by the Board of 
Visitors, and the Secretary of the Navy and examined the honor 
concept.
    According to former superintendents, this critical report 
has had an everlasting and positive effect. It is clear now 
that since there has been no assignment of responsibility 
except for ``cadets commit assaults against cadets'' that we 
need an outside board to investigate and to recommend whatever 
remedial action needs to be taken. The Secretary of the Air 
Force is either unable or unwilling to address this issue, and 
that is abundantly clear.
    I thank you, Mr. Chairman.
    Chairman Warner. Senator McCain, was that board appointed 
by the then Secretary of the Navy?
    Senator McCain. The Board of Visitors and the Secretary of 
the Navy.
    Chairman Warner. All right.
    Senator McCain. This would have to be done by the Secretary 
of Defense clearly, since the Secretary of the Air Force has, 
as I say, rendered himself incapable.
    Chairman Warner. Then that board reported back--my 
recollection is we brought in Admiral Larson.
    Senator McCain. Yes, sir, we did.
    Chairman Warner. He did a wonderful job of straightening 
that problem out.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. This is a very 
serious issue, and I think everyone is treating it with the 
seriousness and the severity it deserves because it is not just 
about the conduct of cadets, but it is the lessons that they 
take into the Air Force, or the Army, or the Navy.
    We were briefed by the Secretary and the Chief of Staff 
about steps that they are taking. I suspect they will allude to 
those steps today, but I just want to underscore the 
seriousness of this issue that goes way beyond the boundaries 
of just Colorado Springs. It goes to the nature of the leaders 
of the Air Force, and I would say also the other Services, 
because as Senator Levin pointed out, there are situations that 
arise on other campuses.
    Thank you, Mr. Chairman.
    Chairman Warner. We thank you for your comments because we 
view you, as one of the members of our committee, again, as 
Senator McCain, a graduate of the Naval Academy, you are a 
graduate of West Point, so your views hold a lot of merit, as 
do those of Senator McCain.
    Senator Allard, we commend you as a committee on the steps 
you have taken in this matter thus far.
    Senator Allard. Thank you, Mr. Chairman. I just would say, 
your leadership from the beginning of this crisis has been 
exemplary. Over the last 3 months, you have worked closely with 
me and Senator Collins and others to address the very serious 
problems at the Academy. Your interest and attention to this 
matter have made a difference.
    I appreciate the willingness of Secretary Roche and General 
Jumper to appear before us today, particularly during this 
difficult time. The U.S. Air Force has performed brilliantly 
over the skies of Iraq. Thanks to the outstanding work of our 
airmen, we now have near total air supremacy. I also want to 
commend our personnel at Air Force Space Command. They play a 
major role in our current military operations.
    Our forces on the ground know that they can count on their 
colleagues in the air and space to provide them with the 
support they need when they need it. This remarkable 
achievement is a testament to the Air Force's rigorous training 
and superb leadership. Our Air Force personnel are top-notch, 
the best in the world, and have proven time and time again that 
they are capable of conducting tough missions over unfriendly 
skies.
    The U.S. Air Force Academy plays a critical role in 
sustaining and building upon this excellent cadre of personnel. 
The Academy's core values of ``Integrity First, Service Before 
Self, and Excellence in All We Do'' have built character and a 
respect for human dignity in each cadet. The school's honor 
code has helped transform incoming students into highly 
skilled, professional officers capable of leading dozens of 
enlisted servicemen and non-commissioned officers.
    Since its first graduating class in 1959, the Academy has 
produced thousands of Air Force officers, including over 200 
that have become general officers, who have served our country 
with honor and distinction. The school's contribution to our 
country's security is impossible to measure.
    I believe so strongly in the mission of the Air Force 
Academy that at every opportunity, I recommend it to high 
school students around the State of Colorado, as do my 
colleagues on this committee who are equally supportive of the 
Academy.
    The Academy is built on honor and character, and is seen as 
a critical national asset. The allegations of sexual assault 
and rape at the Academy tarnish the school's reputation and 
reflect poorly on the officers it produces. This crisis goes 
straight to the core values of the institution.
    Let us be honest: This has been a catastrophic failure of 
leadership and process. We must learn from these mistakes and 
strive never to repeat them. We must work together to address 
the current climate of fear at the Academy in a manner that is 
deliberate and unambiguous.
    Since last December, over 40 current and former cadets who 
were allegedly sexually assaulted or raped have approached me 
and my staff. Some of these cadets say they were punished for 
drinking or for having sex in the dormitories after reporting 
sexual assault or rape to Academy officials. Others report that 
key evidence, such as rape kits and investigative reports, was 
lost by the Academy's investigative unit. Most troubling of all 
has been the Air Force's refusal to provide confidentiality to 
those who wish to come forward.
    I am saddened to report that only 2 of the over 40 cadets 
that have approached my office have expressed a willingness to 
discuss their case with the Air Force. Many believe that the 
Air Force will punish or blackball them should they come 
forward. Clearly, a climate of distrust is making the process 
of addressing the problems at the Academy more difficult. A 
credibility gap now exists that may take months, even years, to 
bridge.
    The lack of trust between the Air Force and its cadet corps 
highlights the importance of the investigation by the 
Department of Defense Inspector General (DODIG). The DODIG is 
seen as an impartial investigator that is willing to listen to 
the concerns of cadets that were allegedly sexually assaulted 
or raped. Many of the cadets that have approached my office 
seem to be willing to discuss their case with the DODIG. It is 
my hope and expectation that the DODIG will quickly seize upon 
this opportunity. It is also imperative that the Air Force 
cooperate with the DODIG as well.
    I appreciate the way Secretary Roche and General Jumper 
have approached these allegations. They were quick to recognize 
the severity of the problems at the Academy and immediately 
ordered a high-profile investigation. I and many of my 
colleagues will be very interested in reviewing the results of 
this investigation once it is completed.
    Secretary Roche and General Jumper also recently announced 
several actions that will hopefully bring the process of 
addressing the cultural problems at the Academy. Replacing the 
Academy's current leadership will be key to ensuring that these 
new measures would be implemented without distraction.
    The lack of attention paid by the Academy's leadership to 
the annual cadet climate surveys, which were recently provided 
to my office, was particularly inexcusable. Each of these 
annual surveys, going back to 1998, clearly indicates a 
pervasive problem with sexual assaults at the Academy.
    Mr. Chairman, I want to let you know that I plan to offer 
legislative language that will require the Secretary of the Air 
Force to report to this committee for the next 5 years on the 
number of reported sexual assaults and rapes, the number of 
prosecuted cases, and actions taken by the Air Force to address 
these sexual assaults and rapes. I believe it is imperative 
that we closely monitor this situation over the next several 
years.
    Again, I thank our witnesses, and I look forward to their 
testimony and to the question and answer period.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator. That language would be 
considered in the course of the annual authorization.
    Senator Allard. I hope to bring it forward at that time. 
Thank you.
    Chairman Warner. All right. Thank you very much.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. I want to thank 
you, Mr. Chairman, for bringing this hearing to the public 
arena so rapidly and also for your leadership in getting us 
right through this regardless of where it leads. Thank you very 
much.
    Senator Allard, also, who is the spirit of this, along with 
you, I commend you also for your leadership.
    I think, Mr. Chairman, you and the ranking member, Senator 
Levin, and Senator McCain, and others who have spoken here have 
covered many of these areas very well. I would just say 
briefly, I think Senator Allard said it is a tragic 
juxtaposition that we have right now a war in which we are 
seeing the best of the Air Force and its courageous pilots and 
others involved in that effort, and now we are dealing with 
this matter which really, I think, is the worst of the Academy.
    I have been also involved in nominating two women who have 
been admitted to the Academy, and I feel very personally 
responsible and alarmed even though--and I do not know their 
outcomes--but to think that we are nominating or sending young 
women to the Academy to go through these kinds of experiences 
and humiliations and then have their lives, if not their 
careers, seriously impaired is, just to me, abhorrent. The fact 
that it has gone on so long without any attention at the very 
top--and I recognize that this preceded your arrival there--but 
is just to me just shocking, and the Armed Forces have set in 
the past very high standards for America's young men and women.
    Its acceptance of all Americans into the Academy, into its 
ranks, they have played a very crucial role in integrating 
these men and women into American society and in the past in 
its acceptance and integration of racial minorities and others. 
It has set the lead for our society in these important 
respects. In this case, it is clearly not only lagging the 
country, but it is proceeding in exactly the wrong direction.
    The number of incidents that have occurred in the last 8 or 
10 years, the fact that none were reported for the previous 20 
years since women were admitted to the Academy, indicates to me 
that this is probably the tip of the iceberg in terms of what 
has transpired there over these years.
    The victims have been punished, and the perpetrators in 
many cases have been promoted, which is sending exactly the 
wrong message and creating an ethic which is antithetical to 
the values of this society, which the Air Force is tasked to 
defend and which it has done so courageously in the past, and 
is doing so today.
    I would say that the change in leadership is a necessary 
beginning, but this will not be completed until there have been 
fundamental changes made in the structure of the Academy and 
the content of its activities and its life and until the 
victims, to the extent possible, every one of them, have had 
their situations, their careers, if they are still in the Air 
Force, remedied and that they have not been sanctioned in ways 
that have lasting effects on their careers; and if they have 
left the Service, an effort has been made to remediate their 
situations, and ensure the violators have been punished.
    I would--reflective of what I have also read in some of the 
views that are under--still current even as regards this 
inquiry and these actions that have been taken, I would support 
what Senator McCain said about the need for an outside 
investigation. I do not believe that it is possible that this 
will be completed to my satisfaction, if it is just an inside 
inquisition.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator. I, likewise, am going 
to take to heart Senator McCain's recollection of what 
transpired when both of us were serving on this committee, all 
of us or many of us, several years ago.
    Actually, it was Deputy Secretary of State Armitage who 
headed up that panel.
    Secretary Roche. Headed it up, yes, sir.
    Chairman Warner. But I think we should take a look and see 
what the IG of the Department of the Air Force, and the IG of 
the Department of Defense conclude. I know that the Deputy 
Under Secretary of Defense, Charlie Abell, is gravely concerned 
about this matter.
    Senator Collins, we thank you for your work on this in your 
capacity as Chairman of the Governmental Affairs Committee. You 
have a special interest in the IG investigations. I commend you 
for your work.
    Senator Collins. Thank you very much, Mr. Chairman. Let me 
thank you and Senator Allard for your leadership in examining 
very closely the response of the Air Force to the many reports 
of sexual assault at the Air Force Academy.
    It has always been one of my proudest honors to nominate 
young men and women to attend our Service academies. I have 
always thought in doing so that I was affording these young men 
and women an extraordinary opportunity to receive an excellent 
education while serving their country. I never dreamed that in 
doing so, I was putting young women at risk for sexual assault. 
That troubles me deeply, and it angers me.
    When I hear Senator Allard talk about year after year the 
cadet climate survey revealing that women had been assaulted, I 
do not understand how that information was ignored. Indeed, in 
1 year, some 167 cadets reported sexual assaults, and the 
response seems to be that in the next year they deleted the 
question. That is very troubling to me.
    It angers me that it has taken a press report to finally 
prompt the Air Force to take action to deal with these 
allegations, after these allegations had surfaced year after 
year in these surveys, as well as in the reports of the young 
cadets themselves.
    Even now, there appears to be a reluctance to hold Academy 
leaders accountable absent congressional pressure to do so. It 
should not take a press expose and congressional hearings to 
force the Air Force to deal with this serious problem. I am 
shocked and appalled that that is apparently what it took to 
focus the attention of the leaders of the Academy and the 
leaders of the Air Force on this problem.
    I do not doubt the sincerity of the Secretary and the 
General when you tell us that you are committed to solving this 
problem, but I do not understand why it has taken years for 
these allegations to be taken seriously and for the climate to 
be changed, and for people to be held accountable. That is why 
I have reached the conclusion that the Air Force no longer has 
the credibility to deal with this issue. I have pressed from 
the beginning for at least an investigation by the Inspector 
General of the Department of Defense as well as congressional 
hearings to delve into this because, based on the evidence I 
have seen, I have lost confidence in the Air Force's ability to 
investigate itself because it should have done so years ago.
    Mr. Chairman, I thank you for holding this hearing and for 
your leadership and the leadership of Senator Allard and many 
others on this committee.
    Chairman Warner. Senator, I know in your own committee you 
will be looking at aspects of this case.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. I do not have 
anything to say other than to echo everything that has been 
said. I agree completely and I look forward to hearing from the 
witnesses today.
    Chairman Warner. Senator Chambliss, you have an equal 
responsibility to us as chairman of the Personnel Subcommittee. 
Ordinarily, these matters originate in your subcommittee and, 
if necessary, come before the full committee. But in this 
instance, we felt it imperative to do it with your concurrence.
    Senator Chambliss. Mr. Chairman, I appreciate that too, 
because it does show the level that this issue has risen to 
from the standpoint of how you and our colleagues are treating 
this issue. You are treating it with all the due seriousness 
with which it needs to be treated.
    I went home this weekend thinking that I would spend 30, 45 
minutes in preparation for this hearing. I took all of the news 
accounts, all the correspondence home with me, and I wound up 
spending several hours reading, re-reading some of it.
    Mr. Secretary and General Jumper, I will have to tell you I 
am just totally--not just appalled at what has been going on 
for apparently about a decade at the Air Force Academy, it is a 
lot more than that. There appears to be an attitude at the Air 
Force Academy that not just condones what has been happening, 
but it just seems like it is part of the accepted life, if you 
believe the accounts. I do not believe everything I read in the 
press. But I know you two gentlemen very well, both of you. I 
know that you would never condone the type of activity that is 
obviously going on out there.
    I am not sure where we need to go with this. You gentlemen 
have jumped on this early, and I know you have some 
recommendations, some things you have already done, some other 
recommendations you are going to make, but I tend to agree with 
Senator McCain that we have to bring in somebody from the 
outside to tell us where we need to go.
    The one other thing, Mr. Chairman, that concerns me is the 
fact that the leaders in the United States Air Force usually 
come from the Academy. If this type of activity has gone on at 
the Academy, and every cadet must know it has been going on, 
and they just have to, then what has been going on in the Air 
Force?
    That really concerns me about where we are. I think that 
this issue may need to be broadened beyond just the Air Force 
Academy, West Point, and Annapolis into some other areas, which 
I will look forward to discussing with you and other members of 
the committee. I thank you.
    Chairman Warner. Thank you very much. We will now hear from 
our witnesses.
    Mr. Secretary.

 STATEMENT OF HON. JAMES G. ROCHE, SECRETARY OF THE AIR FORCE; 
ACCOMPANIED BY HON. MARY WALKER, GENERAL COUNSEL, UNITED STATES 
                           AIR FORCE

    Secretary Roche. Thank you, Mr. Chairman, Senator Levin, 
members of the committee. We appear before you today to report 
on our agenda for change in the United States Air Force Academy 
as a result of complaints regarding incidents of sexual assault 
there and our response to those complaints.
    Mr. Chairman, shortly after I became the Secretary and 
General Jumper became the Chief, we started to spend more and 
more of our time looking at the Air Force Academy, including 
issues of recruited athletes, curriculum--we changed the 
curriculum--altered how to recruit athletes, spent a year 
looking at the honor system and had it revised so as to make it 
a more effective system.
    We are appalled at what we have found, and I do not think 
anyone should think that we have not been. We are both appalled 
and embarrassed on behalf of our country for what we have 
found.
    Since January of this year, we have engaged in a 
comprehensive review of the investigative procedures, 
disciplinary processes, and overall climate at the Academy. Our 
focus throughout has been on fulfilling our goals of educating, 
training, and inspiring Air Force leaders of the highest 
character and integrity, ensuring the safety and security of 
every cadet, and enhancing the trust and confidence of the 
American people in the Academy. We also want to make sure we do 
not graduate and commission any criminals who have committed 
crimes while at the Academy. We have said that over and over.
    It is still a superlative institution and has graduated 
many fine officers. We believe that the proportion of the 
Academy in any given class who has been a problem for the other 
cadets is small.
    We also share in the sense of why the larger group of 
cadets did not know more about this and why, in many cases, 
they did not act themselves. We have tried to think through and 
understand why leaders at the Academy, for at least the last 10 
years, but certainly--I agree with Senator Dayton--since this 
goes back many decades, why they came to the views that they 
did.
    We have both read the summaries of each of the cases that 
have come forward and have tried to base our recommendations on 
those. This issue came to us in January as a result of an 
anonymous e-mail.
    Chairman Warner. What total number of cases is that? That 
is an important statement you just made.
    Secretary Roche. We went back only to 1993, sir. That is 
54, 56 if you add two new ones. Senator Dayton is quite 
correct. Up until about 1992, there were none reported, which 
we found to be extraordinary that there would not be a report. 
The issue then blossoms in 1993, and measures at----
    Chairman Warner. ``Blossom'' is not a good word.
    Secretary Roche. Excuse me.
    Chairman Warner. Try again.
    Secretary Roche. The issue comes to light and is more 
explosive when a number of cadets complain, and General Hosmer, 
who was the Superintendent at the time in the Air Force, then 
instituted a number of actions which they believed would 
address this problem.
    We, then, in our investigation pick up from 1993 so as to 
not have any intervening years. In other words, it is not just 
this year or the last year or 2, but we wanted to go back in 
more depth. We were able to contact the author of an e-mail 
that came to us in January that was sent to us, as well as to 
some Members of Congress, including Senator Allard. We asked 
her if she would be willing to come and speak to us. She did, 
and also brought another former cadet as well. What they had to 
tell us raised serious concerns.
    Based on these reports, we chartered a working group in 
January under the leadership of the Air Force General Counsel, 
the Honorable Mary Walker, who is with me today. While the 
preliminary report is available and we can give it to you, Mr. 
Chairman, the completed report should take another 2 weeks, 
while they collate a number of documents they have just 
received and sharpen each of the points.
    In our charter of the team, we asked them to undertake a 
comprehensive review of the Air Force Academy program and 
practices to deter and respond to sexual assault incidents and 
to report their findings with respect to responsiveness, 
effectiveness, and fairness of our current programs.
    Based on the preliminary report, our own personal 
involvement, interaction with people at the Academy and 
elsewhere and former officers, and the need to prepare to 
accept a new class in less than 90 days, we decided to act and 
issue the changes we issued last week. If needed, we have said 
we would issue additional changes.
    Separately, we asked the Air Force Inspector General to 
review any case about which an alleged victim complained or 
about which the first investigative group found something that 
deserved a more in-depth look.
    When the DODIG was asked to join, we had hoped they would 
have taken over all of the cases so as to ensure that there was 
no sense of the Air Force covering anything up. We tried to do 
a climate look very quickly and to get into a much broader 
look, including how faculty deal with students across the 
board, as well as these particular measures. With regard to 
individual cases--since so often these are cases of--that 
cannot go all the way to court-martial, there is insufficient 
evidence; and because there are two sides to the case, we 
wanted to have a very objective look. The DODIG is working with 
the Air Force IG to do a dispassionate, independent look.
    We have benefitted greatly from congressional input, 
especially members of the Air Force Academy Board of Visitors, 
including Senator Allard, and you, Mr. Chairman, have been 
especially helpful in pointing me in various directions as we 
have tried to do this. There have also been members of the 
House who have done it.
    Both General Jumper and I went out to the Air Force Academy 
to make it clear from both of us that we will not tolerate in 
our Air Force, nor in our Academy, those who sexually assault 
others; those who would fail to act to prevent assaults; those 
who fail to report assaults; or those who would shun or harass 
any cadet who has the courage to report incidents of criminal 
behavior.
    The preliminary findings, sir, in the report, which we can 
give you, they include such things as: there are significant 
indications that the primary value among many cadets is loyalty 
to each other, rather than loyalty to values of our Air Force 
and values of our country in many respects. In other words, 
they will protect each other even when they know of instances 
where they should report them.
    There have been repeated indications through cadets, 
faculty, and staff interviews indicating cadet unwillingness to 
report fellow cadets even for criminal behavior including 
sexual assault. Interviews suggest that this loyalty manifests 
itself in a fear of ostracism if they appear to be disloyal to 
the group, and they appear to believe that reporting is 
inconsistent with the culture that says cadets are supposed to 
support one another.
    But we also noted that the processes we use to encourage 
sexual assault reporting, processes implemented in 1993, some 
of them have had the unintended effect of impeding or 
preventing altogether the investigation of reported assaults, 
and remove the process from the chain of command.
    We have verified that prior to the completion of some OSI 
investigations, at least some cadet victims have received 
notice of discipline action for violating cadet regulations, 
where the behavior arose from prohibited activity related to 
assault complaints.
    Now, we do this almost exactly the way the Naval Academy 
has done it. However, it appears to be a much greater problem 
at the Air Force Academy. We believe part of this problem has 
been a poor feedback loop to the victim so that the victim knew 
what was going on. That has come from a misunderstanding of a 
legal position having to do with the protection of privacy of 
the accused that can be easily fixed.
    Our overall sense, and this we are not proud to say, is 
that a female airman first class on an Air Force base has a far 
better support structure if a problem arises, a far better 
process in the chain of command to deal with the problem than a 
female cadet at the Air Force Academy. That needs to be 
changed.
    We have noted that there have been definitional problems. 
The Academy has used a different definition of ``assault'' than 
has been used at our Air Force bases. For instance, there is 
confusion as to the role of alcohol in giving consent, whether 
consent can or cannot be given if someone feels they are 
alcohol impaired. The problem is, under the law, alcohol 
impairment is a range of things, not a blanket zero one. There 
may have been misunderstandings on the part of a number of the 
cadets.
    At the same time, over the course of the last 2\1/2\ 
months, one of the things that has struck General Jumper and me 
is the number of women officers who we know professionally, who 
would stop one or the other of us and say, ``I have never told 
anyone before, but this is what happened to me.''
    It has driven us more than these particular cases, and in 
fact, these go clearly over a very long period of time since a 
number of these officers are now quite senior. We agree that no 
person, no woman should have to undergo some of the things that 
they have had to bear with in order to become an officer in our 
Air Force. That is wrong.
    We have become aware of other aspects of the Academy which 
we believe contribute to the overall climate at the Academy 
that need to be changed. The cadets are learning the wrong 
things about the role of athletics, about the role of sexual 
humor, about the role of what we are teaching male cadets that 
is inimical to their relationships with the female cadets.
    If I may, Mr. Chairman, before turning it over to General 
Jumper, at least make our position clear on the issue of 
replacing the leaders. I believe I have read every or at least 
a summary of every case. I have worked with these officers. One 
has only been there 18, 19 months, and the other has been 
there----
    Chairman Warner. Let us identify them and give them periods 
of time here.
    Secretary Roche. Yes. General Gilbert is in his 19th month 
right now. General Dallager has been there 3 years. General 
Gilbert is the commandant and the officer responsible for 
administering discipline.
    I have spoken with the former Chief of Staff of the Air 
Force. General Gilbert was charged specifically when he went 
out there to deal with disciplinary issues having to do with a 
rather extensive set of complaints and allegations in cases 
involving drugs, and so he has been a tough disciplinarian.
    When I have looked over the cases and looked at both sides 
of the cases--and before asking the Inspector General to look 
to see if there is more that we do not see--and in discussions 
with the General Counsel in the preliminary review and people 
on her team, the sense was that while these officers should be 
replaced, that due process suggests that there is nothing about 
which you can accuse them of the last 18 months, especially the 
last 18 months, that has not been in place for a long time, and 
the fact that they were trying to change.
    Now, they were not putting enough rudder into it, not doing 
enough. We felt that we had to give them very explicit sets of 
directions in order to do more. But it is not that these men 
were callous, Mr. Chairman. It was not that they were not 
trying. In fact, in the cases that came up in the course of 
General Gilbert's tenure of cadet-on-cadet sexual assault, 
there were four. Of those four, three are still open and one 
case was disposed of.
    In many cases, he tried to do things. He tried to take 
cases to court-martial, only to be told by the judge advocates 
that there was insufficient evidence to go to court-martial. 
Whenever he could, if there were administrative reasons to 
discipline a cadet, he did, including having cadets 
disenrolled.
    He also took action against a cadet who had committed an 
off-base crime where the local district attorney would not take 
action. Under the Uniform Code of Military Justice, General 
Gilbert and General Dallager did take the individual to court-
martial. The individual is currently serving time in jail for 
the assault against a civilian female.
    So our sense was that while something may come up, and we 
made it clear later on in that same press conference, that if 
something came up in the Inspector General's look that we could 
not see, we would go back and hold any officer accountable. 
With what we saw, and based on what the General Counsel was 
able to tell us about the investigation to date, there was 
plenty of reason to remove these officers so as to have a fresh 
team of leaders--and it may be that the business analogy was an 
inappropriate one. It was just one that is familiar to me, 
while we need to bring in a new group of officers, due process 
would suggest that we could not hold these officers accountable 
for having failed, given their legal advice and what had 
occurred over a very long period of time. I will be able to 
talk about any of that in detail.
    Chairman Warner. I will return to this during the course of 
the questioning period.
    Secretary Roche. Yes, sir.
    Chairman Warner. Have you completed your statement, Mr. 
Secretary?
    Secretary Roche. Yes, sir.
    Chairman Warner. Chief of Staff.

STATEMENT OF GEN. JOHN P. JUMPER, CHIEF OF STAFF, UNITED STATES 
                           AIR FORCE

    General Jumper. Mr. Chairman, Senator Levin, I want to 
reiterate to both of you, as I have to you and many of the 
distinguished members of the committee here over time, my total 
commitment to ensure to you and to members of the committee and 
to the American people that we will graduate from the United 
States Air Force Academy cadets of character, honor, and 
integrity. We will take whatever actions are necessary to 
correct the climate that has caused any deviation from that 
course.
    As has been said today, the standards of the United States 
Air Force are being demonstrated daily in the skies over Iraq. 
I think that our job is to make sure that those standards exist 
at our United States Air Force Academy.
    Indeed, as the Secretary said, we do have a climate 
problem. We have obviously allowed a climate to evolve at the 
Air Force Academy that prevents alleged victims from coming 
forward and from having their allegations taken seriously. That 
is what we have heard from several alleged victims.
    We are standing by and we are encouraging everyone to come 
forward to give us any information they can possibly give us to 
allow us to get to the bottom of these allegations. We have 
gone to Senator Allard, as he well knows, and he has been very 
helpful on this, to ask him to approach those who have come to 
him and let them come forward.
    Many of these, I think, are no longer on active duty, and 
even the ones that are, there is now a new team in place that 
will receive these allegations in the right spirit and be able 
to deal with them as they are presented with the rights of the 
victims in mind.
    The Secretary and I, as the Secretary said, went out and we 
specifically addressed the cadet wing, the entire cadet wing, 
each of us separately and individually. We talked to the cadet 
wing about their responsibility, to understand their 
responsibility with regard to making sure that no criminals 
graduate from the Air Force Academy and to help us implement 
the new changes that will make sure of that and give them the 
opportunity to help us weed out the criminals among them.
    We have in our recommended changes a group of steps that 
will help us change the conditions that have sometimes 
contributed to an environment where predators might be able to 
take advantage of the opportunities; situations in the 
dormitories in which rules over time did lapse and erode the 
basic dignity that should exist between males and females in 
any situation. How you leave your door open in your room. How 
you room together or separately in the dormitory areas. Things 
like that we can easily correct and it will give each of the 
cadets an opportunity to provide themselves mutual support in 
an environment where some predator might otherwise emerge.
    The changes that we make will allow victims to come forward 
and enter the process at any point, and at any point make sure 
that there are advocates for that victim who will take that 
case seriously. They will ensure that the right sort of trained 
people are present to deal with these, not only the facts of 
the case, but the emotions of the case, which, Mr. Chairman, 
often overwhelm the details and the facts.
    Finally, let me talk to accountability as well. As the 
Secretary said, what we have said publicly, what I have said 
repeatedly in public is that when the accounts are in, when the 
reports are all in, and we assess the details of those reports, 
if there are situations where legitimate victims have come 
forward and they have not been properly heard or they have or 
their allegations have been somehow set aside, or that known 
criminals have been protected in some way, then I can guarantee 
you, Mr. Chairman, that accountability and responsibility would 
be found at the same level.
    I have said this repeatedly, sir, and I repeat it to you 
again today: The Superintendent of the United States Air Force 
Academy reports to the Chief of Staff. No one takes this 
situation more seriously than I do. No one has more at stake as 
far as the reputation of this institution than the Secretary of 
the Air Force and I do.
    Sir, I can guarantee you that I have spared no energy--even 
in the face of this war--nor will I spare any energy to get to 
the bottom of this and to make sure that corrections are put 
into place that you have confidence in and this committee has 
confidence in, and the American people have confidence in.
    I thank you, Mr. Chairman.
    Chairman Warner. Thank you, General Jumper.
    [The prepared joint statement of Secretary Roche and 
General Jumper follows:]

   Prepared Joint Statement by Hon. James G. Roche and Gen. John P. 
                    Jumper, United States Air Force

    Thank you, Mr. Chairman, members of the committee. We appear before 
you to report on our efforts to make the necessary reforms at the 
United States Air Force Academy as a result of complaints regarding 
incidents of sexual assault there and the institutional response to 
these complaints.
    The United States Air Force Academy exists to educate, train, and 
inspire so that each graduate is a commissioned leader of character 
committed to our core values of integrity, service, and excellence. 
Above all else, the Air Force Academy is a military organization 
designed to serve the Air Force and our Nation. In pursuit of its goal 
to produce leaders of character, the Academy must establish and nurture 
policies that emphasize the character expected from commissioned Air 
Force officers. To remain relevant to the larger Air Force, the Academy 
will not be managed as a separate entity; rather, it must reflect the 
values and norms of the broader Air Force while maintaining the high 
academic standards of a world-class university.
    We've been engaged in a comprehensive review of the investigative 
procedures, disciplinary processes, and overall climate at the United 
States Air Force Academy. Our focus throughout this process has been on 
fulfilling our goals of educating, training, and inspiring Air Force 
leaders of the highest character and integrity, ensuring the safety and 
security of every cadet, and enhancing the trust and confidence of the 
American people in the Academy. As a result of this review, we issued 
the Superintendent of the Air Force Academy the enclosed policy 
directive that comprises the initial collective judgment of the 
leadership of the United States Air Force on how to fulfill these 
objectives. Enclosed is a copy of that directive. Our objective is to 
ensure these measures are substantially in place prior to the arrival 
of the incoming class of 2007. We look forward to discussing our Agenda 
for Change with the committee.
                                 ______
                                 
     MEMORANDUM FOR SUPERINTENDENT, UNITED STATES AIR FORCE ACADEMY
      subject: united states air force academy--agenda for change
    1. The United States Air Force Academy (USAFA) exists to educate, 
train, and inspire our future leaders. In concert with a review of 
investigative procedures, disciplinary processes, and the overall 
climate at USAFA, we have compiled the attached directives designed to 
ensure the safety and security of every cadet and to enhance the trust 
and confidence of the American people in the Academy.
    2. The introduction of this directive document reinforces those 
characteristics we expect to underscore the mission and values of the 
United States Air Force Academy. Character, leadership, integrity, and 
honor are the values we must instill in every cadet and future officer 
of the United States Air Force. These principles have guided our 
development of the attached directives. Specific measures are outlined 
under four principal headings: Leadership, Cadet Life, Officer/NCO 
Selection, and Broader Academy Climate. We expect these changes to be 
implemented immediately and to be substantially in place by the arrival 
date of the incoming cadet class of 2007. An implementation team will 
assist your efforts to fully implement the enclosed policies and 
procedures.
    3. These measures comprise the initial collective judgment of the 
leadership of the United States Air Force, and further initiatives may 
be considered as appropriate. We look forward to working with all the 
stakeholders of the United States Air Force Academy to rebuild the 
climate and culture at the institution and to strengthen its ability to 
develop outstanding scholars and warriors to serve as officers in the 
United States Air Force.
                                            John P. Jumper,
                                      General, USAF Chief of Staff.

                                            James G. Roche,
                                        Secretary of the Air Force.
Attachment:
    As stated
    DISTRIBUTION: C
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Warner. You and I have a very strong and mutual 
friendship based on common roots going years back in our early 
life.
    General Jumper. Yes, sir.
    Chairman Warner. I have the highest personal regard for 
you, and I detect in your testimony deep feeling.
    General Jumper. Yes, sir.
    Chairman Warner. This case is unfortunate, particularly at 
this critical time in your career where otherwise you and your 
colleagues are brilliantly directing the progress of the air 
elements of this war.
    General Jumper. Thank you, sir.
    Chairman Warner. I commend you for that, personally.
    General Jumper. Thank you, Mr. Chairman.
    Chairman Warner. I guess what I want to do is to go back 
and try and clarify what is in writing here with regard to this 
issue of accountability.
    I have before me what purports to be a news release from 
the United States Department of the Air Force. I read the 
following, ``The new leadership team has been briefed on the 
Air Force directive announced today and will be empowered to 
take full ownership with the changes in dealing with recent 
sexual misconduct allegations, as well as the broader 
environment at the Academy. Roche said that while the cadet 
behavior is at the core of this issue, the leadership must be 
responsible and accountable for the larger environment at this 
institution. `As the problems regarding sexual assault 
allegations predate the current leadership, we do not hold 
Generals Dallager or Gilbert responsible,' he said. `Still, 
change must occur, and a new leadership team to implement these 
changes is in the best interest of the Academy and the Air 
Force.' ''
    My first question is: Why did you not await the conclusion 
of at least your own investigation, I think prudence would have 
dictated awaiting the Defense Department's investigation--prior 
to making the statement, ``We do not hold Generals Dallager or 
Gilbert responsible''?
    Secretary Roche. Sir, I took the position that for the 10-
year period where we were making the report with all the data, 
they could not have been responsible for that period.
    Chairman Warner. Do you mean any part of the period?
    Secretary Roche. I looked at the period that they were 
there, sir.
    Chairman Warner. Yes, and you gave the times.
    Secretary Roche. In particular, General Gilbert. I looked 
at the cases that were involved. As I said, there were four 
cases of cadet versus cadet. Under those circumstances, three 
are still open, and one was disposed of. On that basis and the 
basis that he had made an insensitive comment about how a young 
woman should be protecting herself----
    Chairman Warner. Which officer are we speaking of?
    Secretary Roche. General Gilbert.
    Chairman Warner. Right.
    Secretary Roche. My sense was that he needed to be 
replaced, that he could not carry on anew with a new set of 
directions, given the climate that was there. That in order to 
have a new climate, we needed to have new people in place. I 
could not find something to base a letter of reprimand or 
anything else on that I would not have to go back and find 
every other commandant who had been there, because the 
proportion that he is responsible for was less than many 
others. The survey data that Senator Allard refers to, some of 
the early surveys are considered not valid because the sample 
size was too small, et cetera.
    But in the last two, the trend since General Gilbert got to 
the Academy having to do with reprisals or sexual harassment, 
improves. So it became a very mixed case. It became an issue 
of, in my belief, these officers should leave because we needed 
to give very strong rudder orders to the Academy, but there was 
no reason based on what we knew to hold them accountable at 
this time. However, we did say at the same press conference, 
and it is not in the announcement, that if something were to 
come up in the Inspector General's reviews that we would, of 
course, hold any officer accountable.
    Chairman Warner. Facts speak for themselves, but you say 
three of the cases were still open on General Gilbert's watch, 
is that correct?
    Secretary Roche. Yes, of cadet-on-cadet, yes.
    Chairman Warner. Is that not reason alone to not come out 
publicly and say you are not going to hold them accountable?
    Here, let me just make this observation. I draw on some 
modest experience, having been an Assistant U.S. Attorney, 
conducted investigations, having had jobs commensurate with 
yours for 5 years-plus. Once people read this and the 
investigation is ongoing, then the investigator goes to a 
subordinate of General Dallager, and suddenly the subordinate 
says, ``He is not going to be held accountable. Why in the 
world should I give the investigators facts?''
    Do you not think this could have negatively impeded the 
ability of the IG of the Department of Defense, the IG of the 
Air Force, with the ongoing investigation to have this 
statement made at this time?
    Secretary Roche. Sir, at the time, I did not think that, 
no.
    Chairman Warner. You did what?
    Secretary Roche. At the time, I did not think it would 
impair either the Air Force IG or the Office of the Secretary 
of Defense IG, in looking at the cases and looking at whether 
there was any violation of procedures or processes which they 
will look at.
    Chairman Warner. But it could well have affected the 
witnesses that they were, on an ongoing basis, going to talk 
to. I will just make this observation.
    Secretary Roche. Yes, sir. I take your observation.
    Chairman Warner. I just can't believe it. You went on, this 
is a transcript of the press conference, let us see. You say 
here, ``To suggest that it is their fault would really miss the 
point. The climate did not start 3 years ago, ma'am. Their 
officers, their predecessors, us, our predecessors at the Air 
Force have let the place down by shortchanging in money and in 
manning in terms of the Air Officers Commandry. There is a lot 
of responsibility, bad legal advice.''
    I understood you to say you felt you could not issue a 
letter of reprimand to the current superintendent because you 
would have to issue them to the previous superintendents. I 
can't follow that line of reasoning.
    Secretary Roche. Mr. Chairman, my views were that the 
situation had occurred over a very long period of time. These 
last officers did nothing that I could find that suggested that 
they failed in their responsibility to adhere to the processes 
that were in place. A number of those processes, I believe, 
were mistaken. I believe based on some bad legal advice, they 
were mistaken.
    I also believe that the Air Force, by not fulfilling its 
obligation to ensure that these Air Officers Commanding, which 
are like the major level officers who work with the cadet 
squadrons, that they were not given the proper education and 
the proper training, that the enlisted or senior enlisted 
people were removed from the chain of command over time. All of 
this contributed to the climate.
    Chairman Warner. I am running over my time, but believe me, 
I do not know how much training you have to do to deal with 
these cases. This is plain old common sense; standards that 
were largely taught to us by our parents and at every step of 
our life as we progressed, whether we were in the Air Force or 
anything else, sir. When it is wrong, we know it is wrong.
    Secretary Roche. When issues came to the commandant, each 
one that I had read, he sought to do the right thing.
    Chairman Warner. All right. General Jumper, can you answer 
my question, or do you wish to----
    General Jumper. Sir, I will tell you that we looked at each 
and every case. We have not been through the detailed analysis 
yet that the IG still has to do, and that will come to us over 
the next 2 weeks. If something comes to us that has not come to 
us yet, that tells us that the leadership of the Academy did 
not approach any single case with the full intention of dealing 
with the facts that were put before them, or they hid 
information, or they harbored or protected anyone.
    Chairman Warner. Okay. Well, then, why did you not wait 
until those reports were in your hand before publicly making 
this statement?
    General Jumper. Sir, along with that statement, not 
reported was a statement that said if this evidence comes to us 
as a result of this report, we will take action and the people 
will be held accountable. That was not reported.
    Chairman Warner. Well, I have made my case.
    Senator Levin.
    Senator Levin. The problem is both of you are talking about 
the cases that were reported to the commandant. It is the cases 
that were not reported because of the climate that you are not 
addressing and which is a major issue.
    The fact that these particular commanders inherited a 
climate is irrelevant. It is like saying that something was 
done improperly before they got there, and they continued to do 
things improperly; therefore, they are off the hook. No, they 
are not. No way.
    If the climate is improper, which you both acknowledge it 
is and was, the fact that it was improper before they got there 
is not relevant to their accountability. You, instead, talk 
about, ``Well, there were four cases.'' Maybe he handled four 
cases, or they handled four cases properly. What about the 14 
or 40 or 400 that were discouraged from reporting anything 
because of the climate? What about them?
    Secretary Roche. Senator, I absolutely agree with you that 
the climate was bad, but also----
    Senator Levin. No, you do not agree. You do not agree with 
me, because you are saying that you are not going to hold 
anybody accountable for continuing a climate that they 
inherited. You do not agree with me.
    Secretary Roche. In particular, General Gilbert and General 
Dallager used the survey that they were told was the one that 
was valid, the one that was done at the end of 2002. They 
briefed the corps of cadets. They went through the processes 
that had been there in place, like the reporting process, the 
education process, et cetera, and instituted a number of things 
to try to address the climate survey that came out that they 
believed was the one that was valid to use.
    If they had done nothing, then I would feel that they were 
derelict, but they did try to do things as best they understood 
they could do. Certainly, on any particular case that came 
forward which was actionable, they appeared to take as much 
action as they could take.
    Senator Levin. Are you saying that there is no evidence 
that they continued, permitted, or tolerated a climate where 
cadets were discouraged from reporting sexual assaults?
    Secretary Roche. Sir, I believe they took actions to try to 
ensure that this situation did not arise and, if it arose, to 
prosecute any charges of criminality against someone----
    Senator Levin. You keep wanting to go back to that. I want 
to talk about the climate that discouraged cadets from coming 
forward because people would be ostracized or that people would 
be punished for having too much alcohol or other minor things. 
Are you saying that the people who were in charge of this 
process tried to correct the climate where people, cadets, 
females were ostracized, would be ostracized, thought they 
would be ostracized, or in some way their career would be 
hampered by reporting something where there was too much 
alcohol involved? Are you saying that, that there is no 
evidence of that?
    Secretary Roche. They had an amnesty program, which they 
put in place. It was not a blanket amnesty. They did what is 
done at the other academies, which is to deal with the criminal 
issue first, except in one case where they did not that I am 
aware of, and then went back and tried to hold each of the 
cadets who were also involved accountable for violation of 
Academy regulations.
    Senator Levin. Including the women, the victims?
    Secretary Roche. Including the victim, in one case.
    Senator Levin. That violated their own amnesty doctrine, 
because according to the reports that we have, the procedures 
were to encourage cadets to report sexual assaults to ensure 
they receive available medical and counseling services, and 
that they would generally not be disciplined for self-
identified violations of cadet instructions, such as pass 
violations, unauthorized alcohol consumption, or unauthorized 
dating which may have occurred in connection with the assault.
    So when you say that after the perpetrator was in some way 
dealt with, they went back and went after the victim, that is 
the problem. That is exactly the problem that they perpetuated 
here. It is no excuse to say that they inherited it.
    Secretary Roche. Sir, I am not trying to say they 
inherited----
    Senator Levin. But they perpetuated it if they went back at 
the victim and they said, ``Okay. Now, we have dealt with the 
alleged perpetrator here, and now we are going to talk to you. 
You had too much alcohol.''
    Secretary Roche. Sir, they would not say they had too much 
alcohol. They would say----
    Senator Levin. Whatever the violation was. It is not 
supposed to have happened under the existing amnesty program. 
So you have announced a new amnesty program which just repeats 
what was previous.
    Secretary Roche. No. The one before was one that could or 
could not be put in place. It also, in the cases before--and I 
am trying to do this from my recollection--where they went 
back, there was no criminal activity proven. It was an, 
oftentimes, he-said/she-said situation. There was insufficient 
evidence to take any action. At that point, they then did issue 
demerits for Academy disciplinary violations.
    Senator Levin. For reporting an incident. You are saying 
people who reported the assault on them were disciplined, given 
a demerit.
    Secretary Roche. Yes, sir.
    Senator Levin. Their careers were negatively affected. That 
is the climate that is so horrible, is that the victim----
    Secretary Roche. The climate has two parts, sir, if I can 
finish the one part?
    Senator Levin. No. I want to go right at that.
    Secretary Roche. Yes. At this one----
    Senator Levin. That should not have happened, should it?
    Secretary Roche. There are two sides to this, Senator. I 
can tell you that there are sensible people who say that you 
should hold every cadet accountable for the actions of that 
cadet.
    Senator Levin. Do you say that people who report an assault 
upon them should be given a demerit for something like they 
were dating improperly or there was too much drinking?
    Secretary Roche. As you can tell from the actions we have 
issued, I do not believe that.
    Senator Levin. Fine. I want to know what you believe.
    Secretary Roche. I believe you give the amnesty, and it is 
blanket amnesty.
    Senator Levin. Now, one final question----
    Secretary Roche. The second point on ostracization, which 
you also raised, Senator, in fact, this leadership did try to 
work with the cadet leaders to not have that happen.
    Senator Levin. One final thing: The message in 1995, which 
Senator McCain has referred to, is that commanders will be held 
accountable if they fail to correct the problem. There was a 
problem here. They did not correct it. Not only has no one been 
held accountable--and I agree with the Chairman, if you had 
waited for an Inspector General's report perhaps before you did 
that--but you have exonerated people. You are saying they will 
not be held accountable because they inherited a problem that 
they did nothing about?
    I have to tell you the 1995 message was ignored, it seems 
to me, by these commanders and maybe their predecessors. Not 
only has nobody been held accountable, but nobody is going to 
be held accountable because you have exonerated them in advance 
of an Inspector General's report.
    Secretary Roche. Sir, based on the General Counsel's 
report, preliminary report, and based on what we looked at, 
based on reading the cases, they were removed from their 
position. That is one level of accountability.
    Senator Levin. But for different reasons.
    Secretary Roche. They were removed because I did not have 
confidence in them going forward to be able to do what needed 
to be done.
    Senator Levin. Not for any failure.
    Secretary Roche. The failure was consistent with a series 
of failures, bad legal advice, bad procedures and processes at 
the Academy.
    Senator Levin. My time is up. Thank you.
    Chairman Warner. Senator McCain.
    Senator McCain. Remarkable. General Jumper, you just stated 
we do have a climate problem, and then you went on to talk 
about some of the situations and issues that exist.
    In yours and Secretary Roche's comments at that press 
conference, you said, ``There was an issue. A lot of cadets 
feared coming forward because of peer pressure.''
    You go on to say, ``We will take care of any barrier to a 
person coming forward, and particularly in order to ensure that 
we can get at a crime and make sure we do not commission a 
criminal. If a cadet provides or sells alcohol to someone who 
is under age, you will be disenrolled and disenrolled 
immediately. We will change how we select the officers who will 
be air officers commanding. We will return to the time where we 
sent these officers for a year of education. We have allowed 
ourselves to not make use of one of our greatest assets, our 
non-commissioned officers. We will restore the chain of 
command.''
    There is a series of other things that have to do with what 
I have touched on, cluster around women's washrooms and to help 
understand, think of building with four corners, et cetera. You 
just said that arrangement with rooms should not have existed.
    ``Our old rules about doors being open when people not from 
your room are in your room are going to be restored. We will 
crack down on these.'' All those things were going on until 
when? When did you institute these changes?
    General Jumper. We are in the process of instituting those 
changes now.
    Senator McCain. You are in the process of instituting those 
changes now?
    General Jumper. Yes, sir.
    Senator McCain. They were ``a climate problem for a number 
of years.'' Right?
    General Jumper. Sir, there were a variety of problems for a 
number of years. You are exactly right that we are in the 
process of correcting.
    Senator McCain. Okay. ``No one is going to be 
disciplined,'' in your words, ``because we are going to look at 
each and every case.'' I do not get it, General Jumper. When 
you went to school and you were a young officer, were you not 
told that things that happened under your command you were 
responsible for?
    General Jumper. Yes, sir, I certainly was.
    Senator McCain. If there is a climate under your command 
that requires that all these changes have to be made that you 
and the Secretary said needed to be made, that therefore no one 
is responsible?
    General Jumper. Sir, if the climate has eroded over time 
due to a variety of things that have happened over years, I am 
not sure that it is completely evident at any one moment that 
the climate has deteriorated to that point.
    Senator McCain. But you just stated we have a climate 
problem.
    General Jumper. Yes, sir.
    Senator McCain. You describe some of those problems.
    General Jumper. Yes, sir.
    Senator McCain. They are all being changed now?
    General Jumper. It did evolve over time.
    Senator McCain. Oh, it was an act of God? For instance, 
the----
    General Jumper. I mean, the room arrangement, Senator, as a 
matter of fact, is a room arrangement they use at the other two 
academies. They use it successfully. In this case, we believe 
that it contributes to the problems that we have, that have 
been reported at the Academy. We are trying to create the 
environment where people who have not come forward before now 
feel free to come forward and to take those obstacles that they 
state were limitations and allow them to go away. Many of these 
obstacles are not obstacles in other places, but we are trying 
to correct what we find at the Air Force Academy to be 
obstacles to the population there.
    Senator McCain. Obviously you and I and the Secretary have 
a fundamental disagreement here. You said you have a climate 
problem that has been going on for a long time. Now, you are 
making a huge series, a very significant series of changes that 
need to be made in your view in order to change this climate; 
yet no one is being held responsible for that climate, whether 
it be present or past people in positions of authority. With 
all due respect, that flies in the face of everything I learned 
about accountability and responsibility.
    Mr. Chairman, the testimony we have heard today just 
reinforces my view that we really do need to act. I do not know 
exactly who does it, or how we arrange it to have an outside 
board look at this situation. When people are not even being 
held accountable for situations that they say they are fixing, 
there is something Orwellian about that. I thank you, Mr. 
Chairman.
    Secretary Roche. Senator, may I----
    Chairman Warner. Thank you, Senator McCain.
    Secretary Roche.--may I? Senator, may I?
    Chairman Warner. Sure.
    Secretary Roche. I went over everything we have done with 
the Board of Visitors and made it clear, Senator, I do not 
object to outsiders coming and taking a look at this stage. We 
wanted to do something quickly to ensure that when these new 
cadets come enlist in 90 days, the change was made.
    We told the Board of Visitors that at the next meeting that 
they hold, we will have the finished report. We will go through 
everything. At that point, if we need to bring in some 
outsiders--the Board of Visitors, it will be an issue that we 
will address at that time, as Senator Allard well knows as he 
was on the telephone conference, and we can do that.
    We believe we have acted quickly and firmly with the 
situation that we found has occurred over many years, and we 
have tried to delineate where responsibility went. Senator, I 
well may be wrong, but I believe that the accountability goes 
over so many administrations there that I do not know where to 
begin, except at 1993 and forward.
    Senator McCain. I thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator. I share your views 
about an outside independent look at this.
    We have a problem on our side, Senator Levin, that three of 
us are required to be in the meeting of the chairmen of the 
committees now: myself, Senator McCain, and Senator Collins. I 
am going to ask our colleague who is the Chairman of the 
Subcommittee on Personnel, the Senator from Georgia, if he 
would take over now.
    Would you, Senator Dayton, indulge our colleague from Maine 
to ask a question or two because she must join me, and we have 
to depart?
    Senator Dayton. I would be pleased to defer.
    Chairman Warner. Fine. Thank you very much for your 
courtesy.
    Senator Collins. Thank you very much, Mr. Chairman, and I 
want to thank my colleagues for their courtesy.
    Mr. Secretary, I, like my colleagues, am having difficulty 
in understanding your response to this very serious problem. I 
do not have the benefit that many of my colleagues on this 
panel have of a military background, but I do have the benefit 
of common sense. I am trying to understand how you can say in 
the Air Force press release issued March 26, which quotes you 
as saying that ``As the problems regarding sexual assault 
allegations predate the current leadership, we do not hold 
General Dallager or Gilbert responsible.''
    Similarly, General Jumper, you have been quoted as saying 
you do not believe that the problem starts with the current 
generation of leadership, but then you go on, both of you, to 
say that the responsible people will be held accountable.
    Are you saying then that unless this problem originated on 
the watch of the leadership that they are not accountable?
    Secretary Roche. No, Senator. What we are saying in the 
second part had to do with the Inspector General's report, if 
something comes up where one or the other of these officers 
have done something for which they should be held accountable, 
they would be.
    In terms of the larger question, when you have a succession 
of changes over time, you can hold the last group accountable, 
but they did not create the climate. The climate was created 
long before they got there, and they believe, Senator--and this 
is I am sure very difficult for others to recognize. They 
believe they were working at it. They did a number of things. 
It is not that they did nothing. They made a number of changes.
    Senator Collins. Since when is it the standard that you 
have to have been there when the problem originated in order to 
be held responsible or accountable? I just do not understand 
that line of reasoning.
    Who are you going to hold accountable if you have already 
exonerated the current leadership absent some new findings by 
the Inspectors General? Who are you going to hold accountable?
    Secretary Roche. Senator, I would take it as follows: 
Starting in 1993, measures were taken which they thought would 
correct things. They did not. I would, in this case, hold that 
administration accountable. Then as each turned over, every 2 
to 3 years, each one of them had a chance to go back and fix 
this, and they did not. But they thought they were doing the 
right thing. They thought by having this system that was 
outside of the chain of command that that was taking care of 
the problem.
    These cases that came up--and there were many more cases 
prior to the arrival of either General Dallager or General 
Gilbert. The larger proportion of cases occur well before them. 
So that it appears, even from the survey data, that things are 
getting better to them. But they, in the most recent survey, 
when they saw that the first class female cadets had little or 
no confidence in the system--although a number of the other 
cadets, the sophomores, juniors, and the freshmen seem to have 
reasonable numbers associated with them, but the seniors did 
not, they began to take additional actions to have additional 
training, to reinforce a number of other measures, measures to 
try to ensure that both the problem of assault and the problem 
of reporting assault were dealt with.
    Senator Collins. Let me tell you what is so troubling, 
because what I am hearing you say is this problem has gone on 
for about a decade at least probably, and people have made good 
faith efforts to try to make some marginal improvements. All 
these assaults continued and, as a result, either everybody is 
responsible or nobody is responsible. That does not sound like 
a system of accountability to me.
    When I read news stories such as one in the March 16 New 
York Times that recounts a story of a female former cadet who 
was raped and then the result is that she receives seven class 
D hits and was sentenced to 265 hours of marching in circles 
because she was drinking, this just reminds me of the whole 
approach of blaming the victim.
    General Jumper, with all due respect, today you used the 
phrase ``legitimate victims.'' Is that as opposed to those who 
you apparently think have contributed to their assaults? I just 
think we have so far to go, and until we start holding people 
truly responsible--I do not care whether it is that someone 
inherited a problem. Presumably being part of the leadership of 
the Academy makes it your responsibility to correct these 
problems.
    Secretary Roche. May I?
    Senator Collins. Yes.
    Secretary Roche. Senator, in the case that you report, I do 
not remember any particular news account, but that is a news 
account of one victim's position. Most of the time, there is 
another side to the story. If a cadet came forward and made an 
allegation, and there was not evidence to go forward in any 
Uniform Code of Military Justice process, then the Academy, as 
does the Naval Academy, goes back to the individuals who were 
involved and awards demerits.
    At the same time, ma'am, sometimes there is not sufficient 
evidence to go to a court-martial to be able to prosecute an 
accused cadet, but there is enough administratively that comes 
out such that the cadet is disenrolled. In most of these cases, 
when they could, they did disenroll the cadets. They went the 
extra mile of ensuring that if something happened off the base, 
off the campus, if they could take the court-martial route, 
they did take the court-martial route.
    Senator Collins. Mr. Secretary, my final comments to you 
today are this: When I hear you say that--I understand that 
there are cases where the evidence may not be strong enough to 
support a criminal conviction, but what I have seen and the 
cases that I have looked at is a very clear pattern of blaming 
the victim and of not correcting the overall culture or climate 
that causes the victim to be blamed. This is not just one or 
two cases. This is not just five or six cases. This is not even 
a dozen cases.
    We have a clear pattern of reports of sexual assault where 
the reaction of the Air Force Academy seems to blame the 
victim, and that is unacceptable. We also have a clear pattern 
where it seems to me that no one is going to be held 
accountable for the climate that has made young women cadets 
fearful of reporting or leads to reprisal if they do, and that 
is unacceptable.
    Secretary Roche. It is unacceptable, Senator. What I am 
trying to say is that in a number of these cases, there was 
another side to the case. I do not believe that there is a 
pattern of holding the victim and making the victim be the 
criminal in this case.
    I know of one case where the Academy acted in ways that 
would be offensive to both you and me, where the victim reports 
something, she wishes to be separated from her accused, and 
they remove her from her squadron and move her to another unit 
when, in fact, they should have removed the accused. But they 
did not because, in prior instances, they had been told by 
counsel that they could not do that. So they were trying to do 
the next best thing which, in fact, had a very bad unintended 
consequence, which was to highlight the victim, as if the 
victim had done something wrong.
    A lot of this is a function of the processes in place. We 
are going beyond the other academies; beyond the other 
academies in saying in order to make sure we cannot have any 
obstruction to finding out about criminal activity, we will 
grant the blanket amnesty to everyone, not just the cadet. Even 
if it comes out to be a ``We cannot go forward with 
prosecution,'' we will still keep the amnesty in place. We will 
grant amnesty to other cadets who happen to be there except for 
the senior cadet or any cadet who blocks the investigation. We 
will go the extra mile.
    Senator Collins. I want to thank my colleagues for their 
courtesy in allowing me to proceed. Thank you.
    Senator Chambliss [presiding]. Thank you.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    In a published news account, General Gilbert publicly 
acknowledged suggesting to one cadet who alleged she was raped 
that she had exercised poor judgment. According to the report, 
that case involved Lisa Ballas, currently a senior cadet, who 
said she was assaulted in October 2001. Then she had a meeting 
with General Gilbert, reportedly that took place on April 8, 
2002, about 6 months after she said she was raped.
    According to Ms. Ballas, ``It was somehow my fault this 
happened to me, full or partial blame,'' Ballas wrote in her e-
mail, recounting her meeting with Gilbert. She quoted Gilbert 
as telling her, ``You did not have to go to that party. You did 
not have to drink that night. You did not have to play the card 
game. You did not have to follow him back to the bathroom.'' 
Gilbert, in his written comments, confirmed that he made these 
remarks to Ms. Ballas. Ballas said that Gilbert scolded her for 
her behavior leading up to the assault, adding that ``If I had 
my way, you would be marching tours,'' a form of punishment at 
the Academy, right next to her assailant. He did not deny 
making that remark. General Gilbert did not support a court-
martial for Ballas' alleged assailant because of a lack of 
evidence, as was reported. The male cadet received minor 
punishment. She went on to say, ``We have been made to feel 
that we are to blame for these incidents, and we have to fight 
against our own United States military.''
    In another report, ``Once not very long ago, Kira Mountjoy-
Pepka's eyes shone bright when she spoke of piloting airplanes. 
Few her age seemed to have so promising a future in aviation. 
But now when the conversation turns to flying, the former U.S. 
Air Force Academy cadet dips her head and stares at the floor. 
Ever since she says a fellow cadet raped her a year ago in her 
freshmen year at the Academy, her dreams of flying F16s and her 
love for the Air Force have crumbled. She was the first--in 
November 2001 she was chosen as the year's first freshman to 
fly an Air Force plane, roaring above the Academy's football 
stadium before a game. But her downward spiral began a year ago 
when a senior cadet whom she knew slightly from the Academy's 
Aero Club raped her in her dormitory room.''
    It goes on to say, ``She struggled academically, 
athletically, she was emotionally devastated. She was harassed 
and hounded by the Academy's leadership for minor disciplinary 
infractions until she finally quit last Christmas. While 
Mountjoy-Pepka remains upset about these sexual assaults, she 
is angriest about her treatment by the Academy's majors, 
colonels, and generals, who she says turned the tables on her 
after she reported the assault. She said some officers 
criticized her for acting affectionately with her cadet 
boyfriend, another cadet. They said she was `no lady' and 
suggested that her behavior was generally promiscuous.''
    Sir, I am astonished that you can say that the climate 
under those individuals in the last 18 months or 2 years has 
been substantially different if these kinds of incidents and 
these kinds of statements, publicly acknowledged by General 
Gilbert to have been made by him, are going on there. I think 
it is a perfect example of how this climate there has caused, 
in this case, two young women, their lives to be almost 
destroyed, certainly seriously damaged. She is out of the Air 
Force Academy. She is out, and she does not have that 
opportunity, and her male perpetrator goes on.
    It is just shameful. To me, it is just shameful that it 
happens and it is even more shameful that the Academy and the 
people in charge there let it happen and just now, even now, 
say give lip service that that general cared about things, but 
do not do a damn thing about it. Shameful.
    Secretary Roche. Senator, the comment made by General 
Gilbert was most certainly insensitive.
    Senator Dayton. Insensitive?
    Secretary Roche. He apologized for it, sir. The 
circumstances surrounding the cases, there are other sides to 
this. These are press reports of one side of a story, Senator. 
If, in fact, things----
    Senator Dayton. She is out of the Air Force, the young 
woman to whom that occurred.
    Secretary Roche. She may well have left the Air Force 
Academy, sir. I do not want to get into any particular case, 
because of privacy rules.
    Senator Dayton. She brought her case to the public.
    Secretary Roche. She brought it public. She is out.
    Senator Dayton. She brought the matter public. The both of 
them did.
    Secretary Roche. But I can't--it would be wrong for us to 
give the other side of the story.
    Senator Dayton. All right. You had mentioned in 1993 that 
the new changes were put into place that were supposed to deal 
with this problem. According to another news account, in 1997 
an annual survey of cadets showed that 10 percent of women 
responding said they had been the victim of a sexual assault in 
the Academy in the previous 12 months. Ten percent of the women 
responding said they had been the victim of a sexual assault at 
the Academy in the previous 12 months. Some 75 percent said 
that if they were raped, they would not report it, out of fear 
of retribution.
    Now, I realize, sir, that you were not there during this 
time, but in terms of the culpability of former 
administrations, I would urge that the Inspector General's 
investigation or this independent investigation, which I am 
persuaded is absolutely necessary, to go back into this. If 
they instituted changes in 1993 and were told in an annual 
survey in 1997 that 10 percent of those responding, even if it 
is not a random sample, said they had been a victim of a sexual 
assault at the Academy in the previous 12 months, and they 
continued to believe that they had dealt with the problem, it 
just blows the mind, sir.
    Secretary Roche. Yes, sir. I understand. One of the reasons 
we went back 10 years, Senator, is to be able to have as big a 
vacuum cleaner of these cases as we could, to look over the 
period of time.
    Senator Dayton. How about a vacuum cleaner for those who 
were responsible while this was going on?
    Secretary Roche. It turns out with any given 
administration, you find a similar set of circumstances. But 
you do find them all trying to make use of what was done in 
1993 and in 1996 in character development courses, in hotlines, 
in using the cadet sexual assistance program. You find them in 
each case trying to make these things work. We believe that by 
coming out of the chain of command they, in fact, in some cases 
had the unintended consequences of making them less effective.
    Senator Dayton. What changes were made subsequent to 1997 
to this survey, to changes in the 1993 changes that were--
clearly at that point not having the desired result?
    Secretary Roche. I am not aware of anything that occurs 
between 1997 and last year.
    Senator Dayton. I would appreciate it if somebody could 
give me that, sir. I would like to know.
    Secretary Roche. I do not think there were any major ones. 
They just kept trying to reinforce what they had, which they 
believed and had been told was the way to go. In terms of the 
particulars of a case, as I say, Senator, there are 
complications on both sides. But if, in fact, the events were 
as reported, which we can't back up in some cases--I do not 
want to say this particular case--then it is shameful. We agree 
with you.
    Senator Dayton. I am not trying the cases. I am trying, but 
I--individually, but the sheer number of them and this kind of 
a response, 10 percent of the women responding, and then as I 
say I would like to see what decisions----
    Secretary Roche. We have looked at all the surveys, even 
those they considered not valid. We have looked at some of the 
comments of the cadets. You get them on both sides. Our sense 
is that there was a major climate problem, and that is why we 
have taken the forcible actions we have taken.
    Senator Dayton. I appreciate that you have done so. I am 
just saying that there is a lot more to be done.
    Secretary Roche. But I agree with you on accountability. 
You would have to go back and look at that administration in 
1997 and find the superintendent and the commandant, and 
whatever is done to the current two, you have to do it for 
those two as well.
    Senator Dayton. And that will be done?
    Secretary Roche. We have asked the Inspector General to at 
any given case at any given period if there is something that 
we should go back and do, we will do it.
    Senator Dayton. One last set of questions, you have 
mentioned a couple of times, Mr. Secretary, the athletic 
department. Is there a set of circumstances that differs from 
the Academy as a whole or are there attitudes or actions there 
that go beyond what has occurred elsewhere in the Academy?
    Secretary Roche. We have a sense, Senator, that there have 
been incidents associated with athletes that we are not proud 
of.
    Senator Dayton. What does it mean that you are not proud 
of?
    Secretary Roche. There are reports that are being looked at 
right now of some of the behavior of some of the athletes. We 
know the athletes have a life that is very different than the 
average cadet, the intercollegiate athletes.
    They do not play intramural sports. We do have training 
tables. In some cases, the information flow between the 
athletic department and the commandant's group running the rest 
of the Academy is such that someone dropped from a team can 
stay at the training table for a year and not be discovered, 
that the professional military education for the 
intercollegiate athletes was not being administered to the same 
degree it is for the others.
    Yet in one of the climate surveys you have 43 percent of 
the intercollegiate athletes who responded say they felt 
prejudiced because they were intercollegiate athletes. Our 
sense was that athletics is a means to an end, not an end in 
itself, and therefore we wanted to bring it under the chain of 
command of the Academy more closely than it has been.
    Senator Dayton. Thank you.
    Thank you, Mr. Chairman.
    Senator Chambliss. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    I realize there is difficulty sometimes in assessing the 
degree of guilt as you suggest. So I wonder just what your 
attitude might be about relying on an outside source. For 
example, El Paso County is where the Air Force Academy is 
located. The district attorney in El Paso County has, or 
apparently is, reviewing a number of cases as to whether to 
move forward with some allegations of rape at the Academy or 
not.
    What will be your attitude, Mr. Secretary, and that of the 
Air Force, towards those investigations? Should she decide to 
move forward, would you be helpful in trying to provide her 
with the facts that she would need to move forward with her 
case?
    Secretary Roche. Yes, sir, absolutely. Our sense is, as we 
discussed at the Board of Visitors telephone conference, that 
we would re-look at the memorandum of understanding between the 
local jurisdiction and the Academy to see who should have a 
first chance to do something and who should investigate.
    In the past, it has typically been deferred to the military 
because there was a higher probability of getting convictions 
with the military. But we would certainly cooperate with local 
authorities and provide the information that we had--or could 
have--to help her in her look, absolutely.
    Senator Allard. Now, there are a couple of things that you 
have given comments on this afternoon that I have to disagree 
with you based on the information as I know it. I would like to 
go over it with you.
    One of them has to do with whether General Gilbert, on 
wanting to move forward with prosecution, was overridden by the 
JAG. To me that does not make sense. My information tells me, 
it is my understanding the JAGs cannot override the commandant; 
only the superintendent of the Academy can do that.
    From my understanding, it is that the JAG, when these cases 
came forward, asked the commandant if they could not move 
forward with prosecution, and his response was, ``Oh, no. Do 
not worry about it. I can handle it.''
    Secretary Roche. Sir, I do not know anything about the 
latter, and I may have misspoken. The commandant in the one 
particular case did wish to go forward. An investigating 
officer, under Article 32 proceedings, did take a look at the 
evidence and told the commandant there was insufficient 
evidence to be able to go forward and get a conviction at 
court-martial and, therefore, they did not proceed with court-
martial. Now, I would want to go back and look at the 
particular case to see if administrative actions were taken.
    Whenever General Gilbert could go to the Uniform Code of 
Military Justice on a crime like this, he did. In this case, he 
felt that he would like to go forward; I know that. The judge 
advocate who did the initial investigation said there was 
insufficient evidence to get a conviction.
    Senator Allard. Some of the sources that have at least been 
talking to some of my staff, indicate that it was just the 
opposite; that he was, seemed to be willing to assume those 
responsibilities, and to disregard the recommendation of the 
JAG, but that is water under the bridge. I think we need to 
move forward.
    The other area that I want to bring up is, it seems to me 
that when you look at the facts that there was an emerging 
problem as we got closer to 2003--and I know that the climate 
surveys have been disregarded by the Academy to a certain 
degree, but they are the only information that we have.
    When we look at 1998, we have 22 cadets that were 
classified as having been sexually assaulted since having 
arrived at the Academy. In 1991, there is no climate survey; 
2000, there are 17 cadets; 2001, the number is 167 cadets; and 
2002, there are 56 female cadets who said they had been 
sexually assaulted since arriving at the U.S. Air Force 
Academy. Then in 2003, the Academy decided not to have a survey 
or not to ask the question on the survey as to whether they 
have been sexually assaulted or not.
    It seems to me that if you look at 2001 and 2002, those 
numbers are so much larger than the rest of the trend, they 
should have raised a flag.
    Secretary Roche. They obviously did, Senator. In fact, 
looking at both of those, you recall they had had very poor 
participation in surveys up to that point. At that point they 
started to try to pressure cadets into, in fact, filling out 
the surveys. It was the sense of the statisticians who looked 
at them that they were invalid because of contradictory 
answers. A number of the answers in the sexual area were 
contradictory.
    The 2003 one that was released in January was considered to 
be a valid one. General Gilbert, in fact, briefed all the 
cadets. He then instituted yet additional actions, including 
things like--I do not know if he did in 2002 or--in 2002, he 
was already putting more supervision into the dorms, et cetera. 
So they were using those.
    What more they could have done when they looked at a 
particular survey where they were told that it was invalid, I 
am not sure. I found by comparing the surveys, the trends in 
the surveys, you have the oddity that the women cadets report 
that the fear of reprisal decreased between 2001 and 2002, 
whether it was for reprisals from the faculty or from other 
students, et cetera. So it is a small trend, but it was--I was 
seeing mixed things. I saw these less than 24 hours before you 
saw them.
    Senator Allard. Mr. Chairman, my time is running short 
here. If you would just bear with me, I would like to ask 
another question.
    Senator Chambliss. Sure.
    Senator Allard. A number of cadets reported sexual assaults 
and rapes to my office, and we are at 40, it has been reported. 
About half of those occurred in 2001, 2002 from the information 
we have in our office. This is not the surveys or anything 
else.
    We have looked at when those alleged rapes occurred. A 
number of them occurred during a summer camp at Jacks Valley 
Training Center, which I understand is the basic training for 
incoming cadets. You made recommendations of dealing with the 
dorms and everything. I did not see any recommendations dealing 
with what action you may take during this training period.
    I wondered if, for the record, you would not elaborate on--
maybe General Jumper would be the one to do this--what it is 
that you are going to do to assure safety of the new cadets in 
the Academy during their basic training.
    Secretary Roche. We are taking action, Senator.
    General Jumper. Senator, first of all, the Secretary and I 
have written a letter to the parents of each of the new 
incoming cadets talking to them about our commitment to dealing 
with this situation. The new incoming cadets will be separated 
initially, male and female, and will be put through a training 
period where they will be indoctrinated into the situation that 
they are finding themselves in, which is much different than 
the situation they have just left, if they have come from any 
civilian walk of life, about the power structure of the 
Academy, the relationship between the upper class and the lower 
class, the limits on that, and their rights to object to 
bullies.
    We are putting the responsibility for this training of the 
new cadets into the hands of the senior class. The senior class 
will be responsible for administering the discipline. The 
discipline will be aligned with the development of character, 
of honor, and of the sorts of traits and virtues and integrity 
that we expect cadets to have.
    This will happen for a certain period of time over the 
summer. We are waiting for the new commandant to get in place, 
and we will determine exactly how long this should be.
    Before the rest of the cadet wing arrives back for the 
academic year, they will then be integrated into their 
squadrons. Then once into the squadrons, the females will be 
grouped down near the latrine area in the squadron with 
squadron integrity to be able to provide each other mutual 
support.
    Senator Allard. Now, it has been my understanding, General, 
that it has been upperclassmen who have raped female cadets in 
these training camps, so I do not understand exactly how this 
is going to protect the female cadets.
    Secretary Roche. The senior class is going to be made 
responsible for observing the actions of the other two classes 
towards the freshman.
    Senator Allard. I see.
    Secretary Roche. Not just for the summertime, because it is 
mostly the senior two classes who are back for the summer 
program, but for the whole cadet wing when they come back. They 
have to be made responsible for the character, and the honor, 
and the integrity of the entire corps. That is their position 
as senior cadets; not only as the senior class, but as class 
cadet officers in charge of squadrons and in leadership 
positions. That will be the test of their leadership.
    How they help us get through this change in the climate 
that needs to be instilled in these young cadets, and it will 
be taught to the young cadets from the time that they get 
there, this is a major effort that I, along with the Secretary, 
will see that it is installed personally by my personal 
involvement with the classes.
    Senator Allard. How does that differ from what is happening 
now or has happened last year, for example?
    Secretary Roche. They come in and they generally have a 
couple of days where they get some indoctrination, but as a new 
freshman in that disciplined environment that you are not used 
to, most of the things that are said to you the first couple of 
days, as you can understand, Senator, go right over your head. 
The retention level is not good, because they are in a fairly 
disciplined and new and harsh environment. This will then 
continue for a much longer period of time than has been done in 
the past.
    General Jumper. Also, Senator, you notice in our paper we 
talk about getting the Air Officer Commanding much more 
involved, and in terms of supervision of the dorms, et cetera, 
they will also be much more involved in the summer activity to 
make sure that things are handled correctly.
    Senator Allard. Thank you, Mr. Chairman. I thank the 
members of the committee.
    Senator Chambliss. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    As the two witnesses can tell today, this is a very 
personal matter for members of the United States Senate. I know 
Senator Clinton and also Senator Collins and others have said 
that it is because--one of the greatest things about being a 
Senator is being able to have a hand in the selection process 
of sending our best and brightest young men and women to the 
military academies. So you can tell from the questioning, the 
deep disappointment and dissatisfaction with what we have heard 
about what is going on at the U.S. Air Force Academy.
    I have three points of clarification. First, with regard to 
the surveys, are these mandatory or are they voluntary? I am 
just confused about this. I have gotten the impression 
different times, different ways.
    Secretary Roche. They were in the past voluntary. The 
participation was so low that there was some positive 
incentives offered 1 year to get them to do more. Then in the 
2002 survey, the sense is the cadets were told they could not 
sign out on vacation until they completed the survey. 
Consequently, a number of them played games with the survey.
    Senator Pryor. Okay. Are these surveys given to every cadet 
at the Academy?
    Secretary Roche. They are Internet surveys available to 
every cadet, and every cadet is encouraged to take the survey.
    Senator Pryor. Okay. Is the survey designed by the Air 
Force or by a third party?
    Secretary Roche. The survey is designed not by the Air 
Force, but by a department at the Academy, so it does not have 
the professional development that you would have with either a 
survey organization or the one that is used for a climate 
survey for the Air Force at large. That is why each year you 
notice, they have a self criticism of how they can improve it. 
It is the behavioral science department that was doing this and 
trying to get a sense of the human relations climate.
    Senator Pryor. Okay. My second point of clarification: I 
just want to make sure I understand this. Are you coming here 
today and testifying before this committee that the problem is 
fixed?
    Secretary Roche. Not in any way, shape, or form, Senator. 
We are saying that we have made the first step. That point that 
was raised by some members on our prior visit in closed 
session, we absolutely agree with. If we thought this was 
fixed, no, it is not. It is one of the reasons we want to talk 
this over with the Board of Visitors, how to monitor it. We 
have put in place that every 3 years there will be a full and 
complete audit, so we have no problem reporting anything to the 
committee, et cetera.
    It is the beginning. You are trying to change your cultural 
climate. It has had us look at the entire Academy from signs 
saying ``Bring Me Men,'' to how professors are dealt with, to 
where cadets go after they graduate, to how they are treated 
relative to our other accessions. We have looked at the whole 
thing. But this is merely a beginning.
    Senator Pryor. Do you have at this point a written action 
plan about the steps you intend to take to get it fixed?
    Secretary Roche. Yes, sir. We issued that in a directive 
memorandum to the superintendent of the Air Force Academy last 
Wednesday.
    Senator Pryor. Have you provided it to the committee?
    Secretary Roche. Yes, sir, we have.
    [The information referred to follows:]

    [See previous insert, ``United States Air Force Academy: Agenda for 
Change.'']

    Senator Pryor. Okay. I will be sure and get a copy of that.
    The third point of clarification I just want to seek is: 
Are you opposed to a third-party investigation of what has gone 
on at the Air Force Academy?
    Secretary Roche. No, sir. What I wanted to do was to start 
ourselves so we could move quickly, because we have new cadets 
coming in 90 days. If we had tried to put together something 
from the outside, we would still be working on a charter and 
working on the personnel. We moved very quickly.
    Having gotten these first steps in place, which I believe 
communicates to the parents of any new cadet that that cadet is 
safe when he or she arrives come June, we have no problem with 
outsiders looking at it, and I would hope that in the Board of 
Visitors meeting this would be discussed, and I would be 
delighted to cause one to occur.
    Senator Pryor. When is that Board of Visitors meeting?
    Secretary Roche. I am not sure. It is within the next 30 or 
35 days.
    Senator Pryor. Okay. If there is a third party, would you 
rather it be someone like a local prosecutor there in Colorado, 
or would you rather it be more of a, for lack of a better term, 
blue-ribbon panel that might look at it?
    Secretary Roche. My sense is we have a wonderful Board of 
Visitors, which have some wonderful members on it, like Senator 
Allard and a few others, including former governors. I would 
like to talk over with them what they think would be best, 
since they have invested so much of their time in the Academy.
    Our sense was to move quickly. It had to be people who 
understood the Air Force, understood Air Force rules, and that 
we could move fast in going forward. It could be characterized 
any number of ways, but it would have to be one that would be 
effective. I think the Board of Visitors would be the 
appropriate group to talk about who ought to be on, including 
some of them.
    Senator Pryor. It is obviously unfortunate what has 
happened to some of these men and women during this time period 
who have gone through the Academy. I think perhaps the most 
unfortunate thing of all is that the Academy produces the 
future leadership of this organization.
    It is a very fine organization. I can speak for this 
committee to say we want to support our men and women in 
uniform. We want to support the Air Force and all the branches 
of the Service, but when we hear something like we have heard 
today, when we hear about the climate and the culture at the 
U.S. Air Force Academy, I know that we all have a grave concern 
that it is going to corrupt the entire organization.
    I just want to encourage you to work on the solution with 
all deliberate speed. This committee stands ready to help you 
in whatever way we can to do it. I think having a third-party 
investigation is essential to getting to the bottom of this. I 
want to encourage you to consider doing that.
    Secretary Roche. Yes, sir. You understand that the Office 
of Secretary Defense's Inspector General is a third party, and 
we not only welcomed, we had hoped at one point they could take 
a look at all of the cases, so that there was no sense of the 
Air Force covering anything up.
    In terms of specifics, whether it is how to do a mentoring 
program, et cetera, we welcome outsiders, and we recognize 
fully this reflects on the entire Air Force. This is not our 
only source of our future leaders, but it is one of the two 
major sources of our future leaders.
    Senator Pryor. Right. I agree.
    That is all I have, Mr. Chairman. Thank you.
    Senator Chambliss. Thank you.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    I am struck by the fact that this is at least the third 
time that we have discussed this; I think twice in open 
session, once in a closed session. As became apparent today 
from the reports I received, I think it is clear, Mr. Secretary 
and General Jumper, at least in the minds of many of us on this 
committee, that it has still not been put to rest with respect 
to looking backward at the individual cases that have been 
brought forward for public attention; nor with respect to 
looking forward to the changes that are necessary in the 
culture, atmosphere, and training.
    I think a third-party investigation and a third-party 
consultative relationship with the Academy is absolutely 
essential. There are people who are experts in this field who 
advise major corporations. There are people who have advised 
other academies with respect to some of these issues, and I 
would certainly hope that if you take away from this hearing 
anything, it is what I believe to be an overwhelming sense of 
the committee that there must be independent third-party 
involvement.
    I do not think from my own perspective that the Inspector 
General is adequate. I do not think the Board of Visitors is 
adequate. I think setting up some kind of mechanism where 
people can be brought in to deal with the deep-rooted cultural 
issues and to go through some of the training programs that 
have proved successful in other parts of society has to be a 
part of whatever solution you decide to pursue.
    So from my perspective, I join the call of the chairman and 
the ranking member and others on this committee in urging you 
to quickly move to an independent third-party consultative 
investigative response mechanism.
    We are in the middle of a war. This should not be taking up 
your time. This is not what you should be coming up to testify 
before this committee about.
    From the recent articles I have read, it appears that the 
Air Force actually has a higher percentage of women than the 
other branches. We are very proud to see the young women who 
are flying combat missions over Iraq. This is not what the 
Secretary of the Air Force and, frankly, the general should be 
spending anymore time on. The only way you will be able to put 
this to one side is to go ahead and to make the decision to 
have a totally independent look at this.
    Let the chips fall where they may. Let us figure out what 
else needs to be done. The directive is filled with very good 
goals and important language about the values of the Air Force 
and the Academy, but in order to get from where we are to where 
we need to be, there is some good work that has been done over 
the last 30 years in this field that I think would be very 
beneficial.
    I would urge you to look to that. There are some of us who 
might be able to make some suggestions. I know that in some of 
the major challenges I think the Naval Academy faced in 1993, 
and some of our major corporations have faced in similar 
workplace environmental challenges, there are a group of very 
distinguished, responsible advisors who could immediately come 
in and lend credibility and provide that independence that I 
think we desperately need.
    Secretary Roche. Senator, I have absolutely no problems 
with that at all. Those two parts, I liked how you separated 
into the consultative and the independent look. In the 
consultative area, we have received letters from people who 
have volunteered, some of whom have done this before. I know in 
corporate life it has been done.
    By creating the additional duties of ombudsman for the vice 
commandant and then sitting down with her and speaking to her, 
one of the things we want her to do is, in fact, to reach out 
and to bring someone in. Now, they have done some of that, but 
I do not think with the sense of urgency that we would now want 
there to be.
    In terms of having a group take a new, fresh look at the 
whole Academy, once we have these initial steps in place so 
that we did not have to wait for 6 months, then I am quite 
content to do that, and I would hope to raise that with the 
Board of Visitors as to what the composition of that should be 
to take a look at the longer term.
    We felt we had to do something quickly to assure the 
families of the cadets who were coming, roughly 218 young women 
coming in in June, for a total of about 714 in the cadet wing. 
We wanted to put things in place so that we felt comfortable in 
June.
    But certainly as you and I discussed before, this is the 
first step, and we have no problem bringing in outsiders.
    Senator Chambliss. Secretary Roche, you have been on the 
job for about 2 years, and General Jumper, longer than that. 
While this was not initiated on your watch, it is in your lap. 
I think you can see the sentiment of virtually everybody who 
has anything to say, that somebody from the outside needs to 
look at it.
    Now, very honestly, what you have done to this point in 
time, I think is commendable. I think you approached it exactly 
right. If you had gone ahead and gotten a third-party group 
outside, you are right, Mr. Secretary, antics would be ongoing 
as you tried to put an organization together.
    You have approached it right. You have done what you should 
have done. But I think it is probably time that you come back 
to the committee with some sort of recommendation as to where 
you think you need to go, because otherwise it is pretty 
obvious, I think, the committee is going to act, and with your 
recommendations, it would make it a lot easier.
    There is one other group we had not talked about that I 
hope is very much in your minds as you are going through this. 
That is the alumni. They have helped create the climate that 
exists at the Air Force Academy. I have read some reports on 
some particular situations where alumni have made it well known 
that when they were at the Air Force Academy. They did not have 
any females there, and they take great pride in that. The male 
ego tends to do that sometimes.
    The fact of the matter is we have some outstanding young 
women who are not only cadets but are serving in the Air Force. 
We all know that. To try to further any kind of attitude that 
this should be a male-only club just certainly exacerbates the 
problems. So I know you are thinking through that, but we had 
not mentioned that today. I think obviously it needs to be 
given very serious thought as we move forward.
    Secretary Roche. We have had a meeting with the local 
alumni that was not always congenial in the course of 3 hours, 
where we stood up and took our shots and received them. We are 
appalled by that baseball cap with letters from the Class of 
1979. We have made it very clear that we will not tolerate 
that, and we just do not think that any of the alumni should.
    The alumni, many of them, very much agree with us that 
things have gone on over a long period of time, and it was time 
to shed a fresh light and look at this. We are going to be 
communicating with them by letter.
    We will also be doing an article in the alumni magazine on 
this issue, and trying to make them part of the solution 
instead of any part of the problem, if they are part of the 
problem.
    General Jumper. Sir, if I might add, the Secretary and I 
also plan a trip to the Air Force Academy where we will stand 
before the second class, which will be the seniors next year. 
On the stage with us will be one member of each of the 
graduating classes of the United States Air Force Academy. 
Included among them will be astronauts, former Chiefs of Staff 
of the Air Force, pro football players, and others from all 
walks of life who have gone out and been immensely successful. 
The power of the alumni has been offered to us to back us up in 
our endeavors here.
    Senator Chambliss. One other thing that has been mentioned 
over and over again, but it is not the primary focus of what we 
are talking about, is the situation that in a number of 
particular instances I noted it is repeated that alcohol played 
a significant role. I do not know what we are doing with 
respect to concentrating on eliminating that problem in the 
future.
    I know you have talked about it a little bit, and I have 
seen your regulations. I know, General Jumper, you talk 
particularly about putting the senior person, whoever the 
senior person is at a party or a gathering or whatever, as the 
person in charge. But there obviously has to be a concentrated 
effort made to eliminate alcohol use particularly when we are 
throwing female and male cadets together.
    Secretary Roche. Sir, we have rules that we want to re-
emphasize about alcohol in the dorms on campus, underage 
drinking. We will differ from the other academies. We have met 
with the superintendents, the secretaries of the other 
Services, the chiefs of the other Services to go over all of 
our preliminary findings of what we are going to do, and we 
will take tougher measures on the provision of alcohol to 
anyone who is under age in that we will disenroll a cadet who 
does so immediately. That is not the case at the other 
academies. They usually give them one chance.
    We feel that we have to make the alcohol issue a very 
pointed one, because so many of the problems seem to have 
alcohol associated with them.
    Senator Chambliss. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    I think there is one statement which you have made 
repeatedly and before today, which really creates problems with 
maybe all of us on this committee, and that is the statement 
that you made publicly that you cannot hold commanders 
accountable for failure when the climate has been in place for 
a long time. I think everyone on this committee that has 
commented on this has just simply found that totally incredible 
and unacceptable.
    You cannot simply say to people that because something has 
happened that way when you got to the job, that it is 
acceptable for you to do nothing about it if it is wrong and 
when it clearly was wrong, as this climate has been.
    I urge you to review that statement that you have made 
publicly and that you have tried to defend here today 
unsuccessfully, because I think everybody here has a real 
problem with that premise. People are accountable for what 
happens on their watch. If they have tolerated a climate where 
women are discouraged from coming forward to complain about 
sexual assault because they think they will be victimized when 
they do so, that is so totally intolerable, so totally out of 
keeping with what the existing current procedure is supposed to 
be at the Academy, much less what you have put in place. It 
just has to be reviewed by you, and I think corrected, because 
that is the one statement here that I think, as much as 
anything that you have said, is just causing some massive 
concern and reaction on the part of members of this committee.
    Do you know what the procedure is in the Army and the Navy 
relative to that issue in terms of your new amnesty provision?
    Secretary Roche. Yes, sir. If I can go to the first point, 
I will certainly take a look at it again, Senator. As I 
understand my responsibilities, it will mean going back through 
a series of superintendents and commandants.
    Senator Levin. I do not know why you keep saying that. 
Whatever it means, it means. If people have not carried out 
their responsibilities properly, if that leads to other people 
who have not carried out their responsibilities, so be it. You 
can't just say that it is tolerable for people or acceptable or 
that somehow or other you are not going to act against folks 
who have not carried out their responsibility because their 
predecessors did not carry out their responsibility. If you 
hold people accountable now and that will require you to hold 
others accountable, so be it.
    Secretary Roche. Yes, I understand, sir.
    Senator Levin. Whatever it leads to, it leads to. It is 
sort of a mantra here, and I do not get it. I do not 
understand. The fact that something is inherited and will lead 
to other folks who also did not carry out their responsibility, 
that is just absolutely no excuse for not holding folks 
accountable for not carrying out their responsibility. You have 
repeated that half a dozen times. I do not think it will work 
if you repeat it another half a dozen times.
    Secretary Roche. I will review it, sir. I will review all 
the past people as well. If, in fact, the same thing applies 
for a consistent application of standards, I will apply it 
consistently to all.
    Senator Levin. Do what is appropriate, sir.
    Secretary Roche. I understand.
    Senator Levin. But do not exonerate the current folks who 
are in command because that will lead you to other folks who 
have been in command. If it does, it does. Wherever it leads 
you, take it. You cannot say, ``We are not holding this person 
accountable because that means we have to hold someone else 
accountable.'' I mean, that does not wash.
    Secretary Roche. Sir, it was not that. I did not mean to 
say that at all. It is more a matter of where do you start with 
holding people accountable for climate, and where do you end? I 
take the point, and I will look at it all and do it 
appropriately.
    To your question of the other academies, the process of 
holding cadets accountable for infractions of Academy standards 
or regulations associated with an incident is the practice of 
the Naval Academy, as well. So if someone reports a crime at 
some point, the midshipmen who were involved, whether it be 
friends or, in fact, potentially the victim, especially if it 
leads to a situation of no prosecution, will be awarded the 
appropriate demerits, et cetera. As I have reviewed it with the 
Superintendent of the Naval Academy, it is almost the identical 
process.
    However, I believe where we have failed is the fact that 
we, in some cases, did not wait for everything to be complete 
but more importantly, Senator, we did not give feedback to the 
cadet who came forward with the charges to explain what had 
happened. We did that because the officers involved were told 
that they would be violating privacy rights. It turns out they 
were wrong, but that was the advice that they had been given.
    Senator Levin. Mr. Chairman, I think it would be very 
important for this committee to send out to the other 
secretaries the amnesty provision which is now in place in the 
Air Force.
    Secretary Roche. I have given it to them, sir.
    Senator Levin. I see.
    Secretary Roche. I have given it to them. They have it.
    Senator Levin. All right. Then it is important, I would 
hope, for us to ask the other secretaries whether or not they 
are going to adopt the same provision because, unless you 
assure people who come forward with a complaint of sexual 
assault that if that is not proven in a criminal case, that 
action will not be taken against them because there was 
excessive drinking. I mean, that is an absurd result. It means 
again, as Senator Collins said, you are punishing the victim. 
The test that you cannot proceed in a criminal case is a 
totally different standard. It has just nothing to do with this 
issue.
    Secretary Roche. Sir, I completely agree with you.
    Senator Levin. All right.
    Secretary Roche. Absolutely, yes.
    Senator Levin. Then I think it would be up to our Chairman 
as to whether we ask the other Service secretaries to give us 
their reaction to the new language, which has been adopted in 
the Air Force. It seems to me that language, by the way, I 
think has been in effect in the Air Force for all intents and 
purposes when I read what the current standard is--but whether 
or not it has been in effect or not is not the point here. It 
is now in effect, and I think it is important that they be the 
same standard in the other Services, so we make sure we end 
this absurdity of discouraging people from complaining about 
sexual assaults against them.
    My time is up. Thank you, Mr. Chairman.
    Senator Chambliss. Senator Levin, I do know that Senator 
Warner in coordination with you is planning on getting all 
branches back up here to make sure that we have some common 
standard out there that everybody is adhering to.
    Senator Allard.
    Senator Allard. I thank you, Mr. Chairman.
    I want to get back onto this issue of prosecution. What is 
the penalty for rape on Federal property according to military 
justice?
    Secretary Roche. I am not sure. I am sorry. Can I ask 
General Counsel, if I may?
    Senator Allard. Yes. [Pause.]
    Secretary Roche. I think it depends on whether it is----
    Senator Allard. There was an article written in the paper 
that rape on Federal property could result in the death 
penalty, and they cited a case in 1963 where there was an 
Austrian woman that was raped and then the perpetrator in the 
case, a military man, was actually given the death penalty. Is 
that true?
    Ms. Walker. I do not know about that specific case, sir, 
but there could be instances in which under certain 
aggravation, the penalty could rise to that level.
    Senator Allard. Just for the record, the Counsel has said 
that there are certain situations with aggravating 
circumstances that could result in the death penalty.
    Is that what you are saying?
    Ms. Walker. That is my understanding, sir.
    Senator Allard. That is your understanding.
    Ms. Walker. We can provide that information for you.
    Senator Allard. I would appreciate it if you could provide 
that to the committee.
    [The information referred to follows:]

    Aside from Article 120 of the Uniform Code of Military Justice 
(title 10, U.S. Code, section 120), there is no Federal crime of rape. 
There is a provision (title 18, U.S. Code, section 2241) that 
criminalizes ``aggravated sexual assault'' (which encompasses rape) 
that occurs ``in the special maritime and territorial jurisdiction of 
the United States or in a Federal prison.'' The penalty under this 
section can extend to life in prison. The ``special maritime and 
territorial jurisdiction'' includes Federal property over which the 
Federal Government exercises exclusive or concurrent jurisdiction 
(title 18, U.S. Code, section 7). The Air Force Academy is a concurrent 
jurisdiction enclave.
    In addition, State criminal laws (including those related to rape 
and sexual assault) apply on Federal property within the United States, 
either directly or as assimilated into Federal law by the Assimilative 
Crimes Act (title 18, U.S. Code, section 13). The penalty for rape on 
Federal property in the United States under the Assimilative Crimes Act 
is the penalty applicable in the State where the Federal property is 
located
    For military personnel, the Uniform Code of Military Justice (UCMJ) 
provides a uniform criminal code applicable worldwide. Article 120 of 
the UCMJ (title 10, U.S. Code, section 920) provides that ``Any person 
subject to [the UCMJ] who commits an act of sexual intercourse by force 
and without consent, is guilty of rape and shall be punished by death 
or such other punishment as a court-martial may direct.'' The last 
executed death sentence in an Air Force rape case was carried out in 
1954 following a conviction in 1948 under the Articles of War (a 
predecessor of the UCMJ). The last time the death sentence was carried 
out for rape under the UCMJ was in 1961 in an Army case. However, it is 
important to note that in addition to rape, these cases involved 
convictions of murder and attempted murder, respectively.
    In 1977 the Supreme Court, in Coker v. Georgia, 433 U.S. 584, held 
death to be a ``grossly disproportionate and excessive punishment for 
the rape of an adult woman,'' and hence ``forbidden by the Eighth 
Amendment as cruel and unusual punishment.'' Whether the death penalty 
continues to be available for the rape of a minor remains unresolved. 
Other punishments that a court-martial can adjudge in a rape case 
include punitive discharge from the Service (dismissal, dishonorable or 
bad conduct), imprisonment, reduction in grade, and forfeiture of pay.

    Senator Allard. Now, to follow up on that, what steps is 
the Air Force taking to better prosecute these cases?
    Secretary Roche. The first step is to ensure the victim can 
come forward, and the second step is to ensure that when the 
victim comes forward that there is a lawyer and a member of the 
Office of Special Investigations, who work for the vice 
commandant, who can sit down with that victim so that the 
individual understands the elements of a crime and that which 
needs to be proven, so as to be able to collect the correct 
amount of evidence as soon as possible and not have the 
situation go off out of the chain of command for many months, 
which has happened in the past, and then to come back when, in 
many cases, it is much too late.
    So the issue is to be able to start immediately to put 
together evidence which would lead to a successful prosecution 
if, in fact, a prosecution could be obtained.
    Senator Allard. I would hope that they would use some good 
common sense processes. For example, the loss of a rape kit, 
that is just that people are not properly keeping track of the 
evidence. I would hope that there is an effort in there to make 
sure that the chain of evidence is protected in some way or 
another.
    Secretary Roche. Excuse me, Senator. I do not know if the 
General Counsel came upon anything, but I have not heard of us, 
other than that press account, losing rape kits. I know they 
are thrown away when there is no prosecution.
    Senator Allard. There was one individual that reported her 
case to us, and we tried to get evidence about her complaint, 
and the response back from the Air Force Academy is that they 
had lost her rape kit.
    Ms. Walker. I remember that. My team looked at it, and to 
date they have found no rape kits that were lost. It could have 
been a miscommunication, but the investigation thus far has 
found none that were lost.
    Secretary Roche. I agree none should be. There should be a 
chain of custody of these, and usually there is a chain of 
custody.
    Senator Allard. We have a letter from the Air Force 
concerning the loss of a rape kit from OSI. We have some 
information we need to share on this. I hope that we can set up 
some procedures where that does not happen. OSI seems to think 
it has happened, and we have a letter that says it happened.
    Secretary Roche. If things are done within the chain of 
command, Senator, you have a heck of a lot better chance for 
that not occurring, for things not being lost.
    Senator Allard. Okay.
    General Jumper. One of the steps, Senator, if I might add, 
is to get these consulting mechanisms that are outside the 
chain of command to first encourage the victim to come into the 
chain of command and, as I said, to be able to deal with the 
emotional side of this so that there can be confidence that 
when they come to the chain of command it will be dealt with in 
the right way.
    Senator Allard. I agree with you. We have to create the 
environment where the victim feels comfortable in reporting the 
rape or the sexual assault case that occurs. But the next step 
is to be able to protect that chain of evidence.
    Secretary Roche. Absolutely.
    Senator Allard. I would hope that the Academy looks at 
working with the local district attorney or having somebody on 
the staff who understands how you can protect the evidence so 
that when you have to go to court or what not, you have the 
information you need to make these set of cases hold up. One of 
the comments that you have made rather consistently is the 
cases seem weak or not. It could be because there was 
inadequate collection of evidence. That seems to me like that 
is an important thing that needs to be looked at.
    Secretary Roche. It's certainly the case when there is a 4-
, 5-, 6-month delay between the incident and when it is 
reported. Remember, we have some that are 2 years old.
    Senator Allard. The other question I want to bring up and 
talk with you a little bit, and you have alluded from time to 
time that the cadets have a certain responsibility with this 
problem. Have you consulted with the cadets to see if they have 
any suggestions? If so, can you share some of their thoughts 
with us?
    Secretary Roche. The investigative team has. I have talked 
to some cadets. General Jumper has. In many cases, the ones 
with whom I spoke, a number of them believe that they have an 
obligation to do a better job of identifying people who they 
know have done something wrong. The issue that I think they are 
quite ashamed of is some of the ostracization that occurs, the 
shunning, when a victim comes forward, that the little comments 
that are made to that end--that is why in our agenda for 
change, we require that the cadet leaders of squadrons be held 
responsible for ensuring that does not occur.
    General, some points?
    General Jumper. I have met also with several focus groups 
at random and carefully selected among the cadet leadership. I 
have found that the majority of them are responsible. I have 
found outrage on the part of most cadets that this is caused by 
a very few, and the many are getting punished. I have not much 
sympathy with that observation in that it is the cadets who are 
there who have a chance to be a responsible part of the changes 
that we have underway.
    I found quite frankly some cases where ``If you fire this 
person and this person, and leave the rest of us alone, we will 
be just fine,'' which, again, is--I find disturbing, in that 
this lack of ability to accept a certain amount of 
responsibility among a certain minority of cadets.
    Now, these are the things we are working on, Senator, to 
make sure that the burden is felt and understood by the cadets 
that are there.
    Senator Allard. I think every member of this committee, 
including myself, has raised the question: Why is it that we 
have a problem like this at the Air Force Academy and we do not 
appear to have this kind of a problem at the other academies? I 
wonder if you have asked yourselves that and if you have come 
up with any solutions or any observations that you can share 
with this committee.
    Secretary Roche. The benchmarking I did principally was 
with the Naval Academy, because it had a process that was very 
similar, with the following exception: At the Naval Academy as 
on any of our Air Force bases, if someone comes forward with an 
allegation of sexual assault--and recognizing that the 
Academy's definition is very broad, in fact, too broad, it 
would include an unwanted kiss, for instance, it could be 
construed as sexual assault as compared to the more legal 
definitions of indecent assault, sodomy or rape, at the Naval 
Academy you can't make a report that does not go into the chain 
of command system. Now, you can make the report to a chaplain, 
to a set of counselors, to the company officer who is 
comparable to an Air Officer Commanding, at any one of about 
five or six positions. We have paralleled that. That is one 
major difference, that you do not have something go off into a 
consulting group or a counseling group that is associated with 
a particular department in the institution.
    Senator Allard. That is what was happening in the Air Force 
Academy, as opposed to the chain of command?
    Secretary Roche. There were a number of cases where things 
did not get into the chain of command. For instance, at the Air 
Force Academy, depending on how the cadet and the counselor 
felt, the commandant could be told there was an incident, but 
not be told who was the victim and who was the alleged 
perpetrator, unless the commandant then forced, or the 
superintendent, to have that information divulged. This is the 
whole issue of privacy as compared with confidentiality. 
Whereas, at the Naval Academy, once it is reported, you 
surround the victim, as does any one of our airmen at one of 
our bases, and the process goes forward.
    The second thing is the Naval Academy did not have the 
problem of feedback to the accuser, where at the Air Force 
Academy there was a false sense of violation of privacy rights, 
and which had limited how much information was provided to the 
accuser, the victim, so that she might know what had gone 
forward, why there was no Uniform Code of Military Justice 
process.
    In a number of cases, the individuals who were accused were 
investigated, given polygraphs, and passed the polygraphs. It 
is not clear that any of the victims were ever told that, so 
that they would understand that there are two sides to this, 
and that the other side has or at least the individual thought 
there was consent. That is another difference.
    The issuing of demerits for Academy violations, as I say, 
existed at the Naval Academy, and we have decided to do away 
with that, so as to be able to ensure we receive information.
    In terms of any kinds of shunning, they put the 
responsibility on the senior midshipmen to ensure that does not 
occur, and we are putting responsibility on the senior cadets 
to make sure it does not occur. So we have tried to go through 
what their processes are.
    Senator Allard. Mr. Chairman, I have been informed we have 
a vote going.
    Senator Chambliss. We have just a couple of minutes left.
    Senator Allard. So I know--you want to stop this. So I 
just--again, I reiterate that this is--we cannot tolerate this.
    Secretary Roche. I agree.
    Senator Allard. I think you agree with that.
    Secretary Roche. Yes.
    Senator Allard. We need to take some very meaningful steps. 
I think that you have taken a first step. I think we need to 
continue to evaluate and look at it. I think that those of us 
that are on this committee in future years have a 
responsibility to keep our fingers on this pulse. I think that 
probably each one of you recognize that this is not going to go 
away in 1 year. We have to keep after it. So I just ask that 
you work with the committee, because this is a serious problem 
we need to get eliminated as quickly as possible.
    Secretary Roche. We absolutely agree, Senator, and thank 
you for the help you have given us.
    Senator Chambliss. Gentlemen, thank you all very much for 
being here and helping us deal with this very sensitive 
problem. I thank you for your leadership. Thank you also for 
what you have done for our men and women in Iraq today.
    We will continue to work with you as we move down the road 
to make sure that we all have great confidence in every single 
nominee to the Air Force Academy and every other academy. Thank 
you.
    Secretary Roche. Thank you, Senator.
    General Jumper. Thank you, Senator.
    Senator Chambliss. Thank you. We are adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain

                       AIR FORCE ACADEMY SURVEYS

    1. Senator McCain. Secretary Roche, what can you tell me about 
surveys that were conducted at the U.S. Air Force Academy in 1997, 
1998, 1999, 2000, 2001, and 2002?
    Secretary Roche. The Academy has included various questions about 
sexual assault, gender climate, and sexual harassment in its annual 
climate surveys since 1996. The results of these surveys are being 
considered by the Working Group that I chartered to examine sexual 
assault issues at the Academy and will be discussed in the Working 
Group's report.

    2. Senator McCain. Secretary Roche, what conclusions could be 
reached from these surveys about reports of sexual harassment, sexual 
assault, and rape?
    Secretary Roche. These surveys are still being analyzed by the 
Working Group, and I'm reluctant to draw any firm conclusions without 
the benefit of their analysis. It does appear, though, that these 
surveys, if properly interpreted, could have served as a warning that a 
significant number of cadets were concerned about the gender climate 
and sexual assault.

    3. Senator McCain. Secretary Roche, when are you going to make 
these critical surveys available to this committee?
    Secretary Roche. This survey data will be included in the report of 
the Working Group, which will be available to the committee as soon as 
it is completed.

    4. Senator McCain. Secretary Roche, a survey reports that 10 
percent of the women said they were sexually assaulted, 75 percent of 
the women in that command said to you that they were afraid to come 
forward in cases of rape because of the reprisals that they would 
endure, and 16 women were brave enough to actually come forward and 
report cases of sexual assault and rape. Why did you decide to dismiss 
these surveys outright or to dismiss them as statistically not valid?
    Secretary Roche. We have not dismissed these surveys. As I said 
previously, they are being considered and analyzed by the Working Group 
that I chartered to consider sexual assault issues at the Academy. We 
have some concern about the statistical validity of these surveys 
because of survey methodology, sample size, and a number of anomalous 
responses (some cadets appear not to have taken the surveys seriously). 
We are concerned in particular about our ability to infer trend data 
from them, because the survey questions and other methodology changed 
from year to year. That doesn't mean, though, that no useful 
information can be derived from them. We will be able to provide more 
information about the utility of these surveys when the Working Group 
completes its report.

                     BEHAVIOR OF THE OFFICER CORPS

    5. Senator McCain. Secretary Roche, if this type of behavior has 
been going on for at least 10 years and there is a climate at the Air 
Force Academy that suggests that cadets are afraid to come forward to 
report cases of sexual misconduct and rape, in what manner have you 
also begun to examine the behavior of the officer corps?
    Secretary Roche. The data we have gathered so far suggests that, to 
the extent the climate at the Academy has discouraged some cadets from 
reporting instances of sexual assault, it has largely been due to 
factors that the Academy environment has exacerbated, including peer 
pressure and victims' apprehension (whether or not well-founded) that 
they may be disciplined for infractions of Academy rules associated 
with the incident. There are no indications that similar conditions are 
prevalent in the officer corps at large. We will remain vigilant, 
however, for evidence that any aspect of this problem may have ``bled 
over'' into the larger Air Force.

    DISCIPLINARY ACTION AGAINST LEADERSHIP AT THE AIR FORCE ACADEMY

    6. Senator McCain. Secretary Roche, have you reprimanded or 
disciplined the leadership at the U.S. Air Force Academy?
    Secretary Roche. As you are aware, I have replaced the leadership 
team at the Academy. I did so because I believe new leadership can most 
effectively implement the changes General Jumper and I have directed at 
the Academy in our Agenda for Change, announced on March 26, 2003, and 
any future changes we may find appropriate after receiving the reports 
of the Working Group, the Air Force and DOD Inspectors General, and the 
review group recently mandated by Congress. I have not reprimanded or 
disciplined anyone and at this point, with several reviews and 
investigations of the Academy situation incomplete, I do not think it 
would be appropriate to do so. I intend to take another look at this 
issue when all the relevant information is in.

                      OUTSIDE PANEL INVESTIGATION

    7. Senator McCain. Secretary Roche, please discuss your views on 
the establishment of an outside panel similar to that set up at the 
Naval Academy to look into the serious circumstances facing the Air 
Force Academy. Please include a discussion of why you have rejected the 
creation of such a panel up to this point, and explain more fully your 
recent comment to the press regarding how your Harvard Business School 
training has led you to believe only an internal review is needed.
    Secretary Roche. I have no objection to an outside review of the 
circumstances at the Air Force Academy and welcome the fresh 
perspective that the review group recently mandated by Congress will 
bring to bear on the situation. At the outset, though, we needed 
answers quickly, and the best way to accomplish that was through an 
internal review. Accordingly I chartered a high-level working group, 
under the leadership of the Air Force General Counsel, to review 
circumstances at the Academy relating to sexual assault. The Working 
Group has largely completed its review, which has been both thorough 
and impartial, and is preparing its report, which will be made 
available to committee when it is completed.

    [Whereupon, at 6:25 p.m., the committee adjourned.]


  REPORT OF THE PANEL TO REVIEW SEXUAL MISCONDUCT ALLEGATIONS AT THE 
                    UNITED STATES AIR FORCE ACADEMY

                              ----------                              


                     WEDNESDAY, SEPTEMBER 24, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:48 a.m. in room 
SR-325, Russell Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Allard, 
Collins, Chambliss, Dole, Levin, Reed, Akaka, E. Benjamin 
Nelson, Dayton, Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Pendred K. Wilson, receptionist.
    Majority staff members present: Gregory T. Kiley, 
professional staff member; Patricia L. Lewis, professional 
staff member; Ann M. Mittermeyer, counsel; Scott W. Stucky, 
general counsel; and Richard F. Walsh, counsel.
    Minority staff member present: Gerald J. Leeling, minority 
counsel.
    Staff assistants present: Michael N. Berger, Andrew Kent, 
and Nicholas W. West.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; Jayson Roehl, assistant to Senator Allard; 
Lindsey R. Neas, assistant to Senator Talent; Clyde A. Taylor 
IV, assistant to Senator Chambliss; Christine O. Hill, 
assistant to Senator Dole; Mieke Y. Eoyang, assistant to 
Senator Kennedy; Elizabeth King, assistant to Senator Reed; 
Davelyn Noelani Kalipi, assistant to Senator Akaka; William K. 
Sutey, assistant to Senator Bill Nelson; William Todd Houchins, 
assistant to Senator Dayton; Andrew Shapiro, assistant to 
Senator Clinton; and Terri Glaze, assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, all. I welcome this very 
distinguished panel. Congresswoman Fowler and members of your 
panel, thank you for your public service. Well done. As we say 
in the Navy-Marine Corps: well done, ma'am.
    I have been fortunate, as have other members of the 
committee, to have worked with Congresswoman Fowler for many 
years. She was on the counterpart of this committee in the 
House of Representatives and a real leader in military affairs. 
It is fortunate, not only for the Air Force, but for the 
country, that you and your colleagues took on this very 
challenging task.
    I have known several members of the panel very well. 
Colonel Ripley is a distinguished Marine Corps officer. I was 
not a distinguished Marine Corps officer, but a marine anyway, 
but never in any way that could match his career. General 
Bunting was, of course, head of VMI in our State; and others on 
the panel that I have come to know through your distinguished 
reputations and your wonderful job on this report.
    We meet today to receive testimony on this report of ``The 
Panel to Review Sexual Misconduct Allegations at the United 
States Air Force Academy.'' That is a frightening title, but 
this panel was created by the Congress of the United States. 
These fine Senators on my right and on my left determined at 
one point in time that an unbiased, unaffiliated group of our 
citizens had to be brought together under the strong leadership 
of you, Congresswoman Fowler, to make this assessment for 
Congress. You have done just that.
    So we thank you very much, particularly for the forthright 
and fair manner in which you identified failures of leadership. 
Failures of leadership is a tough thing to say to any member of 
the United States military, but you had the courage to gather 
the facts and to reach those conclusions.
    Hopefully, your work will prevent any such behavior being 
repeated, not only at the Air Force Academy, but at West Point 
and at Annapolis. Those three institutions are the crown jewels 
of their respective branches of service. There is a very close 
identification between those educational institutions and the 
Congress of the United States. Every member on this panel takes 
a lot of time to select from literally hundreds of individuals 
who come to each of us seeking nominations to those academies. 
We work very industriously to nominate only the best and the 
finest. This is not an institution, the academy structure, that 
is just out there. This is a part of the daily activities of 
every Member of the United States Congress.
    As I say, we owe you a debt of gratitude. We were all 
shocked, not only Congress but America, and distressed by the 
allegations of alleged sexual assaults at the Air Force 
Academy, which first came to the attention indeed of Congress--
and this is a unique function of Congress. When the executive 
branch has failures, people in this country turn to their 
Members of Congress to ask them to examine the situation. That 
was precisely what was done here.
    Before you testify, I would like to set forth for the 
record the sequence of events as I understand them--and other 
members will have their views, but I think we are unanimous on 
this--that led to the establishment of this panel. In January 
2003, Senator Allard, whom I want to commend, came to us and 
brought certain correspondence and statements to the attention 
of myself and other members of the committee.
    He particularly informed me about a female cadet who 
asserted that she had been raped at the United States Air Force 
Academy and who alleged that officials at the Academy had 
attempted to prevent an investigation of this incident. Senator 
Allard and I, at that time, wrote letters both to the 
Department of Defense and to the Department of Defense 
Inspector General (DODIG). We will have more to say about that, 
asking that they look into this allegation.
    We purposely went to the DODIG because we felt there had to 
be a measure of independence within the Department, even though 
the Department of the Air Force had begun its own 
investigation.
    In response to these allegations, Secretary Roche formed a 
working group headed by the General Counsel of the Air Force, 
Mary Walker. Her nomination came before this committee for 
advice and consent and from all we know she is a very capable, 
able professional. The task of the working group was, ``to 
review cadet complaints and the policies, programs, and 
practices of the Academy.''
    Secretary Roche and General Jumper testified at a hearing 
on March 6, 2003, about the progress of the General Counsel's 
investigation. Secretary Roche promised the report and 
recommendations for change would be submitted to Congress by 
the end of March 2003.
    While the Air Force working group was conducting its 
investigation of over 50 female cadets who had come forward 
with allegations of sexual misconduct, members of this 
committee learned of additional allegations of reprisals 
against victims of sexual assaults at the Air Force Academy, 
who had reported attacks against them. These reports included 
``shunning or ostracizing of victims by fellow male and female 
cadets.''
    The committee learned of a profound lack of trust and 
confidence by female cadets in the former superintendent and 
the commandant of the Air Force Academy to respond 
appropriately to allegations. Perhaps most surprising in view 
of the fact that women have attended the Air Force Academy for 
over 25 years, and taking into account the strides made to 
eliminate sexual harassment overall in the Armed Forces over 
the past decade, this committee learned of allegations of a 
climate of hostility towards women at the Academy and 
acceptance of that climate--I repeat, acceptance of that 
climate--by cadets, faculty, and Air Force leadership.
    On March 26, Secretary Roche and Air Force Chief of Staff 
Jumper publicly announced their ``Agenda for Change'' at the 
Academy. They directed changes at the Academy designed to 
correct conditions that contributed to abuses. A surprising 
aspect of their announcement, however, was Secretary Roche's 
determination that ``as the problems regarding sexual assault 
allegations predate the current leadership, we do not hold 
Generals Dallager or Gilbert responsible,'' and a press release 
to that effect was issued by the Department of the Air Force.
    On March 31, at a full committee hearing of this committee 
on the problems of the Air Force Academy, Secretary Roche 
repeated his assertion that the Air Force Academy leadership 
would not be held accountable for the very serious problems at 
the Academy and would not be replaced. Members of this 
committee at that hearing expressed our deep concerns about the 
direction in which Air Force leadership was going at that time 
and the lack of accountability.
    Secretary Roche subsequently changed course 180 degrees and 
transferred the superintendent, the commandant, and other 
Academy officials. In addition, in July of this year he 
recommended the former superintendent be retired at a lower 
grade. But the Secretary's initial assessment and conclusions 
clearly indicated that an independent panel such as yours, 
Congresswoman Fowler, was needed and Congress acted swiftly to 
make that happen.
    The legislation establishing this panel was drafted by 
Senate Armed Services committee members and included in the 
Emergency Wartime Supplemental Appropriations Act for Fiscal 
Year 2003. Recognizing the urgency of the situation, the panel 
was given only 90 days to do its task as best it could, and we 
recognize the shortness of time. But, having read this report, 
I think you met the challenge.
    On June 17, a few days before the first meeting of this 
panel, the Air Force released the General Counsel's working 
group report. The conclusion of that working group that there 
was ``no systematic acceptance of sexual assault at the 
Academy,'' ``no institutional avoidance of responsibility,'' 
and ``no systematic maltreatment of cadets who reported sexual 
assault'' has justifiably been challenged by Congresswoman 
Fowler and her colleagues on this panel.
    The Air Force General Counsel's conclusion in her report 
that ``a less than optimal environment to deter and respond to 
sexual assault or bringing assailants to justice'' existed at 
the Academy demonstrates the protective mentality that 
undermined the efforts within the Air Force and the working 
group to deal with the problem.
    Therefore, before this committee right now is the question, 
does the working group's decision, which was not to 
specifically address the accountability of various Air Force 
leaders, both military and civilian, regrettably, undermine the 
usefulness of their report? Who made that decision? We will 
find out.
    At this point, I would like to address the pending 
nomination of Secretary Roche. It is submitted by the President 
and the Secretary of Defense and is before this committee. The 
committee will work together on this. I will ask for the 
opinions of each member of the committee as to how this rather 
unique nomination is to be handled. But the point being, it is 
before the committee and certain aspects of his accountability 
or nonaccountability are before this committee as part of our 
advise and consent proceedings.
    I will address several specifics now that were raised by 
your report. While issues relating to accountability of Air 
Force leadership are still being reviewed by the DODIG, I have 
expressed my concerns about proceeding with the Senate 
consideration of the Roche nomination. I did so to the White 
House. I have released the letters. I wrote the President's 
Counsel and asked him if Congress is on notice that the 
executive branch is examining the accountability of a nominee 
that has been submitted by the President, can we in good faith 
proceed with the nomination until such time as all actions by 
the executive branch are completed? That letter has not yet 
been answered by the Counsel to the President.
    So we will have to review that situation. But I point out 
that I am in no way indicating any bias one way or another on 
the Roche nomination. I simply have a duty as chairman to 
consult with my members and to reach our own conclusions. But I 
point out in your report, you task the Inspector General (IG) 
to specifically examine the question of accountability 
regarding the top leadership of the Department of the Air 
Force. Am I not correct?
    Ms. Fowler. Yes, sir.
    Chairman Warner. So we have to determine the IG's actions 
on that. Now, the IG did write to the committee and indicated 
at this time he had no evidence before him to raise questions 
about Secretary Roche. But as you say, he has not yet completed 
his work. You indicate that in your report.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, thank you. Let me first join 
you in thanking, congratulating, and commending Congresswoman 
Fowler and her colleagues on the panel for their thorough and 
comprehensive review of the longstanding problems with sexual 
misconduct at the Air Force Academy. It is an impressive 
report, particularly because this panel had only 90 days to 
conduct an investigation and to prepare the report.
    All Senators nominate young men and women from our States 
to the Service Academies. Each of us does so with the belief 
that we are placing these young adults in a safe and secure 
environment where they will receive a first class education and 
where they will be groomed for officership in our Armed Forces.
    Earlier this year, we heard of a pattern at the Air Force 
Academy of victims of sexual assaults being discouraged from 
reporting the incidents, that their complaints were not fully 
investigated, that they were ostracized by other cadets, and 
that they, the victims, were punished by the Academy for 
infractions brought to light only because they reported that 
they had been assaulted.
    In the words of the panel, the leadership at the Academy 
and the Air Force headquarters ``failed to respond aggressively 
and in a timely and committed way to eliminate causes of 
serious problems, and that was a failure of leadership.'' As a 
result, the panel went on, ``female cadets entrusted to the 
Academy have suffered, sexual offenders may have been 
commissioned as Air Force officers, and the reputation of a 
fine institution has been tarnished.''
    Our first order of business has to be to ensure that 
appropriate changes are made at the Air Force Academy to 
provide a safe and secure environment for cadets. This involves 
specific policy changes to improve the Academy environment, as 
well as efforts to hold leaders accountable where the facts 
reflect a failure of leadership. This report provides the basis 
for the Air Force to urgently and strongly address this 
longstanding problem and it will assist us as we oversee these 
actions. Accountability is the key to change. Without it, 
change will be less certain and will be slower.
    The report's conclusion is compelling. ``In addition to 
holding accountable those leaders who fail the Academy and its 
cadets,'' the report says, ``the Air Force must permanently 
change the Academy's institutional culture and implement 
command and oversight improvements that will identify and 
correct problems before they become ingrained in the fabric of 
the institution.''
    Again, I want to thank you, Congresswoman Fowler and each 
of her colleagues, for this is extraordinarily well done.
    Chairman Warner. Before we begin, I would like to submit 
the opening statement of my colleague, Senator Cornyn.
    [The prepared statement of Senator Cornyn follows:]

               Prepared Statement by Senator John Cornyn

    I would like to commend Congresswoman Tillie Fowler and the other 
members of the Panel to Review Sexual Misconduct Allegations at the 
United States Air Force Academy for their thorough and outstanding work 
in preparing the report before the committee today. This report 
provides us many vital recommendations to overhaul the manner in which 
the Air Force Academy handles sexual assault reporting and to create an 
environment free from all forms of sexual harassment. I look forward to 
working with Chairman Warner and other members of the Armed Services 
Committee to study these recommendations for implementation and to 
provide the necessary oversight to ensure that we resolve the problems 
at the Air Force Academy.
    As noted in the report, ``during the 10-year period from January 1, 
1993 through December 31, 2002, there were 142 allegations of sexual 
assault at the Academy, for an average of more than 14 allegations per 
year.'' Furthermore, the Department of Defense Inspector General 
disclosed that a May 2003 survey of Academy cadets showed that 80.8 
percent of females who said they have been victims of sexual assault at 
the Academy did not report the incident. That is simply unacceptable.
    I am deeply saddened and troubled by these findings, and I believe 
we must make every effort to ensure that the Air Force Academy 
environment is free from the fear of sexual harassment. In those 
unfortunate cases when sexual harassment does occur, the victims must 
have the appropriate avenues to report these crimes and receive the 
necessary counseling. Finally, the perpetrators of these crimes must be 
held accountable and punished to the fullest extent of the law. These 
despicable acts and the environment of fear they incite have no place 
in our Nation's military, at any level. We cannot and must not tolerate 
an atmosphere that does not promote the well-being of our cadets.
    I am also deeply concerned by the panel's finding that ``the 
highest levels of leadership had information about serious problems at 
the Academy, yet failed to take effective action.'' The young men and 
women who serve in our Armed Forces rely on the judgment of their 
leadership for guidance and training. Leadership that does not respond 
to serious problems under its command is guilty of a crime of equal 
measure. This leadership, whether present or former, must be held 
accountable for the failures of command at the Air Force Academy.
    As noted by Congresswoman Fowler in her testimony, ``change will 
not happen overnight, nor will it be truly effective without a 
sustained, dedicated focus by Academy officials and senior Air Force 
leadership.'' Although the panel noted that they were impressed with 
the leadership of Secretary Roche and General Jumper, it is absolutely 
crucial that the Air Force continues to pay necessary attention to this 
problem. We cannot allow for another failure of leadership to occur 
when the public spotlight fades.
    I concur with the panel's conclusion that ``the reputation of the 
Air Force Academy, and by extension the Air Force it serves, depends on 
finding a lasting solution to this problem.'' I will work with Chairman 
Warner and the Air Force leadership to ensure that the Air Force 
Academy will have a safe and secure learning environment for all 
cadets. We cannot afford to allow the problems of the past to continue.

    Chairman Warner. We will have a 7-minute round for each 
Senator so that time would be available to incorporate such 
opening comments as you would like to make. So we will now 
proceed, Congresswoman Fowler, to receive your report on behalf 
of the committee.

  STATEMENT OF HON. TILLIE K. FOWLER, CHAIRMAN, THE PANEL TO 
 REVIEW SEXUAL MISCONDUCT ALLEGATIONS AT THE UNITED STATES AIR 
 FORCE ACADEMY; ACCOMPANIED BY PANEL MEMBERS: LT. GEN. JOSIAH 
 BUNTING III, USA [RET.], ANITA M. CARPENTER; LAURA L. MILLER, 
  PH.D.; MAJ. GEN. MICHAEL J. NARDOTTI, JR., USA [RET.]; COL. 
     JOHN W. RIPLEY, USMC [RET.]; AND SALLY L. SATEL, M.D.

    Ms. Fowler. Thank you, Mr. Chairman. I appreciate your 
having this hearing today. Before I start into my statement, I 
wanted to tell you what I thought of today when I walked into 
this room. It is a very historic room. I am from the State of 
Georgia originally and Senator Russell was a good friend of my 
family's and I knew him well at one point in my life. So it is 
an honor to be in this room and in this building.
    Thank you again for having this hearing today. I want to 
first introduce officially the members of this outstanding 
panel, because this has been a panel that has really worked 
diligently. We would not have made it within the 90-day 
timeframe if everyone had not been involved in this really 
almost full time to get this report done.
    To my left is Dr. Sally Satel, Colonel John Ripley, General 
Mike Nardotti, and to my right, Ms. Anita Carpenter, General Si 
Bunting, and Dr. Laura Miller. They have each really worked 
hard, and their only agenda was to ensure that every cadet at 
the Air Force Academy had a safe and secure learning 
environment. That is what we have tried to do through our 
recommendations.
    I would also like to recognize the absolutely wonderful 
staff that we have. If they could just stand briefly. They are 
on the front row here. They really were the backbone of this, 
and they have worked many long nights and hours to get this 
done within the timeframe. They did an outstanding job putting 
this together and doing the investigatory work and the 
interviews that needed to be done. So I want to thank them, 
too.
    Chairman Warner. Congresswoman Fowler, I would ask that you 
put into your record this morning the names and the positions 
of each of these staff members, because the hearing record will 
be printed up and I think that many people across the Nation 
would like to express their appreciation to your staff.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Ms. Fowler. We will do that, Senator, thank you. I do have, 
in the back of the report in the appendix is a list of all of 
them, too, and their titles. But we will add that for the 
record also today.
    I want to thank you for holding this important hearing and 
giving me the opportunity to report to you in person on the 
findings of our panel, as required by section 501 of Public Law 
108-11. I know of your leadership and the leadership of this 
committee in instituting this panel. So I really appreciate it. 
I think there was definitely a need for this panel. The Senate 
Armed Services Committee and the House Armed Services Committee 
really worked together to have this established, and I think we 
will see today there was a reason for it.
    Mr. Chairman, there is a quotation I found when I was doing 
some of the work on this, that Socrates likened one's 
reputation to fire when he said, ``When once you have kindled 
it, you may easily preserve it. But if you once extinguish it, 
you will find it an arduous task to rekindle it again.''
    Since the first cadets arrived at the U.S. Air Force 
Academy in 1955, nearly all have lived by the core values of 
the United States Air Force: integrity first, service before 
self, excellence in all we do. By doing so, they kindle the 
kind of reputation for the Academy that we would expect of such 
an institution.
    While not extinguishing it, the sexual assault scandal that 
has plagued the United States Air Force Academy recently has 
certainly tarnished the reputation of this great institution. 
We appear before you today to continue the arduous task of 
restoring both confidence in the Academy and safety for its 
cadets.
    Mr. Chairman, women have served our Nation admirably in 
times of war and in times of peace. They have graduated from 
the Air Force Academy since 1980 and served their country with 
distinction, even paying the ultimate price. I would like to 
call your attention to Section 6, Row F, Number 13. No, it is 
not a reference to a particular section of our panel's final 
report. It is not a seat in Falcon Stadium at Colorado Springs. 
Section 6, Row F, Number 13 is located at the U.S. Air Force 
Academy Cemetery. It is the final resting place of Academy 
graduate First Lieutenant Laura Piper. Lieutenant Piper was 
killed in the line of duty when her Blackhawk helicopter was 
shot down over northern Iraq on April 14, 1994, just 2 years 
after graduating from the Air Force Academy.
    What our panel has learned about the treatment of some 
women at the Air Force Academy is an injustice to all who have 
gone there, women and men. It is not befitting of the sterling 
reputation kindled for so long by more than 35,000 cadets from 
44 classes who have graduated from this institution. Quite 
frankly, Mr. Chairman, it is simply an insult to the career and 
the memory of First Lieutenant Laura Piper.
    When a new round of sexual assault allegations at the 
Academy surfaced earlier this year, this committee wisely 
decided to take a new approach to a problem that has plagued 
the Academy for at least a decade and quite possibly for as 
long as women have attended the institution. You, along with 
your colleagues in the other body, insisted on the creation of 
an independent panel of seven private citizens to, according to 
the public law, ``carry out a study of the policies, 
management, and organizational practices, and cultural elements 
of the United States Air Force Academy that were conducive to 
allowing sexual misconduct, including sexual assaults and rape, 
at the United States Air Force Academy.''
    On May 27, 2003, using the criteria established in the law, 
Secretary Rumsfeld appointed the seven members of our panel, 
and I am pleased that they are all with me today, as I have 
introduced them earlier. I think it is important for the 
members of this committee to know that this all-volunteer force 
could not have been more serious, more dedicated, and more 
determined to solve this problem. I think the best way to 
describe their dedication is to say that each approached this 
effort as if their own daughter was a cadet at the Academy 
today.
    As a result, the panel's final report offers substantive 
and constructive recommendations to rebuild the Academy's 
commitment to its cadets and to the American people. Our 
priority was to help ensure a safe and secure learning 
environment for all the Academy's cadets.
    Unfortunately, the environment at the Academy has been 
anything but. The statistics are appalling. During the 10-year 
period from January 1, 1993, through December 31, 2002, there 
were 142 allegations of sexual assault at the Academy--these 
are known allegations--for an average of more than 14 
allegations a year. That is unacceptable for an institution 
training our Nation's future military leaders. Let me be clear: 
one incident is unacceptable.
    The roots of this crisis go as deep as the institution's 
culture. We found the most striking indicator of the existence 
of a hostile environment for female cadets in the Academy's own 
survey data, data that was simply dismissed by leadership 
because it was ``unscientific.'' Just last year, more than one-
fourth of the responding male cadets stated that they did not 
believe that women belonged at the Academy. One cadet fourth 
class wrote, ``Even with women in the Armed Forces, they should 
not be at the Military Academies.'' Another, ``Women are 
worthless and should be taken away from the United States Air 
Force Academy.''
    These comments are even more unsettling when you consider 
that women have been at the U.S. Air Force Academy since before 
these young men were even born. Representative Heather Wilson 
had already graduated from the Academy and earned a Rhodes 
Scholarship before they celebrated their first birthday. Eight 
years before they would arrive at the Academy, graduate Laura 
Piper was returning for the last time. These young men have no 
memory of an Air Force Academy without women, yet somehow they 
believe it should be that way.
    When such beliefs cannot be attributed to experience, they 
must then be attributed to character and values. These are 
learned traits and when an institution of higher learning finds 
warning signs like these in its surveys, scientific or not, 
that institution has a problem and an obligation to correct it. 
This report outlines the steps the Academy must take to 
strengthen its character development programs.
    Panel members experienced the gravity of this crisis first-
hand during our visit to Colorado Springs. We were stunned to 
hear stories from victims, many still too afraid to go public 
with their stories and, more disturbing, too afraid to make an 
official report of the crime. They shared with us how their 
lives had been torn apart by violent assault and an aftermath 
that most of them suffered alone and in silence because of an 
atmosphere of fear and retribution by peers aided by either 
indifference, incompetence, or a combination of both by an 
Academy leadership that they believe failed them.
    Our closed-door experience with these victims is what 
drives our concern with the Agenda for Change policy that 
eliminates any form of confidential reporting of sexual 
assaults. The panel is very concerned that stripping away all 
confidentiality takes the Academy backwards to 1995, when the 
lack of confidentiality resulted in underground support groups 
and unreported crimes. The panel believes that a balance must 
be maintained between the support and treatment of victims and 
the prosecution of assailants. Confidentiality is the fulcrum 
on which that balance can exist and it must remain an option 
for all victims of sexual assault at the Academy.
    The Agenda for Change overlooks an established form of 
privileged communication that is currently available throughout 
the Armed Forces and could benefit cadet victims: the 
psychotherapist-patient privilege. This method of 
confidentiality has been available to the Academy since the 
psychotherapist-patient relationship was recognized in 1999 by 
Presidential Executive Order and implemented in Military Rule 
of Evidence 513. It is in use by both West Point and Annapolis.
    Accordingly, we recommend the creation of a program that 
combines the existing CASIE program, which stands for ``Cadets 
Advocating Sexual Integrity and Education'' with a trained 
victim advocate psychotherapist managing the program. This 
would ensure that the Academy has available to all sexual 
assault victims an established form of privileged communication 
within which to report their assault.
    Giving victims choices helps them regain a sense of control 
over their lives and promotes the healing process. Having a 
trained psychotherapist explain the consequences of their 
choices also increases opportunities for making the right 
choices, thereby further helping to encourage the reporting of 
these crimes. The Academy should not be the only Service 
Academy not to offer this form of confidential reporting.
    The sexual assault problems at the Academy are real and 
continue to this day. But the panel is encouraged by a renewed 
emphasis in Washington to immediately address and solve this 
problem. We are impressed with the leadership of Secretary 
Roche and General Jumper, a much-needed addition after a decade 
of inaction and failures.
    Secretary Roche made a step towards serious reform this 
year by rolling out his Agenda for Change and replacing the 
Academy's leadership team with one that has been quick to take 
action. Though the members of this panel want to be clear, the 
Agenda for Change should be seen as a blueprint, an initial 
step in reversing years of institutional ineffectiveness.
    Each of our panel members agrees that change will not 
happen overnight, nor will it be truly effective without a 
sustained, dedicated focus by Academy officials and senior Air 
Force leadership. The very culture of the Academy must be 
altered before real change can be maintained for future 
generations.
    The panel found that a consistent flaw in previous attempts 
to address this problem, and a flaw that allowed it to happen 
in the first place, was the lack of external oversight. The 
panel recommends the Board of Visitors operates more like a 
corporate board of directors. We recommend the formation of 
committees with specific oversight responsibilities, such as 
academic affairs, student life, and athletics. We recommend a 
minimum of four meetings a year, two of those to occur at the 
Academy. We also recommend that all board members have 
unfettered access to the Academy grounds and the cadets.
    This committee should also more aggressively exercise its 
oversight authority by reviewing reports on the Academy called 
for in our recommendations and the reports that you are calling 
for in the 2004 defense authorization bill.
    I would like to draw the committee's attention to panel 
recommendation number 4, in which we recommend revising the law 
to expand the available pool of potential candidates for the 
position of the dean of faculty beyond the Academy's permanent 
professors. There is a time sensitivity issue here. In order to 
benefit from this reform in the selection of the next dean of 
faculty, which will occur as early as next spring, I would urge 
this committee, should you concur with our recommendation, to 
revise the law in the 2004 authorization bill presently in 
conference. Otherwise, under normal rotation schedules this 
reform could not be effective until some time around 2007.
    Now, I want to draw your attention here to this timeline. 
You also have it. It is the very last exhibit in your report, 
that is a foldout. If you might not be able to read it from 
where you are we have it in there, too. We spent a lot of time 
going through chronicling this crisis, because the question was 
who knew what, when, and what were they trying to do about it. 
So this timeline really lays it out. It lays out the crises and 
the failures of leaders to effectively and aggressively 
respond.
    The warning signs were there, as you will see, year after 
year, but they went unnoticed or they were ignored. We are here 
to report that this panel found a deep chasm in leadership 
during this most critical time in the Academy's history, a 
chasm that extended far beyond its campus in Colorado Springs. 
Sadly, we believe this helped create an environment in which 
sexual assault became a part of life at the Air Force Academy.
    Any credible assessment of sexual misconduct problems over 
the last 10 years must include an examination of the 
responsibility of both Academy and Air Force headquarters 
leadership. Unfortunately, the Air Force General Counsel's 
working group report failed to do that.
    That is why this panel recommends that the DODIG conduct a 
thorough review of the accountability of the previous leaders 
at the Academy and Air Force headquarters. This should include 
an assessment of General Gilbert, General Wagie, and Colonel 
Slavec, as well as former leaders of the Air Force itself. We 
recommend that the results of this review should be provided in 
a timely manner to both the members of the Senate and House 
Armed Services Committee and to the Secretary of Defense.
    Now, I want to point out that the panel has recommended 
that the DODIG investigate the previous leadership. While we 
offer what we believe is some constructive criticism of the 
changes instituted by the present Academy and Air Force 
leadership, we have found neither team lacking in their 
understanding of the seriousness of the crisis or in their 
commitment to find a lasting solution.
    It would not serve the interests of the Academy or its 
cadets to distract the present leadership with a backward-
looking investigation. Rightly so, the Secretary, the chief of 
staff, the superintendent, and his team are focused on the 
future of this great institution, and the effective resolution 
of this matter requires that their focus remain there.
    We recognize the difficulty in holding accountable those 
who have left their positions of leadership, and particularly 
those who have left the military service altogether. However, 
given the magnitude of this situation and to set a clear 
example of the level of performance expected of future leaders, 
this panel has concluded that every effort should be made to 
formally document the failure of former leaders and to ensure 
that documentation becomes a part of their official military 
records.
    In total, this report contains 21 specific recommendations 
that this panel believes can put the Academy back on track and 
allow it to live up to its potential as a unique institution of 
higher education that also trains future leaders of our Air 
Force. Some are already in various stages of implementation. 
Others can be implemented administratively at the Academy or at 
Air Force headquarters, while some, such as number 4 mentioned 
earlier, will require legislative action.
    While Congress will not necessarily play an implementation 
role in all 21 of our recommendations, we would urge you to 
play an oversight and evaluation role in our recommendations as 
well as those found in the Agenda for Change and the working 
group report.
    Now, I have to say, of course, always a source of envy to 
those of us who are former House members, but well-suited for 
the oversight task, your 6-year terms of office give you a 
unique ability in our Government to track the long-term 
progress of all these efforts aimed at solving this different 
problem.
    So as this panel concludes its work, it is our sincere hope 
that while their leaders make every effort to solve this 
difficult problem, the vast majority of cadets will continue to 
strive to live by the core values of integrity, service, and 
excellence. It is and should always be an honor to call oneself 
a cadet at the United States Air Force Academy.
    That concludes my remarks, Mr. Chairman. The other panel 
members do not have any opening remarks. We are available to 
answer any questions that you or the committee might have.
    [The Report of the Panel to Review Sexual Misconduct 
Allegations at the U.S. Air Force Academy follows:] 

[GRAPHIC] [TIFF OMITTED] T9536.001

[GRAPHIC] [TIFF OMITTED] T9536.002

[GRAPHIC] [TIFF OMITTED] T9536.003

[GRAPHIC] [TIFF OMITTED] T9536.004

[GRAPHIC] [TIFF OMITTED] T9536.005

[GRAPHIC] [TIFF OMITTED] T9536.006

[GRAPHIC] [TIFF OMITTED] T9536.007

[GRAPHIC] [TIFF OMITTED] T9536.008

[GRAPHIC] [TIFF OMITTED] T9536.009

[GRAPHIC] [TIFF OMITTED] T9536.010

[GRAPHIC] [TIFF OMITTED] T9536.011

[GRAPHIC] [TIFF OMITTED] T9536.012

[GRAPHIC] [TIFF OMITTED] T9536.013

[GRAPHIC] [TIFF OMITTED] T9536.014

[GRAPHIC] [TIFF OMITTED] T9536.015

[GRAPHIC] [TIFF OMITTED] T9536.016

[GRAPHIC] [TIFF OMITTED] T9536.017

[GRAPHIC] [TIFF OMITTED] T9536.018

[GRAPHIC] [TIFF OMITTED] T9536.019

[GRAPHIC] [TIFF OMITTED] T9536.020

[GRAPHIC] [TIFF OMITTED] T9536.021

[GRAPHIC] [TIFF OMITTED] T9536.022

[GRAPHIC] [TIFF OMITTED] T9536.023

[GRAPHIC] [TIFF OMITTED] T9536.024

[GRAPHIC] [TIFF OMITTED] T9536.025

[GRAPHIC] [TIFF OMITTED] T9536.026

[GRAPHIC] [TIFF OMITTED] T9536.027

[GRAPHIC] [TIFF OMITTED] T9536.028

[GRAPHIC] [TIFF OMITTED] T9536.029

[GRAPHIC] [TIFF OMITTED] T9536.030

[GRAPHIC] [TIFF OMITTED] T9536.031

[GRAPHIC] [TIFF OMITTED] T9536.032

[GRAPHIC] [TIFF OMITTED] T9536.033

[GRAPHIC] [TIFF OMITTED] T9536.034

[GRAPHIC] [TIFF OMITTED] T9536.035

[GRAPHIC] [TIFF OMITTED] T9536.036

[GRAPHIC] [TIFF OMITTED] T9536.037

[GRAPHIC] [TIFF OMITTED] T9536.038

[GRAPHIC] [TIFF OMITTED] T9536.039

[GRAPHIC] [TIFF OMITTED] T9536.040

[GRAPHIC] [TIFF OMITTED] T9536.041

[GRAPHIC] [TIFF OMITTED] T9536.042

[GRAPHIC] [TIFF OMITTED] T9536.043

[GRAPHIC] [TIFF OMITTED] T9536.044

[GRAPHIC] [TIFF OMITTED] T9536.045

[GRAPHIC] [TIFF OMITTED] T9536.046

[GRAPHIC] [TIFF OMITTED] T9536.047

[GRAPHIC] [TIFF OMITTED] T9536.048

[GRAPHIC] [TIFF OMITTED] T9536.049

[GRAPHIC] [TIFF OMITTED] T9536.050

[GRAPHIC] [TIFF OMITTED] T9536.051

[GRAPHIC] [TIFF OMITTED] T9536.052

[GRAPHIC] [TIFF OMITTED] T9536.053

[GRAPHIC] [TIFF OMITTED] T9536.054

[GRAPHIC] [TIFF OMITTED] T9536.055

[GRAPHIC] [TIFF OMITTED] T9536.056

[GRAPHIC] [TIFF OMITTED] T9536.057

[GRAPHIC] [TIFF OMITTED] T9536.058

[GRAPHIC] [TIFF OMITTED] T9536.059

[GRAPHIC] [TIFF OMITTED] T9536.060

[GRAPHIC] [TIFF OMITTED] T9536.061

[GRAPHIC] [TIFF OMITTED] T9536.062

[GRAPHIC] [TIFF OMITTED] T9536.063

[GRAPHIC] [TIFF OMITTED] T9536.064

[GRAPHIC] [TIFF OMITTED] T9536.065

[GRAPHIC] [TIFF OMITTED] T9536.066

[GRAPHIC] [TIFF OMITTED] T9536.067

[GRAPHIC] [TIFF OMITTED] T9536.068

[GRAPHIC] [TIFF OMITTED] T9536.069

[GRAPHIC] [TIFF OMITTED] T9536.070

[GRAPHIC] [TIFF OMITTED] T9536.071

[GRAPHIC] [TIFF OMITTED] T9536.072

[GRAPHIC] [TIFF OMITTED] T9536.073

[GRAPHIC] [TIFF OMITTED] T9536.074

[GRAPHIC] [TIFF OMITTED] T9536.075

[GRAPHIC] [TIFF OMITTED] T9536.076

[GRAPHIC] [TIFF OMITTED] T9536.077

[GRAPHIC] [TIFF OMITTED] T9536.078

[GRAPHIC] [TIFF OMITTED] T9536.079

[GRAPHIC] [TIFF OMITTED] T9536.080

[GRAPHIC] [TIFF OMITTED] T9536.081

[GRAPHIC] [TIFF OMITTED] T9536.082

[GRAPHIC] [TIFF OMITTED] T9536.083

[GRAPHIC] [TIFF OMITTED] T9536.084

[GRAPHIC] [TIFF OMITTED] T9536.085

[GRAPHIC] [TIFF OMITTED] T9536.086

[GRAPHIC] [TIFF OMITTED] T9536.087

[GRAPHIC] [TIFF OMITTED] T9536.088

[GRAPHIC] [TIFF OMITTED] T9536.089

[GRAPHIC] [TIFF OMITTED] T9536.090

[GRAPHIC] [TIFF OMITTED] T9536.091

[GRAPHIC] [TIFF OMITTED] T9536.092

[GRAPHIC] [TIFF OMITTED] T9536.093

[GRAPHIC] [TIFF OMITTED] T9536.094

[GRAPHIC] [TIFF OMITTED] T9536.095

[GRAPHIC] [TIFF OMITTED] T9536.096

[GRAPHIC] [TIFF OMITTED] T9536.097

[GRAPHIC] [TIFF OMITTED] T9536.098

[GRAPHIC] [TIFF OMITTED] T9536.099

[GRAPHIC] [TIFF OMITTED] T9536.100

[GRAPHIC] [TIFF OMITTED] T9536.101

[GRAPHIC] [TIFF OMITTED] T9536.102

[GRAPHIC] [TIFF OMITTED] T9536.103

[GRAPHIC] [TIFF OMITTED] T9536.104

[GRAPHIC] [TIFF OMITTED] T9536.105

[GRAPHIC] [TIFF OMITTED] T9536.106

[GRAPHIC] [TIFF OMITTED] T9536.107

[GRAPHIC] [TIFF OMITTED] T9536.108

[GRAPHIC] [TIFF OMITTED] T9536.109

[GRAPHIC] [TIFF OMITTED] T9536.110

[GRAPHIC] [TIFF OMITTED] T9536.111

[GRAPHIC] [TIFF OMITTED] T9536.112

[GRAPHIC] [TIFF OMITTED] T9536.113

[GRAPHIC] [TIFF OMITTED] T9536.114

[GRAPHIC] [TIFF OMITTED] T9536.115

[GRAPHIC] [TIFF OMITTED] T9536.116

[GRAPHIC] [TIFF OMITTED] T9536.117

[GRAPHIC] [TIFF OMITTED] T9536.118

[GRAPHIC] [TIFF OMITTED] T9536.119

[GRAPHIC] [TIFF OMITTED] T9536.120

[GRAPHIC] [TIFF OMITTED] T9536.121

[GRAPHIC] [TIFF OMITTED] T9536.122

[GRAPHIC] [TIFF OMITTED] T9536.123

[GRAPHIC] [TIFF OMITTED] T9536.124

[GRAPHIC] [TIFF OMITTED] T9536.125

[GRAPHIC] [TIFF OMITTED] T9536.126

[GRAPHIC] [TIFF OMITTED] T9536.127

[GRAPHIC] [TIFF OMITTED] T9536.128


    Chairman Warner. I thank you for an excellent report, and I 
ask that in the course of the questioning--the questions can be 
directed to any member of the panel--where it is directed to 
Chairman Fowler, if there are other members who want to respond 
to that Senator's question, please raise your hand. Hopefully, 
the Senator will permit you to respond.
    Now, I am listening intently. You said that you were asking 
the Inspector General to go back and review the issue of 
accountability. I heard the word ``former leadership,'' which I 
am trying to find the use of that word ``former.'' Is it in 
your report at all?
    Ms. Fowler. The recommendation itself is on page 101.
    Chairman Warner. I am looking at that.
    Ms. Fowler. Then the section that establishes that starts 
on page 37.
    Chairman Warner. The panel recommends that the DODIG 
conduct a thorough review--go ahead.
    Senator Levin. What page were you on, Ms. Fowler? I am 
sorry.
    Ms. Fowler. The accountability section starts on page 36 of 
the report and goes through page 42. The actual recommendation 
is on page 42 and it is also in the recommendations section on 
page 101. We put all the recommendations in one section for you 
also, so they are throughout the report and there.
    Chairman Warner. Now wait a minute. Is it in here, the word 
``former''? I am trying to go through a lot. I have read it 
through once.
    Ms. Fowler. I do not think it is.
    Chairman Warner. I do not think it is, either, and that is 
why I find it very significant that this morning you include it 
in your opening statement, whereas it is not in the report.
    Ms. Fowler. The reason I did, Mr. Chairman, is because of 
some of the press interpretations over the past day or so of 
what is in our report, that we as a panel wanted to make it 
clear that our primary concerns, if it was not clear enough in 
this report, were with prior leadership. We have uncovered 
nothing to lead us to believe that either Secretary Roche or 
General Jumper were doing anything to not respond to these 
concerns. As soon as they had the information, as far as this 
panel is concerned in our interactions with those individuals, 
they moved in a timely manner. The Agenda for Change, while not 
perfect, was certainly a great beginning. It was needed at that 
time because they could not wait until after school began. They 
made it very clear that it was a blueprint, that it was an 
evolving process. They have made changes to it themselves since 
it was issued.
    So as far as our relationship with both of those leaders, 
it has been a very open, positive relationship. They have been 
very forthcoming with us whenever we asked for information. We 
have met with both individuals and we have not had any 
questions as far as this panel is concerned about their 
performance.
    Chairman Warner. But it is for those reasons that you now 
explicitly exempt them from your recommendations----
    Ms. Fowler. It is up to the DODIG to decide who he is going 
to investigate, not up to this panel. But we wanted, since 
there had been some expressions otherwise in the press----
    Chairman Warner. This is an important point. This committee 
is faced with a very unique issue right now. I have been 
privileged to be on this committee for 25 years, served with 
many chairmen. My distinguished ranking member and I have to 
determine when we are on notice. For example, the Air Force 
this morning issued a clarification. All kinds of 
clarifications are coming out. But they say that: ``The DOD 
Inspector General, the Air Force Inspector General, and the 
recently formed Executive Steering Group are examining other 
aspects of the sexual assault situation at the Academy and 
related Air Force headquarters oversight.''
    As I read that, that does not exempt the current occupants.
    Ms. Fowler. As I said, I cannot speak for the Inspector 
General or for the Executive Steering Group.
    Chairman Warner. I am not suggesting that you are.
    Ms. Fowler. All I can speak for is this panel, is all that 
we can speak for, is for these seven members of this panel. It 
is certainly up to the Inspector General and to the Executive 
Steering Group. When General Jumper appeared before us in late 
July, he made it clear that there was still an open 
investigation ongoing as to the immediate past leadership at 
the Academy, General Gilbert and Colonel Slavec. So we 
certainly refer to that in our report, because he made it clear 
that was still not complete.
    Chairman Warner. At this time might I solicit any other 
views on the panel. Do you concur in the chairwoman's statement 
regarding what I perceive as an addition to the direction to 
the Inspector General, that only the former leadership is to be 
examined, not the current? I observe that the current 
leadership had been in office for well over a year plus while 
these situations and allegations were continuing to accumulate.
    This is of great concern to this Senator. I have to express 
that to you. When I read your report, it seemed clear to me 
that you asked for the IG to look across the board at the 
subject of the accountability at the headquarters. 
Specifically, you took issue with the working group under the 
General Counsel, in which you said: ``The panel is concerned 
about the seeming inability of the Air Force to adequately 
investigate itself. While the Air Force General Counsel's 
working group conducted a thorough investigation of the 
Academy, it completely failed to address one of the most 
significant contributors to the current controversy, 
ineffective Air Force oversight at the leadership.''
    I find this in conflict. I am trying to move around very 
quickly because I thought I had it well organized in my mind 
until you inserted the word ``former.''
    Ms. Fowler. Again, we cannot direct the Inspector General 
as to whom he chooses to investigate. But what we wanted to 
make clear this morning--and I will let some of the other 
members speak to this also--was that as far as our 
investigation was concerned and our dealings with the current 
leadership, both at the Academy and at the Air Force 
headquarters, they have been very receptive, they have 
furnished us any information we needed, they have moved forward 
on trying to make change. But again, it is up to the Inspector 
General.
    Now, as far as the working group report goes, it was a very 
well done report as to what was in it. Our concerns were what 
was omitted, that there were omissions in that report that 
raised questions in our mind about its complete coverage.
    Now, I saw that same release this morning. Our question is, 
if you are going to do a complete review and as you uncover 
these facts, you would think it would have been the 
responsibility of the working group to review them.
    Chairman Warner. I would like to ask if other panelists 
were aware that we were now going to be advised this morning of 
a rather significant departure from what is written in the 
report with regard to the oversight of the Air Force 
headquarters? Does anyone else wish to address this? Colonel 
Ripley, do you? You understand the word ``accountability'' in 
the military.
    You come from the school that Senator McCain and I came 
from. Even though the captain of the ship is deservedly getting 
a night's rest in the bunk, if the ship runs aground, he is 
accountable. Am I not correct in that?
    Colonel Ripley. Correct, sir.
    Sir, I would respond by saying--and of course I am one 
panel member. I am one American citizen. But I think I saw and 
I can represent what a lot of us feel. I have served as a 
marine for 35 years active duty. I have commanded over 10,000 
marines in every situation imaginable.
    I have heard this characterized as a failure of leadership. 
Indeed it is, but I would emphasize or approach it differently. 
I think this was a cataclysmic collapse, an absence of leaders 
taking responsibility when the signs were everywhere. The 
emphasis seems to be on current leadership, but the fact is 
this happened over a period of time without question, going 
back 10 years and more.
    Using my past, which you are familiar with, the enemy was 
in the wire, the ship was heading for a reef in broad daylight, 
and nobody read the signals. It is too late to have abandon 
ship drills when you are on the reef, or to try to close the 
gap, the breach in the outpost. The signals as we came to see 
it in our hearings and our individual questions that we asked 
virtually everywhere, but especially in Colorado Springs, it 
just washed over you like a wave. People simply ignored it.
    They claimed that there are no systemic problems here. I 
disagree with that 100 percent. I think the system sustained 
it.
    Chairman Warner. I thank you, Colonel. General Bunting, do 
you have a comment? You have given a lifetime of service in the 
military.
    General Bunting. I would concur in what Colonel Ripley has 
said, sir. We did find in fact a systemic breakdown in 
supervision, in accountability, in responsibility. But I would 
not confine what we found to the leadership that Colonel Ripley 
was discussing. We found it at every conceivable level.
    Let me give a couple of examples if I may. We heard 
repeatedly that assignments at the grade of lieutenant and 
captain and major to the positions of air officer commanding, 
the tactical officers, the young officers who were assigned to 
work with the cadets, that those assignments were not routinely 
given to the ablest young role models that the Air Force could 
furnish, but rather they were not taken particularly seriously 
and many officers who were assigned to those positions were not 
regularly on duty discharging their responsibilities in a way 
that I think a tactical officer should.
    At the other end of the spectrum, we found the Board of 
Visitors was singularly negligent in the discharge of their 
responsibilities. We found over the last 10 years that the 
average attendance at the single board meeting that was held 
every year was less than 50 percent.
    So when we use the word ``systemic,'' we are using it very 
carefully. There was a breakdown in leadership at every 
conceivable level.
    Chairman Warner. General Nardotti, you have also had 
significant military experience.
    General Nardotti. Let me answer your question directly. I 
concur with the chairman's view.
    Chairman Warner. The question before that I propounded to 
the chairman is the insertion now in the opening statement of 
the word ``former,'' which modifies the recommendation that you 
put in the written report. Is it the consensus of the panel 
that the existing leadership should not be reviewed by the IG? 
I guess that is the question before me.
    General Nardotti. I will speak for myself. I concur with 
Ms. Fowler on this point. That was the understanding of the 
panel, that what we focused on was the leadership over time. We 
understand certainly that a year can be considered a long time, 
but in relative terms and in terms of the opportunities that 
leadership prior to that of the current top Air Force 
leadership, they had more time, an ample amount of time in 
their tenures, with systems in place that should have given 
them a better indication that there was a problem that needed 
to be addressed.
    Certainly the timeframes--we recognize that perhaps the 
timeframes for the people at the Academy that might be held 
accountable would be shorter timeframes, but that is logical 
because they are more directly involved with the problem and 
the need for solutions.
    Chairman Warner. I thank you.
    General Nardotti. I would also point out that at the press 
conference the other day when Congresswoman Fowler explained 
what we meant by the accountability she did make the point that 
we are referring to the past leadership.
    Chairman Warner. Thank you. My time has expired.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    I want to just clarify this recommendation in my own mind. 
It is the same one that Chairman Warner referred to. On page 42 
where you recommend that the DODIG conduct a thorough review of 
the accountability of Academy and Air Force headquarters 
leadership, that review by the DODIG was taking place or was 
initiated before you came into existence, is that not correct? 
Was it not this committee which requested the DODIG to do a 
thorough review?
    Ms. Fowler. Senator, my understanding was that initial 
DODIG review was of the individual cases at the Academy and to 
make determinations as to whether each of those was handled in 
an appropriate manner, whether the results of those were 
appropriate, the procedures appropriate, and any that were not, 
then they would make recommendations on them. Since that time, 
the DODIG has expanded that investigation, just in the past 
couple of weeks. But it initially started out really as a 
review of individual cases, which we were not to do. That was 
not our role. It was the Inspector General's role.
    Senator Levin. Basically, the DODIG will conduct a thorough 
review of headquarters leadership as requested, and if this 
panel requests or anybody else appropriately requests the DODIG 
to look at current as well as past leadership then that is what 
the DODIG will do.
    Ms. Fowler. Yes, sir.
    Senator Levin. It seems to me that we should make it clear, 
Mr. Chairman, that we are not excluding from the DODIG the 
review of current leadership in their process. That is not your 
decision; that is our decision.
    Ms. Fowler. I agree with that, and that is why I made 
clear, we are not officially excluding anyone. We are just 
giving our opinion based on our examination to date, but it is 
not our role to officially exclude or include anyone. That is 
really, as you said, the role of Congress and the role of the 
Inspector General.
    Senator Levin. Right. So that even though you did not in 
your review see anything which you found to represent a 
deficiency or a failure on the part of current leadership, that 
review is taking place now by the IG. It seems to me, Mr. 
Chairman, we should make it clear most importantly to the DODIG 
that we expect them to include current leadership just so that 
it is thorough and complete.
    Chairman Warner. I share those views.
    Senator Levin. That it is not based on your report, but 
just based on a desire that we not exclude anybody from the 
DODIG. It is going to be given to us hopefully by December, as 
I understand it. Where did I get that date from? We do not know 
when it is?
    Chairman Warner. We have heard several dates.
    Senator Levin. All right. But we ought to urge the DODIG, 
obviously, to expedite this review because of the pendency of 
that nomination. All right, so that is something we can 
clarify.
    General Nardotti. Senator, may I add to that, to this 
point. The reason we have placed so much emphasis on the 
accountability of the past leadership is we believe that there 
was an assumption early on that, because prior administrations, 
military and civilian, are gone, they are either retired or 
they have left their positions, that there was simply nothing 
that could be done.
    We were unwilling to accept that. We understand, and we 
have said this in the report, that there are certainly great 
limits on what you could do to those who are long gone from the 
positions. But we believed it was extremely important to have a 
comprehensive look at the past leadership, determine whether 
there were failures, for two reasons.
    Number one, if there were some things done wrong, even at 
the highest levels, even if you cannot do anything of great 
substance to an individual in the way of holding them 
accountable, at least completing the record as to whether or 
not they met the extraordinarily high standard of performance 
that is expected of people in those leadership positions, we 
think that is important for the record. We think it is 
important for the future leadership to understand that merely 
because you leave the position does not mean that all is gone 
and forgotten, that there is a history here and there will be 
accounting at least through history.
    We also thought it was important for the immediate past 
leadership that was removed from the Academy to place this in 
the proper context. They were not the only leaders who failed 
in this instance, in the judgment of this panel. Even if it is 
simply a matter of making a matter of record that other leaders 
had similar evidence before them and failed to act, that they 
should have taken those kinds of actions.
    It may be more of an historical accounting, but we think 
that is important to put the problem in proper context and to 
draw the correct lessons for leadership in the future.
    Senator Levin. Thank you.
    One of the points in your report is as follows: that the 
Air Force General Counsel attempted to shield Air Force 
headquarters from public criticism by focusing exclusively on 
events at the Academy. You disagreed with the General Counsel's 
conclusion that there was no systemic acceptance of sexual 
assault at the Academy or institutional avoidance of 
responsibility, to use your words.
    Now, is there any responsibility on the part of Secretary 
Roche, as the individual who directed, reviewed, and approved 
the General Counsel's working group report, for its failure to 
address leadership failures at Air Force headquarters?
    Ms. Fowler. We could not find any, Senator. The Air Force 
General Counsel review was done independently and, while the 
Air Force General Counsel does work for the Secretary of the 
Air Force, it is my understanding the Secretary of the Air 
Force did not intervene in that report, did not try to direct 
it, that this was a staff report that was delivered to him by 
the Air Force General Counsel.
    As I said earlier, while we think the contents of that 
report are well done, as we did our investigation we kept 
uncovering time and again a lack of information in there about 
Air Force leadership accountability. We are talking about over 
the past 10 years. There were members of that working group, 
Mr. Kip Atlee, who chaired a task force on this issue within 
the Pentagon in 2002 and 2001, and none of the information from 
that task force was included in their report. The Air Force IG 
was part of one of those task forces. That was not included in 
the report.
    So what we have just denoted is our concern over omissions 
from that report. We found no evidence that the Secretary had 
any involvement in the creation of that report or what was in 
it. It was presented to him as a staff report from the Air 
Force General Counsel.
    Senator Levin. Just to finish that one line of questioning, 
when you say that the Air Force General Counsel attempted to 
shield, that is critical of the Counsel doing so?
    Ms. Fowler. It is.
    Senator Levin. But what you are saying is that that does 
not imply, is not intended to imply or suggest any direction to 
do that by headquarters?
    Ms. Fowler. We would have said that if we had thought so. 
But all we knew was that the Air Force General Counsel did not 
include what we considered critical information in her report.
    Senator Levin. But that was not at the direction, implied 
or otherwise, of headquarters?
    Ms. Fowler. We found no evidence of that.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Did you find any reason why she did on her 
own initiative?
    Ms. Fowler. No, we did not, other than, you know how you 
talk behind the scenes with people, whether she wanted to 
please people or whether--now they are saying it was not in her 
purview. But to me if you are doing a thorough report--and part 
of the problem you will see from this timeline is time and 
again studies were conducted, but they became only partial 
studies. If you are looking at the problems at the Air Force 
Academy, which she was doing, you should be looking at the 
whole picture, and part of the picture which people on that 
working group were aware of were problems with the leadership 
at the Air Force over those 10 years. I mean, there were 
members of that working group who had chaired studies of that 
very issue and yet they did not bring that information to the 
working group nor reveal it in their report, and that did cause 
us to raise some questions.
    Ms. Walker herself, it is my understanding, did not know 
about Mr. Atlee's involvement in the earlier study until about 
6 weeks or so before her report was released. So I am not 
blaming Ms. Walker on all of this. I think she had a lack of 
information on some of the things she needed to know.
    Chairman Warner. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I want to thank the members of the panel for a really 
thorough and outstanding job, and I thank all of you for your 
great work as well as your previous service to the country.
    Ms. Fowler, on March 12, 2003, according to a Los Angeles 
Times story, ``Air Force Secretary James Roche on Tuesday 
rejected calls to open his probe of sexual misconduct at the 
Air Force Academy to outside investigators, saying the problem 
was best handled internally. `My Harvard Business School 
training is you do not turn to outsiders; you study something 
yourself, you master it yourself, so that you know what you are 
talking about and you can lead,' he said in an interview with 
the Los Angeles Times.''
    If Secretary Roche's view had prevailed at that time, we 
would not have had your outstanding work.
    Over a long period of time, this issue was discussed. In 26 
March 2003 there was a press conference held by Secretary Roche 
and General Jumper: Question: ``Have you in any way reprimanded 
or disciplined at all the leaders who are [inaudible]? What do 
you say to critics who say you are going too easy on these 
people? You just said a second ago these people may have been 
responsible.'' Secretary Roche: ``The current group cannot be 
held responsible for everything that occurred in a 10-year 
period, certainly over a period longer than 10 years. To hold 
someone accountable means that there are two sides to a story, 
and they have a side as well. We have looked at it. We now look 
at it under the circumstances, and they might have been more 
clairvoyant, they may have been sharper, there may have been a 
survey they should have acted upon, but to hold them 
accountable per se with what we now know, no.''
    Is that pretty much in keeping with your conclusions?
    Ms. Fowler. No, it is not, Senator. While I cannot speak 
for the Secretary, all we can say is that once this panel was 
established the Secretary was very forthcoming----
    Senator McCain. Of course, you know why the panel was 
established?
    Ms. Fowler. Yes, I do.
    Senator McCain. Because of the actions of Congress----
    Ms. Fowler. Exactly.
    Senator McCain.--after the Secretary of the Air Force had 
said, as I quoted to you, that that was not necessary.
    Ms. Fowler. All I can assume, and, again, I did not even 
meet Secretary Roche until he testified before our panel on 
June 23. I had never met him or talked with him until then. But 
I would think that after he became more aware of the 
seriousness and depth of this problem he began to change his 
views.
    Certainly once you established this panel, we never found 
the Secretary to be any less forthcoming. I mean, he came 
forward. In fact, I think some staff of his did not want him to 
come testify before us. He came and testified. Any time we 
needed information, he instructed his staff time and again to 
give us whatever we wanted. So we found the Secretary to be 
very open with us.
    Senator McCain. The fact remains that you would not be in 
existence if it had been his view had prevailed over that of 
the panel.
    Ms. Fowler. Right, the wisdom of this committee established 
this panel.
    Senator McCain. I am pleased that he had cooperated with 
the panel.
    Of course, the working group report has been somewhat 
discredited by your recommendations; is that correct? You are 
in disagreement?
    Ms. Fowler. We cannot agree with the statement--and I will 
paraphrase it now--when they said there was no systemic 
acceptance of this. When you have roughly 142 known allegations 
of sexual assault happening a year over a 10-year period, if 
that is not a systemic problem, I do not know what is.
    Senator McCain. Let me be specific. In your report you say: 
``In June 2003, after completing her investigation of sexual 
assault at the Academy, Air Force General Counsel Mary L. 
Walker released The Report of the Working Group Concerning 
Deterrence of and Response to Incidents of Sexual Assault at 
the U.S. Air Force Academy (``Working Group Report''). The 
Working Group Report covers many aspects of cadet life, Academy 
policies and sexual assault reporting procedures in place at 
the Academy during the last 10 years. However, it avoids any 
reference to the responsibility of Air Force headquarters for 
the failure of leadership which occurred at the Academy.''
    It seems to me that that is a fairly large omission.
    Ms. Fowler. It was. That is why we pointed it out.
    Senator McCain. Thank you. ``The panel believes that the 
Air Force General Counsel attempted to shield Air Force 
headquarters from the public criticism by focusing exclusively 
on events at the Academy.'' I would say that is a little larger 
than a minor disagreement if the report, in your words, 
``attempted to shield Air Force headquarters from public 
criticism by focusing exclusively on events at the Academy.'' I 
would say that is a comment of the utmost seriousness.
    Ms. Fowler. As you will see in our report, we documented 
several known facts that were not included in the working group 
report and we questioned why they were not. We had a much 
smaller staff and a lot less time to investigate than did the 
General Counsel working group. Our question was, why were these 
things that we uncovered that we felt were important to culture 
and climate, what was occurring over those 10 years--a lot of 
it is leadership. It is failure of leadership and it is failure 
of command when these types of things are occurring. It is all 
about leadership.
    Senator McCain. General Bunting, is it not a fairly serious 
charge to say that the panel believes that the Air Force 
General Counsel attempted to shield Air Force headquarters from 
public criticism?
    General Bunting. It is a very serious charge and it is very 
seriously meant.
    Senator McCain. Do you think it deserves further scrutiny?
    General Bunting. Sir, it does indeed.
    Senator McCain. General Nardotti, would you agree with 
that?
    General Nardotti. I would agree with that, and the General 
Counsel works for the Secretary of the Air Force, so we would 
consider it his responsibility to take the information that 
this panel has now made available to him with regard to the 
working group report and take appropriate action.
    Senator McCain. Again, I will try not to repeat the 
questions asked by my colleagues. It is an outstanding report 
and one that I think for its candor is really a signal 
achievement, which I think is a remarkable performance on the 
part of the panel. But I think to stop accountability at 
previous leaders is something that I do not quite understand, 
particularly when before this committee the Secretary of the 
Air Force stated--and I would be glad to quote you and send you 
the transcript--that there was no need for discipline to be 
taken against current leaders at the Air Force Academy and that 
he did not intend to do so, and also that there was no need for 
an independent investigation.
    Those are facts, the testimony before this committee and 
public statements by the Secretary of the Air Force. So I am 
curious why we would stop.
    My time has expired. I thank you, Mr. Chairman.
    Chairman Warner. Senator, I thank you for those very 
probing questions. It is the intention of the chairman, in 
consultation with the ranking member and other members of the 
committee, to consider bringing before this committee in open 
session the Air Force General Counsel. I happen to have made an 
acquaintance with her in the course of the advise and consent 
proceedings.
    The Senate confirmed her because of her very considerable 
professional accomplishments, and I think she should be given a 
chance to explain this. I do not wish to have this counsel or 
someone else be a fall guy, to use a word, without the 
opportunity for them explaining this.
    I think your panel made some very important, critical 
determinations, and this committee is going to probe into this 
very carefully. Thank you.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Let me commend the panel for excellent work. I had the 
privilege of serving with Congresswoman Fowler in the House, 
and she has done her typical fine job. General Bunting was my 
instructor at West Point and General Nardotti was 2 years ahead 
and represents a distinguished graduate of West Point. I think 
what you have done is a great service, not only to the Air 
Force Academy and the Air Force, but for all the military, 
because the effectiveness of any military organization rests on 
confidence in your comrades. That is based on an ethic of 
selfless dedication one to another, not selfish exploitation. I 
cannot think of more gripping examples of exploitation than 
what you have catalogued in your report. No amount of 
technology or talent will make up for that ethical lapse.
    So what we have to do is really make this a serious 
priority, not just at the Air Force Academy but throughout the 
military. I can assure you that your efforts will be translated 
to West Point. I have already sent your report there. At this 
weekend's meeting of the Board of Visitors we will discuss it 
in detail, and thank you for your service.
    One recommendation you have made in your report is to 
expand the search for the dean outside the faculty of the Air 
Force Academy. But I would note, too, that one of his functions 
is to operate the cadet counseling center. That is, I think, 
the place where most of the information became available, which 
apparently he, or at least allegedly, ignored.
    Is it also a recommendation or could you expand on the 
notion of taking that function away from the dean?
    Ms. Fowler. No, Senator, we did not do that. But we do have 
recommendations in here as to a restructuring of that 
counseling center; we do think it needs to be restructured. It 
needs to have licensed clinical psychologists that are running 
it, it needs to increase its staffing, and it needs to also 
have better trained people as part of that staff.
    So we do have some specific recommendations as to the 
center itself. The center really is run by someone there at the 
center, but it reports to the dean of the faculty. He had the 
information that the center had and that caused us concern, 
that he had that information, he had the results of the surveys 
every year, but never suggested any actions.
    Senator Reed. Thank you.
    There is another major issue that you have raised. Everyone 
has spoken about it, and that is the culture. In fact, I think 
the essence of your recommendations is the culture has to 
change. One of the most glaring statistics is the fact that 25 
percent of men there still deny the appropriate role of women 
at the Academy and in the Service.
    I wonder if you are recommending or are prepared to 
recommend that those surveys be done in a systematic way to 
determine, not just at a snapshot, but as cadets enter and 
progress, because again I think there is a real question in my 
mind whether they bring those attitudes to the Academy or the 
culture of the Academy develops those attitudes. I wonder if 
you might comment, and I would open it up to the rest of the 
panel, too.
    Ms. Fowler. I would like a couple of them to comment.
    The Air Force has its own survey center, which is 
responsible for developing professionally-done surveys. We do 
not understand why the Academy, if they thought these were 
unscientific, never turned to their own survey center to 
develop ones that they considered scientific. But we have 
suggested that these be done in a different, better manner than 
they have been in the past.
    I would like to ask Dr. Laura Miller, who really went 
through the surveys since 1998 at the Academy and compiled them 
and had some interesting information on those.
    Dr. Miller. The Academy could have done a comparison like 
that, because they offered some of the same questions on the 
survey year after year after year after year. So they could 
look at a particular class and see what were the responses that 
they gave as freshmen and what were the responses that they 
gave as seniors.
    They did very cursory analysis of their findings, dismissed 
them as invalid, and never corrected the problems with the 
survey in administering them again. I should point out that 
these climate surveys address sexual assault, alcohol abuse, 
gender, the gender climate in general, race relations, 
religious discrimination, and differential treatment perhaps 
between athletes. So these are surveys that could provide a 
wide range of very important information to the commanders.
    Senator Reed. Anyone else?
    General Bunting. I would like to respond.
    Senator Reed. General Bunting, please.
    General Bunting. A couple of days ago the question was 
asked, is there some point in the admissions process in which 
young male applicants to the Academy can be asked questions 
about their views of women in the Services, whether women 
should be commissioned, whether women should be at the Air 
Force Academy. I think that is probably an idle and a useless 
question. My own view is that the culture there, as it were, 
infects them once they get there.
    One of the great things about the American Armed Forces and 
the Academies is that the kids that go there are us. They are 
not kids who have spent their life dreaming of being military 
commanders and fighters. They are a wonderful representation of 
this country. I have no doubt that overwhelmingly the young men 
that go to the Academy go with the same attitude towards young 
women that most of us have.
    This is plainly a cultural problem that happens there. I 
might also observe that we have a tendency to dwell on 
diagnosis more than on prescription here, and we keep talking 
about the general and the colonel. But this is a community of 
6,000 or 7,000 people, including a faculty of 560, and to 
change that culture is going to take much more than the actions 
of the most brilliant and dedicated general officer. You have 
to have a huge systemic change, again particularly, it seems to 
me, among the young officers who are assigned there. Those are 
the ones that the cadets see every day. I also think the 
faculty of the institution should be much more heavily involved 
in the cure than it is right now.
    Senator Reed. Thank you, General.
    General Nardotti.
    General Nardotti. I would like to comment on the culture 
issue. I think for incoming cadets a lot of attitudes have to 
be changed. There are standards there that they will find 
nowhere else. They have an honor code. They have to unlearn 
some prior bad habits and adjust their standards. Their 
attitude toward the role of women in the Armed Forces is 
something that, regardless of how they felt about that before 
coming in, is something that they have to learn through 
training and leadership development why it is that women are 
there, in the numbers that they are there.
    I view this as an issue, for those 25 percent of the cadets 
who feel that women do not belong there. They fail to 
understand, and the Academy has failed to teach them, how it is 
that women are at the Academy and in the Services in the 
numbers that they are. It was not based on some abstract notion 
of diversity to achieve certain goals. It was a very well 
thought through and deliberate decision to use women in a way 
that they had not been used before, in order to make the 
volunteer force a success.
    I think it is a mistake to focus too much on the fighter 
pilot example and say, well, we have women fighter pilots, 
therefore they are the same as the men. One percent of fighter 
pilots in the Air Force are women. That is not the point.
    Women do many important things in the Air Force other than 
being fighter pilots, and they do many important missions in 
other Services. They add value and they have contributed 
significantly to the success of the volunteer force over time. 
The force we have today is the best we have ever had. They need 
to learn that lesson and they need to understand that these are 
people that together, the men and women who are there, are 
going to serve together shoulder to shoulder on extraordinarily 
important missions. The attitude that some of these cadets have 
apparently maintained is, again, it is a sensitive and 
difficult leadership development challenge, but they have to 
address it.
    Senator Reed. Thank you very much.
    My time has expired. Again, thank you for your wonderful 
work.
    Ms. Fowler. Thank you, Senator.
    Chairman Warner. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. First, I would 
like to insert my opening statement into the record.
    [The prepared statement of Senator Allard follows:]
               Prepared Statement by Senator Wayne Allard
    Thank you, Mr. Chairman. I would like to commend you for your 
leadership on this issue. I have had the privilege of working with you 
on this issue from the beginning, and because of your interest, I 
believe our hard work is starting to pay off.
    Approximately 5 months ago, Congress created the Panel to Review 
Sexual Misconduct Allegations at the United States Air Force Academy. 
The driving force behind this panel was the Air Force's perceived 
inability to hold senior officials accountable for their failure to 
effectively address the growing number of sexual assaults at the 
Academy. As it turns out, our concerns have proven to be justified. 
Unfortunately, as the panel has indicated in its report, it appears 
that we have only begun to scratch the surface.
    I believe the panel did an outstanding job given its 3-month 
deadline and its limited access to information from the Air Force. 
Chairman Fowler, you and the other panel members are to be commended 
for the fine work you have done.
    The panel accomplished what many of us on this committee were 
hoping the Air Force would do on its own: to identify those responsible 
and hold them accountable. Because of the panel, we have discovered 
that the Air Force officials and high-ranking Academy officials have 
known about the sexual assault allegations since 1993. Because of the 
panel, we found out that four Academy officials failed in their duties, 
including one that is still at the Academy. Sadly, as the panel's 
report has noted, ``the Air Force General Counsel attempted to shield 
Air Force Headquarters from public criticism'' in the Air Force's 
Working Group report presented to Congress earlier this year.
    I have been told that the Department of Defense Inspector General 
intends to take a closer look at this issue. It is disappointing that 
it has come to this but an expanded DODIG investigation appears to be 
the only way to assure that those responsible will be held accountable.
    As a member of the Academy's Board of Visitors, I was also pleased 
that the panel looked at the oversight role provided by the Board. I 
can honestly say that we have not done our job. Too many times, the Air 
Force only presented the good news and glowing reports; and too many 
times, the Board of Visitors was content to be led along by the Air 
Force.
    Mr. Chairman, I have a sent a letter to you suggesting that we 
include in this year's Defense Authorization bill the panel's 
legislative proposals pertaining to the Board of Visitors. I believe 
these proposals will be helpful as the Board of Visitors seeks to 
enhance its oversight role. You should also be aware that the Board of 
Visitors is scheduled to meet at the Academy during the October recess. 
This will be the Board's first meeting at the Academy since this crisis 
began last spring. We will be carefully reviewing the recommendations 
of the Air Force's Working Group, the Fowler panel, and examining the 
Air Force's implementation plans for improving the Academy's sexual 
assault and prevention programs.
    Mr. Chairman, I again thank you for all of your assistance. The 
members of this committee, indeed all the Members of Congress, have a 
vested interest in ensuring that the Academy is safe for cadets. We all 
nominate cadets to Service Academies, which makes us all responsible.
    Thank you again. I look forward to our question and answer time.

    I would like to join my other colleagues in complimenting 
you on a job well done. I think that you have opened the eyes 
of many people and I think you have brought new information to 
the table that has not been discussed and considered in the 
past, and that is the reason the panel was formed. I want to 
compliment you on all that effort.
    I also would like to just go back to your testimony, if I 
might, Ms. Fowler. In your testimony, and this is on page 3 of 
4 on the fourth and fifth paragraph, you say: ``But the panel 
is encouraged by renewed emphasis in Washington to immediately 
address and solve this problem. We are impressed with the 
leadership of Secretary Roche and General Jumper after a decade 
of inaction and failure. Secretary Roche made a step towards 
serious reform this year by rolling out his Agenda for Change 
and replacing the Academy's leadership team with one that has 
been quick to take action.''
    My question is, this was in your testimony typed. I did not 
see a change here, and I am not one to quibble over one word or 
anything like that. But that is your statement and you did not 
change that at the last minute, is that correct, Ms. Fowler?
    Ms. Fowler. No, that is my statement, and that was my 
statement at the press conference the other day. We are very 
impressed with the new leadership team at the Academy. General 
Rosa, General Weida, and Colonel Gray are doing an outstanding 
job. They have moved at a very quick pace really to implement 
some long-needed changes. So we are very impressed with what 
they are doing. I think they were great additions to the 
Academy.
    Senator Allard. Let me ask each one of the panel and see if 
you agree with that. I will start with you, Dr. Miller. Do you 
agree with that statement?
    Dr. Miller. Yes.
    Senator Allard. Mr. Bunting, do you agree with that 
statement?
    General Bunting. Yes, sir, I do.
    Senator Allard. Ms. Carpenter, do you agree with that 
statement?
    Ms. Carpenter. Yes.
    Senator Allard. Mr. Nardotti, do you agree with that 
statement?
    General Nardotti. Yes, we do. I would just say that we do 
disagree with the current command on the issue of 
confidentiality. We have addressed that in the report.
    Senator Allard. Yes, and I might get to that on my 
questioning.
    Then Mr. Ripley, do you agree with that statement?
    Mr. Ripley. I do.
    Senator Allard. Dr. Satel, do you agree with that 
statement?
    Dr. Satel. Yes, Senator, I do.
    Senator Allard. Thank you.
    You did bring up, Mr. Nardotti, that there is a 
disagreement on confidentiality. For the benefit of this 
committee, would you please, Ms. Fowler, explain what the 
thoughts are about how to deal with confidentiality? I 
understand that this is an option that is going to be given to 
the cadets, as to whether they want to have disclosure or 
whether they want to keep it quiet. If you could help explain 
that process and when that cadet is going to make that 
decision. I think that is critical as to when that cadet would 
make that decision.
    Ms. Fowler. Yes. Senator Allard, first I want to thank you 
for your leadership on this. Your staff was invaluable to us 
when we were in Colorado Springs as to enabling us to meet with 
victims and setting up meeting places. I want to thank you for 
your leadership and your assistance in our panel's 
investigation.
    While we commend the new leadership, it does not mean we 
walk in lockstep with everything. One of our main concerns, 
particularly after we were in Colorado Springs and met with 
several victims, was that the Agenda for Change did away with 
any form of confidential reporting. What we heard from every 
single victim we met with, without exception, was that you have 
to have some avenue for confidential reporting. The rape crisis 
center in Colorado Springs said you have to have some avenue 
for confidential reporting, and in fact, in a minute, I want to 
ask our expert here to talk about this.
    So we really struggled. This is one of the areas we 
struggled with trying to find a way to establish an avenue for 
confidential reporting for these cadets without going back to 
the old system that did not work. One of our attorneys--I 
really commend him--came up with the fact that in 1999 a 
Presidential Executive Order was issued which established for 
the Armed Forces the psychotherapist-patient privilege, and 
then it was reinforced by military law.
    This is available to all the Armed Forces. It is available 
now to both of the other Service Academies, and the Air Force 
Academy seemed not to have been aware of that as a route that 
could be taken. So we have recommended that there be a two-
pronged route there, that those young women who want to just 
immediately report this officially, that route is available. 
But if a young woman, because this is a very traumatic 
experience for a young woman to go through, and if she is not 
ready yet to go through the official channels, then there needs 
to be a route by which she can talk to someone who is trained 
in how to handle this.
    We have recommended that they bring on board, whether it be 
a psychotherapist or a licensed clinical counselor or a 
psychologist--there are definitions under the rule that can 
meet those qualifications. But these sort of people need to be 
at the Academy. There needs to be someone with those 
qualifications running the hotline, running the cadet 
counseling center, so that a young woman can go to someone that 
is well-trained, that her conversation with that person will be 
privileged, and that person will be trained also to help 
encourage that young woman to go the official route and explain 
to her that if she does not eventually take that route her 
assailant will never be brought to justice. You have had some 
well-meaning people dealing with these young women, but they 
have not had the proper training, they have not had the proper 
information to help bring them along.
    We found many of these young women were not encouraged to 
officially report. In fact, they were told not to because they 
would be ostracized, it would ruin their career, the Air Force 
Office of Special Investigations would not handle it properly, 
and for all manner of reasons.
    So we were pleased to find this privilege existed. We 
strongly recommend that this confidentiality privilege also be 
adopted at the Academy.
    I would like to ask Anita Carpenter, who has been a rape 
crisis counselor for 13 years and brought so much experience to 
this panel, if she wanted to comment.
    Senator Allard. I would like to hear from her, but in 
effect what you have done is you have taken an Air Force rule 
and you are making sure that it applies in the Academy.
    Ms. Fowler. Right.
    Senator Allard. That has been one of the recommendations we 
have had all along, to make Air Force rules uniform throughout 
the Service, including the Academy.
    Ms. Fowler. This way they would not have anything unique at 
the Academy. This is available to everybody in the whole Air 
Force.
    Senator Allard. Ms. Carpenter.
    Ms. Carpenter. Thank you. I will add, Senator, that we did 
take something that is existing in the structure and say, they 
have a mental health counseling center available to them and it 
needs to be better utilized. They also have a chaplains' system 
of privacy available to them that they can look at to implement 
victim confidentiality measures. I cannot stress enough as a 
victim advocate who has worked with countless numbers of rape 
victims the need for confidentiality.
    My greatest concern without confidentiality is that a year 
from now we will see the Air Force Academy coming forward and 
saying, lo and behold, we have solved this problem, when in 
fact they have driven it back underground, as they did back in 
1995 when they did not have a system of confidentiality.
    Senator Allard. My time has expired, but this is going to 
be an issue of discussion, I think, part of the Board of 
Visitors meeting, Mr. Chairman, that is scheduled in October. I 
am sure this is something we will have to talk about at that 
Board of Visitors meeting.
    Thank you. I have more questions, Mr. Chairman. I will 
catch you on my second round.
    Chairman Warner. Let the record show that you are a member 
of the Board of Visitors.
    Senator Allard. Yes.
    Chairman Warner. Senator Allard, will you take that 
initiative at the Board of Visitors meeting?
    Senator Allard. I do plan on that, Mr. Chairman, yes.
    Chairman Warner. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Chairman Fowler, I would like to ask about a connection, 
what the connection is, if you could explain to the committee 
the relationship between the athletic programs and the sexual 
misconduct. I understand there is a connection there and I 
would like to hear your thoughts on that.
    Ms. Fowler. If I could call on Colonel Ripley who has 
really been looking into that and has some views on it I think 
you would like to hear. Colonel Ripley.
    Colonel Ripley. Senator, one of the things that became 
apparent during our very first hearings there--and this was 
from the old leadership, meaning the commandant, the assistant 
commandant--was an inference that whoever happened to represent 
athletics at the time--and that included coaches, that included 
the athletic director, whomever--they sat on their superior 
committee there that made all determinations, all the important 
determinations at the Academy, and they had a significant 
amount of influence.
    So that if an athlete were deficient in academics or 
whatever the problem might have been, the athletic 
representative there could essentially veto or override the 
decisions of even the commandant. We found that very unusual. 
We also heard inferences from victims that athletes were 
excused from certain things and that the climate or the aura 
was such that the term ``privilege'' comes to mind. They could 
operate somewhat more independently, more freedom of action. 
There was one charge I heard, which was stunning for me, was 
that the athletes, in this case I remember it was football 
athletes, took very much pride in the fact that they never wore 
their dress uniform until graduation.
    All of this was an inference that an athlete has a better 
run of things and has more control, and therefore less 
supervision perhaps, and ability to do whatever the athlete 
wanted to do.
    Senator Pryor. Is it your observation that those are not 
isolated incidents, but that it is really systemic?
    Colonel Ripley. It is considered a general application.
    Senator Pryor. Do you know how many instances there were of 
an override or where an athlete was maybe let off the hook, so 
to speak?
    Colonel Ripley. The most egregious example we heard was one 
that as I recall when we began had not yet been adjudicated, 
but it involved one athlete, I believe it was a boxer, who had 
been charged and eventually convicted of rape, while we were 
there.
    Senator Pryor. Yes, ma'am?
    Dr. Miller. The General Counsel working group had just a 
couple paragraphs about the accused and, because of Privacy Act 
information and because the IG reports are going case-by-case 
and looking through at all the accused, we were not able to do 
an in-depth analysis of that case. They mentioned that they saw 
among the accused no disproportionate representation among 
athletes. But I think it is important to break out the 
different athletic groups and to also look at those who were 
admitted to the Academy with waivers, who entered below Academy 
minimum standards, in order to participate in athletics. 
Information from the Air Force personnel center shows that 
increasingly year after year more cadets are admitted below 
standard with academic waivers to participate in athletics. So 
in the future research we might want to consider looking at 
those who are admitted with waivers versus those who are not.
    Senator Pryor. Good, thank you. Chairman Fowler, that goes 
to the next question I was about to ask, and that is, I know 
that under the mandate you had a very limited time to do this 
and a very tight timetable. I know you all put as many hours as 
you possibly could into this, and I understood you had, what, 
maybe two, three hearings, and then you did a number of less 
formal interviews with various witnesses.
    I am curious about the numbers of witnesses that you 
actually talked to and the panel actually talked to. But I am 
also curious about if you had more time what in addition would 
you have done?
    Ms. Fowler. I think, Senator, the timeframe worked out all 
right. It was a short timeframe, but it made sure that we just 
worked really hard. As I said, these members took a lot of time 
off from their professions to devote the time. Many of our 
staff members took leaves of absence from their regular jobs to 
come devote their time to this. So we knew we had the 90 days 
that started when we had our first hearing on June 23. That 
clock was ticking, and we just said we are going to get this 
done. I think, as you can see, it is a very thoroughly done 
report.
    I cannot really say there is anything we would have done 
more than what we did. What we have done is call for some 
further review that was not appropriate anyway. We are not the 
IG. The IG needs to do the type of investigation we have called 
for. There might be some more boxes of information somewhere, 
but we received box after box of records and information that 
our staff went through. We interviewed most of the people with 
whom we needed to talk. There still might have been a few prior 
leadership people in the Air Force we would have liked to talk 
to, but we just ran out of time. But we interviewed the main 
people we needed for our purposes.
    Senator Pryor. My last question is that I notice in your 
report you talk about a chasm in leadership and how that led to 
the problems there. In your opinion, and I would like to hear 
from the panel generally, do you think that the chasm in 
leadership has been corrected? In other words, is it fixed 
today or is it being fixed today?
    Ms. Fowler. We think it is fixed today. As for the new 
leadership at the Academy--the superintendent, the commandant, 
the vice commandant--we are very impressed with them. We met 
with them both unofficially and officially. I have had several 
conversations with the superintendent since that time, and we 
are impressed with their leadership, with their commitment, 
with their moving forward.
    We have also been impressed with the actions that Secretary 
Roche and General Jumper have been taking and their personal 
involvement over the past several months in this issue and in 
their implementation of change. So I think we are very well-
satisfied with the current leadership.
    General Bunting.
    General Bunting. I am impressed by the current leadership 
as well. But the American military seems to treat the higher 
grades of officers as though they are interchangeable parts. 
They are Renaissance people, and they can do anything they are 
assigned to do. In my view the academies would be better served 
to find people as superintendents and deans who have a real 
vocation for that kind of work and leave them alone and let 
them stay there a long time.
    In the past, we have had examples such as General 
Goodpaster who went to West Point. He was brought out of 
retirement, I think stayed there for 5 or 6 years. I think one 
of the things all of us were troubled by was the Academy and 
Air Force practice of turning over officers very quickly, so 
there is not much continuity of leadership.
    Senator Pryor. Mr. Chairman, that is all the time I have. 
Thank you.
    Chairman Warner. Thank you very much, Senator Pryor. That 
is an important topic observation and it is one that this 
committee has dealt with in the past, establishing the terms of 
the occupancy of the position of the Academy head.
    Will you indulge me, Senator Dole, for 1 minute? Senator 
Allard thought it was important that we know this. Last night, 
he met with the Inspector General, and he reports to me this 
morning that in that conversation he explicitly brought up the 
question of the scope of his ongoing review of this situation 
and specifically how he intends to treat the current 
leadership, civilian and uniformed, in the Air Force.
    Senator Allard. The purpose of the meeting that I had with 
the DODIG yesterday afternoon is twofold. Number one, I wanted 
to verify with him that he would move forward with the 
recommendations that were put in the report from the panel here 
that is before us. He assured me that he would move forward and 
continue to address those issues, particularly as far as the 
personnel were concerned over this since 1993. He was going to 
go ahead and do that.
    Then the second matter that I brought up to him was--as you 
and I had talked to him in the past--if we run across any 
individual case where new information comes forward. I shared 
that with him, and I am not at liberty to share that 
discussion. But I just wanted to assure that he was going to be 
prepared and he assured me that he was at this present time. He 
had already seen the report and had followed the discussion 
with the panel and was in the process of reviewing the 
leadership issues from 1993 up to the current time.
    Chairman Warner. To the current, that would include Roche 
and Jumper?
    Senator Allard. We did not clarify that in that discussion.
    Chairman Warner. Well, that will be clarified.
    Senator Allard. Yes.
    Chairman Warner. Thank you very much.
    Senator Dole.
    Senator Dole. Thank you, Mr. Chairman. I certainly want to 
express my appreciation to you and to ranking member Senator 
Levin for the focus that you have put on this vitally important 
matter--good discipline, fairness within our Military 
Academies--and giving us an opportunity to discuss the findings 
of the independent review panel today. I certainly want to 
underscore all the kudos that have been expressed today. 
Congresswoman Tillie Fowler is a close friend of mine. I 
appreciate your outstanding work and that of the panel members. 
This is a job extremely well done in a very timely manner.
    It is my hope that by following the recommendations of the 
panel all of the Services, not just the Air Force, can entrust 
their future officers to these institutions confident that only 
the highest standards of conduct and character will be required 
and upheld. The Service Academies must focus on the deliberate 
development of military officers, providing the required 
mentoring, guidance, and discipline to ensure excellence in 
future leaders. Now daily, of course, we see in the news just 
how critical those leaders are to our Nation and specifically 
to our sons and daughters whose lives are dependent on their 
leadership.
    Now, as part of his Agenda for Change, the Secretary of the 
Air Force briefed this committee on the new blanket amnesty 
plan. In your report, it is mentioned that an amnesty program 
was also established under the watch of General Hosmer in 1993. 
What are your views on this most recent policy and how is it 
different from the program initiated 10 years ago under General 
Hosmer? How do you think this amnesty will be managed?
    Also, as you answer that question, let me ask you to put it 
in context of the honor code as well, because the intent of the 
honor code as I understand it is to hold future officers to an 
explicit standard of conduct, part of which is to not tolerate 
any abhorrent behavior among fellow cadets. How can this 
amnesty program be resolved within the spirit and intent of the 
honor code?
    Ms. Fowler. Thank you, Senator Dole. As I am sure you all 
know, she has been an outstanding addition to the United States 
Senate. We have known each other a long time.
    We have some concerns about the amnesty provisions, and we 
have raised the question in our report. In fact, we encourage 
the Air Force Academy to look at the procedures that the other 
two Service Academies use in encouraging reporting. The amnesty 
was put in back in 1993 and then redone again this year to 
encourage reporting. If a cadet has committed an offense such 
as underage drinking for which they could be in trouble, and 
then at the same time they were doing the drinking a sexual 
assault occurred, they wanted to make sure that cadet was not 
hindered from coming forward to report the sexual assault by 
worrying that they would get in trouble that they were drinking 
underage. So that was the intent of putting in the amnesty.
    There have been some concerns about misuse of amnesty and 
might there be other ways to encourage reporting. The way it is 
used at the other academies is that they say they will provide 
amnesty, but only after they have done an investigation of the 
facts of the case and then determine if amnesty is appropriate, 
rather than giving blanket amnesty from the very beginning.
    So there are some differences there that are important and 
that we think that the Academy needs to relook at that. The 
intent is well done because it is to encourage reporting, but 
we are not sure that this blanket amnesty is maybe the best way 
to go.
    General Nardotti is a former judge advocate, and I want to 
see if he might want to add to that, too.
    General Nardotti. Basically, I agree with the way 
Congresswoman Fowler has described it. Basically, under the 
Agenda for Change, essentially a blanket amnesty, with a few 
exceptions, was going to be the policy going forward. The other 
academies that have applied this successfully do not use 
blanket amnesty. They do it on a case-by-case basis. We think 
there is a lot of merit to that. We think there are 
complications should a case go to trial ultimately if you have 
blanket amnesty or effectively immunity in place.
    So for a variety of reasons, it makes sense to do it on a 
case-by-case basis, not the least of which is that it is 
important in the leadership development of the people that are 
at the Academy. The mere fact that someone had been subject to 
an assault but may be subject to be accountable for their own 
other misbehavior is something that we think should be included 
in the equation and should not automatically be eliminated. We 
certainly think it enhances the credibility of someone who 
comes forward with a complaint if they are doing that 
understanding that they have something at risk as well in that 
process.
    Ms. Fowler. Dr. Satel.
    Dr. Satel. Just one final element to this is the concern 
about a moral hazard that this kind of thing creates, where 
people might actually allege sexual assault when it did not 
occur in order to protect themselves from redress for another 
kind of infraction. So that was yet another consideration for 
making it a case-by-case basis.
    Ms. Fowler. You referred to the honor code. The honor code 
says you shall not lie, cheat, or steal. What we have found is 
cadets know they need to abide by the honor code, but they do 
not necessarily consider that sexual assaults come under the 
honor code because it does not come under lie, cheat, or steal. 
This then goes back to character development and values and 
ethics to understand that honor encompasses more than not 
lying, cheating, or stealing.
    Senator Dole. Thank you.
    Did you examine what role the women officers assigned to 
the Air Force Academy may have played on the existing culture, 
and were an adequate number of women officers assigned on the 
commandant's staff, on the academic faculties, on the athletic 
faculties?
    Ms. Fowler. There were not enough, and they are working to 
increase that, because we found an absence of female role 
models in the officer corps at the Academy. I know this year 
they have increased that number somewhat and they are working 
to increase it more, because it is very important that these 
young men and women have these role models there on the campus, 
what they call air officers commanding. They now have increased 
the number of women that are part of that program. So I think 
the Academy is making every effort to bring in more women in 
those roles at the Academy.
    Senator Dole. Were the women who were involved who were 
there in your view empowered in any way to break the chain of 
abuse, and did you discover any instances where these women who 
should have acted as mentors and leaders either were negligent 
or were silenced?
    Ms. Fowler. We were very disappointed in that the immediate 
past training group commander, Colonel Laurie Slavec, who had 
the safety and security of these cadets in her command, in her 
responsibility, did not take action several times when it was 
needed. In fact, her view as given in her testimony to the 
working group, was that it was not a true rape unless it was a 
violent assault. She had some unique views in this area. What 
happened then was young women really were afraid to go to her, 
were concerned that there would be retribution, that she would 
give them what they call Form 10s, which are forms of a 
reprimand at the Academy.
    She really appeared to be creating an atmosphere of a lack 
of encouragement of reporting, which was unfortunate, to have a 
woman in that position, and yet that was the message she was 
sending.
    Senator Dole. Thank you. My time has expired.
    Chairman Warner. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Just to make sure I have this right, the General Counsel's 
report, which basically says lots of terrible incidents have 
occurred, but no one is responsible for this whole period of 10 
years, was led by the Deputy General Counsel, who was prior to 
that part of a working group that during 2000-2001 was 
supposedly dealing with these matters?
    Ms. Fowler. The working group was led by Mary Walker, who 
is the Air Force General Counsel.
    Senator Dayton. Right.
    Ms. Fowler. But the Deputy General Counsel, one of the 
deputies because there are several, who was involved in this 
working group had, we discovered as we went through the 
records, led a working group in 2000-2001 on this very issue of 
sexual assault, sexual harassment problems at the Academy.
    Senator Dayton. This was not mentioned in the General 
Counsel's report?
    Ms. Fowler. It was not mentioned in the report.
    Senator Dayton. The deputy, who was part of this group, 
even though the General Counsel was ultimately responsible, was 
investigating matters that he had been previously involved on 
and that was excluded?
    Ms. Fowler. It is our understanding that Ms. Walker did not 
know of his involvement until just several weeks before her 
report was issued.
    Senator Dayton. Was the Inspector General also a part of 
this working group?
    Ms. Fowler. No, the DODIG was not a part.
    Senator Dayton. The Air Force Inspector General?
    Ms. Fowler. It is my understanding the Air Force Inspector 
General was a part of this group. Again, we had some questions, 
because the Air Force Inspector General had been involved also 
in the study back several years before.
    Senator Dayton. The Air Force Inspector General is now 
conducting this other review of whether the prior reviews have 
been conducted properly and prior actions have been taken or 
not taken?
    Ms. Fowler. My understanding is that the Air Force 
Inspector General is conducting a narrow review of individual 
cases. They are looking at individual cases as to how each 
individual case was handled by the Office of Special 
Investigations and by the process.
    Senator Dayton. Mr. Chairman, I think it is a waste of 
taxpayers' money for these investigations to take place by 
people who are clearly compromised and whose results are not 
credible, and they take a lot of time to come up with things 
that are meaningless, that disguise more and hide more than 
they actually reveal. In 90 days, you have done a vastly 
superior job to anything that has been done institutionally for 
the last decade. So I thank you for that, but I just think it 
underscores something bigger.
    The big question I have is, is the Air Force Academy, is 
the Air Force itself, capable of really going to the bottom of 
this and really making the systemic changes, or, as you said, 
is the culture so infected that everybody who is part of the 
institution is infected with these attitudes and this tolerance 
and everything else? I think this shockingly suggests to me 
that there is not within the institution or the organization 
the capability to either come forward with what has actually 
occurred or to make those necessary changes.
    On that point, your report at page 43 says the officer with 
the greatest experience and responsibility for the sexual 
assault program is the dean of faculty, General Wagie, he's 
directly responsible for the cadet counseling center for the 
Center for Character Development for conducting the student 
surveys, all of which proved to be totally inadequate in 
dealing with any of these problems over a decade and he's still 
there in his position as dean of faculty?
    Ms. Fowler. Yes, he is. It is my understanding that he is 
retiring early next year and that is the reason for our 
recommendation, because they will be picking a new dean of 
faculty who will serve a period of 3 to 5 years.
    Senator Dayton. He just stays on until he retires. There 
was--Senator Allard brought it to their attention--a sexually 
explicit skit that was performed at an official English 
Department dinner by cadets, and presumably would the dean know 
about something like that or have they reported to him 
something like that occurring?
    Ms. Fowler. Yes, and it's my understanding that after 
Senator Allard brought this to the attention of some of the 
authorities that finally that professor was removed.
    Senator Allard. That's my understanding.
    Ms. Fowler. The professor that was responsible for that is 
no longer at the Academy.
    Senator Dayton. Okay, but the dean is still there and the 
department goes on. The member of the leadership team that was 
replaced received a medal in recognition of her performance at 
the Academy?
    Ms. Fowler. That was most disturbing to us and interesting. 
We just found this out a few weeks ago that it was Colonel 
Slavec that received the medal.
    Senator Dayton. Was that a medal for her unique views on--
--
    Ms. Fowler. It says for her meritorious performance at the 
Academy. We were concerned, since General Jumper had made it 
clear to us that there was an ongoing investigation of the 
former leadership at the Academy and that had not been 
completed. So for her to be awarded a medal, and I think it was 
April or May, for her service there called into question why 
that was done, and that was done by General Gilbert. We found 
out, as we wanted to know who gave her the medal. It was 
General Gilbert, who had been the former commandant, who in 
private session with us raised questions about her performance 
yet then turns around and gives her a medal for it.
    Senator Dayton. That's as far as you can determine the 
highest level in the chain of command where that decision was 
made to confer a medal? Was it not? The Chief of Staff of the 
Air Force or the Secretary of the Air Force?
    Ms. Fowler. My understanding is this was the commandant 
that could do this.
    Senator Dayton. It sends quite a message to everyone 
involved exactly what their priorities are.
    The honor code, you pointed out, prohibits lying, cheating, 
stealing, and tolerating, and it also says to do the right 
thing at all times, but that does not evidently in the culture 
include committing acts of sexual assault or rape. Do they just 
believe the honor code doesn't apply?
    Ms. Fowler. There's no one said that explicitly, but that 
appears to be some of the part of the culture problem there. We 
call for some major changes in the Center for Character 
Development. That was instituted by General Hosmer, who was an 
outstanding superintendent and who has worked with us on this. 
He started some very good programs in 1993 and 1994, but 
unfortunately after he left some of them were not implemented 
in the way they should have been. What we say is that the 
Center for Character Development needs to have a mandatory 
class every year. It needs to be a class in which this becomes 
part of their life. They use case studies, they use examples so 
that they begin to inculcate those values and ethics that are 
so important to have in a commanding officer in the United 
States Air Force. They need to be acquiring those throughout 
their 4 years at the Academy through that center, not just 
going and sitting and listening to some speeches, which is what 
it is now, that goes right over their heads and causes them to 
just check the box and leave.
    Senator Dayton. So this commander was responsible in 1993 
and 1994, when some of these matters were brought to him 
almost, in some cases, the testimony or statements of women 
then were verbatim. Let's continue to what you heard in your 
review. Over the last decade we've had various commands come 
and go and the culture's deteriorated, but no one's responsible 
because everybody inherited the culture that preceded them. My 
two-part question I'd like to ask each of you to respond to if 
you would please, one is, is this institution able to correct 
itself from within given how, as you've said in your own 
comments, General, the culture's been infected? Is it so 
pervasive that we should close the institution down for a year 
and just go through a revamping? Should we dismiss everybody on 
the faculty who has to have some involvement in this and just 
clean the whole shop? I respect your views on the new command, 
and I hope they're as outstanding as you believe they are, but 
no one who has preceded them has been able to make any 
difference in this. I don't have any confidence that 
fundamentally this is going to change just because two or three 
people at the top have changed.
    Ms. Fowler. Senator, I do want to make clear, and we have 
it in our report several times, that the vast majority of 
cadets at the United States Air Force Academy are honorable 
young people. This is only a small minority.
    Senator Dayton. I'm not talking about the cadets, though. 
I'm talking about those who are faculty and the leadership, up 
above, including the dean who's still around and, et cetera.
    Ms. Fowler. The majority are honorable. Many of the 
leadership were good, but as you will see in this time line, 
and I don't think I referred to it, but the very last chart in 
your book is the time line. There were well-meaning people 
along the way who put things in place, but then because of the 
military turnover, they left. The next person coming in either 
didn't know about it, or was not as concerned about it, so it 
would rise and fall with concerns or with what would happen. No 
continuity.
    Senator Dayton. While all these well-meaning people came 
and went, 80 percent of the present women have experienced a 
sexual assault at some time in their 4 years. I guess I'd go 
back to my question; is it going to be possible to change it by 
replacing the top leadership and putting in a few changes, some 
of which you've already determined are counterproductive? Or is 
it so badly infected that it's unrealistic to think that the 
present organization itself can be self-corrected?
    Ms. Fowler. Let me have each of the panel members speak 
quickly to that.
    Dr. Miller. Our recommendations are for a comprehensive 
program to change it, so it's important that all the 
recommendations are taken together, including an outside board 
of visitors that's more active, more access to the public from 
the cadet level up to the top, so we don't think that you can 
just change the problem by changing the leaders. We do think 
you need outside monitoring and help.
    General Bunting. I'd make a quick but general comment about 
American universities and the way faculty members are now 
selected and the way they see their duties. When many of us 
were in college, 30 or 40 or 50 years ago, the most important 
person in our lives at the college was some assistant professor 
who took a personal interest in us, perhaps we visited in his 
house, we got to know his family, he represented, by the way he 
lived his life, something that we could aspire to be. What's 
happened generally in the universities, and I think the Air 
Force Academy is not to be excluded from this, is that 
professors nowadays see their role as people involved in the 
lives of young students as much less important than they used 
to. They are very anxious to retain their authority and stature 
in their field, to publish frequently, to do a lot of research; 
but as active agents in the education of these kids, they are 
much less involved than they were at one time.
    I've made this point several times during these 
discussions. You have a faculty of very able people at the Air 
Force Academy, about half of whom I believe are civilians. Many 
of them have the equivalent of tenure. They should be involved 
as active agents in fixing this situation, but nobody talks 
much about them. They need a strong dean and some assistant 
deans to convince them of their importance in executing this 
imperative.
    Ms. Carpenter. I, too, believe that there is hope for 
change within the existing structure with accountable 
leadership, involved leadership, external oversight, 
monitoring. I think that positive changes can be made and I 
think that we can cite examples out in the civilian world of 
that teacher who is teaching in the ghetto system where it's 
crime-ridden and drug-populated, and she holds those students 
accountable and forces them to be responsible for themselves 
and makes that difference. Therein lies that accountability and 
ability to change.
    General Nardotti. Senator, I would echo the comments of the 
other panel members and say that, first of all, the leadership 
that is in place is impressive, and I think that we should 
expect that they will fix the problem. They must fix the 
problem. Just as anywhere else in the military, if there were a 
serious problem you wouldn't call a time-out and take 6 months 
or a year to fix it. The organization needs to keep operating. 
It continues to have a mission. The Air Force Academy has a 
very important mission. It is succeeding in many ways with the 
vast majority of the cadets, but we have responsible leaders 
that we believe are fully capable of dealing with the problem. 
The challenge is going to be continuing that commitment over 
time, and that has been the problem over the past 10 years.
    There have been some efforts, previously described as 
spasmodic, to deal with the problem, some of them very well-
intentioned, some of them very well-thought through. But it's 
very clear that the follow-through simply was not there. Going 
back to what we mentioned before there was General Hosmer, who 
was very focused on the problem, and took some very 
extraordinary measures, proper measures, given all the 
circumstances. However, he left after about a year and a half. 
But the leadership that is there now we believe is focused in 
the right way.
    Dr. Satel. I think there are four good reasons for 
optimism, and two have been emphasized; the first being the new 
leadership--the new superintendent, commandant, vice 
commandant--that's been mentioned as well as our 
recommendations, especially the enhanced oversight and the 
longer tenure. But number 3 would be the incredibly intense 
spotlight that has been trained on this issue, and number 4, 
the fact that we named names. Obviously, we're not the ones to 
decide the fate of these individuals, but that was a very 
specific response--we had a very high threshold certainly for 
doing that, because it's a serious thing to do, but I would 
think that would really get people's attention that people will 
be held accountable, and that's yet another dimension to why I 
think this will be taken very seriously.
    Senator Dayton. Thank you. Again I'd just like to commend 
you for your outstanding service. Thank you, Mr. Chairman. My 
time has expired. I just would like to support your observation 
about asking the General Counsel to appear here for her 
remarks. I also think we should look very seriously at whether 
anybody within that establishment is capable of conducting a 
further report because I hate to waste taxpayers' dollars and 
time to come out with something that's going to be compromised 
before it even arrives. Thank you.
    Chairman Warner. Thank you very much, Senator. Senator 
Clinton, and I note Senator Collins will follow, very 
graciously you wanted your colleague to go ahead.
    Senator Clinton. I thank the chairman and my colleague, 
Senator Collins. I thank the panel for an extraordinary public 
service. This is a very impressive report. The thoughtfulness 
of your analysis and recommendations, if followed, should put 
us on the right path, and I would hope that in addition to 
following the recommendations of the chairwoman with respect to 
the dean of faculty, we would consider looking at all of these 
recommendations and putting them into the DOD authorization, 
because I think that we need to set a benchmark against which 
we can hold accountable and measure the progress that is being 
made.
    Chairman Warner. On that point, Senator, I'm glad you 
raised that. In consultation with the ranking member, we're 
going to see what we can incorporate in the pending conference 
report such that this matter is addressed immediately. General 
Bunting, who was former commandant at Virginia Military 
Institute (VMI), points out the need to have a dean, or freedom 
of selection of the dean, and not be limited by the membership 
on the faculty. That's an important observation that you've 
drawn from your experience at VMI. Thank you.
    Senator Clinton. I want to ask each of the panelists to 
respond to a question because I am still somewhat confused 
about the difference in emphasis between the first 
recommendation concerning awareness and accountability about 
the DODIG's conduct of a thorough review of the accountability 
of Academy and Air Force headquarters leadership, and the 
chairwoman's testimony this morning with respect to a thorough 
review of the accountability of the previous leaders at the 
Academy and Air Force headquarters.
    My question is this: Did anyone in the present or prior 
leadership of the Air Force or the Department of Defense 
explicitly or implicitly suggest to or ask you to, limit the 
panel's recommendation about the DODIG's investigation to 
former Air Force and Academy leaders?
    Dr. Miller. No. What I understood Ms. Fowler to be saying 
this morning is not a departure from what we said, but a 
clarification that in the course of our research there were 
questions raised about previous leaders. In the course of our 
research, none of the problematic questions raised dealt with 
the current leadership so that we're not arguing that the 
current leadership should be excluded, but just that, of the 
evidence we have, we only have questions about the performance 
of prior leaders. No one asked us to exclude the current 
leadership. I don't believe that's what Ms. Fowler said, and I 
personally agree that we have no evidence to exclude them. We 
only have evidence raising questions about the previous 
leadership.
    Senator Clinton. General?
    General Bunting. Yes, Senator. I would agree with and 
endorse that answer. Our interest once we got underway, 
basically, was at the Academy. We focused very intensely on 
what was happening there and did not spend a great deal of time 
addressing that issue.
    Ms. Carpenter. I would concur with Dr. Miller and General 
Bunting that we were looking at the process over a decade and 
we were dealing with a new leadership that had just started 
action, so our main focus was on the previous leadership.
    Chairman Warner. Could I just make a statement of fact for 
the record? Secretary Roche was confirmed by the Senate on May 
24, 2001. According to my calculation, he was in office for 20 
months before the letters that Senator Allard and I forwarded 
to the various people to begin to look at this. General Jumper 
was confirmed by the Senate on August 3, 2001, giving him 
somewhere around a little less than 18 months, so I just point 
out that they had been in office for, I think, significant 
periods of time. You draw on Colonel Ripley's, I think, rather 
dramatic metaphor, this was a ship in broad daylight sailing 
into a reef, and according to General Bunting, systemic 
problems were manifest to everybody who wished to see them.
    Ms. Fowler. In answer to your question, Senator Clinton, 
number 1, this has been an independent panel. No one has given 
us any directions as who to include or exclude in our 
recommendations and our review. We have operated totally 
independent of anyone in any place of leadership at the 
Pentagon or here on the Hill. That's been the good news and 
we've operated in a very fair and transparent manner.
    It has been our opinion, as stated earlier, we can't make 
an official recommendation. I stated in the press conference in 
answer to a question on Monday, and again stated in my release 
this morning, that the information that we uncovered in our 
investigation, we could not find a reason to call for an 
investigation of the current leadership, but we could certainly 
find reasons to call for investigations of prior leadership 
when we saw time and again lack of action on their part. From 
what we investigated and learned, this current leadership, once 
it was brought to their attention, which was earlier this year, 
then they did take immediate action.
    The Agenda for Change was issued before the working group 
report was finalized. They got the interim report, and they 
moved forward and put out the Agenda for Change, which needed 
to be done. You had young women cadets arriving at the Academy 
in June. They could not let those current procedures, the ones 
that were in place before them, stay in place. So we commended 
them for their action, even though we didn't agree with 
everything in it. It was better to move forward and get some 
changes started than to sit around waiting on all these reports 
to be finalized.
    General Nardotti. Senator, I would just say that there was 
a lot of emphasis on the past leadership because of something 
that I said earlier, the assumption that nothing could be done 
about the past leadership, and it was our very strong opinion 
that something needed to be said about what we concluded about 
past leaders. Not much really needs to be said about the 
current leadership because they're still in place and action 
can be taken, so there was nothing that the report has said as 
far as saying that no action should be taken; we didn't find 
any. Certainly the leadership of the Department of Defense and 
certainly Congress has options that can be applied against the 
current leadership that are simply not available with respect 
to the prior leadership, and they should not be omitted merely 
because of the passage of time.
    Colonel Ripley. Senator, my colleagues--I agree with all of 
them in that the focus, of course, when we began was certainly 
on the problem itself and how it developed, and we were trying 
to get at that issue of how in the world could this come about, 
so our focus was somewhat on the past. Be that as it may, as we 
began to continue our hearings and individual comments, it was 
obvious that this was the overused term, a systemic problem, 
and yes, at no point did we consider anyone exempt, current, 
former, future, anyone exempt from any of our recommendations 
such as they were at the time or would become. Let the chips 
fall where they may. If there are current problems and, as the 
report suggests, we think the DODIG should have a closer look 
at this, then that should be done, meaning current leadership 
should be held accountable.
    Dr. Satel. I say the same thing. No one told us that we 
should limit our investigation in any way. We did find 
Secretary Roche responsive, but the DODIG and this committee, 
as well, will have an opportunity to pursue with him whether or 
not in fact you feel he did live up to his responsibility.
    Senator Clinton. I thank the panel, and I thank the 
chairman for helping to clarify that prior doesn't mean a long 
time ago, that there has been a continuing set of issues that I 
think we need to leave open with respect to prior and present 
leadership. As the Colonel, I think, rightly said, let the 
chips fall where they may, based on whatever this committee 
continues to investigate and with a very strong admonition to 
the DODIG that by no means is there any agreement on this 
committee that any current leadership is exempt from a thorough 
investigation, that the plain words of the recommendation 
should be taken exactly as they are presented. Thank you, Mr. 
Chairman.
    Chairman Warner. I thank the Senator very much.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. First let me 
apologize to the chairman and to the committee for my late 
arrival. As, I know Congresswoman Fowler can appreciate this, I 
was chairing the Governmental Affairs Committee and was unable 
to be in two places at once, but I am pleased to join you now.
    I realize that some of my questions may be somewhat 
duplicative of what has already gone forward, but I feel so 
strongly about this issue that I'm going to proceed anyway. The 
chairman arranged a briefing in early August, I believe it was, 
with the IG, who shared with us the results of the survey of 
the female cadets at the Academy.
    Chairman Warner. Excuse me, Senator. That would be the 
DODIG.
    Senator Collins. Yes, the DODIG. I had early on requested 
the DODIG to investigate this matter in my capacity as Chairman 
of the Governmental Affairs Committee. I was stunned and 
appalled at the results of that survey, as I'm sure was every 
person in this room. It showed, for example, that 11.7 percent 
of the female cadets surveyed from the class of 2003--this is 
recent, 2003--had indicated that they were the victims of 
either an attempted rape or an actual rape. It showed that 
overall in that class, and the first figures I gave you were a 
subset of the ones I'm about to give you, that 24.2 percent 
said that they were the victims of a sexual assault or an 
attempted sexual assault.
    Another troubling fact to me was that the longer these 
women remained at the Academy, the more likely it was that they 
would be victims of sexual assault or attempted rape, and that 
the percentage of cadets who had experienced these crimes, and 
that's what they are, increased the longer that they were 
there. It's so troubling to me as someone who has encouraged 
young women to go to these academies and has had the honor of 
appointing them that I may be putting them in danger of a 
sexual assault. I just can't get past that fact.
    I'm further alarmed that the IG reported that most of the 
cadets did not feel that they could come forward and report 
this, and indeed, 88.4 percent, an astounding number, strongly 
disagreed or disagreed with the statement that most cadets were 
willing to come forward and report a sexual assault incident 
regardless of loyalty to the offender. That is just 
extraordinary about what it says about the climate of 
intimidation at the Academy.
    So let me begin by first thanking you for your thorough 
work, for your extraordinarily important work, and I believe we 
should quickly adopt all of your recommendations. But I remain 
troubled, as I think many of the members do, with the response 
of the very highest of levels of the Air Force to this scandal. 
I remember very well Secretary Roche and General Jumper coming 
before this committee, being questioned by this committee, and 
assuring us that everything was under control, that the working 
group, which you've been very critical of, was doing a good 
job, and most extraordinary, making conclusions before 
investigations were even complete.
    So the one recommendation or the one finding in your report 
that I question is your statement that Secretary Roche acted 
appropriately. I don't know whether you had the benefit of 
reviewing the testimony of our hearing when all of us were 
pressing him and encouraging him to withhold judgment until he 
had all the facts and telling them that we believed that this 
was the tip of the iceberg. So I'm having trouble with 
accepting the finding that he acted appropriately, and, 
Chairwoman Fowler, we'll start with you.
    Ms. Fowler. Our opinion is based on our interaction with 
the Secretary. Senator McCain read some of the Secretary's 
comments. We had reviewed some of those also from earlier this 
year. I don't know any of us who as we've learned more facts 
haven't changed our opinions along the way, because knowledge 
always helps. My assumption would be, and I do not know because 
I have not talked to the Secretary about this, would be that he 
didn't have enough knowledge when he was making those 
statements back in February and March as he acquired later. As 
far as our concerns were, we saw that the Secretary moved 
forward in a very expeditious manner in promulgating the Agenda 
for Change, that there was a need before the new cadets came in 
June to immediately get some of these processes and procedures 
changed.
    He and General Jumper, as soon as they had the interim 
report from the working group, moved forward with that Agenda 
for Change. It is not perfect, and they made clear that it was 
a work in progress, and would be an evolving document, but 
there was a need to move forward as quickly as possible, and so 
we commended him for that. He came before our committee June 23 
to testify and answer questions, spent a long time with us 
answering a lot of questions. We had never met with him before 
then, but we were very impressed then with his candor, his 
forthrightness, his personal commitment to moving forward on 
this. During the time of our investigation, we have never had 
any problem with his being available to answer questions, with 
his making sure that the Air Force gave us what we wanted. Any 
time we had some lower level person seeming to slow it down, 
all we had to do was make a phone call, we got what we wanted 
in a timely manner.
    So as far as this panel's interaction with the Secretary, 
it's been a positive experience as far as during the course of 
our investigation. We can't speak to his interaction with this 
committee or any other, but as far as our interactions with 
him, we have found him to be very forthcoming and to be very 
receptive to making changes. As you have seen over the past few 
months, and part of that is due to some of the things that we 
have brought out in our hearings, he has been making 
modifications to the Agenda for Change. We have appreciated 
that they have had an understanding that, again, you make 
changes as you learn more information. We consider that still a 
work in progress, and these changes are not going to happen all 
overnight. It's going to take a while. You don't change a 
culture overnight. It takes a while to do this and we're hoping 
that next year there's going to be somebody in place, hopefully 
this executive steering group as well as this committee, to 
look back and say, okay, what's working and what is not.
    We hope our recommendations get implemented and we hope 
they work, but there's no guarantee until you put them in place 
and then someone has to review those. There is a great need for 
external oversight as well as internal.
    Chairman Warner. Senator, you have another 2 minutes, go 
ahead.
    Senator Collins. Thank you. I appreciate that, Mr. 
Chairman. Do any of the other members want to comment on this 
issue?
    General Bunting. I'd like to make a quick comment about an 
agency of this whole enterprise, which thus far has escaped the 
rigorous discussion of this entire group, namely the Board of 
Visitors. When a university goes bad for a year or 2, look at 
the administration, fire the president, but when there is a 
long record of abuses of this kind, you should then, it seems 
to me, look at the Board of Visitors of the institution, which 
is ultimately responsible for that.
    We studied the Board of Visitors carefully. As somebody who 
has run a couple of colleges, my main problem was keeping 
enough time to deal with boards of visitors who were on me like 
a cheap sweater all the time. They were good people and they 
were very much involved. Here we have an institution whose 
governing board was negligent, it seems to me, in their 
discharge of their responsibilities. They met once a year in 
Colorado Springs for a kind of dog and pony show. The average 
attendance was less than 50 percent. Some members never went to 
meetings at all. I went through all of the minutes of about 15 
years' worth of Board of Visitors' meetings. For 2000, I 
couldn't find the minutes. The reason was there was never a 
meeting. That's the kind of thing which it seems to me ought to 
be looked at very severely.
    Senator Collins. Mr. Nardotti, did you have a comment, too?
    General Nardotti. Yes, Senator, just a couple of points for 
emphasis. First, it doesn't surprise me that Secretary Roche 
and the Chief of Staff of the Air Force wanted to take hold of 
this problem and deal with it as best they could within their 
discretion, including--and I wish Senator McCain were here--it 
doesn't surprise me that Secretary Roche wanted to investigate 
this internally. You would expect that of a military leader. 
This is an organization that he or she would be responsible 
for, and they're going to take that responsibility and deal 
with it, and specifically with the problem that they had to 
deal with, it was an ongoing issue. They have climate issues, 
they have issues in terms of how do you deal with the 
reporting. That's not something that can wait for a number of 
investigations to be done.
    I certainly understand your point that, yes, there is 
wisdom in incorporating the evaluations of others, but I think 
as the leader of the Air Force, the senior civilian, as the 
chief of staff, the senior uniformed person, they believed, 
rightfully, in my opinion, that they needed to take some 
action. They have superiors. The Secretary of Defense, if he 
wanted to stop them from doing that and do something else, he 
could have directed that. Of course they answer to Congress in 
ways as well, so certainly their prerogatives could have been 
curtailed, but I think I would have been more troubled if they 
basically went into a non-action mode and didn't try to deal 
with the problem.
    This is not a problem, as everybody understands, that is 
susceptible to any easy solution, and it also is something that 
they are dealing with, and if you go back over the timeframe, 
consider what's happened over the tenure of the Chief of Staff 
of the Air Force and the Secretary since September 11. I think 
that has to be thrown into the equation that all secretaries, 
all chiefs, are challenged, but there have been extraordinary 
challenges for the Services, and they had that extraordinary 
challenge to deal with and another very complex issue to deal 
with here and assessing all of that and seeing where the 
Secretary wound up. Yes, he resisted, certainly, in some of the 
issues, but he did come around at some critical points and make 
some decisions with respect to personal actions and to the 
decisions that had to be made. We tried to take all that into 
account as we, in our limited view, assessed what we should say 
about the Secretary and the Chief.
    Senator Collins. Thank you. Mr. Chairman, just one final 
quick comment. I don't think that we should expect the 
Secretary to just ``come around.'' I think we should expect him 
to lead, and I have real questions about whether there was 
effective leadership here.
    Chairman Warner. Thank you, and actually, Senator, I'm 
going to pick up on one of your points here, and that is--
Senator Allard read this--what you say here, ``we are impressed 
with the leadership of Secretary Roche and General Jumper.'' 
Now, I'm referring to this famous press release by the 
Department of the Air Force at 3:00 p.m., 26 March 2003, in 
which they say, ``As the problems regarding sexual assault 
allegations predate the current leadership, we do not hold 
Generals Dallager and Gilbert responsible.''
    Now they made that finding at a time when they just started 
to investigate it. The IG of the Air Force was investigating 
it. We later got the IG of DOD involved. Reaching conclusions 
as dramatic as that at a time when this situation is just 
bursting on the public scene, and mind you, the Secretary had 
been in office for 20 months, I'm puzzled by how you can make 
such a statement of clarity here that you're impressed. Did you 
question him about this release?
    Ms. Fowler. This panel did not come into existence until 
mid-June. We were not in existence back in March, February, 
when all this was occurring.
    Chairman Warner. But the committee sent you copies of this. 
I know that for a fact.
    Ms. Fowler. When we questioned the Secretary, he was not as 
emphatic on that area. I think by then, by mid-June, he had 
received the report from the General Counsel that he had just 
gotten it. We just got it like a day or 2 before our hearing. 
As I stated earlier, as we all receive new information, then we 
re-look. As you have seen, the Secretary then chose to demote 
General Dallager, he lost a star in his retirement. The verdict 
is still out, I believe with respect to General Gilbert and 
Colonel Slavec as to what responsibility will be held or not. 
According to General Jumper, that is still under review.
    So, again, this has been an evolving process and we 
didn't--when we talked to the Secretary----
    Chairman Warner. My question was simply, did you ask him 
specifically about this press release?
    Ms. Fowler. I couldn't say whether we did or not, but as 
far as his responses to us that day, it was clear that this was 
still all under review.
    Chairman Warner. Still what?
    Ms. Fowler. That there was still a review going on as far 
as leadership responsibility.
    Chairman Warner. Then do you think it's a question of 
judgment to have made a decision as finite as this at the time 
he knew investigations were ongoing?
    Ms. Fowler. Well, obviously it wasn't a finite decision 
since he changed it later.
    Chairman Warner. Okay. We'll stop there on that one. Then I 
would say that, look, I'm not head hunting. I'm a former 
military Secretary myself, I say with humility. I'm no 
stranger, having spent 5 years, 4 months, and 3 days, during 
the height of the Vietnam War in the Department of the Navy, 
and I value tremendously what I learned from the uniformed and 
other colleagues in the department at that time. I've been able 
to spend my 25 years in the Senate here on this committee 
drawing on that experience, tremendously valuable. So I have 
the highest regard for the Service Secretaries. But I have a 
responsibility on this committee that's eminent. The Secretary 
of Defense asked that we start within days the hearing on 
General Jumper. This testimony and this record are very 
valuable as a contribution. We have to take it into 
consideration so I'm trying to clarify this.
    I go back to your statement this morning that the current 
leadership should not be included in the IG's investigation, 
just former. How do you----
    Senator Levin. Excuse me, I don't think that's----
    Ms. Fowler. No, I was going to say that. I've said it I 
think three different times, we'll have to go back to the 
record, that this is not an official statement. It's just our 
opinion as based on the information we have, that we haven't 
uncovered any reason for that, but it is only our opinion, it's 
not an official recommendation, and it's going to be up to the 
IG----
    Chairman Warner. We understand that.
    Ms. Fowler.--and this committee to make that decision.
    Senator Levin. Would the chairman yield just for that to 
clarify?
    Chairman Warner. Sure.
    Senator Levin. I don't think that this panel is even saying 
that the current leadership should not be included. What they 
are saying is they want the prior leadership to be looked at, 
and they don't have any evidence relative to the inclusion of 
the current leadership. But they're not finding that the 
current leadership should not be included, they're saying that 
that would be up to us if we believe they should be or if the 
IG believes they should be.
    Ms. Fowler. Thank you, Senator Levin. You said it much 
better than I could.
    Chairman Warner. All right. Anyway, you elected to use the 
word ``former'' here this morning. Do you have evidence that 
sexual allegations continued to occur for the 20 months that 
Secretary Roche was in office?
    Ms. Fowler. As you've seen by our time line and by the 
chronology, they've been occurring every year, but we do not 
have evidence that either the Secretary or the Chief were 
informed of what was occurring. That's been part of the 
problem, a lack of communication sometimes, between Academy 
leadership and headquarters leadership. That's why we support 
the institution of this executive steering group, that it be a 
permanent group so that there is an entity that does continuous 
oversight of these issues at the Academy.
    As General Nardotti stated, September 11 came, you have a 
Secretary and a Chief of Staff who are involved in some really 
critical national security issues, and in the meantime, no 
one's telling them what's going on at the Academy. There has to 
be a body that's going to be always looking at that, and that's 
why we say this executive steering group that the Secretary has 
instituted should be made permanent so you won't have these 
lapses occur again in knowledge at Air Force headquarters.
    Chairman Warner. I'll just ask one further question in this 
area. When I was Secretary, I very strongly relied on the 
General Counsel. I frequently met with him. I did not ever say, 
you take this task, go off and do it by yourself without my 
monitoring it, but that's my management style. I felt that the 
General Counsel of the Department of the Navy was very much a 
part of the leadership, but by this morning's testimony, I 
think it's confused. This only looking at the past would exempt 
the General Counsel from review by the IG at the very time your 
report brings some very strong denunciations on the performance 
of the General Counsel and that working group.
    Ms. Fowler. We are not questioning the integrity of Mary 
Walker. I think she is a very good General Counsel.
    Chairman Warner. No, I'm not suggesting you are.
    Ms. Fowler. We are not making any recommendations as to 
whom the IG should investigate. Her report was well done, but 
what we have pointed out is that in the course of our 
investigation there were certain omissions from that report 
that caused us concern, that we thought should have been 
included in a comprehensive review of the past 10 years.
    Chairman Warner. Well, that's well done, but you didn't do 
A, B, C, and D, so I think that's somewhat contradictory. Let 
me just move on to another subject. Let's go back to 1995, the 
past which you looked at. Following completion of the DOD task 
force on discrimination and sexual harassment in 1995, this 
committee conducted a hearing on Air Force programs. Then-
Secretary of the Air Force Sheila Widnall, who co-chaired the 
DOD task force with Dr. Edwin Dorn, testified that the Air 
Force had implemented all of the panel's recommendations and 
assured this committee that the Air Force had taken necessary 
steps to ensure an effective program was in place.
    Did you have Secretary Widnall before you? Were you able to 
determine if serious consideration was given by the Air Force 
to implementing the DOD task force recommendations at the Air 
Force Academy? Can you explain why the proven systems for 
responding to those reports of sexual harassment, including 
physical violence, were not implemented in the Department of 
the Air Force?
    Ms. Fowler. As I stated earlier, Senator, when I was asked 
the question about what we would like to have done if we had 
had a little more time, one of my statements was that there was 
some of the prior leadership we did not have the opportunity to 
interview. Dr. Widnall was certainly one we would like to. Of 
course, she's been very involved in the NASA investigation 
because she's on that board and hasn't been as available. We 
think that the IG needs to look back over the tenure of each of 
the Secretaries for the past 10 years, because, as you said, 
Dr. Widnall did chair a task force on that, part of it dealt 
with the Academy, and what was the follow-through on it.
    Again, if you look at the time line, sometimes there were 
studies done, reports made, but then no follow-through on 
implementation. They would tell the Academy to do it, but then 
no one was looking to see did the Academy really do what they 
said they were going to do. So there was a disconnect between 
Washington and Colorado Springs.
    Chairman Warner. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. The chairman has 
made reference to a press release of the Air Force, and I think 
very properly so. As a matter of fact, I think I actually led 
the way at that hearing back in March in criticizing the 
Secretary of the Air Force for that release. I think he was way 
off in suggesting that they should not look at leadership 
issues, and again, the record will speak for itself, but I 
think I actually was the one who said, are you kidding, you're 
not looking at leadership omissions? They changed their 
position.
    I think every member of this committee took the same 
position that, of course, you have to look at leadership 
omissions. You can't just look at the people who committed 
crimes here, you have to look at the failure of leadership to 
change the environment. So I happen to agree with the chairman 
in terms of his criticism of the Secretary of the Air Force for 
this press release, and again I emphasize I joined very 
strongly in it. Indeed I did more than join.
    But I think it's important that we understand precisely 
what you're saying here, and I think I understand it, but I 
want to just summarize my understanding of it. You are critical 
of the working group report for failing to go after, excuse me, 
to review or to inquire or investigate headquarters in terms of 
any omissions on their part. Is that correct?
    Ms. Fowler. Yes, or to reveal information that we know they 
knew, that members of the working group were aware of, that did 
not make it into their report, such as the 2000/2001 
investigation that a member of the working group chaired, and 
yet it doesn't appear in their report.
    Senator Levin. So there is information that they, or at 
least members of the working----
    Ms. Fowler. Some of the members. As I said, I'm not sure 
Ms. Walker had all that information, but some of the members of 
that group did.
    Senator Levin. Well, that's important, and I think the 
significance of your making that distinction should not be 
lost, and I don't think I understood it even, frankly, until 
this moment. You are not then criticizing the working group 
necessarily for failing to include information which it had as 
a working group. You don't know that they had it.
    Ms. Fowler. We don't know what every member had.
    Senator Levin. You know that a member of that working group 
had information which presumably should have been shared with 
the working group?
    Ms. Fowler. We do know that--I believe it was in April--the 
member of the working group who had chaired that 2000/2001 
review, shared with the other members of the working group his 
role in that. Now, what more he shared with them I do not know.
    Senator Levin. Okay. So that they may or may not be subject 
to criticism for leaving out information which they knew?
    Ms. Fowler. I would hope that--if I had been working on 
that working group and a critical member had said, oh, I forgot 
to tell you all in the beginning, but I chaired a review of 
this very issue in 2000 and 2001, I think I would have gone and 
looked to see what that report said and did, because here I am 
in the middle of a review. But we don't know.
    Senator Levin. Have you reached any conclusion on that 
narrow issue as to whether the working group failed in that 
regard?
    Ms. Fowler. We have a page or so in our report that lists 
some of the omissions that we are aware of that were not in 
that report.
    Senator Levin. Let me read you from page 4 of your report, 
because I want to see if there's some other place that you've 
gone further than this. You've indicated that, ``any credible 
assessment of sexual misconduct problems over the last 10 years 
must include an examination of the responsibility of both 
Academy and Air Force headquarters leadership. The working 
group report failed to do that even though the Air Force 
General Counsel had access to considerably more information, 
resources, and time for study than did the panel.'' Are you 
concluding then that the working group failed based on what 
they knew to make an assessment, which the information in their 
possession should have led them to make? Is that where you're 
at?
    Ms. Fowler. Senator, if you will look at the next page, 
page 5, it details there matters that we uncovered, and that as 
far as we could uncover, that were known to members and staff 
of the working group, but were not included or only obliquely 
referenced to in their report. We detail those on page 5, and 
those were sufficient to cause us to raise the question as to 
why were they not included.
    Dr. Miller. That continues on to page 6 as well.
    Ms. Fowler. It goes on.
    Senator Levin. That continues on page 6. The criticism of 
the working group, which then is laid out here, for failing to 
take adequate note of, and to inquire into, then the question 
raises: Does that criticism apply also to the Secretary?
    Ms. Fowler. As far as we know, and again, this is just our 
knowledge, the Secretary was not involved in the development of 
the working group report, that that report was developed by the 
General Counsel and her working group. So the information we 
had was that this was a staff-directed and a staff-done report 
that was presented to the Secretary of the Air Force as well as 
to others. General Nardotti would like to make a a comment, if 
he could, on that.
    General Nardotti. If you were to look, Senator, at the 
charge that the working group, the General Counsel's working 
group, had, the focus clearly is on the activities at the 
Academy, so technically when they focus on what is happening at 
the Academy, they covered all of the bases. Our position is, in 
looking at the information that we came across, which we 
believe the General Counsel working group should have come 
across much more easily than we could have, was that you could 
not tell the entire and complete story without explaining the 
involvement of headquarters, because at various times over 
those years, you had involvement of the Air Force Office of 
Special Investigations, the IG, and the Judge Advocate General 
was involved in looking at the problem at one point.
    There was clearly attention by the headquarters to this 
problem at the Air Force Academy, and General Hosmer told our 
panel that although he did not run his courses of action before 
the Secretary before he took them, he had many discussions with 
Secretary Widnall about what was going on, what he was doing. 
We believe that there was knowledge of things in place, and 
what we have been critical of, with respect to the General 
Counsel's report, to fairly assess what went wrong, you can't 
tell that story just from looking at the Academy side.
    I think, again, our point also was a matter of fairness. 
How do you put this entirely on the backs of the leadership of 
the Academy? Certainly they have primary responsibility because 
they run that institution, but some of these issues that were 
raised, the issue of confidentiality, how they were dealing 
with confidentiality was something that was wrestled with at 
headquarters' level, and Mr. Atlee's involvement later on had 
to do with that, but the point is, the larger issue is, that 
the headquarters had visibility and involvement in this and 
that appears nowhere in the General Counsel's report.
    Senator Levin. I'm just going to conclude with two points. 
Number one is we are making it clear to the Inspector General 
that we want the Inspector General to review the actions or 
inactions of leadership, including the present, that is going 
to be made, as I understand it from the chairman.
    Chairman Warner. Correct, a letter that you and I will 
jointly prepare.
    Senator Levin. That is going to made clear to the Inspector 
General. So we're going to clear that issue up, even though you 
didn't find any evidence of something that troubled you 
relative to the current leadership.
    Ms. Fowler. All we could report on is what we uncovered.
    Senator Levin. By the way, your independence is very 
clearly reflected here today, and we're very proud of that 
independence, including independence of the Pentagon, 
independence of the Academy, and independence from us. You've 
stood your ground here.
    Ms. Fowler. We tried to follow through in your intent in 
establishing the panel.
    Senator Levin. That was the intent. But we have a 
responsibility, which the chairman surely symbolizes here, that 
we're going to make sure that that Inspector General's report 
covers the current leadership. That's our responsibility, okay, 
regardless of whether you found evidence or not, we have a 
responsibility. That's point one.
    You apparently did not ask the Secretary of the Air Force--
you don't remember asking specifically whether or not these 
matters were brought to his attention.
    Ms. Fowler. I haven't reviewed the transcript from June.
    Senator Levin. All right. I think, Mr. Chairman, it would 
be incumbent on us in making clear to the IG that we expect 
them to include current leadership in their review, to ask the 
IG to specifically inquire of the Secretary of the Air Force 
whether or not the Secretary of the Air Force was aware of 
these facts that are laid out on page 5 and 6. That's number 
one.
    Number two, after our hearing that the chairman has 
referred to, which I think was that date of March 30, we all 
were just aghast that the Secretary of the Air Force was not 
looking at the leadership issue. I think all of us concluded, 
how do you omit the leadership? Now, my question of the 
Secretary of the Air Force would be, if he were standing here, 
after that hearing and after he took steps to change the 
current leadership at the Academy, why did he not then inform 
the General Counsel that he wanted the General Counsel to look 
at the leadership issue as well as the specific events? Once we 
had been so critical of the Secretary of the Air Force for 
failing to look at leadership--when he said he can't go 
backwards, we said, sure you can, you have to hold folks 
accountable--he still apparently did not broaden his charge to 
the General Counsel for that report.
    Now, the working group--what was the date of their report?
    Ms. Fowler. They reported in June. I don't know the exact 
date but it was mid-June.
    Senator Levin. There were a couple of months there that the 
working group, it seems to me, I don't know if they could have, 
but should have been looking at the leadership issue once the 
Secretary of the Air Force knew that this committee wanted the 
leadership issue to be looked at. That is something that I 
think we should inquire of the Secretary of the Air Force and 
also make sure the Inspector General asks the Secretary of the 
Air Force, because that to me is something which was so 
dramatic that we were interested in that issue.
    Chairman Warner. I think that is an important point, and I 
think we should give this panel the opportunity to tell us. Did 
you inquire of the General Counsel what instructions did you 
get to include or not include this very valuable section? Like 
you say, any credible information over the past 10 years must 
have an examination? Did you inquire of her?
    Ms. Fowler. No, Mr. Chairman, she testified just a couple 
of days after we had received her report, so we had only--we 
had seen her interim report that she had issued a couple of 
months before--we'd only had her report in hand a few days. It 
was not until we were well into our investigation----
    Chairman Warner. I see.
    Ms. Fowler.--and we began to uncover information that we 
would go back and see was not in that report that we began to 
raise these questions.
    Chairman Warner. Did you consider perhaps recalling her to 
bring that very serious point up?
    Ms. Fowler. At that point in time her report was complete. 
So all we could do was raise it and let you know and let the 
offices that at the Pentagon know that these were omissions. 
The report was closed, the working group was through, and so 
there was no way we could get that reopened by this panel.
    Chairman Warner. Did you explore with the General Counsel 
how the charter for her working group was established, and did 
the Secretary at any point in time after issuance of the 
charter, did he return and suggest amendments or expansions?
    Ms. Fowler. As I said, Senator, when she came before us, we 
had just had her report a few days in hand, and as far as we 
knew, it covered everything, so it was not until several months 
later as we began to find these omissions that we started to 
see these questions and then her report was over.
    Chairman Warner. So we do not have before us today any 
facts relating to an ongoing collaboration between the General 
Counsel and the Secretary or the Under Secretary or other 
supervisors of the General Counsel as to how the parameters of 
her working group should be expanded or restricted?
    Ms. Fowler. We did not have that.
    Senator Levin. But what we do apparently know is that the 
Air Force yesterday indicated that the General Counsel was 
carrying out the instruction that they were to look at 
procedures at the Academy and not the actions up in the chain 
of command.
    Ms. Fowler. We've seen that press release.
    Senator Levin. Now, if that's true, then the question has 
to go to Secretary Roche, if that's accurate. Why, after being 
grilled by this committee and being told by this committee--we 
were interested in March in leadership failures--did you not 
amend the instruction to the General Counsel to tell the 
General Counsel, hey, don't just look at the Academy procedures 
or activities, look at the leadership failures as well? That's 
a question, it seems to me, that Secretary Roche has to answer.
    Chairman Warner. We're going to listen to further comments 
from the panel, but at this time our colleague has sought 
recognition.
    Senator Allard.
    Senator Allard. Mr. Chairman, I want to assume--are we 
under the 6-minute rule or whatever, and I want to still have 
my opportunity to have a second round to make comments or 
questions.
    Chairman Warner. You have the full opportunity right now. 
Why don't you start?
    Senator Allard. Thank you, Mr. Chairman. I wrote a letter 
to you dated September 24 asking that we review the 
recommendations from the panel and see if we can't possibly get 
those in some form of legislation from this panel here.
    Chairman Warner. That is correct.
    Senator Allard. So I want to make that a part of the 
record, Mr. Chairman.
    Chairman Warner. Correct, and you'll be working with 
Senator Levin, myself, and other members of the committee to 
incorporate in the conference report certain provisions that 
would become the law, assuming we can get a conference report 
accepted.
    [The information referred to follows:]

                                      United States Senate,
                                Washington, DC, September 24, 2003.
The Hon. John Warner, Chairman,
U.S. Senate Armed Services Committee,
228 Russell Senate Office Building,
Washington, DC.
    Dear Chairman Warner: The Panel to Review Sexual Misconduct 
Allegations at the U.S. Air Force Academy included a number of 
legislative proposals in its report released on September 22, 2003. 
These proposals were designed to correct problems in law that would 
strengthen the United States Air Force Academy's Board of Visitors 
oversight role and grant the Air Force greater flexibility with regard 
to the placement of personnel in key leadership positions.
    Specifically, the panel recommended the following:

        <bullet> The revision of Section 9355 of Title 10 of the United 
        States Code for the purpose of reducing the number of 
        congressional members on the Board of Visitors; requiring each 
        Board member to pledge full commitment to attend each meeting 
        and to carry out all the duties of a Board member; terminating 
        any Board member's appointment who fails to attend in two 
        successive meetings; providing clear oversight authority of the 
        Board over the Academy; and eliminating the current requirement 
        for Secretarial approval for the Board to visit the Academy for 
        other than annual visits.
        <bullet> The revision of Section 9335(a) of Title 10 of the 
        United States Code which limits the available pool of potential 
        candidates for the position of the Dean of Faculty.

    I believe these proposals have merit and would be helpful in 
improving the Air Force's response to sexual misconduct at the Air 
Force Academy. I would appreciate your consideration of these proposals 
as a possible addition to the Fiscal Year 2004 Defense Authorization 
bill. Thank you for your time and consideration.
            Sincerely,
                                              Wayne Allard,
                                             United States Senator.

    Senator Allard. I appreciate your allowing me to work with 
you on that, Mr. Chairman. Then there are a few things that I 
just want to address, Mr. Chairman, that were brought up by 
members of the committee, and I had an opportunity to visit 
with the superintendent of the Air Force Academy, 
Superintendent Rosa, in August.
    Senator Pryor had brought up the issue about how the 
athletic department had a separate sort of area over here, and 
it wasn't necessarily under the control of the superintendent. 
He's corrected, that according to that meeting, and also he 
does recognize that there is a deep cultural problem. He has 
spoken not only to the cadets themselves, but he's spoken to 
the alumni from the Air Force Academy, which I think is very 
key, as well as to the parents of the cadets, and said, look, 
we're all part of this problem, we all need to resolve it. 
Also, he understands the problems of working with the cadets 
and what-not. As I began to survey them, I think there was a 
recommendation that came out of Senator Dayton when he said 
that we need to begin to survey them when they first come into 
the Academy. I'm going to suggest this to the Board of Visitors 
on their survey, where we do it every year and progress and see 
how their attitudes change, as Mr. Bunting suggested, as they 
move through the Academy and see if we can't begin to have an 
impact on some of the cultural thinking at the very start.
    The reason I want to bring this up is because I think the 
leadership that we have at the Academy right now knows and 
recognizes a problem, which is the big difference from what we 
had in previous years, and I think that they're trying to 
address that. I just think it's proper that we recognize it at 
this time.
    I also have a question that I want to bring up. Now, the 
panel report described in general terms the efforts of various 
Academy and Air Force leaders going back to 1993. The panel did 
not specifically assess the efforts of these leaders, with the 
exception of the four Academy officers, which was described in 
your report. That was Major General John Dallager, Brigadier 
General David Wagie, Brigadier General Gilbert, and then 
Colonel Laurie Slavec. My question is, why didn't the panel 
assess the efforts of previous Academy officials and Air Force 
leaders who could have addressed the Academy's climate that 
permitted sexual assaults?
    Ms. Fowler. Again, in our 90 days we couldn't go to in-
depth detail on every former Academy official, but if you will 
look at our chronology section, we do go through--we take each 
year starting in 1993 to 2003 and we do a fairly good 
chronology on who was in the leadership then and what was 
occurring, and what was supposed to be happening in 
relationship to that. If you go through this chronology, and 
you go through the time line that is in the back, I think our 
panel did a good job in 90 days of documenting that.
    Senator Allard. I saw those charts back there, yes.
    Ms. Fowler. It gives you a good overview. As far as in-
depth, getting into why something wasn't followed through on, 
we don't know that. But we do know if a report was made, we 
document that it was made, or if something was started, we 
documented it was started. The problem is sometimes that it 
didn't get continued on the next year.
    Senator Allard. Now, here's the other question. I want to 
address one of the specific individuals that was mentioned in 
your report, that was Brigadier General David Wagie, who has 
served in the Academy for 16 years. During much of this time, 
General Wagie was responsible for the Academy's sexual assault 
response program, the administration of social climate surveys, 
which were not scientific, yet as the panel says in its report, 
he failed to recognize the problems and take appropriate 
action. Despite his failures, he continued to remain as dean of 
the faculty. Why do you believe the Air Force has not held 
General Wagie accountable?
    Ms. Fowler. That is a good question and that's one we are 
raising, because General Wagie was the officer who had the most 
responsibility for the sexual assault program and for the 
administration of these social climate surveys. He had the 
information every year. For the 5 years that he's been dean he 
was receiving that information. There's a question on some of 
the others sometimes as to whether they had it or whether they 
did not, but General Wagie did, and yet he, as far as we could 
determine, took no actions to make the surveys more scientific, 
he took no actions in relationship to the startling information 
that was coming out of those surveys as to the numbers of 
sexual assaults, as to the climate, as to the fears, the 
retribution, why these young women weren't reporting. He didn't 
move forward.
    The cadet counseling center came under him. They reported 
to him, and yet time and again we can find no evidence that 
General Wagie came forward with the information he was 
receiving. We don't even see that he communicated that to the 
commandant or to the superintendent. We can't find the evidence 
of it. But he certainly had the information and was in a 
position of responsibility to begin some implementations of 
some changes, and that we can find no evidence that he did.
    Senator Allard. Do you think that it's possible?
    Chairman Warner. Is he not part of current leadership?
    Ms. Fowler. He is.
    Chairman Warner. Should he not be therefore included in the 
IG's review?
    Ms. Fowler. We recommend that he be included in it. He's in 
the list of names. We have his name in the list of who should 
be looked at.
    Senator Allard. Now, the thought is occurring to me, did 
you look at the reporting of these instances? I mean, this 
current superintendent expressed to me a concern about these 
instances being reported to him, so he knows, as the 
administrative officer, what's going on. Did you find a 
definite break-up in information getting up to the higher 
officers? When something happened in the Academy, was it 
getting reported to those in charge? Was that happening?
    Ms. Fowler. It's a gray area.
    Senator Allard. Then when we had a problem at the Academy, 
was it getting reported to the people in charge in the 
Pentagon, and was it going up from there? Would you talk a 
little bit about this communication, which I think was a part 
of the problem?
    Ms. Fowler. It was definitely part of the problem, and this 
is definitely a gray area, and in our chronology you will see 
some years we were able to document that reports were made to 
Air Force headquarters in Washington. Other years we were not 
able to document that. Some years we were able to document that 
there was information that the superintendent had. Other years 
we didn't have that documentation. What is being said is that, 
oh, we didn't know, or often times prior leadership was saying, 
we didn't have that information, we didn't have that knowledge. 
We know sometimes they did, but sometimes they did not.
    There was poor communications set up, a real lack of 
keeping good records. When we went to get this information, we 
found a lot of times they just didn't keep the records. We have 
recommended they do a better job of retaining records. Because 
of the turnover, we do recommend that the superintendent should 
be there 4 years, the commandant should be there 3 years. 
Commandants have been staying there an average of 18 to 24 
months. 18 months? You're barely there before you are gone. You 
have to have more continuity in the top Academy leadership so 
that someone is overseeing what is happening there and has that 
information to act on.
    General Nardotti. Senator, just a comment on the 
information flow. I think that we concluded there was certainly 
a breakdown of information that was a product of how they were 
handling their reporting system, the confidentiality system 
that had been in place. We didn't find evidence that the 
command had evidence of incidents upon which they could act and 
that they failed to act on that. The problem in the reporting 
system and the problem with dealing with these kinds of very 
difficult cases, if you don't get certain information right 
away in terms of evidence, and if you don't do certain things 
investigatively right away, it becomes very difficult to 
prosecute, and that was the problem with the way the 
confidentiality was being handled in two respects. Number one, 
they basically had the confidential reporting. They weren't 
collecting that information. The victims were not being advised 
of what the consequences of that failure to go into official 
channels would be, and some of them were left with the 
impression that action could be taken later when it could not.
    Trying to strike that right balance, and General Hosmer's 
thought, even though he was the one that initiated the 
confidentiality, his belief, and we agree with this, that 
number one, you need to get the reports in. If you don't have 
confidentiality, you're not going to get the reports. If you 
get the reports in and you put the victim in the proper hands 
of somebody who is qualified to deal with a person with that 
kind of emotional experience and mental experience that you're 
far more likely to get them directed into the right path to 
both take care of them physically, emotionally, mentally, and 
also to give them confidence in the system that if they get the 
information into the right channels, it can be dealt with.
    That fell completely apart and the struggle over those--you 
look at this 10-year period--that continued to be a problem, 
and that definitely affected the information flow of when the 
leadership got information. They were getting it that these 
things were happening. They weren't getting it in time to take 
concerted action against the perpetrators. We don't fault them 
for that, that they didn't prosecute enough people. What we do 
fault them for is there were the indicators there that the 
problem was persisting and they were not taking enough 
concerted, consistent action to deal with them.
    Senator Allard. Thank you. Thank you, Mr. Chairman.
    Chairman Warner. Yes, Dr. Miller, you've been very patient.
    Dr. Miller. The comment I had was directly to the issue 
that Mr. Levin was raising about the parameters or the limits 
of the charter that the working group had, and I'd just like to 
point out that they did cover the area of the Board of 
Visitors, which could perhaps be analogous to headquarters in 
terms of oversight that has some interaction with the Academy 
grounds.
    Chairman Warner. Why don't we just proceed right down the 
panel if that's agreeable to you. General Bunting, do you have 
some further observations you would like to offer to the 
committee?
    General Bunting. Less than a minute's worth, sir, because I 
know your time is limited.
    Chairman Warner. We're not in a rush. This is one of the 
most important issues pressing our military.
    General Bunting. What we have here is a very sick man. What 
we have here is a very sick man, and we have made a very 
thorough and lengthy diagnosis, the panel has, you have, these 
other working groups have, and it seems to me that a 
prescription has to be implemented and implemented quickly. 
It's not only a matter of a talented lieutenant general and his 
new leadership team going in to do the things that are 
necessary, but it's a matter really of transforming an entire 
culture, which, as somebody said, is the soil within which 
these sexual assaults and this kind of misbehavior has grown 
up.
    It seems to me that everybody involved has to make a 
positive contribution towards doing this, and I have made this 
point two or three times this morning, but I would like to make 
it one last time. If the dean has been there 16 years, and 
there has been accumulating evidence of this kind of behavior, 
and the president of the university, the superintendent has 
done nothing about it, what about the Board of Visitors? What 
about this oversight committee of eminent elected officials 
from the Senate and those appointed by the President? It seems 
to me in the future that has to be looked on as a very 
important resource in evaluating the work of the Academy as it 
goes along.
    I would make one last point. I stress again the importance 
of junior grade leadership: lieutenants, captains, and majors. 
These are the young officers who are around these cadets all 
the time. They are members of their generation. They were born 
in 1980 or 1985. Those are the people that these young cadets 
are going to look at as models of integrity, and as General 
Nardotti has said several times, particularly with regard to 
their understanding of the importance of the contribution of 
women to the Academy and to the Air Force.
    Chairman Warner. Thank you, General Bunting, and indeed you 
draw on being superintendent of a prestigious military center, 
VMI, which in many ways is parallel to the Air Force Academy, 
West Point, and Annapolis. Ms. Carpenter?
    Ms. Carpenter. I think as a general comment I commend 
everything that's happened here to raise attention to the issue 
of sexual violence, that it's a pervasive problem in society in 
general. The advantage that we have at the Academy is that it 
is a controlled environment, and it is an environment which we 
hold to a higher standard, so we have an opportunity to make an 
impact. I think that, positively implemented and monitored, it 
has the opportunity to permeate throughout society and affect 
the 700,000 women who are sexually assaulted in the United 
States, so I appreciate the attention that this has been given.
    Chairman Warner. I think that's an important observation. 
I'm certain that the superintendents of West Point and 
Annapolis, who have followed this proceeding and your report 
very carefully, take note of that, and indeed perhaps other 
colleges and institutions across the Nation, although not 
military, can learn from this tragic experience. Yes, I was 
going to pass right down. General?
    General Nardotti. If I could just make three points for the 
record. Going back to a point that Senator Levin raised earlier 
about why we didn't look more closely or pursue this issue with 
the General Counsel's report, we were trying very hard, given 
the timeframe that we had, not to get diverted on that issue. 
That could have really absorbed a lot of time and effort, and 
quite frankly we didn't really need an explanation. We were 
satisfied that, based on the information that we found with 
respect to headquarters' involvement, though it wasn't in the 
General Counsel's report, we believe it should have been in the 
General Counsel's report, we were going to say that, and we 
think the point will be made and it could be dealt with 
appropriately later.
    Again, with respect to the current leadership, obviously 
they're vulnerable in the sense that they still can be held 
accountable. That's why our focus was on those that, the 
presumption was, could not be held accountable, the past 
leadership.
    This was a point on confidentiality, going back to 
something that Senator Allard had raised, it is important to 
note that the solution we've come up with with respect to the 
Military Rule of Evidence 513, the General Counsel does address 
that in their report, but they effectively dismiss it or 
interpret it in a way that it doesn't create any solution, and 
notwithstanding the fact that they mention it in the General 
Counsel's report, when you look at the Agenda for Change, you 
don't see a word that supports a confidential approach. If you 
look at the statements of the leadership of the Air Force 
Academy, confidentiality, confidential reporting, doesn't 
appear anywhere in the list of priorities. So we would just 
point that out to you that, in fairness to the General 
Counsel's report, that point is there, but we disagree strongly 
with the way they have interpreted that and the way they think 
it can be applied.
    To the extent that Air Force instructions are a problem, 
they can solve that. The Secretary of the Air Force can solve 
those problems, we believe, pretty quickly and make this a 
workable solution.
    The last thing I would say, and this went back to a point 
that Senator Pryor raised about the issue of athletics, I just 
would make a comment in fairness to the new leadership, 
specifically to General Weida, when we were out at the Air 
Force Academy we did talk about that. He is very sensitive to 
that issue, and he had taken definite steps to make sure that 
the previously removed athletes--athletes who were less 
involved in the wing--were going to become much more involved 
in things. He was making some significant changes in that 
regard, and we believe that was another indicator that the 
leadership out there is going in the right direction. Thank 
you.
    Colonel Ripley. Senator, I believe General Bunting stated 
it correctly. This is a very major problem. This is not a small 
issue. I'm sure that's obvious to anyone and it wasn't really 
obvious to me, I would say, until I saw the length, the 
breadth, the depth of this overall issue, much greater than I 
had presumed. It will not be fixed with a quick fix. That 
should be obvious as well. It's systemic, it spreads itself 
right across the Academy, virtually everywhere, faculty, cadet 
wing, leadership, athletics, you name it, they were all 
involved and they all need some sort of a redirection and 
perhaps an understanding of the whole issue of what women do, 
not just for the Air Force, but for our great Services in this 
country. That has to be looked at predominantly before anything 
gets fixed, and it extends back to the headquarters here.
    I believe unless those involved look at this as serious as 
this committee has and this panel has, it will take a long time 
to convince anyone that the certain parameters and the obvious 
ways we operate are going to be that successful. What I'm 
saying is, we have to step outside the box and make sure that 
the changes, not just that this panel recommends, but our 
entire approach to fixing this problem is creative and 
unlimited.
    Chairman Warner. I thank you very much, Colonel, and I 
agree that we have to do some out-of-the-box thinking on this 
problem, but I believe that this panel has laid that foundation 
and sent a very strong signal that will be heeded by the 
Department of the Air Force.
    Dr. Satel. I certainly agree with the sentiments my 
colleagues have expressed. Hopefully the changes in the climate 
and the culture that we talk about will make future incidents 
rare, but I'm sure, unfortunately, things will still occur. As 
Anita mentioned earlier, though, one of the biggest worries is 
if there is no confidentiality, then the problem may become 
subterranean, so that is a very important thing for us, you, 
and the Academy to reconsider. But also importantly in terms of 
women coming forward, if they see in the future that they are 
treated with sensitivity and respect and that there's a 
determination to pursue wrongdoing and that people who require 
redress are in fact punished, then I think that will have very 
much of a facilitating effect on women coming forward. So the 
system has to work in an integrated fashion, you can't just 
change one part of it at a time. Thank you.
    Chairman Warner. We thank you.
    Ms. Fowler. Senator, can I wind it up for the panel? I 
skipped myself since I was chairman to be last. I just first 
want to thank the committee for recognizing the need for an 
independent panel. I think from our report it's obvious that 
there was a need for such a review and we are hopeful that 
these 21 recommendations will be implemented. There are a 
variety of means by which they need to be, some by legislation, 
some the Board of Visitors can do, and some the Air Force needs 
to do, but we hope they will be implemented. We think they are 
important. We particularly are concerned, as was mentioned 
earlier, we struggled a long time with the confidentiality 
issue. It goes to the very heart of reporting and we think it 
is extremely important that this be adopted, our recommendation 
in that area. It's going to take the Air Force some discussion 
too on that, but we hope the committee can work with them and 
get them to work their way through on it.
    As we said earlier, this change is not going to happen 
overnight and it's going to take a dedicated, sustained effort 
by the Academy leadership and the Air Force leadership to alter 
the very culture of this institution. In our opinion, the 
reputation of this institution is at stake and it needs to take 
a dedicated, sustained oversight to see that this occurs, 
because today it is an honor to be a cadet at the United States 
Air Force Academy, and it should always be an honor to be a 
cadet there. That's what this is all about, making sure that 
every cadet at that institution is in a safe and secure 
learning environment.
    That was the goal of this panel. As you have seen, every 
one of them has been very involved in this review and these 
recommendations reflect the opinion of the whole panel. Thank 
you again for having us and for instituting this panel.
    Chairman Warner. Let me just draw on one concept: It will 
not change overnight. I don't want this hearing to send a 
message to a female cadet at the Air Force Academy that tonight 
she could be subjected to something like that, that's not what 
you meant.
    Ms. Fowler. No, we're talking about culture.
    Chairman Warner. I think there's a check and balance in 
place now.
    Ms. Fowler. There are processes and procedures in place now 
that are much better, but cultural change, which is what the 
end of my sentence refers to, does not happen overnight, and 
that is equally as important to make sure this is lasting is 
that the culture there is changed.
    Chairman Warner. Let me just make this observation and then 
conclude. We talked a lot about accountability today. Now I 
want to talk about a chapter in the history of this committee 
with regard to this subject, and we have to be accountable for 
our actions as a committee. Roughly July 2000, we had before us 
the nomination of Major General Hopper to become three stars. 
He had been a former commandant at the Air Force Academy. We 
received from--just coming into the committee--a letter from a 
former surgeon general of the Air Force bringing to our 
attention that during the course of General Hopper's tenure at 
the Academy there were allegations of sexual assault.
    The committee took action as follows. We then referred that 
to the Office of the Secretary of Defense. I must say that a 
colleague, Senator Landrieu, likewise intervened on this case; 
she was a member of this committee I believe at that time. We 
asked the Department of the Air Force to investigate this and 
the Office of the Secretary of Defense. You make reference to 
that in your report.
    Ms. Fowler. On page 27, we refer to it.
    Chairman Warner. Page 27. Those investigations were 
completed. The Air Force and OSD came back to this committee 
indicating that General Hopper had no degree of accountability 
for those allegations which should affect the advise and 
consent proceeding and his being promoted. Well, the rest is 
history. The rest is history now today. So I just want to thank 
people who are not in this hearing room and may not even be 
following this hearing, but who had the courage to forward to 
this committee information that they possessed either first-
hand or second-hand about these allegations. If it were not for 
the general public to come forward and help Congress in matters 
like this, I think in my opening statement I referred to, there 
are times when there's problems in the executive branch, for 
which we have oversight responsibility, and it's the general 
public, citizens just whose sense of integrity and honesty and 
fairness, in all probability, violation of clear law offends 
them. They have the courage to take the time to contact the 
Members of Congress. I wish to thank them in this case.
    I believe that your report will engender further 
communications from individuals who perhaps have knowledge that 
somehow has not surfaced and come to the attention of anyone in 
a position of responsibility to date. So that's another great 
service that this panel has done.
    Senator Levin and I have enjoyed a strong working 
relationship and friendship for some 25 years on this committee 
and we've been through a lot of hearings. This has been a tough 
hearing because it's a tough subject. We've asked tough 
questions and you've responded with absolute fairness, 
fortitude, and courage. I think we've clarified one or two 
things that may have caused a little confusion in the course of 
better than 3 hours that we've gone into this. I feel that our 
committee has responded and that we've shown you the enormous 
interest. The number of members here was significant today who 
attended and participated in this hearing.
    Again, on behalf of the American public and particularly 
the military, be it the Air Force, the Army, the Navy, the 
Marine Corps, the Merchant Marine, or any others, thank you.
    Ms. Fowler. Thank you, Senator. Thank you, Mr. Chairman.
    Chairman Warner. The hearing is concluded.
    [Below are questions for the record submitted by committee 
members for this hearing. Due to the Panel to Review Sexual 
Misconduct Allegations at the United States Air Force Academy 
disbanding shortly before this hearing, some answers have not 
been supplied for the record (#5 and #9).]

               Questions Submitted by Senator John McCain

                          AIR FORCE LEADERSHIP

    1. Senator McCain. Ms. Fowler, the report repeatedly refers to a 
lack of accountability and failure of leadership on the part of both 
the Academy and Air Force headquarters here in Washington, DC, in 
dealing with this situation. You further identify that the chain of 
command for the Superintendent of the Academy is a direct line to the 
Chief of Staff of the Air Force and the Secretary of the Air Force. 
Based on my military experience, this means that responsibility for the 
lack of accountability and failure of leadership by the Air Force 
headquarters ultimately resides with the Secretary and Chief of Staff. 
Do you agree with that assessment? Why is that not specifically stated 
in the report?
    Ms. Fowler. The report carefully delineates the chain of command 
that exists between the Academy and Air Force headquarters, and 
identifies as part of the solution to the problem ``an actively engaged 
chain of command with external oversight.'' Our report also spans a 10-
year period that includes six acting or confirmed Air Force Secretaries 
and four Chiefs of Staff and six Superintendents. Throughout the 10-
year period, various leaders had various levels of information about 
the sexual assault problem at the Academy and took various degrees of 
action to deal with the problem. The panel did not find that the 
current Secretary or Chief of Staff failed to take timely or 
appropriate action.

    2. Senator McCain. Ms. Fowler, General Bunting, General Nardotti, 
Ms. Carpenter, Colonel Ripley, Dr. Miller, and Dr. Satel, the report 
mentions, and General Nardotti commented specifically in the hearing, 
that the September 11, 2001, terrorist attacks and subsequent wars in 
Afghanistan and Iraq commanded much of Secretary Roche's and General 
Jumper's attention. Are you suggesting that military leaders should not 
be held fully accountable for failing to take appropriate action to 
protect the safety of their subordinates from a situation that they had 
responsibility for because they are busy?
    Ms. Fowler, General Bunting, General Nardotti, Ms. Carpenter, 
Colonel Ripley, Dr. Miller, and Dr. Satel. The point of reference to 
the events of the post-September 11, 2001, world was to provide context 
to the committee concerning the press of official duties and 
responsibilities for the Secretary and Chief of Staff. The safety and 
security of Air Force personnel and the anti-terrorism/force 
protections measures would be at the forefront of their concerns. The 
panel did not make a finding that Secretary Roche and/or General Jumper 
failed ``to take appropriate action to protect the safety of their 
subordinates from a situation [for which] they had responsibility.''

    3. Senator McCain. Ms. Fowler, one of the most disturbing elements 
of the stories conveyed to me by the victims is that not only did the 
Academy and Air Force do nothing effective to deal with their sexual 
assault, it is alleged that Academy leadership in fact persecuted these 
women, denied them their constitutional rights, systematically 
undermined the victim's credibility, and chased them out of the 
Academy. I know that these allegations were made known to the panel. 
Why is this not even addressed in your report?
    Ms. Fowler. The DOD Inspector General and Air Force Inspector 
General are separately investigating the handling of all sexual assault 
cases from the last 10 years. In a letter dated September 19, 2003, the 
DOD Inspector General informed the panel that his office had, 
``reviewed all completed AFOSI criminal cases over the past 10 years 
for thoroughness and sufficiency, with a special focus on allegations 
of reprisal.'' Because his final report will not be issued until 
December 2003, and our panel's congressional mandate expired on 
September 23, 2003, we did not have the benefit of those findings for 
inclusion in our report.

                            MEDIA INFLUENCE

    4. Senator McCain. Ms. Fowler, General Bunting, General Nardotti, 
Ms. Carpenter, Colonel Ripley, Dr. Miller, and Dr. Satel, the report 
comments that as a result of the media attention generated when the 
current scandal surfaced, the Air Force moved swiftly to address the 
problem of sexual assault at the Academy. The report also states that 
the evidence before the panel shows that the highest levels of 
leadership had information about serious problems at the Academy, yet 
failed to take effective action. Do you believe the Air Force would 
have continued to ignore, as it has for over 10 years, the sexual 
assault problems at the Academy if media attention had not forced 
senior leaders to finally take action? Why?
    Ms. Fowler, General Bunting, General Nardotti, Ms. Carpenter, 
Colonel Ripley, Dr. Miller, and Dr. Satel. Congressional involvement 
was key to the positive action the Air Force is taking, specifically 
the personal involvement of Senator Allard and Congressman Hefley. 
Congress' recognition that the severity of the problem warranted an 
independent panel comprised of citizens with specific expertise 
relating to the proper treatment of sexual assault victims, as well as 
knowledge of the Service Academies, was also vital to ensuring 
appropriate actions were identified and taken.

                              LEGAL ACTION

    5. Senator McCain. Ms. Carpenter, as an advocate for victims of 
sexual assault, would you please comment on the importance of victims 
being permitted to know the outcome of legal or administrative action 
taken against their alleged attacker?

    6. Senator McCain. Ms. Fowler, General Bunting, General Nardotti, 
Ms. Carpenter, Colonel Ripley, Dr. Miller, and Dr. Satel, I have been 
contacted by several of the alleged victims from the Air Force Academy, 
some of whom you have also met with. I found the accounts of their 
treatment by Academy leadership to be appalling and disturbing. Based 
on your investigation, do you believe that legal as well as 
administrative action is warranted against some former Academy leaders? 
Why?
    Ms. Fowler, General Bunting, General Nardotti, Ms. Carpenter, 
Colonel Ripley, Dr. Miller, and Dr. Satel. The victims who met with our 
panel and spoke about their ordeals were simply heart-breaking. Our 
panel was shocked, appalled and troubled by what we heard. The victims' 
testimony helped us craft a report that put the victim first. Again, 
the DOD and Air Force Inspector Generals are investigating and 
reviewing all actions in alleged sexual assault cases. We understand 
they are reviewing specifics details and actions of the victims, 
alleged perpetrators, Academy leadership, and the Air Force 
headquarters leadership. We understand their report will be completed 
in December 2003, and we expect Air Force leadership to take 
appropriate legal or administrative action.

                        INVESTIGATION PROCEDURE

    7. Senator McCain. Ms. Fowler, General Bunting, General Nardotti, 
Ms. Carpenter, Colonel Ripley, Dr. Miller, and Dr. Satel, the bias in 
the Air Force working group report that shields Air Force leadership 
brings in to question the credibility of any future reports on this 
matter by any Air Force organization. Considering the gravity of the 
accusations that have been levied against the Academy and Air Force 
leadership, should this investigation have been turned over to the 
Department of Defense Inspector General earlier?
    Ms. Fowler, General Bunting, General Nardotti, Ms. Carpenter, 
Colonel Ripley, Dr. Miller, and Dr. Satel. Our 90-day review uncovered 
information that is clearly disturbing, and the Air Force with 
considerably more time and resources did not include the same 
information. We believe the DOD Inspector General involvement is 
essential.

    8. Senator McCain. Ms. Fowler, General Bunting, General Nardotti, 
Ms. Carpenter, Colonel Ripley, Dr. Miller, and Dr. Satel, a number of 
the victims have contacted me to convey their skepticism of any further 
reviews on this matter by anyone associated with DOD. In your opinion, 
should an outside agency like the Department of Justice be asked to 
investigate the case?
    Ms. Fowler, General Bunting, General Nardotti, Ms. Carpenter, 
Colonel Ripley, Dr. Miller, and Dr. Satel. We believe the DOD Inspector 
General will provide a full and fair investigation.

                       COLONEL LAURIE SUE SLAVEC

    9. Senator McCain. Ms. Carpenter, what impact do you think the Air 
Force's decision to award Colonel Slavec a medal for her tour at the 
Academy will have on the victims of sexual assault who feel they were 
further persecuted by this colonel, or who were afraid to come forward 
for fear of persecution by her?
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                           SERVICE ACADEMIES

    10. Senator Akaka. Ms. Fowler, I was appalled to find out about the 
sexual misconduct targeted at women at the Air Force Academy. This type 
of behavior is not acceptable. In reading through your report, it seems 
that there is a deep cultural aspect to this problem, which you mention 
is not unique to the Air Force Academy, and is also a problem at the 
other Service Academies. Would your recommendations be relevant to the 
other Service Academies? If so, which recommendations should be 
implemented by the other Service Academies?
    Ms. Fowler. Yes, our panel's recommendations may be relevant to the 
other Service Academies and should be carefully considered for 
implementation. We understand that the DOD intends to pursue this 
evaluation with the Service Academies.

                            FEAR OF REPRISAL

    11. Senator Akaka. Ms. Fowler, the report found that cadets were 
afraid to report sexual misconduct because of the fear of reprisal, 
discrimination, or harassment. The Air Force has taken a number of 
steps to address this problem. Do you believe fear of reprisal is still 
a problem at the Academy?
    Ms. Fowler. Our panel was surprised by the deep cultural issues 
that the Academy must recognize, understand, and take action to change 
the mindset of individual cadets and the culture of the cadet wing and 
the Academy. The cultural changes necessary will not happen overnight, 
and despite steps to address the problem, fear of reprisal remains a 
concern among cadets as evidenced by the latest Air Force Climate 
Assessment Survey in September 2003.

    [Whereupon, at 1:08 p.m., the committee adjourned.]


INVESTIGATIONS INTO ALLEGATIONS OF SEXUAL ASSAULT AT THE UNITED STATES 
                           AIR FORCE ACADEMY

                              ----------                              


                      TUESDAY, SEPTEMBER 30, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:55 p.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Allard, Collins, Ensign, Chambliss, Levin, Reed, Akaka, Bill 
Nelson, and Clinton.
    Committee staff members present: Judith A. Ansley, staff 
director; Gabriella Eisen, nominations clerk; and Pendred K. 
Wilson, receptionist.
    Majority staff members present: Charles W. Alsup, 
professional staff member; William C. Greenwalt, professional 
staff member; Patricia L. Lewis, professional staff member; Ann 
M. Mittermeyer, counsel; Scott W. Stucky, general counsel; and 
Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Gerald J. Leeling, minority counsel; 
and Peter K. Levine, minority counsel.
    Staff assistants present: Michael N. Berger, Andrew W. 
Florell, and Andrew Kent.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; Christopher J. Paul, assistant to 
Senator McCain; John A. Bonsell, assistant to Senator Inhofe; 
Lance Landry and Jayson Roehl, assistants to Senator Allard; D. 
Armand DeKeyser, assistant to Senator Sessions; James P. 
Dohoney, Jr., assistant to Senator Collins; James W. Irwin and 
Clyde A. Taylor IV, assistants to Senator Chambliss; Meredith 
Moseley, assistant to Senator Graham; Christine O. Hill, 
assistant to Senator Dole; Russell J. Thomasson, assistant to 
Senator Cornyn; Davelyn Noelani Kalipi and Richard Kessler, 
assistants to Senator Akaka; William K. Sutey, assistant to 
Senator Bill Nelson; Andrew Shapiro, assistant to Senator 
Clinton; and Terri Glaze, assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good afternoon, ladies and gentlemen, 
colleagues. The committee meets today to receive additional 
testimony regarding the allegations of sexual assault at the 
United States Air Force Academy.
    We welcome Secretary Roche, General Jumper, and the General 
Counsel of the Air Force, Mary Walker.
    I felt very strongly at the conclusion of the testimony 
given by the panel appointed by Congress, presided over by a 
very distinguished former Member of Congress, Tillie Fowler, 
that those allegations raised in that hearing should be 
readdressed in the context of giving each of you the 
opportunity to respond. My colleague, Senator Levin, and other 
members of the committee concurred, so that's the reason we are 
here today. Plus the fact, I have to tell you, in my experience 
of some many years in association with the United States 
military, and particularly the academies, this issue is at the 
very forefront of almost every Member of Congress, because we 
are the ones, together with the Secretary and the Chief and 
others, who make the nominations to the Academy. These are 
young people that come from the big cities and the small towns 
all across America, and they expect a lifestyle and an 
environment that is second to none in terms of quality, 
integrity, and honesty to fulfill their own individual goals.
    This committee's going to take such time as it deems 
necessary to work our way through this very tragic situation.
    Last Monday, September 26, the congressionally-mandated 
``Panel to Review Sexual Misconduct Allegations at the U.S. Air 
Force Academy''--that is the title used in the law--issued its 
report, which contained a number of findings and 
recommendations. On Wednesday of last week, Congresswoman 
Fowler and the other six members of the panel testified before 
this committee. During the course of that hearing, other 
members of this committee and I indicated our intention to have 
the Air Force General Counsel appear before the committee to 
respond to the panel's conclusion. We then decided to include 
the Secretary and the Chief.
    The hearing today will enable these witnesses to address a 
number of issues identified by the Fowler Panel, including the 
omissions in the Air Force investigation to date of the 
problems at the Air Force Academy. It will also give, 
particularly, Ms. Walker and Secretary Roche an appropriate 
opportunity to respond to the panel's express belief that the 
Air Force General Counsel attempted, ``to shield Air Force 
headquarters from public criticism by focusing exclusively on 
the events at the Academy.''
    I view today's hearing as an important next step in the 
difficult process of ensuring that the problems of sexual 
harassment, sexual assault, and hostile attitudes toward women 
at the Air Force Academy, which hopefully are in the past 
tense--indeed, the entire Air Force itself, General Jumper--are 
eliminated finally once and for all. That's the ultimate goal 
of all of us.
    Achieving that goal, however, depends upon a clear 
understanding of how our Air Force and Air Force Academy 
leadership failed, or did not fail, as the case may be; we are 
here objectively to listen to the past history and to such 
information as they may have had.
    As noted in Congresswoman Fowler's report, ``The Air Force 
and the Academy cannot fully put this unfortunate chapter 
behind them until they understand and acknowledge the causes.'' 
The report goes on to state, ``In order to make clear the 
exceptional level of leadership performance expected of future 
leaders and to put the failures of recently removed Academy 
leadership in perspective, there must be further accounting. To 
the extent possible, the failures of the Academy and the Air 
Force headquarters leaders over the past 10 years should be 
made a matter of official record.'' I'm quoting that report, 
all of which you have well in mind. But those who have joined 
here in this room today, and those who are following this 
hearing, I have to recite exactly what is in that report.
    I would be remiss if, at this point, I did not address the 
pending nomination of Secretary Roche to be the next Secretary 
of the Army. I have stated my concerns about proceeding with 
Senate consideration of Secretary Roche's nomination while 
issues relating to the accountability of Air Force leadership, 
including Secretary Roche, are still being reviewed by the 
executive branch, that being the Department of Defense 
Inspector General (DODIG). In a press release by the Air Force 
on the Fowler hearing, which was given to us today, there were 
references to other inquiries going on in the Pentagon.
    Now, at that point, if I may stop, my colleagues here full 
know the constitutional responsibility of the United States 
Senate to give advice-and-consent to Presidential nominations, 
and that we do regularly. I've been privileged to be on this 
committee many years. I have felt that throughout the years, no 
matter who is chairman, we try to render an impartial and, in 
many respects, totally nonpolitical judgment in accordance with 
our constitutional mandate. But when we're on notice--I mean, 
actual notice--that the executive branch, a separate but co-
equal branch of the government, is continuing to investigate 
allegations or facts relating to the nominee pending before the 
United States Senate, the question arises, can we go forward 
until such investigations are completed?
    One of the reasons I'm a bit late, the President's counsel 
just called me on the phone, because he has several letters 
from me in front of him raising this juxtaposition between the 
activities of the executive and legislative branches on this 
nomination. His counsel to me has been very helpful on this, 
and he understands and respects entirely the constitutional 
obligations of this body.
    I always proceed with these nominations in a totally 
unbiased manner and with total neutrality, and wait until all 
the facts are before me before I cast my vote, together with 
other Members.
    So, at this time, I cannot give you a definitive answer, 
Mr. Secretary, but I'm continuing to work through that 
situation, in consultation with the ranking member and other 
members of this committee.
    Bear in mind that this problem at the Air Force Academy 
was, once before, referred to this committee. Several years 
back--I'll put in the record the explicit details--it was 
brought to our attention, by an individual who was in a 
position to have knowledge, that there were problems at the 
Academy. As is the routine of chairman of the committee, I was 
chairman at that time, we referred it to the Department of 
Defense (DOD) for an investigation. The Assistant Secretary of 
Defense for Force Management and Policy, after the Air Force 
Inspector General had investigated, came back and assured this 
committee that the allegations raised in that communication to 
the committee had been fully investigated and there was no 
basis on which the committee, at that time, should hold up the 
nomination by the President of an officer in the Air Force for 
higher promotion. Absolutely no basis.
    [The information referred to follows:]

    The reference by Chairman Warner concerned the Air Force and the 
Office of the Secretary of Defense response to a letter from the 
chairman and ranking member about a nomination then pending action by 
the Committee on Armed Services of an Air Force officer who previously 
had served as commandant of the U.S. Air Force Academy.
    The committee forwarded the attached memorandum on July 27, 2000, 
to the Assistant Secretary of Defense for Force Management and Policy 
requesting comment. The attached memorandum is titled ``Sexual and 
Physical Assault at the U.S. Air Force Academy'' and identifies many of 
the problems that were identified in 2003 that resulted in Secretary 
Roche's order to establish a Working Group.
    The Assistant Secretary of Defense responded to the committee on 
September 5, 2000 (letter attached), that the Air Force Inspector 
General had investigated and thoroughly reviewed the allegations and 
they were found to be unsubstantiated.

                    Assistant Secretary of Defense,
                                      4000 Defense Pentagon
                                 Washington, DC, September 5, 2000.
Hon. John W. Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Thank you for your letter of July 27, 2000, 
concerning the nomination of [deleted] United States Air Force, for 
assignment as [deleted] and for appointment to the grade of lieutenant 
general. His nomination is pending action by your committee.
    The Air Force Inspector General thoroughly reviewed [deleted] 
allegations. The allegations have been investigated and found to be 
unsubstantiated.
    The Secretary of the Air Force fully supports [deleted] nomination. 
Accordingly, I request his nomination for appointment to the grade of 
lieutenant general proceed forward for confirmation.
            Sincerely,
                               Alphonso Maldon, Jr.
cc:
Senator Levin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Now, this committee relied on the executive branch once, 
and as history tells us, for some reason that investigation at 
that time, in my judgment, was flawed and should have somehow 
turned the page and seen the problems that existed at that 
time, because these problems go back a decade.
    I think I'll put the balance of my statement in the record. 
I think I've addressed most of the issues that are before us.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner

    The committee meets today to receive additional testimony regarding 
the allegations of sexual assault at the United States Air Force 
Academy. We welcome Secretary Roche, General Jumper, and the General 
Counsel of the Air Force, Ms. Mary Walker.
    Last Monday, September 22, the congressionally-mandated ``Panel to 
Review Sexual Misconduct Allegations at the U.S. Air Force Academy'' 
issued its report, which contained a number of findings and 
recommendations. On Wednesday of last week, Congresswoman Fowler and 
the other six members of the panel testified before this committee. 
During the course of that hearing, I indicated my intention to have the 
Air Force General Counsel appear before the committee to respond to the 
panel's conclusion regarding the efforts of the Working Group, which 
the Air Force formed to investigate the problems at the Air Force 
Academy, and which was chaired by Ms. Walker.
    On Friday, Secretary Roche and General Jumper requested an 
opportunity to testify before the full committee, as well. I consulted 
with Senator Levin and promptly scheduled this hearing to ensure that 
they had that opportunity.
    The hearing today will enable the witnesses to address a number of 
issues identified by Congresswoman Fowler's panel, including the 
omissions in the Air Force's investigations to date of the problems at 
the Air Force Academy. It will also give Ms. Walker and Secretary Roche 
an appropriate opportunity to respond to the panel's express belief 
that the Air Force General Counsel attempted to ``shield Air Force 
Headquarters from public criticism by focusing exclusively on events at 
the Academy.''
    I view today's hearing as an important ``next step'' in the 
difficult process of ensuring that the problems of sexual harassment, 
sexual assault, and hostile attitudes toward women at the Air Force 
Academy--indeed, in the Air Force itself--are eliminated. That is the 
ultimate goal.
    Achieving that goal, however, depends upon a clear understanding of 
how Air Force and Air Force Academy leadership failed to effectively 
address these problems over the years. As noted in Congresswoman 
Fowler's report, ``The Air Force and the Academy cannot fully put this 
unfortunate chapter behind them until they understand and acknowledge 
the cause.'' The report goes on to state, ``in order to make clear the 
exceptional level of leadership performance expected of future leaders 
and to put the failures of recently removed Academy leadership in 
perspective, there must be further accounting. To the extent possible, 
the failures of the Academy and Air Force Headquarters leaders over the 
past 10 years should be made a matter of official record.''
    I would be remiss if, at this point, I did not address the pending 
nomination of Air Force Secretary Roche to be the next Secretary of the 
Army. I have stated my concerns about proceeding with Senate 
consideration of Secretary Roche's nomination, while issues relating to 
the accountability of Air Force leadership--including Secretary Roche--
are still being reviewed by the Department of Defense Inspector 
General.
    The problems at the Air Force Academy date back at least a decade, 
but they did not end when Secretary Roche and General Jumper assumed 
their posts in the spring and summer of 2001. Indeed, some would 
conclude that these problems have gotten worse over the past 2 years.
    Last Thursday, 23 members of this committee forwarded a letter to 
the DOD Inspector General requesting that he ensure a thorough review 
of the accountability of current Air Force leadership--including 
Secretary Roche and General Jumper. I ask unanimous consent that a copy 
of that letter be inserted in the record at this time.
    Although Congresswoman Fowler testified that her panel found no 
evidence indicating problems with the performance of Secretary Roche or 
General Jumper in this matter, a complete assessment of accountability 
demands a comprehensive review, which extends through the current 
leadership of the Air Force.
    In conclusion, I would like to recognize the fine work of 
Congresswoman Fowler's panel. Because of that panel's work, we now have 
a better understanding of the full extent of the problems at the Air 
Force Academy, the root causes of the problems, and what remains to be 
done so that we can guarantee a safe and secure environment for all 
cadets at the Air Force Academy. Congresswoman Fowler and the 
distinguished members of her panel significantly advanced the goal of 
restoring the Air Force Academy to the level of respect and trust that 
it must regain.

    Chairman Warner. Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me welcome our 
three witnesses here today as you have, Mr. Chairman.
    We have received two reports on the matter which has been 
described by our chairman. The two reports, as he referenced, 
are a Working Group Report and a report by the Fowler Panel. 
The Working Group Report was the result of a group coming into 
existence that was directed by Secretary Roche, and Ms. Walker, 
as the Air Force General Counsel, headed that Working Group. 
The Fowler Panel Report was the result of a panel consideration 
as directed by Congress, and the members of the panel were 
appointed by the Secretary of Defense. The panel's report was 
released to us just last week and was the subject of the 
hearing that the chairman has referred to on September 24.
    Now, the findings of the two reports are inconsistent in a 
number of significant ways. One of the most significant 
inconsistencies is that the Working Group Report found that 
there was, ``no systemic acceptance of sexual assault at the 
Academy, no institutional avoidance of responsibility or 
systemic maltreatment of cadets who report sexual assault.'' 
The Fowler Panel took issue with that finding, stating the 
following, ``The panel cannot agree with that conclusion, given 
the substantial amount of information about sexual assaults and 
the Academy's institutional culture that was available to 
leaders at the Academy, Air Force headquarters, and to the 
Office the Air Force General Counsel.''
    Now, the Working Group Report did not find leaders 
accountable for failing to change the culture at the Academy, 
while the Fowler Panel recommended that the DODIG conduct a 
thorough review of the accountability of Academy and Air Force 
headquarters' leadership for the sexual assault problems at the 
Academy over the last decade.
    During our hearing, Ms. Fowler recommended that the DODIG 
review the accountability of ``previous leaders,'' at the 
Academy and Air Force headquarters, leaving open the issue of 
whether the DODIG review should include an assessment of the 
accountability of current Air Force leadership. She did not 
modify the panel's formal recommendation that, by its own 
terms, did not limit review of accountability to past 
leadership. She indicated that a request for a review of the 
actions of current leadership was entirely up to us, but that 
they had found no reason to recommend such a review.
    In order to ensure that there's no confusion about what we 
decided to do, we wrote the DODIG, under the chairman's 
leadership, and asked that the DODIG review include both past 
and present leadership. In our review, Mr. Chairman, I think 
you would agree, it is important that the actions of all the 
leaders, past and present, be documented and be assessed.
    I think it is important to point out that we have not made 
a determination that any specific individual should be held 
accountable for failure of leadership. What we are saying is 
that the actions of all leaders involved need to be simply 
documented and assessed, because only after the facts are known 
can issues of accountability be appropriately determined.
    So our minds are open concerning accountability, but we are 
determined that there be a thorough inquiry into the actions of 
all who were aware of the continuing reports of sexual assaults 
at the Air Force Academy to determine whether leaders took 
appropriate actions, based on the information available to 
them, to ensure the safety of the young women addressed to 
their care as cadets at the Air Force Academy.
    Again, assessment of leadership actions can only lead to 
the documentation of facts, whichever way that falls. The 
letter that we wrote to the DODIG is consistent with the DODIG 
review that was called for by the Fowler Panel Report. This is 
the opportunity, which we look forward to, for our witnesses 
today to give us their assessment of the reports, which have 
been made available to us, as well as to any other comments 
which they might want to make. It is highly appropriate that 
they be given this opportunity.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin. We'll include 
the letter to which you referred. We have over 20 signatures 
thus far. The committee issued that letter, following the 
Fowler Panel's testimony, calling on the DODIG to make certain 
that their examination covered those areas.
    I would also like to have the statements of Senators Allard 
and Cornyn inserted in the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                ------                                

    [The prepared statements of Senators Allard and Cornyn 
follow:]
               Prepared Statement by Senator Wayne Allard

    Thank you, Mr. Chairman. I want to say how much I appreciate your 
involvement on this issue. Your interest has helped build momentum 
toward ensuring the safety of not only cadets at the Air Force Academy, 
but also those at West Point and the Naval Academy. Your previous 
experience as the Secretary of the Navy has been invaluable as we 
sought to better understand the role of the Air Force headquarters in 
these matters. Again, I thank you for your leadership, Mr. Chairman.
    I also wish to thank Secretary Roche and General Jumper for their 
commitment to the cadets at the Air Force Academy. In January, the 
chairman and I notified the Air Force of the allegations of sexual 
assault and Secretary Roche and General Jumper responded immediately.
    They instructed the General Counsel to begin a comprehensive 
investigation and personally traveled to the Air Force Academy to speak 
to the cadets about these allegations. Last week, members of the Fowler 
Commission stated before this committee that they were impressed by 
Secretary Roche and General Jumper's response to these allegations. I 
also know that many of the victims, particularly of those who 
approached my office, greatly appreciated the personal involvement of 
the Air Force's senior leadership. It has made a difference to those 
affected the most by these assaults.
    While I believe the Fowler Report was a good examination of the Air 
Force's investigation, as with most panel reports, it left us with 
several questions that need answers. I appreciate your willingness, 
Secretary Roche, General Jumper, to try and answer some of these 
questions for the committee. Though a thorough discussion on the Air 
Force's investigation is necessary, let me say that we must keep our 
eye on the ball and not forget to continue to make sure the Air Force 
reforms are working.
    We must remember that cadets are still at the Academy and a climate 
of fear continues to persist. The results of the superintendent's most 
recent Social Climate Survey further indicate that much work remains to 
be done. Sadly, as many as 25 percent of male cadets still do not 
believe women should be at the Academy and a large percentage of women 
still fear the reprisals for reporting a sexual assault.
    So as we discuss this matter, we need to focus on the Academy and 
the cadets who will some day be the leaders of our Air Force. Since we 
all have nominated cadets, we all have an obligation to ensure that the 
measures implemented by the Air Force improve the safety of all cadets. 
We cannot afford to overlook this important responsibility.
    Thank you, Mr. Chairman. I look forward to the question and answer 
period.
                                 ______
                                 
               Prepared Statement by Senator John Cornyn

    I would like to thank Senator Warner for holding this important 
hearing. Last week, the committee received critical testimony from 
members of the Panel to Review Sexual Misconduct Allegations at the 
United States Air Force Academy, headed by Congresswoman Tillie Fowler. 
The panel provided several recommendations on how to correct the 
unacceptable problems at the Air Force Academy. The panel's first 
recommendation was for the Inspector General of the Department of 
Defense (DODIG) to conduct ``a thorough review of the accountability of 
Academy and Air Force leadership for the sexual assault problems at the 
Academy over the last decade.''
    I joined Senator Warner, Senator Levin, and other members of the 
Armed Services Committee in sending a letter to the DODIG requesting 
that the Inspector General conduct a thorough review of the Academy and 
Air Force headquarters leadership as recommended by the Fowler Panel. 
We also asked that the DODIG include an assessment of the 
accountability of the current leadership as well as the previous 
leadership.
    As a United States Senator, I am honored to nominate young men and 
women to attend our Nation's service academies. We have a solemn 
obligation to ensure the Air Force Academy, as well as the other 
service academies, are free from the fear of sexual harassment. We will 
not tolerate anything less than an environment that fosters the lofty 
ideals on which this country was founded. Sexual harassment, in any 
form, is simply not acceptable.
    As we all know, the nomination of Secretary Roche to be Secretary 
of the Army is currently before the committee. I believe we should wait 
for the conclusion of any ongoing executive branch investigations 
before we proceed with the nomination. In order to make an informed 
decision on the nominee, it is important that we have all the facts. I 
am encouraged by the fact that the Fowler Panel noted they were 
impressed with the leadership of Secretary Roche and General Jumper, 
but the seriousness of the problem at the Air Force Academy demands 
that we have a complete understanding of the role of the Air Force 
leadership--past and present. This is even more critical with the 
allegation in the Fowler Panel report that ``the Air Force General 
Counsel attempted to shield Air Force Headquarters from public 
criticism by focusing exclusively on events at the Academy.''
    As I noted in my testimony in last week's hearing, we cannot afford 
to allow the problems of the past at the Academy to continue. I look 
forward to working with Chairman Warner and the Air Force to ensure 
that the young women who attend the Air Force Academy are treated with 
the dignity and respect that they deserve.

    Chairman Warner. Several members have indicated they would 
like to make a quick comment.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I have to get back to the committee that I chair. I want to 
make just a very brief comment, because I will not be here for 
the round of questioning.
    First of all, I'd like to go back to the Tillie Fowler 
Panel, and they point out one problem that I think needs to be 
called to our attention. ``The panel is well aware of the 
difficulty of holding accountable those who long ago left their 
positions of responsibility and now are beyond the reach of 
meaningful action by the Department of Defense.'' I think that 
speaks for itself.
    They went on to give a history of this. I only will mention 
that, ``Since at least 1993, the highest levels of Air Force 
leadership have known of serious sexual misconduct problems at 
the Academy.'' The report goes on to talk about how not much 
was done, in spite of that, until these two witnesses before us 
arrived on the scene. Reading further, ``Recent widespread 
media attention caused the Air Force to address the problem of 
sexual assault at the Academy. In March of 2003, Air Force 
Secretary James Roche and Air Force Chief of Staff John P. 
Jumper announced a series of directives in policy improvements 
at the Academy known as the Agenda for Change.'' It goes on to 
describe that, but the summary is, ``The Agenda for Change is 
evidence that Air Force, under Secretary Roche's leadership, is 
serious about taking long overdue steps to correct the problem 
in the Academy.'' Finally, ``The panel is encouraged by a 
renewed emphasis in Washington to immediately address and solve 
this problem. We are impressed with the leadership of Secretary 
Roche and General Jumper. After a decade of inaction and 
failures, Secretary Roche made a step towards serious reform 
this year by rolling out his Agenda for Change and replacing 
the Academy's leadership team with one that has been quick to 
take action.'' In other words, she's applauding what they've 
been doing.
    Now, I served in the House of Represenatives with Tillie 
Fowler. She's a very thorough person. One of the problems that 
I have, Mr. Chairman, with hearings like this, is we'll come in 
here and listen for maybe 3 hours while this group of experts, 
seven people who have never been challenged, in terms of their 
credentials, spent 90 days, perhaps 500 hours working. I talked 
to Tillie Fowler, and I am very satisfied they did their due 
diligence, and feel that we should really commend these two 
gentlemen for taking action when nobody else would.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    In my opening statement, I abbreviated it to save time, but 
I specifically commended Tillie Fowler and her panel for the 
work that they did.
    Are there other colleagues who want to make a quick 
observation, and then we'd proceed with testimony?
    Senator Allard. I just want to commend you for stepping 
forward, your leadership when I brought this to your attention, 
and joining me in dealing with this very serious problem at the 
Academy. Of course, we're all worried about the long-term 
security of all the cadets at the Academy.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Again, these matters were brought to the attention of this 
committee by whistleblowers and not the Department of the Air 
Force uncovering it on its own initiative. This committee has a 
fiduciary responsibility, Mr. Secretary, to the entire Senate. 
When we pass on a nomination or an issue and make 
recommendations to the United States Senate, we do so hoping 
that they will attach credibility to our actions and our 
judgment, and that's why we're proceeding with great care on 
this very sensitive and important matter.
    Now, Mr. Secretary, if you would lead off.

  STATEMENT OF HON. JAMES G. ROCHE, SECRETARY OF THE AIR FORCE

    Secretary Roche. Thank you very much, Mr. Chairman, Senator 
Levin, members of the committee.
    First of all, Mr. Chairman, I completely agree with the 
role of this committee in nominations. I was a staff director 
for the minority here. I have always observed that it 
approached these matters with great diligence, and I fully 
respect that, sir.
    Chairman Warner. Thank you for that reference. You have a 
very good record before this committee, not only as staff 
director, but, indeed, in most actions. I think there are one 
or two with which several of our colleagues disagree. We're not 
going to get into the leasing arrangement now, but----
[Laughter.]
    Secretary Roche. Please, Senator.
    Chairman Warner.--other than that, you've tried hard.
    Secretary Roche. Thank you, sir.
    Let me begin today by thanking the committee for inviting 
General Jumper, Ms. Walker, and myself to update you on our 
actions regarding the Air Force Academy, as well as to provide 
you with some context for evaluating our approach to these 
problems and decisions we have made.
    Mr. Chairman, I have a longer statement. I ask that it be 
put in the record. I'll try and summarize it.
    Chairman Warner. Your statement and those of all witnesses 
will be included in today's record in their entirety.
    Secretary Roche. We also would like to commend the work of 
Congresswoman Fowler and her distinguished team of experts. We 
learned a lot from her and her colleagues, and we agree 
wholeheartedly with the recommendations contained in her 
report. However, we want you to know, to the best of my 
knowledge and to the best of General Jumper's and Ms. Walker's 
knowledge--I'll let General Jumper and Ms. Walker speak for 
themselves--there was no shielding and no hiding in the Working 
Group Report. We were looking for history. We were looking for 
facts. We were looking for just the facts, so they could speak 
for themselves, sir.
    The first point I would like to make to you, Senator, is 
that General Jumper and I believe that the cadets at the Air 
Force Academy this moment are safe, that we have put in the 
procedures, the patrols, lots of things to ensure that the 
parents of our cadets can sleep tonight at ease, knowing their 
daughters are safe, and that their sons are safe, as well.
    Our singular purpose at the U.S. Air Force Academy is to 
produce officers of character, who are prepared to lead airmen 
in the profession of arms, potentially into harm's way.
    Now, General Jumper and I, to the best of our knowledge, 
have been more engaged and more probing than any other 
secretaries and chiefs in the history of the Air Force. In my 
19 months, up to January, and General Jumper's 16 months, as of 
January 3, we engaged in a review of the honor code, working 
with Retired General Mike Carns, who, by the way, had a 
daughter in attendance at the Air Force Academy.
    We were tipped off by a reporter that there were issues 
about recruited athletes, and we dug into that. To make the 
point, we, after reviewing what was happening, put a 
restriction on the number of recruited athletes. We spent a 
great deal of time in the technical curriculum, because it was 
starting to slip, and it was starting to shift over to too many 
cadets going to liberal arts majors because of the workload. We 
fixed that, made the core curriculum much more technical, and 
also introduced multiple language studies. We reinstituted the 
basic flying program, so that could fit in. We invigorated our 
sense of military professionalism by creating the four-star 
lecture series, where we ask each of our four-star generals to 
come to the Academy at least once a year and to lecture and be 
with the cadets involved.
    We took actions with failures, as well. There was a case of 
a 13-year-old young woman who was assaulted at a summer camp. 
That cadet was tried and placed in jail. There are eight court-
martial convictions for drugs. There was a rape perpetrated in 
Los Angeles by one of our cadets. That cadet is in jail. We 
worried about credit- card theft, embezzlement, pornography, a 
stolen textbook ring, and we took firm action against each of 
the cadets involved.
    You may recall, Mr. Chairman, that there was a skit put on 
by the English Department, which, in our estimation, was 
inappropriate. It was an issue that came to the attention of 
Senator Allard. By the time I got back to my office, I had a 
copy of the same letter, and we found it to be something we did 
not want to see in our Academy. We removed the chairman of the 
department and also the number two, and later had that 
particular professor convinced that he should no longer be a 
permanent professor in our Air Force.
    We visited the Academy repeatedly. But at no point during 
this entire period were we informed about a major problem with 
gender relations or sexual assault. We spent time with alumni, 
alumnae, board of visitor members, cadets, parents, many of 
whom are active-duty officers with daughters and sons at the 
Academy, faculty, and ex-faculty. Two members of our staff are 
women with extensive experience at the Academy. I even 
maintained a dialogue with the superintendent of the Naval 
Academy in an attempt to gain insight into potential problems 
on the basis that the competing academies would probably know 
more about the other academies than people in their own 
service, and I was helped greatly by the superintendent of the 
Naval Academy. Yet there were no suggestions of a widespread 
gender problem. The subject was not addressed openly by either 
officers or cadets. But had we received such information, I 
assure you our actions would have been as firm and swift and 
decisive as our approach to the other issues we have faced.
    Now, it was January 2, at the end of the winter holiday 
that I received, among others, a copy of an e-mail from a 
cadet, and it was an extraordinarily long and pained e-mail, 
and I was very disturbed by its content. Within 24 hours, I 
asked the General Counsel to try and work to arrange to find 
that cadet. It was written with a pseudonym. We put feelers out 
and offers. The cadet did come forward to speak with us over at 
the General Counsel's office. In fact, two cadets came. They 
also had a chance to speak with Senator Allard and his staff. 
Senator Allard and I talked about this early on and decided we 
had a major problem that was much deeper.
    Within days, I chartered a Working Group to focus on the 
problems at the Academy to tell John and me what, in fact, we 
had on our hands, how did it get this way, and what can we do 
about it? We wanted a factual history of the last 10 years at 
the Academy, the 10 years being the period from 1993, when 
General Hosmer had put in many changes to address a problem 
which had occurred in the prior 10 years. Days later, 
recognizing that we were, in one case, looking at the 
procedures and what had occurred at the Academy, I directed the 
Air Force Inspector General to start a parallel investigation 
to look at the complaints against commanders and assess the 
potential command accountability on a case-by-case basis so 
that we had a parallel path, looking at each case. In the 
cases, a number of the victims were concerned about how they 
were treated, concerned about issues of how the command 
responded, and we wanted to have that documented in a due-
diligence manner. At the same time, the Working Group was 
looking at procedures, why did this happen, and why didn't we 
know about it?
    Later, based on your request, our Air Force IG was joined 
by the DODIG, who we believe provided welcome oversight, and I 
met with them as soon as they received your letter, welcomed 
them, and said, ``This is good, because it'll mean that our own 
IG will have some sense of oversight and will, therefore, be 
more credible,'' and that they were going to both oversee what 
our folks were doing, as well as to look at broader issues of 
accountability.
    We took, as our first responsibility, the safety of the 
cadets and measures to encourage reporting of any assaults, and 
to begin to alter the culture at the Academy that allowed this 
to develop. Headquarters accountability was an issue that came 
up much later, because we recognized that this three-star 
command was like any other three-star command, and there was 
not a lot of infrastructure overseeing what happened at the 
command because we don't normally do that in any of our other 
three-star commands. Yet it meant that we were not being 
informed of things. We did not know what was going on in the 
sorts of detail that we now feel is necessary.
    I believed, as the Working Group progressed, that they 
should focus on the issues at hand, because we knew that the 
parents of the class of 2007 were going to make their 
decisions, or work with their sons and daughters to make their 
decisions, probably in April and May as to whether or not to 
show up in June, and our great concern is that we might have 
lost the confidence of the American people. Therefore, we 
wanted to work quickly to put things in place so as to regain 
that confidence and to give us a chance, and we did that.
    As we went further, it was quite clear that we did not have 
the leadership and management infrastructure at headquarters, 
so we built an entire infrastructure arrangement that gives us 
executive steering group insight--the vice chief of staff, the 
assistant secretary for manpower--on a continuing basis so that 
we won't have to dig for things or wait for someone to bring it 
to our attention, but, in fact, can have insight on a 
continuing basis.
    In August, I was shocked to see the four pages you 
referenced earlier, Mr. Chairman. I had never seen those. I had 
no knowledge of them. General Jumper had no knowledge of them. 
I asked Ms. Walker; she had no knowledge of them. It first came 
to our attention with an article in the newspaper. It then took 
us at least a week to find them, and they were buried in an IG 
report. It was shocking that the Air Force, both in 1996, when 
that came forward, and also in 2000, when you asked the issue 
be readdressed, that people in responsible positions ignored 
the underlying situation and viewed it so narrowly.
    Senator Levin. Could I interrupt you? Because I don't know 
what four pages you're referring to.
    Secretary Roche. In the material that the chairman sent 
over to the Assistant Secretary of Defense for Personnel and 
Readiness, in July 2000, there was a four-page attachment, 
which listed an assessment of what was happening at the Academy 
written in 1996. It's in outline form, but it was attached to 
that. In fact, it was the basis that was used to evaluate that 
the officer in question and his nomination, how did he do with 
that.
    Chairman Warner. I was chairman at the time, Senator Levin, 
and it's that chapter to which I alluded in my opening 
statement that this committee, frankly, got burned one time, 
and we're not going to get burned again.
    Secretary Roche. Yes, sir. I fully understand.
    What fascinated me was two parts, Mr. Chairman. One, that 
people in responsible positions could read that and not 
recognize that it wasn't a narrow issue of a particular 
officer, should he be promoted or not, but there was a backdrop 
to that. One should have asked the question, ``Well, is it okay 
now?'' or, ``What was it?'' In fact, nothing was done. It's 
hard for me to imagine that anybody in a responsible position 
could look at that and not ask a whole lot more questions. It 
started to answer the question, ``Why didn't the headquarters 
of the Air Force know what was going on?'' In fact, those four 
pages made the point, they did.
    This came, as I say, in August. The Working Group's report 
was finished in June. I have no doubt that had the Working 
Group had those four pages, that they would have taken the 
section on future studies, where they said that the 
headquarter's relationship should be examined, they would have 
built a much richer terms-of-reference. They would have used 
this. Then I would have argued with my boss that this is 
something that the DODIG should look at or DODIG, not the Air 
Force, because I'd be looking at my predecessors, who were in a 
different administration, and no matter what conclusion we came 
to, it would be somehow doubted. But it was absolutely 
appropriate that the DODIG look at that. So I support Ms. 
Fowler's position in that position especially.
    Chairman Warner. Let me interrupt. The term 
``headquarters'' is used in a number of documents. I want to 
make it clear that is the Department of the Air Force over 
which you are the senior responsible presiding civilian.
    Secretary Roche. Yes, I am.
    Chairman Warner. The Department is, where you, as Chief of 
Staff, and your deputies----
    General Jumper.--and the Superintendent of the Air Force 
Academy, Mr. Chairman, reports directly to me.
    Chairman Warner. Right.
    Senator McCain. So it's all one big oversight of 
information that was sent to you but somehow got lost.
    Secretary Roche. Senator, I don't know why it didn't get to 
me or why it didn't get to General Jumper. The irony, Senator, 
is that it remarkably agreed with what we had found. If it had 
disagreed, one could imagine not wanting to see one's thoughts 
disturbed. It absolutely agreed, and that was the shock. If, in 
fact, the situation looked like that in 1996, and it's the same 
situation that we formulate in 2003; it's unlikely that it was 
bad, got better, and got bad again. It meant that over a period 
of time, it was that way. This completely agreed. Even some of 
the words were identical. For instance, the difficulty of how 
confidentiality was treated was pointed out in 1996 as a 
problem; it's the same situation we discovered in 2003. So I 
only regret that it was not brought to my attention, from 
anyplace it might have been.
    Senator McCain. Communications from the Chairman of the 
Armed Services Committee are not brought to your attention.
    Secretary Roche. I'm sorry?
    Senator McCain. Communications from the Chairman of the 
Armed Services Committee are not brought to----
    Secretary Roche. Oh, Senator, in this administration, 
absolutely, something from the chairman would be brought to my 
attention. This was in the prior administration----
    Senator McCain. Oh, I'm sorry.
    Secretary Roche.--and it's probably in a file cabinet 
someplace. It was not picked up and dealt with by the Office of 
Secretary of Defense then. I agree, the Air Force looked at 
this very narrowly instead of recognizing that it was a broader 
problem and should have gone immediately to see if the 
situation in 2000 was the same as described in 1996.
    In conclusion, Mr. Chairman, there have been failures at 
the Air Force Academy. Of that, there is no doubt. General 
Jumper and I have been and remain intensely focused on 
correcting these problems and restoring the confidence of the 
American people in their Air Force Academy. Our focus 
throughout has been of fulfilling our goals of educating, 
training, and inspiring Air Force leaders of the highest 
character and integrity, ensuring the safety and security of 
every cadet, and enhancing the trust and confidence of the 
American people in the Academy.
    I'm proud to point out, Senator, in the midst of all of 
this, the work that we did on the rushed basis that we did it 
is measured by the fact that in June we had the fourth largest 
class of women to begin the Air Force Academy in the history of 
the Academy. The parents are giving us a chance. We have to 
make sure we live up to it. We will stay this course, Mr. 
Chairman.
    Recent climate surveys show that the attitudes there are 
going to take a long time to change. In fact, General Jumper 
and I spent Friday in Colorado Springs with the leaders of the 
Air Force Academy, and one of our concerns is that they might 
become discouraged because things cannot happen fast.
    The good news is that the confidence of the women cadets in 
the new leadership team and its desire to address these issues 
has become quite high. With what we have learned in our 
interactions, the efforts of the Working Group and the Fowler 
Commission, and what we will learn from the IG investigations, 
which are ongoing--they will not be complete until December--we 
are prepared to deal with issues of accountability 
expeditiously once they're finished.
    We appreciate the support you and the Members of Congress 
have given us, and we sincerely appreciate the suggestions you 
have provided throughout our response to this crisis. I am 
especially grateful to Senator Allard for the time he has spent 
working with me on this, and working with General Jumper.
    Again, we appreciate and applaud the work of the Fowler 
Commission. Thank you, sir. I'd be glad to answer your 
questions.
    [The prepared statement of Secretary Roche follows:]

               Prepared Statement by Hon. James G. Roche

    Mr. Chairman, Senator Levin, members of the committee. Let me begin 
today by thanking the committee for inviting General Jumper, Ms. 
Walker, and myself to update you on our actions regarding the Air Force 
Academy, as well as to provide you with some context for evaluating our 
approach to these problems and the decisions we have made.
    Mr. Chairman, you and members of this committee have been actively 
involved in highlighting the scope and nature of the sexual assault 
problem at our Academy. You've offered us your thoughtful suggestions 
since this issue was first brought to our attention, and you were 
responsible for the appointment of an independent panel of American 
citizens to review this matter.
    We commend the work of Congresswoman Fowler and her distinguished 
team of experts. Throughout their review, we required that our staff 
cooperate fully with the panel because our goal is the same as yours--
to provide for the safety and security of our cadets, and to ensure 
that we produce officers worthy of the special trust and confidence of 
our Nation. We are grateful for Ms. Fowler's diligence, as well as her 
valuable recommendations. The commission has done a great service to 
the institution and to our Air Force. We have learned a lot and we 
wholeheartedly agree with her recommendations. However, I would want 
you to know that, in the report of the Working Group, there were no 
shields or any attempts to do anything other than to portray the facts 
so they might speak for themselves. We look forward to working with the 
Secretary of Defense and you as we move forward to study and act on the 
panel's findings.

                              * * * * * *

    Mr. Chairman, from the very beginning of my tenure as Secretary, I 
have been intensely focused on sustaining our position as the world's 
finest air and space force. We do this, not merely by investing in 
platforms and systems, but principally by investing in people. Nowhere 
is this more important than one of our premier sources of training 
future leaders, the Air Force Academy. This is America's Academy. 
Because of the unique position of responsibility these officers will 
assume upon graduation, we owe it to you--and the citizens you 
represent--to get it right.
    At the Academy, a singular purpose drives us: producing officers of 
character who are prepared to lead airmen in the profession of arms, 
potentially into harm's way.
    Thus, we have been shocked and appalled to learn of the character 
failures of some of our cadets, and possibly, even some of our 
graduates. We do not condone these criminal acts, nor do we tolerate a 
culture that discourages the reporting of those who would perpetrate 
such acts. We must create an environment of trust and allegiance, not 
to misplaced notions of loyalty, but to standards of officership that 
will not tolerate criminal behavior or the attitudes that allow sexual 
harassment and assault to occur.
    Shortly after I assumed my post on June 1, 2001, General Mike 
Ryan--our Chief of Staff at the time--and I talked about the Air Force 
Academy and about the fundamental obligation we have as custodians of 
this great institution. From the beginning of my tenure, one of my 
principal goals has been to strengthen this institution--to reinforce 
the foundations that have produced our success, and to make changes 
that would advance our mission there. Working closely with Generals 
Ryan and Jumper, and long before the sexual assault issue was brought 
to our attention in January of this year, we have been actively engaged 
on Academy issues.
    We sought to reinvigorate a sense of military professionalism. In 
the last months of 2001 and the first half of 2002, we had court-
martialed more cadets than we had in the previous 10 years at the 
Academy--eight for drugs alone. We had cadets involved in credit card 
theft, embezzlement, pornography, sodomizing a minor, and a stolen 
textbook ring. We took firm action against each of them. This level of 
misconduct convinced me that we needed to invest yet more of our 
personal time and effort to make positive changes at the Academy, and 
that we have.
    During my term to date, I've visited the Air Force Academy more 
than any other Air Force installation or operating location outside of 
Washington--nine times. General Jumper has been there repeatedly as 
well. I believe that no previous Secretary of the Air Force or Chief of 
Staff has devoted more time and effort to the Air Force Academy than 
General Jumper and myself. In all these endeavors, our first concern 
was the welfare of the cadets at the Academy. I would like to review 
some highlights:

        <bullet> In October 2001, we went to Colorado to consider and 
        make changes to the Academy's Honor Code system. Working with 
        retired General Mike Cairns, who chaired an independent report 
        on the honor system, we made it more responsive, added due 
        process steps, and reaffirmed our commitment to the values that 
        underlie the code.
        <bullet> Immediately following this review, we took on the 
        issue of recruited athletes. We were accepting an increasing 
        percentage of recruited athletes. In March 2002, we issued our 
        guidance, limiting the number of recruited athletes to no more 
        than 25 percent of the incoming class. Again, we took this step 
        to get the institution refocused on training, education, and 
        character development of future Air Force officers.
        <bullet> In May 2002, I went to the Academy to focus on cadet 
        military professionalism. During this meeting, I directed the 
        establishment of a Senior Officer lecture series, wherein 
        superb Air Force leaders--officers like General Buzz Moseley 
        and Chuck Wald--would take a greater hand in the training and 
        development of our future officers. General Jumper also 
        encouraged every 4-star officer to visit the Academy annually. 
        I concluded this visit by doing what I want all of our leaders 
        doing there--teaching cadets personally. I chose to teach a 
        case on acquisition ethics. General Jumper also taught a class.
        <bullet> Over the summer of 2002, we took on the curriculum 
        issue. We conducted a complete review of the curriculum and 
        made significant changes to enhance the science and technology 
        requirements for cadets. We established a new Systems 
        Engineering major, expanded language requirements for liberal 
        arts majors, and reinstituted basic airmanship training for the 
        cadets.
        <bullet> While we were working on these items, we cracked down 
        on those who fell below standards: we clamped down on those 
        involved with illicit drugs. We imprisoned the cadet who 
        assaulted the young lady at summer camp and implemented new 
        screening rules for camp volunteers. Further, in this case, we 
        took charge of the relations between the Academy and the young 
        lady's family due to the poor performance of some of the 
        Academy personnel involved. We removed a permanent professor--a 
        department head--who was responsible for an inappropriate and 
        sexually explicit skit performed by some cadets.

    We have tackled all these issues--the Honor Code, recruited 
athletes, the curriculum, issues of character and leadership 
development, enforcement of standards, additional training for staff, 
and much more--in my first 19 months on the job and General Jumper's 
first 16 months at the helm. At no point during this entire period were 
we informed about a major problem with gender relations or sexual 
assault. We spent time with alumni, alumnae, cadets, parents--many of 
whom are active duty officers--with daughters as well as sons attending 
the Academy, faculty, and ex-faculty. Two members of our staff were 
women with extensive experience at the Academy. I even maintained a 
dialogue with the Superintendent of the Naval Academy in an attempt to 
gain insight into potential problems. Yet, there were no suggestions of 
a widespread gender problem. This subject was not addressed openly by 
either officers or cadets. Had we received such information, I assure 
you our actions would have been as firm and swift and decisive as our 
approach to the other issues we faced.

                              * * * * * *

    When we received a single e-mail from a cadet in January of this 
year, we were disturbed by its content, and the pain that was in the 
message. We contacted the author of the e-mail and we asked her if she 
would be willing to come in to talk to our representatives. She did so, 
and brought a former cadet as well. What they had to tell raised 
serious concerns.
    Based on these reports--as well as reports to Members of Congress, 
especially Senator Allard--we took immediate action. We chartered a 
Working Group in January, under the leadership of the Air Force General 
Counsel, the Honorable Mary Walker. In our charter to the team, we 
specifically and intentionally focused on determining the scope of the 
problem at the Academy, and what did we need to do to begin to fix it. 
What went wrong? How could it happen? How long has it been going on? We 
asked them to undertake a comprehensive review of the Academy programs 
and practices that were designed to deter and respond to sexual assault 
incidents, and to report their findings with respect to the 
responsiveness, effectiveness, and fairness of our current programs. We 
wanted facts. We needed to change the Academy and earn again the 
confidence of the parents of our cadets--especially those cadets 
considering entering the class of 2007. Our charter was very specific:

        <bullet> Review the current programs, policies, and practices 
        at the Academy as compared to the rest of the Air Force;
        <bullet> Review the cadet complaints and provide an opportunity 
        for cadets, former cadets, and other members of the Academy 
        community to make constructive comments;
        <bullet> Evaluate how well the Academy's process to assist 
        victims and punish offenders has worked in the last 10 years; 
        and
        <bullet> To offer recommendations to us as a basis for us to 
        make changes at the Academy.

    Time was of the essence. We did not ask them to investigate, report 
on, or draw conclusions on the activities of the headquarters. We 
wanted facts and factual history, not speculation. Our immediate and 
compelling focus was to provide an environment for our cadets free from 
sexual assault and sexual harassment while ensuring that if a sexual 
assault did occur, the crime would be reported, the victim would be 
supported, and justice would be done. Within a week or so, I also 
directed the Air Force Inspector General to undertake a parallel 
investigation into every case where a victim felt that justice had not 
been done so as to assess command accountability. Furthermore, I 
directed Ms. Walker to develop a factual history in the report of the 
last 10 years at the Academy to provide General Jumper and me with the 
basis for evaluating how our officers dealt with what they found there.
    While the Working Group and the IG team were doing their work, 
General Jumper and I repeatedly went to the Academy to personally 
engage with the cadets and the leadership. I addressed the entire 
student body and the assembled faculty in February during a conference 
on Character and Leadership Development. The following week, General 
Jumper did the same. We made it absolutely clear that we were going to 
fix this problem, and that the cadets could expect significant change, 
not just in matters related to sexual assault, but in the entire 
Academy climate.
    To learn, we reviewed the work of the Working Group as they 
developed history and diagnosis. When we received Ms. Walker's interim 
report in March, we personally assembled a group of officers and 
leaders with experience at the Academy, other academies, and Air Force 
ROTC to help us review an agenda that would allow us to make swift and 
decisive changes at our Academy.
    Mr. Chairman, we want to be very clear how we viewed our 
responsibility: first and foremost, protect our cadets, reestablish the 
confidence of the parents of our cadets, attack any barriers to 
reporting, and begin to change the culture which had developed over the 
past two and a half decades that tolerated sexual harassment.
    First, we expeditiously pursued our review at the Academy and 
issued our Agenda for Change because of our overarching responsibility 
to protect the cadets who were at the Academy and the incoming class. 
We were compelled to immediately address these issues so we could 
reassure the parents of our current and future cadets that their 
children would be safe. I'm proud to report that the class of 2007 has 
the fourth largest number of women in the Academy's history.
    Beyond all other matters, we were committed to eliminating the 
climate at the Academy that discouraged reporting of sexual assaults 
and encouraged a misplaced loyalty to protecting those who committed 
criminal acts. Our focus was on the Academy, its current cadets, and 
the incoming class. Our concern was to act to make swift and decisive 
change.
    We viewed that as our responsibility as the Air Force's senior 
leaders. It is why we issued an Agenda for Change that was a beginning 
of an overall, intensive effort to fix the problems at the Academy. We 
needed to make leadership changes to get the process started, and 
attack the entire climate, from basic cadet life and staff training to 
the specific processes by which we deter and respond to sexual assault. 
The preliminary Working Group Report was very helpful in giving us 
diagnoses and raising issues needing to be addressed.
    The new Academy leadership team--a team General Jumper and I 
assembled after interviewing many candidates--and our Executive 
Steering Group at the Headquarters have taken the Agenda for Change and 
the General Counsel's final report and translated them into 63 action 
items. We've established a headquarters oversight mechanism that is 
tracking implementation as well as providing support to Academy 
leadership. Our team just returned from 2 weeks at the Academy where 
they reviewed our progress to date. This construct will be made 
permanent and will ensure that our successors maintain the needed 
attention on the institution.
    As of today, we can report that we have made progress in 
implementing these changes, although we have a great deal of work yet 
to do, as Ms. Fowler correctly notes in her report. Generals Rosa and 
Weida, and Colonels Gray and Monteith are officers of action and are 
the right leaders at the right time for the Academy. We have opened up 
the Academy to public scrutiny, and have invited all concerned with 
resolving these problems to offer their criticism and inputs. We have 
invited the cadets to be part of this process. We have worked with the 
other services and the leadership of the U.S. Military Academy and the 
Naval Academy to capture their best practices. We have been open and 
direct with the Fowler Panel, the DOD Inspector General, the Board of 
Visitors, and this committee, as well as your counterparts in the 
House.
    We recognize that our initial blueprint for action may need 
modifications, as in the case of our approach to a ``confidentiality 
track'' for victims. As we have already done, we will continue to 
modify our actions, to incorporate best practices, to ask help from 
outside experts, to bring the Academy in line with the processes used 
throughout the Air Force, and to ensure that we continue the process of 
changing the culture at the Academy.
    As recent surveys have shown, changing attitudes will be something 
we can't solve in a matter of months, and significant problems still 
exist. While I feel confident that we have assured the safety of our 
cadets, it is disturbing to read in our latest cadet climate survey 
that more than 20 percent of our male cadets believe that women do not 
belong at the Academy. This calls into question our admissions 
procedures. More disturbing, these attitudes seem to have spread as 
cadets become more senior over time. In that same survey, however--
which General Weida and Colonel Gray briefed to us just last Friday--
our Freshman cadets reported they are confident in their new 
leadership, less tolerant of honor code violations, and are more likely 
to confront their peers. Further, our women cadets overwhelmingly 
expressed confidence that our new leadership team is serious about 
addressing issues of sexual harassment and assault. We need to nurture 
those attitudes, and I'm confident that our new leadership at the 
Academy is moving in the right direction. We need to ensure that they 
do not become discouraged with the slow pace of progress.
    It will take strong leadership and a consistency of purpose to 
sustain this movement. Even though we've been at war as we've responded 
to this crisis, it's received no less attention than it would have 
during peacetime. We remain engaged, and will continue to take decisive 
action on matters of leadership, training, and the enforcement of 
standards at the Academy, and throughout the Air Force. This is our 
commitment to you and all those we serve. It is what the American 
people expect of those entrusted with their sons and daughters and the 
security of this Nation.

                              * * * * * *

    Mr. Chairman, there have been failures at the Air Force Academy; of 
that there is no doubt. General Jumper and I have been and remain 
intensely focused on correcting these problems and restoring the 
confidence of the American people in their Air Force Academy. Our focus 
throughout has been on fulfilling our goals of educating, training, and 
inspiring Air Force leaders of the highest character and integrity, 
ensuring the safety and security of every cadet, and enhancing the 
trust and confidence of the American people in the Academy. We will 
stay this course. With what we have learned from our interactions, the 
efforts of the Working Group and the Fowler Commission, and what we 
will learn from the IG investigations, we are prepared to deal with 
issues of accountability expeditiously.
    We appreciate the support you and the Members of Congress have 
given us, and we sincerely appreciate the suggestions you have provided 
throughout our response to this crisis. Again, we appreciate and 
applaud the work of the Fowler Commission.
    Thank you, I will be happy to answer your questions.

    Chairman Warner. Thank you very much, Mr. Secretary.
    I think the record, at this point, should reflect, when you 
made reference to the letter that I sent, the Secretary of the 
Air Force at that time was Whit Peters; Chief of Staff, General 
Ryan. Perhaps in the Q&A--I don't want to take up time now--you 
could tell us whether or not you went back and asked them what 
happened; why that wasn't addressed.
    Senator Levin? Any further comment on the record? Because 
otherwise we'll go now to the General Counsel.
    Senator Levin. Perhaps just one question, if you could 
clarify. The Air Force IG was a member of the Working Group?
    Secretary Roche. There were members of the IG staff on the 
Working Group.
    Senator Levin. Not the IG.
    Secretary Roche. No, sir.
    Senator Levin. Okay.
    Secretary Roche. No, sir.
    Senator Levin. The staff members--according to Tillie 
Fowler----
    Secretary Roche. Oh, I'm sorry. The General Counsel, 
correct. He was on the overall panel.
    Senator Levin. That's what it says in the Fowler Report.
    Secretary Roche. Yes, sir. General Hewitt.
    Senator Levin. And was it he who did the review in 1996?
    Secretary Roche. No, sir. He arrived in 2000. He arrived 2 
weeks before the answer was given back to the committee. It 
happened within the first 2 weeks of his tenure. In 1996, he 
was off flying airplanes.
    Chairman Warner. General Jumper.

STATEMENT OF GEN. JOHN P. JUMPER, USAF, CHIEF OF STAFF, UNITED 
                        STATES AIR FORCE

    General Jumper. Mr. Chairman, Senator Levin, members of the 
committee, thank you for the opportunity to address you all 
today. I also want to thank you for your continued support of 
our Air Force men and women, and for your concern about the 
cadets at our Air Force Academy.
    I'd like to also add my appreciation to that expressed by 
Secretary Roche to Ms. Fowler and the members of her committee 
for the report and its recommendations, and I add my full 
support to those recommendations.
    Mr. Chairman, I assumed my present position on the 6th of 
September 2001. In addition to the events of September 11, one 
of the initial topics of discussions between Secretary Roche 
and myself was about the Air Force Academy. He had been 
directly involved with my predecessor, General Mike Ryan, on a 
number of issues that he's outlined to the committee this 
morning, in doing due diligence on issues that were already 
underway, to include, I might say, a formal review of the honor 
code with General Mike Carns that what was reported out to us 
shortly after I arrived in my new position.
    He could have, at any time, turned to me and said, 
``Jumper, the superintendent reports to you, you take all these 
things and go off and report back to me,'' but he knew the 
urgency of the day that was dictated by the events of September 
11, and we worked on these things together from the very 
beginning. As I said, Mr. Chairman, as the Air Force Chief of 
Staff, the Superintendent of the Air Force Academy does report 
directly to me. We worked these issues as a team, and I do feel 
the responsibility for what does happen at the United States 
Air Force Academy.
    Indeed, we're both engaged at many levels of the Academy 
issues. During my many trips to the Academy, I had occasion to 
talk to children of general officers who go to the Academy. My 
own daughter went out and participated in an ROTC program in 
the summer of 1996 at the Air Force Academy, spent the summer 
there. I attended many athletic events. I had the opportunity 
to be with many cadets on many levels, both formal and 
informal, with the alumni and with their parents. On no 
occasion during any of those times, during my initial tenure as 
the Chief of Staff of the Air Force, was any problem with 
regard to the abiding sexual climate there ever brought to my 
attention, although other problems were, of the type that 
Secretary Roche mentioned, and were acted upon.
    Then with the arrival of this e-mail on January 2, 2003, I 
can tell you--I was there--Dr. Roche reacted immediately to 
that e-mail with an immediate answer to the General Counsel to 
get underway with the appropriate committees and boards that 
conducted the subsequent investigations.
    Very quickly thereafter, I want to emphasize, there was a 
parallel effort to get the Air Force Inspector General underway 
on looking thoroughly at all of the techniques and the 
processes that went into the investigations that took place, to 
make sure that the leadership at the Academy reacted to those 
properly and that the processes and procedures were as they 
should have been, and we stepped out on that quickly.
    Our focus at the immediate time was to focus on, as the 
Secretary said, when the new cadets would arrive at the end of 
June and to get a letter out to their parents to outline 
quickly to them the steps that we thought were necessary to 
assure the safety of their people. Many of those steps had to 
do with the culture and the character of the Academy that we 
knew had to change, but we also knew that nothing was going to 
change unless the cadets themselves were a part of that change. 
Those are points that were pointed out in the report by Ms. 
Fowler.
    The subsequent Agenda for Change that was published by the 
Working Group focuses on a great deal of--pardon me?
    Secretary Roche. Published by us.
    General Jumper. That was published by us, exactly right, 
released by us.
    The words that have to do with character, integrity in the 
preamble of that document are largely words that came from my 
own pen and show the conviction that I personally have to the 
long-term culture and integrity of the organization.
    We also undertook, with the help of the Alumni Association, 
to begin work on a new Center for Character and Leadership 
Development that we will join with the Alumni Association to 
open as a place where formal research on this thing can be done 
and made available to all.
    We learn more about this situation every day, Mr. Chairman, 
as we continue to probe and reports continue to come in. So the 
Agenda for Change is, indeed, a living document that will 
continue to be updated as changes dictate. As we tend to find 
what elements of the agenda work and don't work the best, 
adjustments will be made.
    Mr. Chairman, I think that the Secretary and I have, 
indeed, been engaged, and engaged actively, in this problem, 
and we will continue to be engaged, understanding that this is 
a long-term problem. This is not one that we will address, as 
tended to have been done in the past, with a quick solution. We 
understand that the problem took years to develop, and the 
solution will take a long time for us to implement. But we are 
engaged in the long term. We intended, with the Agenda for 
Change, to institute changes that were, indeed, for the long 
term.
    But I reiterate that I am the one responsible. I am the one 
the superintendent reports to. I'm responsible not only for the 
Air Force Academy, but for the conduct of the entire Air Force, 
along with Secretary Roche, in their conduct in war, and, as we 
have seen, our Air Force operates throughout the world over an 
extended period of time.
    Mr. Chairman, I appreciate the opportunity to be here 
today, sir, and look forward to your questions.
    Chairman Warner. Thank you, General, and we expected no 
less from you to accept full accountability. Thank you.
    General Counsel.

 STATEMENT OF HON. MARY L. WALKER, GENERAL COUNSEL, DEPARTMENT 
                        OF THE AIR FORCE

    Ms. Walker. Thank you, Mr. Chairman, Senator Levin, members 
of the committee. Thank you for giving me this opportunity to 
discuss my role and that of the Working Group convened by the 
Secretary of the Air Force to review the policies, programs, 
and practices to deter and respond to sexual assaults at the 
Air Force Academy. I should note, for the time-frame reference, 
that I assumed my duties November 12, 2001.
    My office and the Working Group that I chaired have worked 
diligently with Secretary Roche and General Jumper to review 
the Academy's policies and programs over the last 10 years and 
to capture the facts surrounding the sexual assaults at the 
Academy in response to cadet complaints Secretary Roche 
received in January of this year.
    My office interviewed the cadet who wrote the e-mail, and I 
personally met with her and another assault victim very early 
on. We were very concerned about the issues they raised. The 
Secretary was concerned as well, and thus, he demanded a 
focused, aggressive effort to determine the facts and to 
implement changes at the Academy.
    The Working Group's report was not a staff report that was 
handed to the Secretary and the Chief. I worked very closely 
with the Secretary and General Jumper throughout the Working 
Group's process, as did other members of the Working Group. I 
met regularly with Secretary Roche, and had an ongoing informal 
dialogue with him about the issues being raised. As soon as the 
first staff team was dispatched to the Academy, he was provided 
feedback as I received it, and he and the Chief received a 
draft of the preliminary findings before they were made 
formally available to them, on March 19, as well as other 
various drafts of the final report of the Working Group, for 
their comments.
    The Secretary and the Chief provided comments to us on the 
draft reports. The Working Group members also individually 
reviewed the draft report and made comments as well, and those 
comments were addressed in the final report.
    During the course of the Working Group's review, the 
Secretary raised questions and provided comments. He was very 
concerned we report the facts, let the facts speak for 
themselves, and that we not speculate. We were very careful to 
document with original source documents each fact in the 
report.
    During the course of the Working Group's report 
preparation, I asked that a historical section be included so 
that we could see how the policies and programs developed over 
time. This necessarily involved the Academy leadership and what 
they had done to address the issues over time. As this 
developed and we received more information, the staff team and 
I became concerned that if accountability of leadership was to 
be considered in this process, an inspector general was better 
suited than the Working Group to look at these matters. I was 
aware of the parallel efforts underway by the Air Force 
Inspector General and the Department of Defense Inspector 
General, looking at many of these issues.
    I took this issue to the Secretary, and he agreed, 
reminding me of our charter to look at policies and programs in 
light of the cadet complaints, not at leadership 
accountability. He stated that he and General Jumper would be 
looking at leadership's role after all the reviews and reports 
had been completed.
    It was the direct involvement by the Secretary and the 
Chief of Staff that enabled them to understand the depths of 
the challenge we faced, and also contributed to their ability 
to author the Agenda for Change. Our charter from Secretary 
Roche was to find the facts, no matter what the facts revealed. 
The Working Group did not engage in a protective mentality to 
shield Air Force leaders, past or present. That would have 
completely undermined our efforts to protect victims and to 
pursue the changes that were needed at the Academy.
    Much has been made of facts the Working Group did not have. 
I was not aware of the facts developed by the Fowler Panel 
regarding the prior headquarters' involvement in Academy sexual 
assault issues in the 1996/1997 time frame referred to at page 
5 of the Fowler Panel report. However, the Working Group was 
aware early on of the Office of Special Investigations (OSI) 
concern raised in late 1999 or early 2000, with the 
confidential reporting process at the Academy, and they were 
aware that the OSI commander viewed this as preventing OSI's 
receiving information on reports of assault sufficient for them 
to be investigated. I raised the same issue that had been 
raised in 2000, and that is when I learned of the prior 
question raised by OSI.
    As I understand it, this concern was raised, and various 
functions at headquarters discussed the issue. These were some 
of the same offices that were participating in the Working 
Group this year.
    The 2000 issue raised by OSI, was not that consideration 
was not being given to review of sexual assault issues and 
sexual harassment at the Academy, but, rather, it was an OSI 
complaint about the confidentiality reporting process. I am 
told the effort consisted of one, possibly two, meetings, 
acquisition of information, exchanges of views on the issue, 
and an exchange of e-mails, with long periods of inactivity; 
months where nothing happened.
    When it became apparent these discussions could not resolve 
the issue, Mr. Atlee, who is currently my deputy, recommended 
that the OSI commander and the Academy superintendent meet and 
attempt to resolve the issue directly. The OSI commander 
subsequently did meet with the superintendent and the 
commandant, and afterwards reported they had reached an 
agreement that resolved his concerns, and the confidential 
process of reporting remained in effect.
    The Working Group was aware of the issue raised by OSI in 
2000. That is, they were aware, in 2003, that it had been 
raised in 2000. This issue is documented in the Working Group's 
report at pages 17, 20, 141, and all of the footnotes cited in 
those paragraphs dealing with that issue.
    Had we been aware, however, of facts concerning the prior 
involvement of Air Force leadership in the sexual assault 
issues at the Academy in the 1996/1997 time frame, we would 
have included them in the report, as well. Based on what I now 
know about those issues, they only serve to underscore the 
Working Group's 43 findings; among them, findings that the 
Academy's programs, though well-intentioned, were not working, 
that there was a culture problem at the Academy, and that the 
confidential reporting process, though well-intentioned, had 
failed.
    The facts are the facts, and I would have included any 
relevant facts essential to our review. It is inconsistent with 
my intent to paint a complete picture to suggest I would have 
withheld relevant facts. Those were relevant facts. Had I been 
asked, I would have made this clear to the Fowler Panel.
    The Working Group provided Secretary Roche exactly what he 
asked for, a detailed report that delineated the nature and the 
scope of the problem at the Air Force Academy that the cadet 
victims complained of, with recommendations for change.
    In addition to the 43 findings, we made 36 recommendations 
for change and identified 12 areas for further study. One of 
the areas for further study was the need to examine the extent 
to which Air Force headquarters had been and should be involved 
in the oversight of sexual assault and sexual harassment issues 
at the Academy.
    I believe the report of the Working Group met its charter 
and provided invaluable information, which served as a 
foundation for the important changes that have been made for 
the good of the Academy and the cadets it prepares to become 
officers.
    The military and civilian members of the Air Force who gave 
up nights and weekends with their families for months to 
complete the Working Group's effort are dedicated people, 
military and civilian, who care deeply about these issues. To 
their credit, Lieutenant General Rosa, Brigadier General Weida, 
are now implementing and executing the changes they 
recommended. These changes, brought about by the Secretary and 
the Chief in response to the information they received, work 
toward a safe environment for our cadets and one in which 
future officers, both men and women, can thrive.
    I thank you for this opportunity to help clear up these 
facts, and I await your questions.
    Thank you.
    [The prepared statement of Ms. Walker and the Report of the 
Working Group Concerning the Deterrence of and Response to 
Incidents of Sexual Assault at the U.S. Air Force Academy 
follow:]

               Prepared Statement by Hon. Mary L. Walker

    Mr. Chairman, Senator Levin, members of the committee. Thank you 
for giving me this opportunity to discuss my role and that of the 
Working Group convened by the Secretary of the Air Force to review the 
policies, programs, and practices to deter and respond to sexual 
assaults at the Air Force Academy.
    I assumed my duties as Air Force General Counsel on November 12, 
2001.
    My office, and the Working Group I chaired, have worked diligently 
with Secretary Roche and General Jumper to review the Academy's 
policies and programs over the last 10 years and to capture the facts 
surrounding the sexual assaults at the Academy in response to the cadet 
complaints Secretary Roche received in January 2003.
    My office interviewed the cadet who wrote the e-mail and I 
personally met with her and another assault victim. We were very 
concerned about the issues raised. The Secretary was as well and thus 
he demanded a focused, aggressive effort to determine the facts and to 
implement changes.
    The Working Group's report was not a ``staff report'' that was 
``handed to'' the Secretary and the Chief. I worked very closely with 
Secretary Roche and General Jumper throughout the Working Group's 
process as did other members of the Working Group.
    I met regularly with Secretary Roche and had an ongoing informal 
dialog with him. As soon as the first staff team was dispatched to the 
Academy, he was provided feedback as I received it, and he and the 
Chief received a draft of the preliminary findings before they were 
formally provided to them on March 19, as well as various drafts of the 
final report of the Working Group for their comments.
    The Secretary and the Chief provided comments to us on the draft 
reports. The Working Group members also individually reviewed the draft 
report and made comments.
    During the course of the Working Group's review, the Secretary 
raised questions and provided comments. He was very concerned we report 
facts and let them speak for themselves and that we not speculate. We 
were careful to document with original source documents each fact in 
the report.
    During the course of the Working Group's report preparation, I 
asked that a historical section be included so that we could see how 
the policies and programs developed over time. This necessarily 
involved the Academy leadership and what they had done to address the 
issues over time.
    As this developed, and we received information, the staff team and 
I became concerned that if accountability of leadership was to be 
considered, an Inspector General was better suited than the Working 
Group to look into these matters. I was aware of the parallel efforts 
underway by the Air Force and DOD Inspectors General.
    I took this issue to the Secretary and he agreed, reminding me of 
our charter to look at policies and programs in light of the cadet 
complaints not leadership accountability. He stated that he and General 
Jumper would be looking at leadership's role after all the reviews were 
completed.
    It was the direct involvement by the Secretary and the Chief that 
enabled them to understand the depths of the challenge we faced and 
also contributed to their ability to author the Agenda for Change.
    Our charter from Secretary Roche was to find the facts--no matter 
what the facts revealed. The Working Group did not engage in a 
``protective mentality'' to shield Air Force leaders (past or present). 
That would have completely undermined our efforts to protect victims 
and pursue the changes that were needed at the Academy.
    Much has been made of facts the Working Group did not have. I was 
not aware of the facts developed by the Fowler panel regarding the 
Headquarters' involvement in the Academy sexual assault issues in the 
1996-1997 timeframe, referred to at page 5 of the Fowler panel report.
    However, the Working Group was aware early on of the OSI concern 
raised in late 1999, early 2000 with the confidential reporting process 
at the Academy that the OSI commander viewed as preventing OSI's 
receiving information on reports of assaults sufficient for 
investigation. I raised the same issue and that is when I learned of 
the prior review.
    As I understand it, this concern was raised and various functions 
at Headquarters discussed the issue. These were some of the same 
offices that were on the Working Group in 2003.
    The 2000 issue consideration was not a review of sexual assault 
issues and sexual harassment at the Academy, but rather an OSI 
complaint about the confidentiality reporting process. I am told the 
effort consisted of one (possibly two) meetings, acquisition of 
information, exchanges of views on the issue, and an exchange of e-
mails with long periods of inactivity. When it became apparent these 
discussions would not resolve the issue, Mr. Atlee recommended that the 
OSI commander and the Academy Superintendent meet and attempt to 
resolve the issue directly. The OSI commander subsequently met with the 
Superintendent and Commandant and afterwards reported they had reached 
an agreement that resolved his concerns.
    The Working Group was aware of the issue raised by OSI in 2000, and 
the issue is documented in the Working Group's report (at pages 17, 20, 
and 141, and footnotes at each page).
    Had we been aware of the facts concerning the prior involvement of 
Air Force leadership in the sexual assault issues at the Academy in the 
1996-1997 timeframe, we would have included them in the report.
    Based on what I now know about those issues, they only serve to 
underscore the Working Group's 43 findings--among them findings that 
the Academy's programs, though well intentioned, were not working, that 
there was a culture problem, and that the confidential reporting 
process had failed. The facts are the facts and I would have included 
any relevant facts essential to our review.
    It is inconsistent with my intent to paint a complete picture to 
suggest I would withhold relevant facts--and those would have been 
relevant facts. Had I been asked I would have made this clear to the 
Fowler panel.
    The Working Group provided Secretary Roche exactly what he asked us 
for--a detailed report that delineated the nature and scope of the 
problem at the Air Force Academy the cadet victims complained of with 
recommendations for change. In addition to the 43 findings, we made 36 
recommendations for change, and identified 12 areas for further study. 
One of the areas for further study identified was the need to examine 
the extent to which Air Force headquarters has been and should be 
involved in the oversight of sexual assault and sexual harassment 
issues.
    I believe the report of the Working Group met its charter and 
provided invaluable information that served as a foundation for the 
important changes that have been made for the good of the Academy and 
the cadets it prepares to become officers.
    The military and civilian members of the Air Force who gave up 
nights and weekends with their families for months to complete the 
Working Group report are dedicated people who cared deeply about the 
issues.
    To their credit, Lieutenant General Rosa and Brigadier General 
Weida are now implementing and executing the changes recommended. These 
changes work toward a safe environment for our cadets and one in which 
future officers--both men and women--can thrive.
    I thank you for this opportunity to address the committee and look 
forward to answering your questions.
                                 (start)
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.129
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.130
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.131
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.132
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.133
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.134
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.135
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.136
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.137
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.138
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.139
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.140
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.141
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.142
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.143
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.144
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.145
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.146
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.147
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.148
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.149
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.150
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.151
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.152
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.153
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.154
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.155
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.156
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.157
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.158
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.159
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.160
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.161
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.162
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.163
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.164
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.165
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.166
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.167
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.168
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.169
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.170
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.171
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.172
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.173
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.174
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.175
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.176
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.177
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.178
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.179
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.180
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.181
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.182
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.183
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.184
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.185
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.186
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.187
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.188
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.189
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.190
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.191
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.192
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.193
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.194
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.195
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.196
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.197
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.198
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.199
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.200
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.201
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.202
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.203
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.204
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.205
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.206
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.207
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.208
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.209
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.210
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.211
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.212
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.213
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.214
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.215
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.216
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.217
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.218
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.219
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.220
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.221
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.222
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.223
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.224
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.225
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.226
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.227
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.228
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.229
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.230
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.231
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.232
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.233
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.234
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.235
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.236
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.237
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.238
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.239
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.240
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.241
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.242
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.243
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.244
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.245
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.246
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.247
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.248
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.249
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.250
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.251
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.252
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.253
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.254
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.255
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.256
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.257
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.258
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.259
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.260
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.261
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.262
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.263
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.264
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.265
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.266
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.267
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.268
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.269
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.270
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.271
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.272
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.273
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.274
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.275
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.276
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.277
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.278
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.279
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.280
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.281
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.282
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.283
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.284
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.285
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.286
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.287
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.288
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.289
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.290
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.291
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.292
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.293
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.294
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.295
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.296
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.297
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.298
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.299
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.300
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.301
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.302
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.303
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.304
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.305
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.306
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.307
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.308
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.309
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.310
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.311
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.312
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.313
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.314
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.315
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.316
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.317
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.318
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.319
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.320
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.321
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.322
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.323
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.324
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.325
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.326
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.327
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.328
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.329
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.330
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.331
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.332
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.333
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.334
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.335
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.336
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.337
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.338
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9536.340
                                 

    Chairman Warner. Thank you very much.
    We'll now proceed to a round of 6 minutes initially, and 
may go to a second round.
    To the distinguished General Counsel, the question of what 
directions did you receive from the Secretary as to the scope 
of your investigation initially, and did you, in the process of 
your work, confer with him and receive additions, revisions to 
the initial guidance? Are there documents? Would you provide 
those documents to this committee?
    Ms. Walker. Yes, sir. There is a written charter. 
Initially, the Secretary asked me to form a group to address 
these issues and fix the problem. I believe the initial 
guidance was verbal. It was very consistent with the written 
guidance that followed it, a month or so later. We do have 
that, and we can provide it.
    It is also reflected in the report, and it has been 
consistent, that we were to look at the policies, programs, and 
practices at the Academy concerning its program to deter and 
respond to sexual assaults, in light of the cadet complaints, 
and we were to make findings and recommendations for change.
    The cadet complaints, the interviews that we had and the e-
mail that came in, specifically dealt with the way they had 
been treated once they reported an assault.
    Chairman Warner. In my short period for questions, I'm 
trying to get this procedure. You got verbal, then written 
guidance. In the course of your work, did questions arise, in 
your mind, which you addressed either to the Secretary or Under 
Secretary, or anyone else in the Air Force secretariat, for 
further guidance?
    Ms. Walker. Whenever questions came up, I went directly to 
the Secretary. That would have been probably on a weekly basis. 
The one I described in my testimony was fairly significant, 
because it would determine the nature of the report. In other 
words, there were issues concerning Academy leadership's role 
over the 10-year period, and I told him that we were 
uncomfortable dealing with accountability in that group. We 
felt it was an IG's role.
    Chairman Warner. Let me go back to the procedures. So 
throughout the process, you were in a consultative process with 
the Secretary. Under Secretary?
    Ms. Walker. No. The Secretary----
    Chairman Warner. Just the Secretary?
    Ms. Walker.--and the Chief. It was never the Under 
Secretary.
    Chairman Warner. When you finished your initial work, did 
you prepare a draft report and submit it to the Secretary and 
the Chief? Did they make changes to your final report?
    Ms. Walker. There were two stages, sir. There was the 
interim report, March 19, that was essentially a memorandum. 
They received a draft, which they gave me comments on. There 
was also a final. Basically it was the same as the draft, but 
with some questions possibly answered.
    Then, for the final report, in June, there were several 
drafts--at least two, maybe three--provided to them. We 
received comments and questions. But during the entire process, 
before the report was reduced to writing, there were also 
consultations and information being provided to them.
    Chairman Warner. Did you, at any time, consider that while 
it may not have been part of the original instruction from the 
Secretary, that your responsibility would embrace, frankly, 
reviewing the Secretary's actions during the period that he was 
in office prior to his knowledge of this situation?
    Ms. Walker. This Secretary?
    Chairman Warner. This Secretary was in office some 20 
months before these matters came to light. I presume that we 
can work on an assumption that the problems at the Academy 
persisted in that period of time. Now, if the facts are 
different, then I think the committee should know about it. I 
don't believe there's a clear demarcation in this culture and 
its problems with the appointments of Secretary Roche and 
General Jumper. In all probability, these problems continued, 
because both Secretary Roche and General Jumper repeatedly have 
said they had so much contact with other problems and people at 
the Academy and the problems never came to their attention. So 
I assume, from that, that it was ongoing and that your 
investigation now indicates it was ongoing.
    So my question is, did you ever feel, as the General 
Counsel, that you should take it upon yourself to examine their 
actions or inactions as being consistent with addressing this 
problem?
    Ms. Walker. First of all, our charter was directly to look 
at the Academy and not look at issues of leadership 
accountability. I have stated that. But even when I brought 
leadership accountability to the Secretary, it didn't occur to 
me, no, to investigate the very leaders who were dealing with 
the problem.
    Chairman Warner. I don't understand your language here, 
``It didn't occur to me, no.'' Please rephrase that. Maybe I 
missed it.
    Ms. Walker. You asked me if it occurred to me to look at 
the current leadership, Secretary Roche and General Jumper. The 
answer is no, because they were dealing with the problem that 
had been brought to them.
    Chairman Warner. So you did not, on your own initiative, 
say, ``I think I'd better look into everybody's actions.''
    Ms. Walker. The only thing I will tell you, sir, is that, 
at the end of the report, we recognized that we had not dealt 
with the issue of leadership, in terms of what their role has 
been in the past and what it should be. That is why the area 
recommended for further study is that issue. We simply did not 
have time, nor was it in our charter, to get to that issue.
    So we brought the issue up, but, no, we did not attempt to 
include current leadership, and we had been directed 
specifically not to include accountability issues in the review 
of the Academy.
    Chairman Warner. Mr. Secretary, both you and the Chief have 
testified to being physically present at the Academy, and 
dealing with a number of the individuals. You dealt with a 
series of problems, understandably swiftly and firmly, but this 
one never came to your attention. In any way are you suggesting 
that this problem didn't persist into the period in which each 
of you have been in office?
    Secretary Roche. Mr. Chairman, I'm not sure, but my sense 
is there was no point, when I was confirmed, that all of a 
sudden things stopped. There were both new events, but there 
was also the adjudication of prior events, and I think they 
continued along the way. There were some cases, like the Los 
Angeles case and the case of the assault on the 13-year-old 
young woman, which we observed were handled by the Academy, and 
there were court-martials. That there was a major problem 
associated with female cadets and sexual assault did not come 
to our attention, and it is one of the things that bothered me.
    Chairman Warner. Does that indicate to you, based on your 
extensive experience--and you, Chief--that this culture was 
very skillful in its covering up of these incidents? I mean, 
the fact that you all had so much contact with the Academy and 
the people there, and no one ever came to you. I accept your 
good faith representations. But it was ongoing, and it had been 
there, and it was there, and yet you state this morning, ``It 
will not happen tonight.''
    Secretary Roche. No.
    Chairman Warner. Then that culture has been stopped 
somehow.
    Secretary Roche. Yes, sir. There's two points I would make, 
Senator. One is that a lot of this was kept very much in a 
small group of people's hands, so that when, in fact, we did 
act, we----
    Chairman Warner. Is that cadets, and cadets and staff, and 
supervisors and the like?
    Secretary Roche. All of the above, sir. Because a number of 
the women cadets were very upset when we, in fact, started to 
take action. They felt that they didn't realize that it was 
that big a problem, that we were overreacting. In fact, I spent 
2 hours, well after midnight, with some cadets who were really 
quite upset that this all was coming out. It became clear that 
there was not a widespread understanding that this was a 
widespread problem.
    So the culture of holding it close had to do with, among 
other things, the privacy rules and the Academy officials 
trying to adhere to those. It had to do with what they sent up 
the chain of command and what they did not send up the chain of 
command.
    Chairman Warner. My time is running out. But you've pierced 
that now, and you're able to assure this committee and, indeed, 
Congress, this is over.
    Secretary Roche. Oh, yes, sir. I can do that, because we 
now have climate surveys and everything else, and they are made 
very transparent.
    Chairman Warner. General, you said that you hold yourself 
accountable. Yet on March 26, 2003, it's my understanding that 
you were working on this problem, and the General Counsel and 
others were looking at it, and yet you joined the Secretary, as 
I understand it, in a press release, which, in effect, said, 
``As the problems regarding the sexual assault allegations 
predate the current leadership, we do not hold Generals 
Dallager and Gilbert responsible.'' I find that difficult to 
comprehend. It was an ongoing investigation, yet the two of you 
decided that these two seniors were not responsible.
    General Jumper. Sir, I think that if that sentence had 
continued, it would have been ``for the whole 10 years worth of 
issues that we discovered.'' I went on to say that the IG 
investigation that the Secretary had put in place was put into 
place over a long term so that each of the cases could be 
thoroughly studied to make sure that the leadership did react 
properly to each of those cases.
    Chairman Warner. Then you bring to the committee's 
attention such other documentation as what we have before us, 
which is this press release----
    General Jumper. Yes, sir.
    Chairman Warner.--because that's not in here. I find this a 
very difficult thing to understand in a very clear and precise 
rendering of a decision at the time this thing is just in its 
formative stages and investigations are going on.
    Mr. Secretary, do you wish to address this?
    Secretary Roche. Yes, sir. I tried, and I didn't do it very 
articulately, in March. Let me subscribe to Congresswoman 
Fowler's point, which summarizes it, ``We believe you cannot 
hold someone accountable for that which they inherit, but you 
can certainly hold them accountable for how they've dealt with 
that which they inherited.'' That was the point I was trying to 
make at the press conference when I said that we could not hold 
the officers accountable for the climate. General Jumper--let 
me finish his other sentence--has said, ``But if, as we go 
forward, there are things for which people should be held 
accountable, we will,'' and we have, and we're prepared to go 
forward.
    The Working Group's report, by being a history and putting 
all the facts down, gives a lot of illumination as to problems 
of leadership at the Academy. It was the basis for our deciding 
to change out all four of the leaders, the preliminary report 
was. It was the basis for much of the Agenda for Change, which 
was written either by General Jumper or myself. It was also a 
good, solid basis for me to recommend to the Secretary of 
Defense that we not retire the existing superintendent at a 
three-star level, but, rather, at a two-star level.
    General Jumper. There's more to come. As the IG report 
comes in, we believe, in December, there will be more 
information for us that will talk to us about accountability 
and then allow us to initiate due process on those that we find 
wanting in their responsibilities.
    Chairman Warner. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    In April, General Barnidge, the Air Force Chief of 
Legislative Liaison, informed my staff that you, Secretary 
Roche, had directed the Air Force General Counsel to go back 
and determine what information was available to the Commandant 
or Superintendent at the Academy that should have raised their 
awareness of climate problems and whether they reacted 
appropriately to that information, and, second, whether any 
member of the Academy leadership established any barriers that 
prevented victims from reporting misconduct. Now, that was to 
apply to both the current and past individuals who held those 
positions at the Academy. That's what General Barnidge told us.
    So, Secretary Roche, first, did you, in fact, give that 
guidance to Ms. Walker?
    Secretary Roche. Senator, the night of our hearing, where 
it was very clear that we were not communicating as we would 
have liked to, both you and the Chairman tried to help us. We 
listened. We went back to my office that night, and we said we 
wanted to formulate two questions that we would be using to 
judge people on how they dealt with that which they inherited. 
The first question was, ``Did any officer put an additional 
barrier in the way of any woman making a report?'' The second 
question we would ask would be, ``Was there evidence to suggest 
that a commander had enough information so as to recognize that 
he or she had to dig a lot more, do a lot more, because while 
it may not have been crystal clear that there was a problem, 
there were enough indicators that we would expect a commander 
to, in fact, investigate more deeply?''
    We did not give that direction to Ms. Walker. What we asked 
Ms. Walker to do was to continue to provide facts--facts on 
both sides, facts about what happened, who did what, when did 
they do it--but that we would use those questions to pass 
judgment on the officers with respect to their satisfying their 
command responsibilities.
    Senator Levin. Who were you asking the questions to?
    Secretary Roche. We would ask the questions of each of the 
officers involved there.
    Senator Levin. You asked Ms. Walker to ask those two 
questions of all the officers?
    Secretary Roche. No, sir.
    Senator Levin. Who did you ask?
    Secretary Roche. They are questions we would ask of a 
situation.
    Senator Levin. You don't ask questions of a situation. You 
ask questions of a----
    Secretary Roche. Ask of ourselves. In fact, we applied it 
to the Superintendent. We would ask ourselves, with the 
information we had available to us, could we form a judgment 
that the officer involved, in one case, had enough indications 
that there was a significant problem, that that officer should 
have acted or should have called for help or should have done 
something else, as we would any commander in any one of our 
command positions.
    Senator Levin. So that the statement, then, of the Air 
Force Legislative Liaison Chief to my staff that you directed 
Ms. Walker to ask those questions was wrong.
    Secretary Roche. Yes, sir.
    Senator Levin. Okay. Since that was obviously the point of 
our colloquy with you, why not ask Ms. Walker, as part of her 
Working Group, to make an inquiry on those issues? Why are you 
just asking yourself, instead of asking your General Counsel to 
reach her own conclusion and ask those questions?
    Secretary Roche. The General Counsel knew we would be 
asking those questions.
    Senator Levin. How would she know?
    Secretary Roche. Because I told her. We were very open, 
these are the questions that we would use to judge, and that if 
there was any information that could illuminate those questions 
for any of the officers there, that they should be included in 
the Working Group report.
    Senator Levin. But that she should not make an inquiry into 
the responsibility of the leadership herself. That should not 
be included in her Working Group's investigation.
    Secretary Roche. What we wanted was a dispassionate, not 
argumentative, report that we could then follow up with.
    Senator Levin. I know that, but my question----
    Secretary Roche. Because we had a parallel----
    Senator Levin.--my question is----
    Secretary Roche.--we had a parallel process, Senator, that 
was going on----
    Senator Levin. You told your General Counsel, then, to ask 
officers you talked to questions which could allow you to reach 
a conclusion about those questions, but you did not ask her and 
her Working Group to give you a report on those questions 
relative to the leadership at the Academy.
    Secretary Roche. We did not ask her to ask those questions 
of anyone. We said those are the questions that we would be 
asking of the facts as they were assembled, and we would also 
be including results----
    Senator Levin. Then they weren't asked----
    Secretary Roche.--from the----
    Senator Levin.--to assemble facts which could help you 
answer those questions. In other words, since we had this 
colloquy going back and forth, why not ask the Working Group, 
``Hey, leadership has a responsibility here, and if they 
inherited something, they've got a responsibility to change the 
climate, not just accept it.''
    Secretary Roche. Yes, sir.
    Senator Levin. ``We want you to include how did they deal 
with what they inherited in your investigation.'' Instead of 
doing that, you did what you just described, assuming I can 
understand it. Why didn't you ask that?
    Secretary Roche. Effectively, the General Counsel and the 
Working Group were describing events that occurred, and they 
were illuminating those questions across the board.
    Senator Levin. Ms. Walker, yesterday's edition of the 
Colorado Springs Gazette reported that a staff member who 
worked closely with you said that you removed proposed findings 
from your Working Group report that addressed senior official 
involvement in a 2000/2001 review by Air Force headquarters 
sexual assault Working Group into procedures for responding 
into allegations of sexual assault of the Air Force. Do you 
know what I'm referring to?
    Ms. Walker. I know what you're referring to, sir, yes.
    Senator Levin. Are you aware of any draft comments prepared 
for your Working Group report that addressed the efforts of 
this earlier sexual assault Working Group?
    Ms. Walker. I'm sorry, I may not have understood your 
question----
    Senator Levin. Let me repeat it.
    Ms. Walker. Thank you.
    Senator Levin. Even though I'm out of time. I think I've 
probably----
    Chairman Warner. You're allowed to repeat it. Go ahead.
    Senator Levin. Are you aware of any draft comments prepared 
for your Working Group report that addressed the efforts of 
that earlier sexual assault Working Group?
    Ms. Walker. Which earlier sexual assault Working Group?
    Senator Levin. The one that was involved in a review in 
2000 and 2001 by the Air Force headquarters sexual assault 
Working Group? Are you aware of that?
    Ms. Walker. Yes, let me speak to the issue. In my opening 
statement I mentioned that the 2000 inquiry, based on the OSI 
concern about the confidential reporting process that precluded 
them from getting information sufficient to investigate 
assaults, was known to the Working Group and it was documented 
in the report in three different places and footnotes. So I am 
very well aware of that. It was in the report. Now, whether 
there were portions that could have been, at one time, in and 
were out, I don't know.
    This report went through incredible edits. At one point, 
the Secretary said it was too long and we should be more 
succinct. He wanted us to be clear. So we attempted to make it 
shorter. Of course, we got more information, which made it 
longer. So ultimately, I don't think I was able to reduce it 
much.
    But I'm not aware of any findings, to speak to that 
article, that were omitted; I just don't remember any findings 
being omitted. Lots of text was in and out from time to time 
because it was verbose. Being written by a committee, it looked 
like a camel at one point.
    Senator Levin. Things written by this committee are an 
exception to the camel rule, by the way. [Laughter.]
    Chairman Warner. Thank you.
    Senator McCain.
    Senator McCain. I'd just follow up on Senator Levin's 
statement. Here's the news report that he just referred to: 
``Speaking on condition of anonymity, a staff member who worked 
closely with Walker said investigators were told to look into 
the 2000 inquiry and high-level officials' involvement in it. 
They then wrote their findings, only to have Walker remove them 
from the June report.'' Did you or did you not remove those 
findings of the people that were directed to look into the 2000 
inquiry and high-level officers' involvement in it from the 
report? Yes or no?
    Ms. Walker. Senator, to my knowledge the answer would be 
no. We have that in the report itself. Now, it could have been 
edited down. Lots of things were edited down.
    Senator McCain. No, I'm asking whether you had them 
removed. That's the allegation.
    Ms. Walker. I don't remember.
    Senator McCain. You don't remember.
    Ms. Walker. I had lots of things edited down.
    Senator McCain. There's a lot of ``don't remembers'' around 
here. Do you still stand by your statement that the finding 
that there was no systemic--I'm trying to find the language--do 
you still stand by that in your report, that there's no 
systemic----
    Ms. Walker. The conclusion again: there were 43 findings. 
What you're speaking to is the conclusion----
    Senator McCain.--there was no systemic acceptance or 
``institutional avoidance of responsibility.'' Do you stand by 
those words?
    Ms. Walker. Based on the information on the Academy that 
the Working Group had, this was the conclusion derived by the 
staff team based on the evidence they had. If we had the 
evidence today that is additional to that which we had----
    Senator McCain. Do you stand by those----
    Ms. Walker.--we might have changed the conclusion.
    Senator McCain. It might have changed your conclusion?
    Ms. Walker. Yes, it might have changed the conclusion. 
Because we did not have----
    Senator McCain. Might have changed your conclusions------
    Ms. Walker. Might have changed the conclusions----
    Senator McCain.--that there was no systemic----
    Ms. Walker.--not the findings.
    Senator McCain.--acceptance or institutional avoidance of 
responsibility.
    Ms. Walker. Yes.
    Senator McCain. Wow.
    Mr. Chairman, because we're in the ``the dog ate my 
homework'' and ``it didn't happen on my watch'' defense here, 
I'd like for all members to be able to see the statement of Ms. 
Kira Mountjoy-Pepka, who was raped in March 2002, describing 
not only the rape, but the subsequent treatment that she 
received at the Air Force Academy. It's a remarkable statement. 
I had a meeting with her, at her request, in my office. It's 
really a very sad story happening on Secretary Roche's and 
General Jumper's watch.
    Chairman Warner. It will be included in the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator McCain. Just so we can make sure that the record is 
clear, I'd like to completely read, just for a minute, the 
press conference that Secretary Roche and General Jumper held 
on March 26, 2003. Mickey Anderson with the L.A. Times said, 
``Have you in any way reprimanded or disciplined all leaders 
who are responsible; what do you say to the critics who say 
you're going too easy on these people? You just said a second 
ago that these people may have been responsible for.'' 
Secretary Roche replied, ``The current group cannot be held 
responsible for everything that occurred in that 10-year period 
and certainly over a period longer than 10 years. If you're 
going to hold someone accountable for something, they had to 
have full authority to deal with it. To hold these two or three 
people accountable is an easy thing, instead of getting at the 
larger problem. They're leaving their jobs. They are 
professionals who were hurt badly because they clearly feel 
themselves that they should have been clairvoyant in seeing 
things that they have not been able to see.'' Clairvoyant. ``To 
hold someone accountable means there are two sides to a story, 
and they have a side, as well. We've looked at it. We know--
look, under the circumstances, they might have been more 
clairvoyant, they may have been sharper, there may have been a 
survey they should have acted on. But to hold them accountable, 
per se, with what we know now, no. But if the IG finds specific 
evidence that an officer should have done something, not to do 
it, yes.'' Then Mickey Anderson said, ``You're continuing to 
leave some of these people in leadership capacities. Their new 
jobs involve leadership. So I presume you trust them.'' 
Secretary Roche replied, ``First of all, there's no reason not 
to trust them. One is retiring, one is coming to be a special 
assistant here, I'm not sure. I believe one got a meritorious 
service medal. But one of the four, nobody's accused him of 
anything. As a matter of fact, he's well liked. But, again, 
you're trying to get back to a couple of people, saying they're 
the whole problem. They're not the problem. Let's remember, 
cadets commit assaults against cadets.'' That's the statement 
made by Secretary Roche at that remarkable press conference.
    Secretary Roche, it's been reported, on March 31, the very 
afternoon you were cautioned by this committee for failing to 
pursue accountability for sex abuse at the Academy, you granted 
a discharge in lieu of a court martial for a first lieutenant 
Air Force Academy graduate for sexual assault on an airman 
first class. You reportedly chose to do this despite the 
recommendation of several general officers in the chain of 
command for court martials. Do you have anything to say about 
that?
    Secretary Roche. Yes, Senator, I do. That was a case that--
there were people on both sides of the issue--there were many 
of them--there were also general officers on the other side of 
the issue, as well. There is a group called the Air Force 
Personnel Council, which is a dispassionate group of officers 
and civilians, who look at each of these cases and try to make 
sure that we're consistent over a period of time. That group 
has proven to be very useful in case after case, and they made 
a recommendation, with which I agreed. By the way, it was the 
same recommendation that General Jumper agreed to. There were 
general officers on both sides of the issue, Senator.
    Senator McCain. Ms. Walker, in the Fowler Commission 
Report, I want to repeat, ``In June 2003, after completing her 
investigation of sexual assaults at the Academy, Air Force 
General Counsel Mary L. Walker released the report of the 
reporting group. The reporting group covers many aspects of 
cadet life, `it avoids any reference to the responsibility of 
Air Force headquarters for the failure of leadership which 
occurred at the Academy'.'' Then they go on to say, ``The panel 
believes that the Air Force General Counsel attempted to shield 
Air Force headquarters from public criticism by focusing 
exclusively on events at the Academy.'' That's a pretty serious 
charge from a very credible panel. I think you ought to have 
the opportunity to respond to it.
    Ms. Walker. It's absolutely false, and it's based on no 
evidence whatsoever that I'm aware of, and I was shocked when I 
heard it.
    Senator McCain. I was shocked, too.
    Mr. Chairman, could I just mention one thing? At another 
hearing, I asked, ``Why do we need an FAA-certified airplane?'' 
Secretary Roche, ``A tanker has to be an FAA-certified 
airplane, sir, because it goes to lots of places in the 
world.'' I have a letter from the FAA, that said they don't 
need to be FAA certified.
    Secretary Roche. Senator, I was wrong. I mean Global Air 
Traffic Management (GATM) and not FAA certification.
    Senator McCain. I'm sorry that you don't know those simple 
facts, as Secretary of the Air Force, as to whether a tanker 
needs an FAA certification, particularly when you're using it 
as a justification for the increased outrageous cost of the 
tanker.
    Secretary Roche. Senator, you recall, at your hearing, I 
said that I would get back to you for the record, that I did 
question myself on that. And, in fact sir, the history----
    Senator McCain. Again, I have to read from the record: 
Chairman, ``Why do we need an FAA-certified airplane?'' 
Secretary Roche, ``A tanker has to be certified--FAA-certified 
airplane, sir, because it goes to lots of airfields around the 
world in many countries, it flies around the United States, the 
same way we can't fly certain drones over parts of the United 
States, because they're not appropriate.''
    Secretary Roche. I was wrong, sir.
    Senator McCain. End of statement.
    Secretary Roche. I was wrong.
    Senator McCain. You didn't say you would get back to me.
    Secretary Roche. Senator, you recall at the time, you said, 
``Hey, I've flown planes that were not FAA certified lots of 
places.'' I then said, ``I'd like to get back to you.'' In 
fact, I had in mind--what occurs is that we use FAA updates for 
the airplanes. That's why we get them certified by the FAA, 
because they become the research group that tells us when 
there's safety-of-flight issues that have to be updated.
    Senator McCain. This is a small thing, but that's not true 
either. We do not regulate the operation of those aircraft, 
except for airspace limits, and we have not issued a 
certificate to the existing fleet of KC-135 tankers. That's not 
correct, either.
    Mr. Chairman, I have no more questions.
    Chairman Warner. Did you, General Jumper, desire to respond 
to any of the comments made by our distinguished colleague?
    General Jumper. No, Senator. Thank you, sir.
    Chairman Warner. Secretary Roche, anything further?
    Secretary Roche. No, sir, other than to say I was wrong 
about the FAA certification.
    Chairman Warner. Then let's close out on that issue.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman, and thank you to the 
witnesses here today. This subject is not only important to the 
Air Force, it's important to all the Services, and I think that 
should be put on the record.
    General Jumper, you, I presume, personally selected General 
Gilbert to be the commandant.
    General Jumper. No, sir, I didn't. That was my predecessor.
    Senator Reed. So you had no involvement in his selection?
    General Jumper. No, sir, I did not.
    Senator Reed. Now, you became Chief of Staff in September 
of 2001?
    General Jumper. Yes, sir.
    Senator Reed. He became the commandant in 2002, but he had 
been pre-selected by----
    General Jumper. No, sir, he was the commandant during 2001. 
General Ryan selected him. I met him after he became 
commandant. He was commandant certainly by October or November 
of 2001, because I met him in Washington for the first time.
    Senator Reed. I have the report here and it might be a 
mistake in the report, but it has a list of the Academy 
commandants, and General Gilbert is August 2002, it says is his 
date, to 2003. General Jumper is September 2001 to the present.
    General Jumper. 2001.
    Senator Reed. That is a mistake, then?
    General Jumper. Yes, sir, I believe that's a mistake.
    Senator Reed. Then that report should be corrected.
    In your contact with General Gilbert, I presume he must 
have come in for some type of briefing or interview shortly 
after you took over. Is that correct?
    General Jumper. Sir, actually, I think my first contact 
with him was when I visited out there shortly after, but, yes, 
we did have a discussion.
    Senator Reed. He raised none of these issues about climate, 
about anything?
    General Jumper. Actually, sir, early on, when I first met 
him, he had been involved in some of the general-officer 
preparation courses that we have, and he had been also, I 
believe, operated on for a knee problem. In our first 
engagement, he really had not had a chance to become thoroughly 
involved in the situation.
    I did have a conversation early on with General Ryan, my 
predecessor, who told me that when he selected General Gilbert, 
it was to go out there and to deal with an emerging drug 
problem and discipline problems with regard to the neatness in 
the dormitories and the like. That was the charter to Gilbert 
early on.
    Senator Reed. So based on your comments today and your 
response to my question, is that no one----
    General Jumper. No one knew.
    Senator Reed. No one alerted you to the issue of this 
pervasive sexual misconduct.
    General Jumper. That's correct, sir.
    Senator Reed. Secretary Roche, your position is the same, 
that no one----
    Secretary Roche. Senator, for my track record, for better 
or for worse, I act very quickly. General Jumper is the same. 
If someone had told us that there was a pervasive problem--I 
can assure you if we jumped on recruited athletes and we jumped 
on curriculum changes and we worried about drugs and--in fact, 
the one case of the 13-year-old, we found the Academy was 
handling it so badly, we took the case away from them, the 
relationship with the parents, and had it done by our General 
Counsel, immediately, as soon as we found out about it. In 
fact, as soon as Senator Allard let me know about it and I did 
my homework, we sent a group out there to deal with it. We 
would have jumped on that, for a number of reasons. One, I live 
in Annapolis. I have watched what has happened to the Naval 
Academy. I would be very hypersensitive to this issue had it 
come up. When asked, we were told this is a model program, it's 
being used as a benchmark by the other academies.
    Senator Reed. Are you gentlemen familiar with General 
Wagie, who was the dean. Are you familiar with him, General 
Jumper?
    General Jumper. Yes, sir.
    Senator Reed. Over an extended period of time?
    General Jumper. Yes, sir.
    Senator Reed. It appears, in the Fowler Report, that he was 
the key staff person who ran these programs, who collected the 
data. Apparently, in your contact with him, he never made any 
revelation of this situation, although for, I think, upwards of 
16 years, he was seeing mounting evidence of this?
    General Jumper. Over a period of time, sir, he was in 
charge of gathering the surveys, the surveys that, I might add, 
never got to the attention of the leadership of the Air Force. 
For various reasons, the surveys were discounted, and those are 
a matter of record. We are in the process right now of 
replacing him and looking for his replacement. There was some 
concern that the way that his replacement had to be selected 
was from the existing tenured professors at the Air Force 
Academy. The Secretary was not happy with that, and neither was 
I, and we didn't want to undertake a search under those 
constraints. So that was the reason for the delay in taking any 
action with regard to the dean.
    Secretary Roche. May I, Senator?
    Senator Reed. Mr. Secretary, please.
    Secretary Roche. General Wagie is the academic dean. As the 
academic dean, he did not have any disciplinary authority, but 
he certainly had all of these people reporting to him, and he 
was a repository of knowledge. It is clear the superintendent 
let down his colleagues. We are now forming the search 
committee. We're going to ask that one of the other academies, 
if possible, provide someone to that search committee. We have 
to work only with permanent professors until the law is 
changed. The committee has been very good in trying to see if 
they can move that law.
    One of the concerns about just pulling him out would be not 
having an academic dean and concerns as to how the issue of 
accreditation would be handled by the Western States, who do 
the accreditation of the university.
    Senator Reed. Mr. Secretary and General Jumper, none of 
these issues are easy, obviously, but it seems to me that this 
is contrary to your previous assertion, Mr. Secretary, that you 
haven't taken dramatic action, that, as I read the Fowler 
Report, the one person at the Academy that for 16 years 
discounted these issues, these surveys--I can't think of anyone 
at that level who would claim that they're just invalid surveys 
and not go out and fix the surveys.
    Secretary Roche. I agree.
    Senator Reed. Yet he remains on post, on duty, because 
you're worried about accreditation. Again, I think part of--
this is not the key point--but part of the difficulty we have 
is that the urgency comes, but it comes after--too many days 
have passed.
    But I don't think we'll get to the bottom of this here, 
because this is not exactly a forum that's going to discover 
precisely what was done and when it was done. This is also an 
opportunity to raise questions, but I don't think it'll provide 
any definitive answers.
    I will conclude where I began. The esteem of the Academy, 
the Air Force Academy, is something that's critical to all 
Americans and to every service member, and it's been severely 
challenged by these incidents.
    Thank you, gentlemen and Ms. Walker.
    Chairman Warner. Senator Allard, you're next, but if you'd 
allow me just to make an observation.
    Yesterday, I was visited, General Jumper, by some venerable 
Virginia Military Institute (VMI) graduates, of many years 
past, and I was reminded of the enormous pride of the State of 
Virginia, in having VMI in our State. I know, Senator Allard, 
how the people of Colorado have an enormous pride in the Air 
Force Academy, being a part of your State. I hope they 
appreciate the efforts that you have made from the very 
beginning in this case to try and ascertain what the problem 
was and how best you and others can rectify it. The people of 
Colorado would want you to do that, and I thank you for the 
service that you've rendered thus far.
    Senator Allard. Thank you, Mr. Chairman. You're right, the 
people of Colorado take tremendous pride in the Air Force 
Academy. If you visit Colorado, one of the things that you 
visit is the Air Force Academy, in addition to the mountains 
and everything else. So we do take good pride, and we're 
obviously interested in making sure that this is an institution 
of high quality. Like a lot of Members in this institution, the 
U.S. Senate, I help select individuals who attend that Academy. 
Like all of you, we want to make sure that once we've made 
those recommendations, that they get a good-quality education 
and a type of education that will allow them to serve the 
country with distinction.
    Chairman Warner. I wish I could take credit for selecting 
General Jumper to go to VMI, but I didn't. [Laughter.]
    You're a distinguished graduate of that institution.
    General Jumper. Thank you, sir.
    Chairman Warner. You hold it dear to your heart.
    General Jumper. Thank you, Mr. Chairman.
    Senator Allard. I just have a couple of brief questions 
about the current leadership, and then I'll get into some other 
questions in more detail. I was glad to hear, Mr. Secretary, 
that you'd just been out to the Air Force Academy. General 
Rosa's been at the Academy now for 3 short months. How would 
you assess his performance so far? Quickly, if you would, 
please.
    Secretary Roche. He was spectacular. We spent a long time 
interviewing candidates. I think you know each of the 
candidates has been hand-selected by General Jumper and myself. 
Both he and General Weida had prior experience in an academic 
institution. They are both doing spectacularly well. Our 
concern is that they not flag.
    Senator Allard. Thank you. Okay, now, General Weida, you 
think his performance has been as admirable?
    Secretary Roche. Absolutely.
    Senator Allard. Okay.
    Ms. Walker, you testified before the Fowler Commission, on 
June 23, 2003, on Air Force's Working Group's report. During 
that opening hearing, you stated that, ``I felt like the 
issue''--and you were referring to sexual assaults--
``personally was overblown and inaccurately portrayed.'' Is 
this still your belief?
    Ms. Walker. That was a specific question directed to me 
regarding the press articles on the issues. They asked me if I 
believed the issues had been fairly portrayed in the press. 
Remember, this was in June, before the press had--basically, 
just received our report, and the early press reports were 
really ones that involved a lot of speculation. I said, at the 
time, I did not believe those articles had fairly portrayed the 
issues. I was hoping that, in light of the report and the full 
analysis, they would now have the full----
    Senator Allard. Let me ask you this question, then.
    Ms. Walker. Yes.
    Senator Allard. Do you feel, now, that the issue of sexual 
assaults has been overblown and inaccurately portrayed?
    Ms. Walker. The way you phrase it, sir, the answer would be 
no. I don't believe the issue of sexual assault at the Academy 
has been overblown.
    Senator Allard. I'm just trying----
    Ms. Walker. I believe some of the articles have not fairly 
set forth all of the parameters of the issues.
    Senator Allard. But, I mean, we've had two surveys. You 
have the one that was done by the Department of Defense 
Inspector General, and said that there was definitely a problem 
there----indicates there's a problem.
    Ms. Walker. Oh, absolutely. Right. We had one.
    Senator Allard. You just now have another report coming out 
that was just put out by the Air Force, says there's a problem.
    Ms. Walker. There's no question----
    Senator Allard. My question, again, is, do you feel like 
the issue of sexual assaults has been overblown or inaccurately 
portrayed?
    Ms. Walker. Okay. The answer to that would be no, it has 
not been overblown. But you were asking me about a question to 
which I directed my answer----
    Senator Allard. Initially, I asked you a direct quote. You 
qualified it.
    Ms. Walker. Right.
    Senator Allard. I came back with a direct question.
    Ms. Walker. Yes.
    Senator Allard. So I really wanted to know what your 
attitude was today.
    Ms. Walker. No, absolutely not.
    Senator Allard. That was the purpose of my question.
    Ms. Walker. We have a very big problem, and it isn't one 
that's solved with just one report or one study. It will take 
time and energy of all the leaders to make a real change in the 
institution that is necessary.
    Senator Allard. According to the Air Force's Working Group 
report, a number of cadets--and this is for you, Ms. Walker--
who were suspected of committing a sexual assault graduated 
from the Academy over the last 10 years. Do you have any idea 
how many of those cadets went on to serve in the Air Force?
    Ms. Walker. These are just suspects. They are not those who 
were convicted or found to be----
    Senator Allard. Suspected of committing a sexual assault, 
that's correct.
    Ms. Walker. Right. I don't have that percentage, sir, but 
we could do that.
    Senator Allard. Actually, I'm not looking for percentages. 
I'm just looking for an actual number.
    Ms. Walker. Right. I don't have that at my command, but we 
could provide that to you, because we would know all of the 
disposition on the cases where there was a subject and there 
was an investigation. Absolutely.
    Senator Allard. Sure. I think that would help us. We'd like 
to have that as part of the committee record.
    Ms. Walker. Okay, we'll be happy to provide that.
    [The information referred to follows:]

    Eighteen cadets who were alleged to have committed sexual assaults 
between January 1, 1993 and December 31, 2002, (the period considered 
by the Working Group) have graduated from the Academy and were 
commissioned. (The report of the Working Group, based on information 
from an Academy database, indicated that 19 suspects had graduated. 
Review of that information after the report was published revealed that 
one of those suspect's records had been coded erroneously and the 
suspect had in fact been disenrolled.) Of the 18, one was cross-
commissioned into the Army and remains on active duty in the Army. One, 
who had already been commissioned at the time the allegation was made, 
received a letter of reprimand and has now separated from the Air 
Force. Another is now deceased. Of the 15 currently on active duty in 
the Air Force, one is still under investigation for the alleged 
assault, in one case the allegation against the suspect was recanted, 
and one was acquitted at court-martial. There are ongoing DOD and Air 
Force Inspector General investigations. In addition, Secretary Roche 
has asked the Air Force IG to examine the commissioning suitability 
process in these cases. After completion of these investigations, 
Secretary Roche will examine the findings to determine what follow-on 
steps may be appropriate.

    Senator Allard. Then, of those that went on to serve in the 
Air Force, also, how many are still serving in the Air Force 
would be helpful.
    Ms. Walker. Realizing some were found innocent, if they 
were, and then----
    Senator Allard. Then you can put a qualifying note on them.
    Ms. Walker. Exactly.
    Senator Allard. Yes, that would be fine.
    You mentioned, in your opening comment, about the 13-year-
old who had been raped at a summer camp.
    Secretary Roche. Assaulted, sir. Assaulted, not raped.
    Senator Allard. Assaulted, you're right. Yes, and 
eventually there was a guilty plea of consensual sodomy, to be 
more specific.
    Secretary Roche. Yes, sir.
    Senator Allard. Okay. That was an Article 32 hearing. The 
cadet in that case had 60 days in jail, dishonorable discharge, 
then had to pay $120,000. Now, the girl, the 13-year-old 
victim, was never allowed to testify at the hearing. Why was 
that?
    Secretary Roche. Senator, I don't know. It's the issue that 
I brought up earlier, of a case that we thought was not handled 
well by the judge advocates, that the parents were ignored, 
when they should not have been ignored, that a deal--whatever 
the proper word is--between the prosecution and defense was 
made, without the prosecution dealing with the parents to see 
how they would react. I found it very disturbing. I also found 
it very disturbing that the parents were just surprised by this 
and that there were some other senses that they had in terms of 
how people in their neighborhood and the girl's school had been 
dealt with. So I directed the General Counsel to dispatch 
lawyers out there and to take over the handling of the matter, 
but it was after the court martial had concluded.
    Senator Allard. It's my understanding now that the Air 
Force lawyers have not resolved the issues of that rape with 
the family. Are you aware of that?
    Secretary Roche. There are claims that the family is 
making, and they're being discussed and debated. Yes, sir.
    Senator Allard. Yes. I'm concerned about how these 
discussions are going, but I'm glad to hear that it's on your 
radar and that you're watching it very closely.
    Secretary Roche. Oh, yes, sir.
    Senator Allard. The Fowler Report mentioned four specific 
Academy officers, three of which have been relieved of their 
command at the Academy, and the only remaining officer is 
General Wagie. It's already been brought out about how involved 
he was in being a filter through all these reports. I'm not 
sure that I got a clear response from you, and my question is, 
why is he still at the Academy?
    Secretary Roche. Senator, it is my judgment that because 
he's the academic dean, and the Academy is also a university, 
and there are accreditation issues, that to pull him and have 
an absence of an academic dean for a long period of time was, 
in the midst of all the other turmoil, not the right thing to 
do, that although he was the individual to whom the center 
reported and who was responsible for the surveys, he was not in 
the disciplinary chain. He did nothing to or had any 
interaction with the young women who filed complaints, that we 
had to replace him as soon as possible, and we are doing that. 
He will retire as soon as we can get a replacement. We have 
tried hard to see if we can change the law so we could have a 
broader look, including a possibility of a civilian dean. The 
law now states we must take a permanent professor. Sir, you 
recall we have relieved one permanent professor of his job, so 
we're trying to be careful who we bring in behind General 
Wagie, but he'll be retired by the early spring.
    Senator Allard. Will there be any further discipline, other 
than just a retirement?
    Secretary Roche. When he retires, Senator, then we have to 
make a judgment as to whether he served properly in grade, and 
we'll made that judgment at that time.
    Senator Allard. You mentioned the difficulty in dismissing 
permanent professors at the Academy and ran across that with 
the English professor. You talked about the Monty Python skits 
that were going on there. Can you share some of your views 
about permanent professors at the Academy?
    Secretary Roche. Yes, sir. In the Agenda for Change, we 
have taken steps within our bounds of what we can do, in terms 
of how long they would be expected to serve. If they serve 
beyond that, it has to be with a waiver given by the 
headquarters of the Air Force. We want the Secretary, the Chief 
of Staff, to be very much involved in the choice of permanent 
professors so that we know what kind of people we have there. 
We have also said that department heads who are head of a 
department for these extended periods of time is not healthy, 
that we want turnover there. So we've also made a number of 
changes within the law on how these people rotate and what they 
do.
    General Jumper. Also, sir, if I might add, the lower-
ranking professors come from the active-duty Air Force, they 
come in and out, and they bring the perspective of the current 
Air Force, contemporary Air Force, to the Academy.
    Senator Allard. Do you feel that we need to change the law 
in regard to who we put in as the dean of the university?
    Secretary Roche. Oh, Senator, absolutely.
    Senator Allard. We need to have a bigger pool, it seems to 
me.
    Secretary Roche. Yes, sir. For instance, we don't know why 
we can't choose a civilian.
    Senator Allard. Yes.
    Secretary Roche. To the best of my knowledge, the academic 
dean at the Naval Academy is a civilian. I don't see why we 
can't do that if there's a particular civilian who meets the 
qualifications as of the quality. But there may be another 
officer, another general officer, at Maxwell or somewhere else, 
who, while not a permanent professor, would be a spectacular 
academic dean and would, in fact, be someone that the 
accreditation group would say is fine.
    Senator Allard. If we would get the law changed in this 
session of Congress, does that give you time enough to look 
beyond just permanent professors?
    Secretary Roche. Yes, sir. What I've directed to happen is, 
we are going to start screening candidates among the permanent 
professors. We believe that between now and the next month or 
two, if you're going to be able to make a change in the law, 
it'll happen, and then, at that time, we will bring in other 
candidates, as well. If we can't get it changed this year, then 
I'm afraid we're going to go one more round with one of the 
permanent professors.
    Senator Allard. Mr. Chairman, I see my time's expired.
    Chairman Warner. Senator, in the discussions you've had 
with me and our distinguished ranking member, I think we're 
looking at trying to get it in as part of the legislative 
package with the $87 billion supplemental appropriation, aren't 
we? Or in the Defense Authorization bill.
    Senator Allard. Or the conference report. It would be on 
the conference report.
    Chairman Warner. And/or both. Because we regard it of 
tremendous important, this position.
    Secretary Roche. Mr. Chairman, there's two things you're 
doing for us that we really appreciate. One is permanent 
professors, and the other is to change the rules on the board 
of visitors to make the board of visitors a much more energetic 
and much more focused group, and we appreciate both of those.
    Senator Allard. Mr. Chairman, I'm on the board.
    Chairman Warner. Are you familiar with that provision?
    Senator Allard. I agree wholeheartedly with that provision, 
as far as the board of visitors----
    Chairman Warner. Do we need Congress to energize a board?
    Senator Allard. Yes.
    Chairman Warner. Wait a minute. You're on some interesting 
grounds there. I really want to do everything we can to help 
you on that issue. I don't mean to treat it lightly. Because, 
the Fowler Panel exhibited some real courage to stand up here 
before the Congress of the United States in the face of one our 
colleagues, who, in the course of the hearing, was a member of 
that board.
    Senator Allard. Right. Part of the recommendations is to 
reduce the number of members on that board, for that very 
reason, who are in Congress.
    Chairman Warner. I think the board is a very important 
institution. I know that when I was privileged to have your 
position, Mr. Secretary, I labored long and hard over the 
recommendations for membership on that board.
    Anyway, occasionally I've had the opportunity to go on the 
Naval Academy board, based on my modest association with the 
Navy and the Marines over the years. I just felt I didn't have 
the time to devote to it here in Congress.
    Secretary Roche. It's an issue of time.
    Chairman Warner. So we'll work on both provisions.
    Senator Allard. Thank you, Mr. Chairman.
    Chairman Warner. Do you have suggested language with regard 
to the board?
    Secretary Roche. I think we've already worked with your 
committee on that, sir, this year.
    Chairman Warner. But you're comfortable with the language 
we're looking at with regard to the----
    Secretary Roche. Yes, sir.
    Chairman Warner. I thank our colleague from Maine for the 
time that I took for those questions.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Warner. Thank you for the many hours that you've 
spent on this case, too.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Warner. This is another one of your agenda items. 
You've spent a lot of time on it. You've been to all the 
meetings, just about, in my office on this question.
    Senator Collins. I appreciate your leadership, and that of 
Senator Allard, on this very important matter.
    Mr. Secretary, you have repeatedly said that if someone had 
told you there was a pervasive problem, you would have acted. 
You've said that you would have had to have been clairvoyant to 
know that these problems existed. You've also testified, at the 
March hearing, that shortly after you became Secretary, you and 
General Jumper started to spend, ``more and more of our time 
looking at the Air Force Academy. We spent a year looking at 
the honor system.'' I'm wondering, with that kind of in-depth 
review, how you missed the many indications and reports of 
problems with sexual assault at the Academy.
    There is ample evidence that reveals that sexual misconduct 
problems at the Academy have existed, at a minimum, since 1993. 
For example, there are three different GAO reports--one issued 
in 1993, one in 1994, and one in 1995--which identify issues of 
sexual harassment at the Academy. In 1996, the Air Force 
Surgeon General notified the Air Force Chief of Staff of 
serious sexual misconduct at the Academy. In 1997, a team of 
lawyers at Air Force headquarters recommended changes in the 
Academy's sexual assault reporting procedures. In 1998, the 
Chief of Sexual Assault Services provided a briefing to senior 
Academy leadership, which began with a slide titled ``We have a 
problem,'' which referred to Academy statistics on sexual 
assaults.
    There were numerous cadet climate surveys in which cadets 
identified problems with sexual assault. In 1998, 22 cadets 
said that they had been sexually assaulted. In 2000, 17 
reported that they had been sexually assaulted. In 2001, 167 
cadets indicated that they were sexually assaulted. In 2002, 80 
cadets said that they had been sexually assaulted. In 2003, 
interestingly, they were not asked the question.
    You were sworn in as Secretary, I believe, on June 1, 2001. 
If you did an in-depth review of the Academy with General 
Jumper, how did all of these reports, year after year, going 
back to 1993, from credible sources--such as the General 
Accounting Office, such as the Surgeon General, such as the 
Chief of Sexual Assault Services, such as the cadet surveys, 
which, even if you argue with some of the statistics, they 
clearly show a problem--how could you miss this?
    Secretary Roche. Senator, I understand your question. There 
was no process in the Air Force for any of that material to 
come to headquarters. When we would go out to the Academy to go 
after an issue like the honor code or something else, we were 
triggered by something, either a press article or, in the case 
of the honor code, by the study that General Ryan and Whit 
Peters had asked General Carns to perform. None of these things 
came to our attention.
    The 1996 material from the Surgeon General, for instance, I 
saw for the very first time in mid August of this year. We were 
not aware of it. The GAO reports from the early 1990s, I didn't 
go back to ask if there were GAO reports, nor did General 
Jumper. You'll recall, ma'am, not as an excuse, but there was 
also September 11 and a war in Afghanistan, other things.
    When something was brought to our attention, we went and 
addressed it. When the question was asked of people, because of 
my familiarity with the Naval Academy, ``What is the gender 
climate like,'' we got the answer that this was a model program 
that had been put in in 1993, it was addressing issues, and 
there was no sense that there was anything different than that, 
when, in fact, it certainly was. We were never told about 
surveys, et cetera.
    What I can say, Senator, is, the Air Force should have put 
in place mechanisms of transparency to the headquarters of what 
was going on in the Academy. Right now, they exist. This can 
never happen again.
    Senator Collins. Ms. Walker, my question to you is very 
similar. In your report--and Senator McCain has quoted this--
you concluded that the Working Group did not find, ``systemic 
acceptance of sexual assault at the Academy, institutional 
avoidance of responsibility, or systemic maltreatment of cadets 
who report sexual assault.''
    I don't know how you could have reached that conclusion if 
you did even a cursory review of the cadet surveys and of the 
many, many reports and other evidence from credible sources 
that I outlined in my question for Secretary Roche.
    Ms. Walker. When the staff brought me that conclusion, 
toward the middle of the report-writing, I asked the question, 
``Given what we found, how can we support this?'' Basically 
what I was told in the presentation of the evidence was--and I 
actually think Ms. Fowler's comments in her testimony, as 
opposed to the report, support this--that this was a case of 
good people, well-intentioned, realizing there were issues, 
addressing them, putting programs in place, putting training in 
place, meeting with the female cadets, and believing they were 
addressing the issue. But still, over time, there have been 
issues of sexual harassment that haven't gone away, and there 
have been sexual assaults that continue to happen. So we 
believed that there were issues that had to be addressed that 
were not working, despite the well-intentioned programs. But 
they did not, as a matter of course, accept sexual assault. 
There was not an avoidance of the issue. Every single time we 
found there was an issue, they addressed it, they thought they 
had it fixed.
    I think that that's part of the problem. They really did 
think they had it fixed, but they didn't. As we looked at the 
10-year period, it continued, such that they hadn't had it 
fixed. But I will tell you today, based on the information that 
we've received, we might not have had those conclusions in 
place. As I said to Senator McCain, I believe the conclusions 
would have been different. But based on the information we had, 
and if you look at the leadership section in the back of the 
report, you will see a continued parade of leaders who 
recognized there were issues and attempted to deal with them. 
That's what we meant by there was no avoidance of the issue. 
They stepped up to the plate. They just weren't able to 
effectively fix it.
    Secretary Roche. May I, Senator? May I answer that?
    Senator Collins. Certainly.
    Secretary Roche. The part that shocked me most when I read 
the 1996 material, now last month, was that I could no longer, 
in any way, agree with two parts of the general assessment, 
that there was no systematic acceptance of sexual assault 
because the top leadership of the Air Force knew something and 
didn't do anything about it. I don't know all the details. All 
I know is that there was something that was here in Washington, 
and I don't understand why they didn't jump on it.
    No institutional avoidance of responsibility--again, I 
would have to agree with you, once you see that, you are 
compelled to go out and start to dig. I wish someone had 
provided that to me in June 2001, or at any other time, or to 
General Jumper. We are of the same personality. We would have 
attacked it.
    Senator Collins. I can't think of a clearer pattern of 
avoidance of institutional responsibility than to ignore this 
many reports going back a decade. Because these aren't 
isolated. They're year after year, from highly credible 
sources.
    Secretary Roche. In the surveys, we wish the surveys had 
been sent to the headquarters. We wish there was something at 
the headquarters that gathered them. All I can tell you is 
that, now and in the future, that sort of a situation where 
things are kept close at the Academy, can't happen.
    Senator Collins. General Jumper, in the executive summary 
of the Fowler Report, there is a conclusion that reads as 
follows, ``Since at least 1993, the highest levels of Air Force 
leadership have known of serious sexual misconduct problems at 
the Academy.'' Do you agree with that conclusion?
    General Jumper. I do.
    Senator Collins. Then why didn't anyone do anything about 
it?
    General Jumper. Senator, I think people thought they were 
doing something. That's when the CASIE system was started, in 
1993, by General Hosmer. That was set up and was touted as a 
model program. Up until last year, we had other people coming 
to us to use that as an example. As a matter fact, that 
answered the 1993 GAO survey. Then, for a period of time, we 
thought we had, the Air Force Academy thought it had, and the 
leadership thought it had, a model program that was in place 
out there. The fact that these surveys that should have come 
forward didn't come forward, there's no excuse for that, 
Senator. There's no excuse. We are jumping on that problem, and 
it's not going to happen again. The fact that the 
superintendent of the Air Force Academy didn't properly 
communicate with the Secretary and the Chief of Staff of the 
Air Force on these issues is, there is no excuse for that.
    So our Agenda for Change is one that we hope will put in 
the changes that will effect lasting and enduring change so 
that these sets of conditions cannot be repeated, and that the 
oversight for the Air Force Academy is in place and will remain 
in place.
    Secretary Roche. Senator, if I, again, may?
    Senator Collins. Would you indulge me with one final 
question?
    Secretary Roche. May I make a comment, ma'am?
    Senator Collins. Certainly.
    Secretary Roche. Very quickly. It is that the standards----
    Chairman Warner. Let's have the witness--this a very 
important inquiry--give adequate time for their responses.
    Senator Collins. Right.
    Chairman Warner. Had you finished, General Jumper?
    General Jumper. Yes, sir, I had.
    Chairman Warner. Mr. Secretary?
    Secretary Roche. The standard that I raised earlier of, did 
someone put a barrier or was there information that would lead 
a commander to make a different decision, is the standard that 
General Jumper and I will use to judge each of these officers. 
The basis for that will be the work done by the Working Group 
plus the work done by the IG staff, because quite often, 
Senator, these are issues of, ``How do you feel about a 
commander's performance? Did the commander live up to the 
standards we expect of our other commanders?'' In the case of 
the superintendent, for instance, a three-star general is 
exactly the rank of the officer that was running the war in 
Iraq. We demand enormous things of these people. Given the 
evidence, we would have expected them to have acted and him to 
have acted.
    Senator Collins. Mr. Chairman, I know my time has expired. 
Could I ask just one more question?
    Chairman Warner. Go ahead.
    Senator Collins. Thank you.
    Ms. Walker, are you aware of the survey of the female 
cadets of the class of 2003 that was conducted by the Inspector 
General?
    Ms. Walker. Yes, I'm aware of that.
    Senator Collins. What was your reaction to the statistics 
that showed that nearly 12 percent of the women in the class of 
2003 reported that they were victims of either rape or 
attempted rape, and I believe it was 24 percent reported that 
they were victims of sexual assault or attempted sexual 
assault? Did that cause you to rethink your conclusion that 
there was not a systemic problem?
    Ms. Walker. Let me just try to take this in pieces. First 
of all, any numbers like that would be of concern. The numbers 
that the IG found in his survey were higher than the numbers 
that we had had, but not terribly inconsistent with them. I 
think the percentages that were showing up in the surveys were 
15 percent, 16 percent, something like that. So they were not 
totally dissimilar than the survey numbers we had.
    But we had a couple of factors here that caused us to not 
fully understand or trust the data. First of all, the 
definition of sexual assault in use at the Academy included 
those things which were not sexual assault.
    Senator Collins. Then limit your response to the definition 
of rape and attempted rape, which is the legal definition. It's 
still almost 12 percent.
    Ms. Walker. I'm not minimizing the fact that there is a 
problem at the Academy dealing with sexual assault, and I've 
said that. There is a problem, and leadership is dealing with 
it. We recognized that in the report, that there is problem, 
and that has to be dealt with.
    So, yes, we were concerned. We were concerned the whole 
time we were doing this report. But, again, the fact that the 
Academy recognized they had an issue and were trying to deal 
with it is what we were trying to say, that they weren't 
avoiding it. They were putting things in place to deal with it. 
When they thought they had dealt with it, what we saw, over 
time, was that the problem wasn't going away. There were still 
issues of harassment. At the end, they weren't functionally 
working well together, so the victims were not being treated as 
they should be, and that's why we made the recommendations that 
we did, based on the findings that we were able to make.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Warner. Have you had enough time?
    Senator Collins. I have. Thank you.
    Chairman Warner. I try, as a chairman, to listen very 
carefully. If I heard you, in response to this important 
question, you said, ``I'm not in any way trying to deny there 
is''--that's present tense--``a problem at the Air Force 
Academy.'' Now, I think the Secretary started with a very 
dramatic opening sentence, ``Tonight, there is no problem.'' 
Wait a minute. Am I correct? I want to get this right.
    This hearing is being followed, and let's get--between the 
two of you, sort out your----
    Secretary Roche. If I may, sir?
    Chairman Warner. Yes.
    Secretary Roche. What I said was, the young woman cadet is 
safe tonight at the Air Force Academy.
    Chairman Warner. That connotes to me there isn't a problem, 
and she can freely move around the halls and enjoy the 
Academy's benefits.
    Secretary Roche. She can, but she may wind up at a party 
somewhere and still have a problem. She could be in a parking 
lot and we not be able to cover it. It doesn't mean that it's a 
100-percent guarantee; it means all of the things we can think 
of to accord her protections that she should have are now in 
place, including having officers and enlisted and other cadets 
doing roving patrols of the dormitory 24 hours a day, 7 days a 
week, which is putting enough of a strain on the Academy that 
we are going to have to assign more billets out there. All of 
the things to protect them. Any barriers to reporting have been 
removed. So, on that basis, a woman is safe.
    However, the attitudes of our cadets are something of which 
we are not proud. We are not proud that 20 percent of the males 
believe that women should not be at the Air Force Academy. We 
are not proud that only 10 percent of the women in one class 
believe that they would report an assault, because they might 
be ostracized. We're not proud of that at all, nor is the new 
team, but we are working at it, and working at it, and working 
at it, and we'll continue to do so, Senator.
    Chairman Warner. That's important. Then that clarifies, I 
believe, your comment.
    Ms. Walker. That's really what I was speaking to, sir. I 
believe that what needs to be done is being done, but I also 
don't believe that we can claim victory yet, because it's going 
to take some time to see this play out.
    Chairman Warner. I want to be careful with this ``claim 
victory.'' So let's work on it.
    I think I get the message. I hope that you're doing 
everything you can. I don't want to interrupt the next Senator, 
but I guess I leave with a heaviness of heart that this 
institution has had to employ such measures as guards, and 
patrols and frequent checks. I hope there's joy left.
    We'll return to that at some point in time.
    Senator Clinton has spent a lot of time on this issue and 
attended all of our hearings. Senator, it is your turn.
    Senator Clinton. Thank you, Mr. Chairman. I apologize that 
other commitments required me to leave this very important 
hearing. I have tried to follow, from a distance, the questions 
that have been asked, and obviously I know that our panel 
appreciates the extraordinary and profound concern and sadness 
that I think all of us feel about this situation.
    I don't want to go over already plowed ground, but I wanted 
to ask a few specific questions, which I don't believe have 
been addressed. It is more in the terms of going forward.
    We heard, last week, from the panel that reported to this 
committee, that, in their report, they are critical of the 
effective elimination of confidential reporting, as called for 
in the Agenda for Change. The panel found that the Agenda for 
Change's elimination of confidential reporting, ``creates a 
significant risk that victims will not come forward at all, 
and, thus, lose the benefits afforded by professional 
counseling,'' to say nothing of the issues about reporting 
assaults and improper conduct. In light of the panel report, 
Mr. Secretary and General, will you reconsider the value of 
confidential reporting?
    Secretary Roche. Yes, ma'am. One of the wonderful things 
about that panel is we were able to have a dialogue, and they 
were as torn as we between privacy and confidentiality, between 
the fact that we were developing aspiring officers, who have an 
obligation to tell us when there's a felon in their midst. The 
work that they came up with, the notion of the psychotherapist 
who can provide counseling and not be part of the chain of 
command, so that we can worry about a particular cadet who has 
gone through trauma and deal with the trauma of that cadet and 
then try to bring her to the chain of command, where we can 
then avoid the problems of the past, where nothing happened, or 
even if we can do such things. One of their witnesses testified 
that there's not an inherent conflict if you think of it on a 
temporal basis. If, right away, you do what you have to do, in 
terms of rape kits, et cetera, but you tell the young woman, 
``Look, we're not going to go forward until you're okay and 
you're ready, but should you choose to go forward, we don't 
want to be precluded in prosecution because we don't have 
evidence.'' Ms. Fowler and I have spent hours trying to think 
that through.
    One of the things that General Jumper and I are doing is 
we're going to look at the suggestions there, not just for the 
Air Force Academy, because if it's good enough for one of those 
young women, it's good enough for one of our young women at 
Kunsan Air Base. Do it for both.
    Senator Allard. Would the Senator yield on that?
    Senator Clinton. Yes.
    Senator Allard. That's really an important issue, and 
visiting with the chairman on the Fowler Commission, she had 
indicated that this is something that the commission really 
struggled with. Finally they went to the Naval Academy, and my 
understanding is that this is the process that's currently 
followed in the Naval Academy, or something very close to it, 
where they actually have a turn in the road here. You can 
either go with a public disclosure or go with the publicity of 
going to the psychotherapist and the patient-doctor 
relationship there, keep it private if they decide to do that. 
So your response to her question is that, yes, you think there 
is a possible credible solution.
    Secretary Roche. We want to work at that, Senator, and we 
think there is a way to do it, but we don't want to do it just 
for the Air Force Academy. We want to do it for the whole Air 
Force.
    Senator Allard. Senator, that's a very important question 
that Senator Clinton brought up, and thank you for letting me 
interrupt you on that.
    Chairman Warner. Your time will not be docked for the 
colloquy, without objection.
    Senator Clinton. Thank you, Mr. Chairman. I appreciate my 
colleague, Senator Allard's, intervention there, because no one 
has worked harder on this issue. I think, in addition to 
Annapolis, I believe West Point has a similar approach. So I 
think that it is important that the Agenda for Change be 
changed in light of the panel's findings and further 
consultation with experts.
    I think it's also important to look at the Agenda for 
Change with respect to the panel's conclusion that it did not 
address the need for permanent, consistent oversight by Air 
Force headquarter leadership, as well as external oversight by 
the Academy's board of visitors. In fact, I think Chairman 
Fowler made a very telling point when she said that oftentimes 
the members of the board of visitors didn't attend meetings and 
they weren't involved. It did not have either the prestige or 
the participation that one would expect.
    So have you done any self-examination about what better 
oversight and leadership can be provided by both headquarters 
and the board of visitors?
    Secretary Roche. Yes, ma'am. Already, we have in place a 
mechanism to provide the oversight of the Academy that has a 
senior-level group, which consists of the Vice Chief of Staff 
of the Air Force, on the uniformed side, the Assistant 
Secretary of the Air Force for Manpower, to represent me, the 
General Counsel, and the superintendent. There is a working 
group below that. We put a 1-year sunset clause on it in order 
to get everybody to get everything done from these panels in 1 
year. But it's our intention, and the Fowler Report commends us 
for this and recommends that we institutionalize and make it 
permanent. We will do so, so that we don't have a situation 
like the one that Senator Collins raised earlier, of things 
never coming up to senior-level attention.
    Senator Clinton. Finally, Secretary Roche, I have been 
discussing with you the importance of mentors and role models 
in setting acceptable standards of conduct for cadets. In their 
report, the panel includes several recommendations for better 
training of cadets. It recommends that the staff and faculty 
place a renewed emphasis on education, on character education, 
on the encouragement of responsible consumption of alcohol by 
cadets, and that, overall, the panel found that the Agenda for 
Change did not go far enough to institute enduring permanent 
changes in culture and gender climate at the Academy. Now, I 
assume you also agree that the Agenda for Change has not gone 
far enough in that direction.
    Secretary Roche. It was the best that Jumper and Roche 
could do in 90 days. We were very willing to have it expanded, 
to be challenged. In fact, the cadets have given us some good 
ideas, and we will follow up with each of those items, because 
we think there is more to do.
    We have some good news, finally. The selection board for 
Air Officers Commanding Program this time at the Academy picked 
the best, and the system provided them, instead of giving them 
50 reasons why it can't happen. We are sending people off to 
school. One cadet suggested we were not teaching the Uniform 
Code of Military Justice early enough to cadets. We now have 
changed that, and early on when they get there in this fall 
semester we'll be doing a lot of education about the Uniform 
Code of Military Justice.
    Through all this, Senator, an interesting point to the 
chairman about joy, is that the cadets are now feeling a heck 
of a lot better about themselves and the place, and they're 
actually starting to have some fun, because they know what the 
boundaries are, they know how serious we are, and they're 
making the point that the morale has improved dramatically this 
year, as compared to this point last year.
    General Jumper. Senator, if I might pile on, let me just 
say, once again, that there's no belief on the part of this set 
of leaders that this is a short-term problem with a short-term 
solution. So that the character and the integrity issues, the 
honor code issues have to be dealt with over a period of time. 
This is going to be a subject of intense education through 
engagement by our own four-star-level officers with the cadets, 
personally. We've already begun that, and it's going to take 
awhile.
    Senator Clinton. Mr. Chairman, I know my time is expired.
    Chairman Warner. Senator, if you want to take another 
minute or two, please.
    Senator Clinton. I think this might also be useful. I've 
spoken to the Secretary about this and will certainly try to 
provide some names of people who could be helpful. But I think 
it would be useful to invite some outsiders, perhaps, to 
address the cadets on some of these issues, and I would 
particularly recommend some women leaders. I think of my 
colleagues, Senator Collins, Senator Dole, Senator Hutchison, 
Senator Landrieu, others, people who have served on this 
committee, people who have insight into the code and the 
standards of the military. I really, having now immersed myself 
in the information, and particularly the impressive work of the 
panel that we heard, there's a real disconnect on the part of 
many of these young men between the profession and the Service 
that they are pledging their lives to and the expectations that 
the leadership of that Service has, but, even more, the 
expectations of the leadership of their country and the broader 
citizenry has.
    I think it might be useful to have some real airing 
sessions, perhaps, if she hasn't, with Chairwoman Fowler and 
others. I really do think that these young men, to be very 
blunt about this, need to see some women in leadership 
positions and need to have give and take, and need to hear----
    Secretary Roche. Right.
    Senator Clinton.--from women of stature and position, that 
times have changed, and that to be a leader today means more 
perhaps than it did in the past, in terms of sensitivity. It is 
troubling to me to think that among the many efforts that young 
men and women in the Air Force have undertaken in the last 2 
years to free women in Afghanistan and free women in Iraq, and 
then to hear about attitudes of young men at the Air Force 
Academy that are very reminiscent, frankly, of those attitudes 
that were part of the Taliban's approach, part of the reaction 
toward women going to school, being part of leadership.
    So I think that perhaps some kind of a speaker session, 
some kind of an effort to really present the cadets with 
leadership examples and to challenge them and to challenge the 
ideas that they may have either brought with them or acquired, 
would be a start to this process.
    Secretary Roche. Senator, we agree. In fact, we are 
organizing some things.
    There's a little bit of good news. About 3 weeks ago, for 
the first time in the history of the Air Force, we awarded four 
distinguished flying crosses for heroism in battle to women 
aviators. First time. Now, when they go to the Academy, no 
male--no male--can look down on them.
    Second, we began training pilots, women pilots, in 1978. 
The first class of graduates was 1980. That class and the two 
following--the 1978, 1979, 1980 classes--are just now coming up 
to general officer ranks. They're not going to be specialists. 
They're going to be honest-to-goodness pilots, navigators, et 
cetera, who will be the right role models. I think we are only 
one generation away from a commandant who's a woman, general, 
pilot, line officer, and, not long thereafter, a point we will 
have a woman superintendent.
    But there are increasing role models, and we've found that 
the Academy brings in the wrong kinds of people. In a 
management course, for instance, Senator, instead of bringing 
in successful Air Force officers who were graduates, they bring 
in successful businessmen who left after 5 years and went out 
and made a lot of money. When we found that out, we said, 
``well, that's silly. There are a whole bunch of terrific 
officers who are serving in active duty. Why don't you bring 
them in? Or bring some retired officers in, not bring 
businesspeople who left right away.'' So we are working on 
that.
    Senator Clinton. Bring some women in.
    Secretary Roche. Absolutely, ma'am.
    Chairman Warner. That's a very encouraging chapter in this 
hearing today, that testimony you've just given, and joined in 
by General Jumper, and I thank you, Senator. I find it very 
encouraging.
    I don't say what I'm about to say with any facetiousness. 
My good friend, Senator Levin, and I came here 25 years ago, 
and we have seen a change in this institution, and that change 
was, I think, very thoughtfully, carefully, and accurately put 
in that book, ``Nineams Counting, The Women of the Senate.'' 
Maybe a few copies ought to be sent to the Academy for required 
reading.
    Now we have to return to some of the hard parts about this 
case, which we still have to explore. I guess everybody draws 
on their own experience in the educational institutions, but I 
had, in my own modest career, some tough times in coming right 
out of the Navy in World War II and going to college. Then in 
law school, I got into a couple of ruts, but survived. Faculty 
members were just enormously important in not only working with 
me, but working with a whole range of students. They knew when 
a student was in need of a little help. I have some of the 
fondest memories of faculty members who worked with us and 
invited us to their homes in the evening for a little libation 
and discussion and private seminars. How is it that they were 
oblivious to this thing? Were there not a number of female 
members of the faculty to whom maybe cadets could turn to and 
say, ``Can I reach out to you, as a civilian, and share my 
thoughts?'' Can anybody address this?
    General Jumper. Sir, that's a very good question, and we 
have talked to members of the faculty as part of the people 
that we addressed. We've talked to the Air Officers Commanding, 
who are with the squadrons all day, every day. The answer is, 
no, they did not come forward with any evidence the cadets had 
come to them with any specific problem. Again, it's difficult 
to explain. In the report, I don't think that there's any 
specific reference to this. But in my personal experience, in 
my personal conversation with this cross-section, I've cut it 
many ways, Senator. I went out there, I visited with the cadets 
that were going to be the seniors and the juniors this year, 
and I challenged them on their leadership responsibilities and 
told them that unless their attitudes changed, that there would 
be no change at the Academy. I met with Air Officers 
Commanding, with the enlisted people that are also, again, with 
the cadets every single day, with members of the faculty, with 
alumni, et cetera. I can tell you, sir--and you know me, sir; 
we've known each other a long time----
    Chairman Warner. Oh, yes.
    General Jumper. If any of this had been brought to my 
attention, I would have jumped on this with both feet, just 
like the Secretary would have, I can tell you. I can't explain 
it, but it was not a thing that was so high on the screen of 
the people that I talked to about this. As a matter of fact, 
other things were brought to my attention, so there was no fear 
about talking to me.
    Chairman Warner. That leads me to another question relating 
to some personal experience. I'm often asked, ``What was your 
best job in life,'' and I have to tell you that my period in 
the Navy secretariat was just superb. I remember when the late 
John Chafee, our highly esteemed, beloved colleague, and I 
walked into the Pentagon, the Republicans had taken over, there 
were Democrats there, holdovers, and they sat down with us, and 
we spent some time with the Secretary of the Navy, who 
graciously stepped down, and the Under Secretary, and then the 
various uniformed people came up and shared. So there was a 
feeling of continuity. Now, it was a period in which the 
Vietnam War was at one of its very significant high pitches, 
and so there was a pressure on us that was quite serious. The 
country's at war today, and so I assume similar pressures are 
on. But there was a transition.
    Then, through the years that I was there, they'd all come 
back and visit with us, ``How're you doing?'' I can't 
understand how some of these uniformed or prior-service 
Secretaries didn't come in and say, ``How are you dealing with 
this problem. I tried my best,'' because let me draw your 
attention to this. It's rather interesting.
    General Ronald Fogelman, a former Air Force Chief of Staff, 
was quoted in a media story last week as saying that the 
problem of sexual assaults at the Academy was ``an issue that 
was known and being worked on at the Air Force and at the 
Academy. If we didn't take the right remedial action, that was 
our fault, but it wasn't for lack of trying or being engaged on 
the subject.''
    Somehow that filter that you feel was present during your 
administrations wasn't there. He had the facts. He worked on 
it.
    Did any of the old-timers come in, such as General Ryan? I 
just have the highest regard for him. His father was chief of 
staff of the Air Force when I was Secretary of the Navy, and 
I've known the Ryan family for years. Didn't he come in and 
chat with you a little bit?
    General Jumper. Sir, yes, sir. We talked about it. Matter 
of fact, he gave me a list of things, in my turnover with him 
that had to do with the drug problem that was emerging. It had 
to do with the academic curriculum that the boss was working 
on, with the honor code. But on that list of things was not a 
concern about sexual assault.
    Chairman Warner. All right. What about you, Secretary?
    Secretary Roche. I had a couple of months with Mike. Mike, 
in particular, wanted me to concentrate----
    Chairman Warner. This is Secretary Whit Peters?
    Secretary Roche. I'm sorry. This was General Ryan.
    Chairman Warner. Oh, Ryan.
    Secretary Roche. General Ryan.
    Chairman Warner. General Ryan. Then you might address----
    Secretary Roche. Whit Peters, to do both.
    Chairman Warner. --Secretary Whit Peters.
    Secretary Roche. General Ryan was very concerned about the 
honor system at the Academy, and one of the things he did with 
both of us, like an older brother, is say, ``Okay, here are the 
things you have to continue to do when I'm gone.''
    Whit Peters and I have become friends, and Whit and I 
speak. He had no sense of this, because he would have passed it 
on if he had had it. This is not a Republican/Democratic issue. 
Any one of us who knew this would have gone on and done 
something. Whit, in fact, had to deal with a different problem 
at the Academy having to do with an allegation of the misuse of 
funds for an elaborate kitchen in the superintendent's home.
    Chairman Warner. We remember that one well here. He was a 
good secretary.
    Secretary Roche. But this particular issue never came up, 
even though we still deal with each other.
    Chairman Warner. I certainly speak for myself, but we 
thought Whit Peters did a good job, and he was before the 
committee many times. So that filter was apparently in place 
under his administration.
    Secretary Roche. I have had lunch separately with General 
Fogelman talking about issues. He had a two-fold issue of one 
of character development at the Academy where we were not 
sending good role models, in terms of pilots and others, out 
there, because they were so needed. We've corrected that. The 
second issue he had was with the intern program in the 
Pentagon, where we were bringing young officers in, but not for 
enough time for them to really gain something. In both cases, 
General Jumper and I made the changes that Ron recommended.
    Chairman Warner. My time is up. This is the second round, 
but we're joined by our distinguished colleague, Mr. Nelson, 
for your first round.
    Senator Bill Nelson. Mr. Chairman, I'll just make a couple 
of comments and be very brief.
    Isn't it ironic, Mr. Chairman?
    Chairman Warner. Excuse me. Yes?
    Senator Bill Nelson. Isn't it ironic that we are having 
these questions of communication in the Department of Defense 
at the very time that the military has performed so splendidly, 
not only in Iraq, but in Afghanistan, before. Yet we're talking 
about matters of human communication, from one to another.
    I saw it last week in trying to get into this problem of 
the National Guard and the equitable policy of serving with 
this new policy of 12 months boots-on-the-ground after being 
mobilized. Just in trying to get information from the 
Department of the Army, with three different generals, I 
received four different answers over the course of 18 hours. So 
it's the old human difficulty of communication, and we're 
seeing testimony having to do with the same thing here.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Levin. Senator Nelson is here. He brought to our 
attention--first, an article that occurred in the St. 
Petersburg Times yesterday or the day before yesterday, about 
an allegation that the Pentagon had asked MacDill's Special 
Operations people to put into their budget $20 million padding 
so that the money could be used later by the Pentagon for some 
other purpose, to quote the St. Petersburg Times. Then this 
morning, that article appeared, or that allegation appeared, in 
The Washington Post. It is a very troubling allegation. As 
always, we're appreciative to Senator Nelson of Florida for 
being on top of so many issues. We have talked about this as he 
brought it to both our attention, I believe, Mr. Chairman. 
While he is here, perhaps we could just spend 1 minute on this, 
so that we have agreed that we would, on behalf of the 
committee--you as chairman, and I as ranking member--at the 
suggestion of Senator Nelson--raise this issue directly with 
the Pentagon and ask them to respond and to comment on this 
because it's a very serious allegation.
    Chairman Warner. First, the Senator and I talked about it. 
He is very careful to consult with both of us when he has 
issues. We think it must be brought to the attention of the 
Pentagon and give them an opportunity to respond to this very 
serious allegation.
    Senator Bill Nelson. Mr. Chairman, if this allegation were 
true, it is of the most serious consequence and breach of law, 
for we appropriate monies for specific purposes, and that money 
cannot be reprogrammed unless it has the direct authority of 
the legislative branch of government. The question is begged, 
if these allegations are true in what was requested, a $20 
million padding, which money would be siphoned off and used for 
other purposes outside of Special Operations Command, and it 
was ultimately, according to the allegations, $20 million, if 
that's correct, how widespread is this practice elsewhere in 
the Pentagon? I think this deserves attention.
    Chairman Warner. I think, for the moment, we really 
shouldn't participate in any speculation. I find the current 
leaders in the Pentagon, civilian and uniform, have a full 
plate and are struggling with major issues.
    Senator Bill Nelson. Absolutely.
    Chairman Warner. So let's just go about this as any 
responsible chair and ranking member would in response to a 
very fortunate suggestion by yourself, and let's not speculate 
for the moment.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Senator Levin. Let me also add my thanks to Senator Nelson 
for the suggestion, because it is really important that we get 
a prompt answer from the Pentagon on this allegation because of 
its seriousness.
    I want to get to this question about what rises to the top. 
Senator Collins went through a long list of items, which 
apparently were unknown to folks who were writing these 
reports. The Working Group was apparently unaware of a decade 
of--you're shaking your head. You were aware of it?
    Ms. Walker. It's all documented in the report, most of what 
she was talking about.
    Secretary Roche. But not the 1996----
    Ms. Walker. Right, not that.
    Senator Levin. But not the 1996--and that's the one I want 
to talk about, because the Fowler Panel said the following, 
that, ``In 2000, the Senate Armed Services Committee requested 
an investigation of allegations by the former Air Force surgeon 
general that sexual misconduct at the Academy in 1996 had not 
been investigated or had been covered up. The Air Force 
inspector general conducted a limited 30-day review, but did 
not investigate serious institutional problems after 1996. The 
Working Group report does not mention that 2000-to-2001 review, 
even though the Air Force IG was a member of the Working 
Group.''
    Now, is that correct?
    Ms. Walker. No. The Working Group report mentioned it--I 
believe I mentioned the page numbers that it does--at three 
different places and footnotes.
    Senator Levin. I thought that you were referring to AF-OSI 
investigation.
    Ms. Walker. The 2000 inquiry was based only on the OSI 
complaint, to my knowledge, sir. That's what it dealt with.
    Senator Levin. But the investigation of institutional 
problems in 1996 was not brought to your attention.
    Ms. Walker. Oh, no.
    Senator Levin. It was brought to your attention.
    Ms. Walker. It was not.
    Senator Levin. Okay, now, that's what I want to focus on.
    Ms. Walker. Okay.
    Senator Levin. You have the Inspector General of the Air 
Force on your Working Group. The Inspector General's office 
looked at that 1996 period, but did not bring it to the Working 
Group's attention. Is that correct? Are we together?
    Ms. Walker. That's correct.
    Senator Levin. Now, have you asked the Inspector General of 
the Air Force why did he not bring that to the Working Group's 
attention?
    Ms. Walker. I have not asked the Inspector General that. He 
only just returned, and he was out of town when this initially 
came up.
    Secretary Roche. I asked him, Senator.
    Senator Levin. What was his answer?
    Secretary Roche. He said that he was on the job for 
something like 2 weeks when he----
    Senator Levin. On which job?
    Secretary Roche. Excuse me, the job of Inspector General--2 
weeks, when he approved the answer back to the committee, 
wherein the Air Force and OSD, in 2000, the prior 
administration, viewed the letter in the most narrow of terms, 
with respect to the officer under consideration, as to whether 
there were any allegations that were substantiated on his 
behavior. But the backdrop of the entire 1996 matter was not 
looked into, and it was a shock to all of us.
    Senator Levin. The backdrop of the matter wasn't 
investigated, but the fact that there were allegations of 
sexual misconduct at the Academy in 1996, which had not been 
allegedly properly reviewed by the then--an officer then who 
was in charge, was brought to his attention.
    Secretary Roche. Yes. But it was narrowly done, that the 
allegations against this officer, whether they were 
substantiated or unsubstantiated--I have now gone back and read 
the whole----
    Senator Levin. Wasn't one of the allegations, that he took 
no action?
    Secretary Roche. Yes, sir. The IG, at the time, said that 
this allegation was unsubstantiated. But they narrowed it down 
so much----
    Senator Levin. Therefore, he knew about the allegations 
that he took no action about a sexual misconduct climate at the 
Academy.
    Secretary Roche. I don't remember if it's exactly sexual 
climate, sir. All I know is that the allegations, as stated, 
were found to be unsubstantiated, but it was such a narrow look 
at the one particular officer that what surprised me was that 
someone didn't say, ``Well, wait a minute. This is in the 
context, and then the context is the problem.'' The current 
Inspector General, who was then the Inspector General, who 
signed the memo back to you, had been on the job for 2 weeks, 
and he had no memory of this 3 years later.
    Senator Levin [presiding]. Ms. Walker, since the chairman 
is not here, let me just ask a few more questions, although my 
time is up. Did your Working Group ever discuss the history of 
Air Force leadership responses to allegations of sexual assault 
against cadets at the Air Force Academy?
    Ms. Walker. The history of their responses to the 
allegations?
    Senator Levin. Right.
    Ms. Walker. In the report, we document each leader, the 
superintendent, and the commandant's dealing with the issues of 
sexual assault during their term at the Academy, and then 
there's a follow-on section in the report that deals more 
pointedly with leadership and that issue of what leadership did 
and what they knew and dealt with at the time. So, yes, I 
believe we do in the report. But, again, we do not attempt to 
make judgments on accountability. We let the facts speak for 
themselves. But it's pretty clearly laid out there, sir, I 
believe.
    Senator Levin. In January 2003, Secretary Roche, you 
directed your General Counsel to lead this high-level Working 
Group to ``review cadet complaints and the policies, programs, 
and practices of the Academy to deter and respond to incidents 
of sexual assault.'' That's the quote from the directive. Did 
you ever direct your General Counsel to limit the Working 
Group's review so that it would not assess the leadership of 
former Air Force headquarters personnel?
    Secretary Roche. The subject of former Air Force 
headquarters personnel, I don't recall that coming up. I did 
tell them to stick to their charter as they went along, because 
the parallel path that the Air Force Inspector General's work 
that we chartered them to do, was, in fact, to take a look at 
allegations against our officers at the Academy, over time. The 
subject of headquarters only comes up very late, and then there 
is the issue of, do you try to do that now or do you go and do 
it afterwards, after you have the IG report? Mainly, Senator, 
because even now the Air Force IG is looking at cases back from 
1994, 1995, 1993, in that earlier period, and you'd like to 
have that in order to be able to ask the questions of the 
leadership at that time.
    Senator Levin. What is the answer to my question, then?
    Secretary Roche. The answer to your question is, I don't 
recall ever having a discussion about limiting the 
headquarters. I did ask her to stick to her charter.
    Senator Levin. I understand that, but you never remember a 
discussion relative to not getting into or assessing the 
leadership of former Air Force headquarters personnel.
    Secretary Roche. No, sir, although it comes up as a future 
study, and I thought that was the appropriate place for it to 
be.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner [presiding]. Secretary Roche, this is a 
hearing particularly on this issue, but, as I said, the 
committee has before it the President's nomination for you to 
become Secretary of the Army, and we are working with a number 
of people, including the White House Counsel, to sort our way 
through precedents of the respective branches of government 
pertaining to nominations. But, for the record, are you aware, 
at this time, that the Inspector General is continuing its 
investigation of the Air Force Academy problems with regard to 
the sexual assault allegations?
    Secretary Roche. Let me see if I understand you, Mr. 
Chairman.
    Chairman Warner. I just asked if you are aware that the 
Inspector General of the Department of Defense is continuing 
its investigation of the Department of the Air Force with 
regard to these problems?
    Secretary Roche. Yes, sir. We have the Air Force Inspector 
General and the DOD Inspector General doing that, to end in 
December. There is a new letter from the committee asking that 
the Inspector General look at numbers of individuals, including 
General Jumper and myself.
    Chairman Warner. Yes.
    Secretary Roche. I am aware of that.
    Chairman Warner. You are aware of that. Therefore, you 
understand the problem that's before the Senate and, indeed, 
this committee that has jurisdiction with regard to that 
nomination at this time.
    Secretary Roche. Senator, I respect this committee's 
deliberations. I think you know that this position as Secretary 
of the Army is not something I asked for, but that the 
Secretary of Defense asked me to do. My preferences were 
stated. However, at this stage in history, when someone like 
Secretary Rumsfeld needs help, my sense is I have an obligation 
to help him, and I think all of us have an obligation to do 
whatever we can to help our American Army right now.
    Chairman Warner. I respect that view. The Inspector General 
has indicated to this committee, in prior correspondence, that 
he has no information of a negative sense before him now as it 
relates to you. So we're trying to work our way through that.
    But I'd draw your attention to this release by the 
Department of the Air Force on September 23, 2003, and I just 
think I'll ask that the release be given to you so you can read 
it. It relates to what's going on in the way of investigations 
in the Pentagon now. See if it comports with your 
understanding, and maybe you can explain something that's not 
clear in this.
    [The information referred to follows:]

    This is the response to question we provided to media who asked 
yesterday (Denver Post, Rocky Mountain News, and Colorado Springs 
Gazette). We did not make a release.

          Question. What is the Air Force reaction to the Fowler 
        Commission's criticism of the General Counsel's Working Group 
        report?
          Answer. The Working Group was originally chartered by Dr. 
        Roche to evaluate ``the effectiveness and appropriateness of 
        the Academy's processes to deter or respond to sexual 
        assault.'' The group accordingly examined the policies, 
        programs, and practices at the Air Force Academy designed to 
        deter and respond to incidents of sexual assault. The Working 
        Group's charter was to focus specifically on the Academy rather 
        than study past Air Force Headquarters involvement in or 
        accountability for Academy sexual assault issues.

    The Working Group fulfilled the Secretary's charter in a 
comprehensive, transparent manner. Preliminary feedback from the team 
and their final report formed the basis of the Secretary's and Chief of 
Staff's actions in implementing the Agenda for Change, installing a new 
leadership team imbued with a new sense of purpose at the Academy, and 
ongoing efforts to bring Academy culture in line with the core values 
of the Air Force. Additionally, as the Fowler Commission Report 
highlights, the Working Group at the conclusion of their report 
recommended further studies, to include an examination of Air Force 
Headquarters oversight of the Academy and specifically its responses to 
sexual assault. The DOD Inspector General, Air Force Inspector General, 
and the recently formed Executive Steering Group are examining other 
aspects of the sexual assault situation at the Academy and related Air 
Force Headquarters oversight.

    Secretary Roche. I don't think I've seen this, sir.
    Chairman Warner. Just take your time.
    Secretary Roche. Okay.
    Chairman Warner. It's the last sentence, and I'll just read 
it for those who do not know this.
    Secretary Roche. Yes.
    Chairman Warner. ``The DOD Inspector General, the Air Force 
Inspector General, and the recently formed Executive Steering 
Committee are examining other aspects of the sexual assault 
situation at the Academy and related Air Force headquarters 
oversight.'' That Air Force headquarters would again refer to 
the entire secretariat, would that not be correct?
    Secretary Roche. Yes, sir. What this sentence is doing is 
saying that, while the Fowler Report is finished, the DOD 
Inspector General's work is not done, the Air Force Inspector 
General's work is not done. The executive steering group is----
    Chairman Warner. I don't know about that group, and that's 
the one which I would----
    Secretary Roche. The executive steering group, Mr. 
Chairman, is that mechanism we have put in place in order to 
have constant oversight of the Air Force Academy. It's the one 
that Ms. Fowler points to, commends us for doing, but then asks 
that we make it permanent and not just have it stand for a 
year.
    The remainder of the sentence having to do with related Air 
Force headquarters oversight, is the work of that executive 
steering group to ensure that there is oversight into the 
future as to what's happening at the Academy.
    Chairman Warner. But this release confirms what you've just 
likewise confirmed, with the exception of the executive 
steering group. That's a new entity, at least to this Senator.
    Secretary Roche. Yes, sir. That's mentioned in the Fowler 
Report as something they want to see permanent.
    Chairman Warner. Therefore, there are three entities in the 
executive branch--namely, the Department of the Air Force, and 
one in DOD--that are examining, quite frankly, all aspects of 
this case, including your actions and that of General Jumper.
    Secretary Roche. I think narrowly, sir, the DODIG and the 
Air Force IG have a charter in place. The executive steering 
group is looking at mechanisms, management mechanisms. They're 
not looking at particular people for responsibility. They're 
looking at management mechanisms so as to preclude information 
being available at the Academy that ought to be available to 
the Chief of Staff and the Secretary.
    Chairman Warner. I understand.
    Secretary Roche. They're not investigating anyone.
    Chairman Warner. Okay, it's mixed up in that sentence the 
way it's been drawn.
    Secretary Roche. Yes, it is.
    Chairman Warner. So there's only the two entities that are 
examining this matter in a continuing examination.
    Secretary Roche. Yes, Mr. Chairman.
    Chairman Warner. I thank you.
    This hearing has been a tough one for all of us, but I 
think it's important, the material we've covered. I think 
you've brought a good deal of clarity to some situations that 
many members of this committee, I think 23, are concerned about 
in the letter we expressed to the DODIG and others.
    I thank you very much for your public service and for 
coming and, in my judgment, trying the best you could to 
forthrightly and honestly respond to the questions of this 
committee.
    The record will remain open through close of business 
Thursday--I'm not sure when business closes Thursday night, but 
thereabouts--for purposes of submitting other questions by both 
the members in attendance and those who were not able to 
attend. We had very good attendance today, I might add, given 
the tremendous conflicting pressures on this body right now for 
many reasons.
    Secretary Roche. Mr. Chairman, if I may?
    Chairman Warner. Yes. Take your time.
    Secretary Roche. We are much appreciative of the fact that 
you, personally, a number of other members of this committee, 
have taken the time to help us through this. This is not 
something either of us prepared for in life. We recognize we 
don't start out with instantaneous great knowledge. Your staff 
directors have been very helpful to us, and you, in particular, 
have tried to guide both John and me in a couple of cases, and 
we want to tell you, we go back and we review what you told us, 
and we're doing our best to deal with this.
    We can assure you that as long as either of us are in 
positions of responsibility in the Air Force, we will continue 
to make this a major personal issue. I know that Ms. Walker has 
put in an enormous amount of time to try to provide us with a 
backdrop of information that we can use to judge commanders as 
you would have judged commanders when you were Secretary of the 
Navy.
    I'm an ex-ship captain. My partner here travels at a lot 
faster speed than I ever did, but we both know what it is a 
commander should do, and we will hold them accountable to that.
    Chairman Warner. I thank you for that, because, that Navy 
that both you and I love a great deal, if the captain's in the 
bunk getting needed rest and the ship goes aground, he accepts 
the accountability and the responsibility.
    Secretary Roche. Yes, sir.
    Chairman Warner. I think you're stepping up to that.
    Secretary Roche. We had a great fight today, my partner and 
I, as to who was the captain of this ship. I am the captain of 
the ship, and he claims he's the captain of the ship. Senator, 
we will both be willing to accept responsibilities as captain 
of this ship.
    Chairman Warner. I think that's a good note on which to 
conclude.
    Counselor, I admire you for your professionalism. We have 
some honest differences of views between members in the panel 
by the distinguished former congressperson, whom you respect 
the work that she did in that panel, and somehow we're going to 
sort through this in what's in the best interest of the Nation 
and this wonderful institution in which we all have such great 
pride, and the generations that are going through today.
    I, just today, was with a group of Senators, and we're just 
marveling at the quality of the men and women in the Armed 
Forces today and the responsibilities that they're accepting, 
and the courage and the hardships that they and their families 
are experiencing.
    So we have to do our best, in our respective positions of 
responsibility, to give them the support that they deserve.
    Secretary Roche. Mr. Chairman, you would be very pleased to 
know Ms. Fowler and a number of members of her commission 
haven't decided that the subject is over. They are open to us. 
They have offered to be able to help us, consult with us, and 
we'll take them up on that. There are a couple of members there 
that are really spectacular.
    Thank you very much.
    Chairman Warner. Thank you very much. We are adjourned.
    [Additional information submitted for the record follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain

                        KNOWLEDGE OF ALLEGATIONS

    1. Senator McCain. Secretary Roche and General Jumper, when did you 
become aware of the problems at the Air Force Academy? Be as specific 
as possible as to the date that you were made aware of incidents in any 
way related to sexual abuse and misconduct at the Academy, beginning 
chronologically from your confirmations as Secretary and Chief of 
Staff. Also include the actions taken as a result of each incident.
    Secretary Roche. Since early in my tenure as Secretary, which began 
in June 2001, I have been aware of cultural aspects of the Air Force 
Academy that have caused me concern and which I have addressed. Most 
notably, I have been concerned that the Academy appeared to be 
relatively isolated from the rest of the Air Force, and staffed by too 
many individuals who lacked currency in Air Force operational matters. 
I have addressed a series of separate issues, and with General Jumper 
have actively worked to bring the Academy back into the Air Force.
    Regarding sexual assault and gender climate issues, although my 
office would be informed of individual Air Force Office of Special 
Investigations cases by means of brief summaries, the first indication 
I had of a significant issue regarding sexual assault at the Academy 
was a copy of a letter received in the Headquarters on 3 June 2002 from 
the attorney of a family whose 13-year-old daughter was the victim of 
sodomy by a cadet and who complained that the Academy had not handled 
the case well. The General Counsel conducted a review of the matter 
and, as a result, a number of corrective measures were initiated at the 
Academy and actions taken Air Force-wide to address concerns associated 
with the case. Also, in June 2002, I learned of an Academy English 
Department dinner that had occurred in April 2002 involving a skit 
containing wholly inappropriate sexual content. I was disturbed both by 
the incident itself, and the lack of an appropriate response by the 
leadership of that Department. General Jumper and I immediately became 
involved to correct the situation. Although there were isolated 
congressional inquiries primarily related to specific cases, including 
one requesting information about sexual assault statistics, these were 
answered routinely at the staff level and did not come to my attention. 
On January 2, 2003, I received what has become known as the Renee 
Trindle email, alleging extensive sexual assault problems at the 
Academy. We were able to reach out to the author and ask that she speak 
with us. She and another former cadet did so. I directed my General 
Counsel to establish a Working Group to examine the Academy's policies, 
programs, and practices and to make recommendations to me. Throughout 
that examination, General Jumper and I received information updates, 
concluded that immediate changes were warranted, personally developed 
an Agenda for Change, and initiated that Agenda on 26 March 2003. I 
have continued my detailed personal involvement.
    General Jumper. I became Chief of Staff of the Air Force in 
September 2001. A part of my duties includes being the direct 
supervisor of the Academy Superintendent, a lieutenant general. In that 
capacity, I had many discussions with the Superintendent and 
necessarily relied upon him to keep me informed. My other sources of 
information included the Air Staff and Secretariat. I shared concern 
with the Academy's apparent isolation from the rest of the Air Force 
and joined with him in a variety of actions to address those concerns. 
My office was informed of individual cases investigated by the Air 
Force Office of Special Investigations by means of summaries. I was 
generally aware of the concerns regarding Academy handling of the case 
involving the 13-year-old who was sodomized by a cadet, and of the 
corrective actions taken.
    In June 2002, along with the Secretary, I learned of an Academy 
English Department dinner that had occurred in April 2002 involving a 
skit containing inappropriate sexual content. I shared the Secretary's 
concern about the incident and the lack of an appropriate response by 
the leadership of that Department. We immediately became involved to 
correct the situation.
    On 28 June 2002, my office received an anonymous complaint alleging 
problems at the Academy, including sexual assault. (The letter 
indicates the Senate Armed Services Committee also received a copy 
along with others.) The anonymous complaint was referred to the Air 
Force Inspector General and the IG conducted a complaint analysis that 
determined at the time that there was not sufficient information to 
initiate a full investigation. Although there were isolated 
congressional inquiries primarily related to specific cases, including 
one requesting information about sexual assault statistics, these were 
answered at the staff level and did not come to my attention.
    On January 2, 2003, the Secretary and I received what has become 
known as the Renee Trindle email, alleging extensive sexual assault 
problems at the Academy. I agreed with the Secretary's decision to 
direct the General Counsel to establish a Working Group to examine the 
Academy's policies, programs, and practices and to make 
recommendations. Throughout that examination, we received information 
updates and agreed that immediate changes were warranted. We personally 
developed our Agenda for Change and initiated that Agenda on 26 March 
2003. The Secretary and I have continued our extensive personal 
involvement.

                                 MEDIA

    2. Senator McCain. Secretary Roche, the Fowler Report comments 
that, ``As a result of the media attention generated when the current 
scandal surfaced, the Air Force moved swiftly to address the problem of 
sexual assault at the Academy.'' The report also states that, ``the 
evidence before the panel shows that the highest levels of leadership 
had information about serious problems at the Academy, yet failed to 
take effective action.'' Why did it take media attention before you 
decided to do anything about the situation at the Academy? Do you 
believe that you reacted with expediency? Please explain your answer 
clearly.
    Secretary Roche. It did not require media attention for me to 
initiate action. I have acted decisively whenever a matter appearing to 
require my action has come to my attention. With regard to sexual 
assault issues at the Academy, as soon as I discerned institutional 
problems, I took expeditious action--and well before it was a matter of 
media attention. As soon as I became aware of issues regarding the 
handling of a case of sodomy by a cadet with a 13-year-old, I directed 
an inquiry and corrective actions. When I had indications of 
inappropriate program content of a sexual nature within the English 
Department, I took action to correct the problem and to replace the 
responsible leadership. As soon as I received an email detailing 
institutional problems at the Academy, well before media interest, I 
tasked the General Counsel to lead a multi-disciplinary group to 
address the issue and make recommendations. When initial information 
from that process--a process with which I stayed in regular contact--
indicated that swift corrective action was required, General Jumper and 
I took action, and we have continued our personal involvement to this 
day.

                    CULTURE AT THE AIR FORCE ACADEMY

    3. Senator McCain. Secretary Roche and General Jumper, has the 
culture that has existed for over 10 years at the Air Force Academy 
resulting in a permissive environment and accepting of criminal sexual 
behavior ``graduated'' in to the officer corps?
    Secretary Roche. First, I must take issue with the broad 
generalization embodied in the question. It implies that the cadets of 
the last 10 years, men and women, are generally accepting of criminal 
sexual behavior. That is not the case. While we have identified 
significant concerns, all that we know indicates those concerns apply 
to a small minority of the men and women who have attended the 
Academy--and that the vast majority internalize and exemplify the core 
values and high standards of the Air Force for integrity, excellence, 
and service. As for the minority who may not have ``gotten the Air 
Force message'' at the Academy in the past, I have every reason to 
believe that it must have been brought home to them when they entered 
the Air Force at large. Our commanders simply will not tolerate less 
than equality of treatment and respect for each other. For those who 
will not conform to Air Force standards, corrective action is taken.
    General Jumper. I do not accept the implication that the cadets of 
the last 10 years, men or women, are generally accepting of criminal 
sexual behavior. I agree with that, while we have identified 
significant concerns, those concerns apply to a minority of the men and 
women who have attended the Academy--and the vast majority internalize 
and exemplify the core values of the Air Force of integrity, 
excellence, and service. To the extent there have been cadets who 
graduated without internalizing the values of the Air Force, I am 
confident they have discovered that there is no place in the Air Force 
for such attitudes. The very small minority who may not practice our 
values will continue to be weeded out.

    4. Senator McCain. Secretary Roche and General Jumper, what have 
you done to verify that it has not?
    Secretary Roche. I have discussed these issues extensively with the 
appropriate senior leadership of the Air Force, including the Assistant 
Secretary of the Air Force (Manpower and Reserve Affairs) (SAF/MR), the 
major command commanders, the Inspector General, the Judge Advocate 
General, and others. I have tasked SAF/MR to examine the Air Force 
processes relevant to sexual assault and that examination is underway. 
I have tasked the Inspector General to include sexual assault and 
harassment as a special interest item in all Inspector General 
evaluations and to report back to me.
    General Jumper. I have participated with the Secretary in the 
discussions with the senior leadership of the Air Force, and concurred 
with the taskings to SAF/MR and the Inspector General that he related 
to you in his written response. In addition, we have directed an 
examination of the oversight role of the Air Force headquarters as it 
relates to sexual assault and harassment issues throughout the Air 
Force. This falls under the guidance of the SAF/MR.

    5. Senator McCain. Secretary Roche and General Jumper, what have 
you done about cases where an alleged criminal has been commissioned? 
Please explain fully.
    Secretary Roche. I know of no specific cases in which a convicted 
criminal has been commissioned. I am aware of several cases where 
accusations have been made, and for a variety of reasons ranging from 
recantation by a witness, to acquittal, or the evidence otherwise being 
determined by the command authorities to be insufficient to prevent 
commissioning, those cadets have been subsequently commissioned. I have 
asked the Inspector General to examine each of those cases in which a 
cadet accused of sexual assault has subsequently graduated and been 
commissioned. I will consider the results of those reviews when they 
are completed. In the meantime, I believe it is appropriate to 
recognize that the protections of due process apply to members on 
active duty with the Air Force as well.
    General Jumper. I share the views of Secretary Roche and support 
his actions.

                           ``WORKING GROUPS''

    6. Senator McCain. Ms. Walker, you released in a statement after 
the Fowler Report was released that you were following orders from 
Secretary Roche when you focused the Working Group's investigation on 
procedures followed at the Academy, and not actions taken up the chain 
of command within the Air Force. Were you specifically told not to 
review actions by Secretary Roche and General Jumper, even though their 
actions or inactions clearly have a bearing on this serious matter?
    Ms. Walker. I was not told to avoid review of the actions of 
Secretary Roche and General Jumper. However, I did not have a reason to 
believe such a review was necessary. I was given a specific charter to 
examine the policies, programs, and practices of the Academy, and I was 
told not to address Academy leadership accountability issues. That was 
being addressed by other reviews that would be provided to the 
Secretary and the Chief. I was aware throughout most of the course of 
the Working Group's activities that the Air Force Inspector General was 
examining individual cases (indeed I recommended it), the Fowler 
Commission was also charged with accountability issues, and that the 
Department of Defense Inspector General was conducting oversight of the 
Air Force activities, and had itself undertaken responsibility for an 
examination of accountability issues.

    7. Senator McCain. Ms. Walker, it is further reported that 
subordinates in your Working Group included information related to the 
2000 inquiry and high-level officials' involvement only to have it 
removed by you. Why would you remove any information that is relevant 
to your investigation? Please explain fully.
    Ms. Walker. There were many drafts of the report and each was 
edited by several people, including me. I did not remove information 
from drafts of the report that I considered relevant to the Working 
Group's tasking and which was adequately substantiated. My objective, 
and the Secretary's instructions to me, was to keep to the Working 
Group's charter, avoid unsubstantiated statements or unsupported 
conclusions, and to keep the report to a reasonable length. Where the 
Working Group, the staff team, or the other editors, including me, 
suggested changes or omitted information for one or more of the reasons 
noted, and after consultation with the Secretary, we attempted to 
document areas we did not address that were deserving of additional 
study (including the Air Force Headquarters' past and future role in 
sexual assault issues). The 2000 discussions on the confidential 
reporting system were specifically described in the report.

    8. Senator McCain. Secretary Roche, why did you put limitations on 
the scope of the Working Group's review? Please explain fully.
    Secretary Roche. The Working Group was chartered to perform a 
specific function, to assist General Jumper and me in examining the 
policies, programs, and practices in effect at the Academy in the 
context of the cadet complaints and, where appropriate, to make 
recommendations for change. It was, consciously and deliberately, an 
Air Force staff function to address the present problems, not an 
accountability review. Early on in that process, I tasked the Air Force 
Inspector General, under Department of Defense Inspector General 
oversight, to examine specific allegations by victims and others, 
intending them to follow those leads wherever it took them. In 
addition, I note that by April 2003 I was aware of and welcomed the 
proposal for an independent panel to review the Air Force work and to 
address accountability issues. Further, I was in communication with the 
Department of Defense Inspector General and knew, as stated in his 2 
May 2003 memorandum, that he was undertaking an examination of 
accountability issues. I needed information and recommendations quickly 
to work the issues. I also believed it would not be appropriate for the 
Working Group to address accountability issues that would have included 
the headquarters' past involvement.

                        INFORMATION FOR VICTIMS

    9. Senator McCain. Secretary Roche, do you feel it is appropriate 
for an alleged victim of a crime to be informed of the results of 
disciplinary action taken against the accused? Explain your answer 
fully.
    Secretary Roche. I believe it is appropriate for an alleged victim 
of a crime to be informed of the result of the disciplinary action 
taken against the accused to the extent permitted by law. I directed 
the General Counsel to revise Air Force instructions to allow the 
fullest disclosure of information under current law to victims, and 
that effort is underway. In this regard, I note that the Privacy Act, 
as interpreted by the courts, significantly restricts the information 
that may be provided. I also note that in passage of the Victim and 
Witness Protection Act of 1980 and the Victims Rights and Restoration 
Act of 1990, Congress did not provide exceptions to the Privacy Act to 
ameliorate this result. I believe this issue would be worthy of 
congressional attention.

                             ACCOUNTABILITY

    10. Senator McCain. General Jumper, if there was a disciplinary or 
professional breakdown in a military organization, how far up the chain 
of command do you feel is accountable for that breakdown? Explain your 
answer fully.
    General Jumper. I believe that any determination of this nature 
must be made on a case-by-case basis. Considerations that would be 
relevant at any level of supervision include: the individual's 
involvement in the problem; the individual's awareness of the issue; 
whether the individual impeded reporting or contributed to a lack of 
awareness; and, the extent to which it was or was not reasonable for a 
superior to have relied upon a subordinate (including the relative 
seniority and experience of the subordinate).

    11. Senator McCain. Secretary Roche and General Jumper, what, if 
anything, have either of you done with respect to the decision to award 
Colonel Slavec a Meritorious Service Medal for service that appears to 
be anything but meritorious while she was assigned to the Academy? 
Please explain your answer fully.
    Secretary Roche. I have asked, through the Assistant Secretary of 
the Air Force (Manpower and Reserve Affairs), for the Air Force 
Decorations Board to review this matter and make a recommendation 
regarding it.
    General Jumper. I am aware of, and agree with, Secretary Roche's 
actions.

    12. Senator McCain. Secretary Roche and General Jumper, should 
military leaders be excused for failing to take appropriate action to 
protect the safety of their subordinates from a threatening situation 
for which the leader has responsibility? Does being busy excuse that 
leader from being held accountable?
    Secretary Roche. Such determinations must be made on a case-by-case 
basis. As a general matter, a principal responsibility of military 
leaders is the safety of their subordinates. Evaluation of an 
individual's discharge of this responsibility turns on whether the acts 
or omissions of the leader were appropriate under all of the 
circumstances (including what actions the leader did take to avoid such 
threatening situations).
    General Jumper. I agree with Secretary Roche. Such determinations 
must be made on a case-by-case basis. As a general matter, a principal 
responsibility of military leaders is the safety of their subordinates. 
Evaluation of an individual's discharge of this responsibility turns on 
whether the acts or omissions of the leader were appropriate under all 
of the circumstances.

    13. Senator McCain. Secretary Roche and General Jumper, how do your 
own actions with respect to the Academy comply with your answer to my 
last question? Please explain fully.
    Secretary Roche. I am satisfied that I have acted appropriately 
regarding these matters. Please see my responses to earlier questions. 
I serve at the pleasure of the Secretary of Defense and the President.
    General Jumper. I believe that I have acted appropriately in these 
matters. Please see my responses to earlier questions. I serve at the 
pleasure of the Secretary of the Air Force, the Secretary of Defense, 
and the President and will respect their determinations.

                        SUMMER CAMP ASSAULT CASE

    14. Senator McCain. Secretary Roche, in your statement you discuss 
the case of a 13-year-old female who was sexually victimized by a 22-
year-old cadet as though it is a success story. When questioned about 
it in the hearing, you cast the entire event in a far more negative 
light. Please review your testimony. Which is it? Please explain your 
answer fully.
    Secretary Roche. There is no success story when a child is 
tragically victimized by an adult. In terms of the Academy's response 
to the incident, there were good and regrettable elements. Of 
particular note, on the positive side, was the initiative and 
professionalism of Air Force Office of Special Investigations personnel 
who became aware of a potential crime and, despite the absence of a 
complaint, pursued the matter to conviction of the culprit. On the 
regrettable side were shortfalls in the prosecution, including 
communication and involvement with the family. I believe that when the 
concerns of the family became known at the Headquarters Air Force level 
they received careful attention, and corrective actions were 
implemented to reduce the chances of recurrence of similar problems at 
the Academy and elsewhere in the Air Force.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                   AIR FORCE RESPONSE TO ALLEGATIONS

    15. Senator Akaka. Secretary Roche, I have read the ``Report of the 
Panel to Review Sexual Misconduct Allegations at the United States Air 
Force Academy'' that was published by the independent panel chaired by 
Congresswoman Fowler and also attended the hearing held by the Senate 
Armed Services Committee on September 24, 2003 in which Congresswoman 
Fowler discussed the panel findings on the review of sexual assault 
allegations at the United States Air Force Academy. I was appalled to 
find out about the sexual assaults targeted at women at the Air Force 
Academy and to learn of the attitude, particularly by Academy officers, 
that resulted in a culture which encouraged and perpetuated such 
behavior. What steps are you taking now to ensure this type of behavior 
and institutional culture of intolerance is no longer tolerated at the 
Air Force Academy?
    Secretary Roche. We have been engaged on a concerted course to 
solve these problems, beginning with General Jumper's and my ``Agenda 
for Change'' issued on 26 March 2003. The Report of the Air Force 
Working Group made 36 recommendations for change, and identified 12 
areas for additional study. Each of these areas is receiving close 
attention. In addition, we have had the benefit of the Fowler 
Commission report, studied it carefully, and are using it to refine our 
way ahead. We replaced most of the top leadership slate of the Air 
Force Academy and have an exceptional team of officers in place leading 
the changes there. They have identified additional areas that they are 
working, and have established an Academy team to ensure that corrective 
actions are carried through to completion. We are closely monitoring 
our progress. We're totally focused on changing the adverse aspects of 
the Academy culture and building on the best of the institution. We've 
drastically changed our processes to support victims of sexual assault 
and are giving close attention to investigation of and responses to 
allegations of sexual assault. The entire Academy program is undergoing 
changes, from improvements to the living environment to enhanced 
leadership courses, with constant emphasis on respect for and loyalty 
to values. The new Superintendent has accomplished a survey of cadets 
that was coordinated with Air Force experts in these matters, and the 
results have shown us where we're making progress, and confirmed areas 
that still need work. We have had the benefit of similar assistance 
from the Department of Defense Inspector General. At the Headquarters, 
I've put the Assistant Secretary of the Air Force (Manpower and Reserve 
Affairs) in charge of an executive oversight process, to ensure ongoing 
awareness, assessment, and guidance by the Headquarters. He is 
implementing a structure to provide this oversight into the future, and 
through changes in leadership and administrations. We are working with 
the Board of Visitors to strengthen that process, and we have proposed 
legislation to assist in that regard and to improve the way we select 
academic leaders for the Academy. We are totally committed to making 
the fine institution that is the Air Force Academy a place that all 
Americans can view with unmitigated pride.

    16. Senator Akaka. Secretary Roche, do you believe the processes 
you have put in place for the Air Force Academy would be relevant to 
the other Service Academies?
    Secretary Roche. I must defer to the respective Services' 
leadership and the Department of Defense. However, we have shared our 
lessons learned with the other Services and we are all actively 
exchanging information so that we can benefit from each other's 
experiences.

                        REPRISAL AGAINST VICTIMS

    17. Senator Akaka. Secretary Roche and General Jumper, I was 
disturbed to read in the independent panel report that cadets were 
afraid to report sexual misconduct because of the fear of reprisal, 
discrimination, or harassment. The report states that the Air Force has 
taken a number of steps to address this problem. Can you outline the 
steps the Air Force took to address this problem?
    Secretary Roche. Please see my reply to question number 15. 
Particularly relevant to this aspect are the creation of the Academy 
Response Team and the institution of policies designed to provide 
cadets confidence that they will be treated fairly when they report 
sexual assault. The Academy Response Team is a multi-disciplinary group 
led by the Vice Commandant, a colonel well-trained and experienced in 
these issues. The primary focus is taking care of victims and 
encouraging reporting. Part of this is strenuous measures to ensure the 
victim's privacy, and an amnesty program designed to alleviate concern 
by victims that either they, or the cadets who are witnesses, will be 
the subjects of discipline for violations of Academy rules that are 
revealed in the course of reporting sexual assault. The leadership team 
at the Academy has also focused on a variety of measures designed to 
change an unhealthy emphasis in Academy culture on loyalty to peers, 
rather than loyalty to institutional values, an aberration that has led 
to harassment of those who report sexual assault. We are sending a 
strong message that reprisal, discrimination, and harassment have no 
place in the Academy or in the rest of the Air Force.
    General Jumper. I concur in Secretary Roche's response. The 
Secretary and I have repeatedly traveled to the Air Force Academy to 
forcefully emphasize our personal messages to the cadets that such 
conduct will not be tolerated.

    18. Senator Akaka. Secretary Roche and General Jumper, do you 
believe fear of reprisal is still a problem at the Academy?
    Secretary Roche. Leadership is making inroads but it requires 
constant vigilance. I believe that fear of reprisal has been 
significantly reduced at the Academy as a result of the corrective 
measures we have taken. However, I do not believe that it has been 
eliminated by any means. This is a process that has only begun and will 
require concerted and constant attention. We are committed to this 
course over the long term.
    General Jumper. I agree with the views expressed by Secretary 
Roche.

    [Whereupon, at 5:30 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
